                                                                                                                                                   sigar
        SIGAR
        Special Inspector General                                                                                                                                   Special Inspector General for    JULY 30




                                                                          SIGAR | Quarterly Report to the United States Congress | July 30, 2013
        for Afghanistan Reconstruction
                                                                                                                                                                    Afghanistan Reconstruction        2013
        2530 Crystal Drive
        Arlington, VA 22202

        www.sigar.mil




        FRAUD, WASTE, OR ABUSE MAY BE REPORTED TO SIGAR’S HOTLINE
                                                                                                                                                    Quarterly Report to the United States Congress
        By Phone: Afghanistan
        Cell: 0700107300
        DSN: 318-237-3912 ext. 7303
        All voicemail is in Dari, Pashto, and English.

        By Phone: United States
        Toll Free: 866-329-8893
        DSN: 312-664-0378
        All voicemail is in English and answered during business hours.

        By Fax: 703-601-4065
        By E-mail: sigar.hotline@mail.mil
        By Web Submission: www.sigar.mil/investigations/hotline/




                                                                          3


FINAL_Jul2013_Cover.indd 1                                                                                                                                                                               7/24/2013 8:39:27 AM
                             The National Defense Authorization Act for FY 2008 (P.L. 110-181)
                             established the Special Inspector General for Afghanistan
                             Reconstruction (SIGAR).
                             SIGAR’s oversight mission, as defined by the legislation, is to provide for the
                             independent and objective
                             •	 conduct and supervision of audits and investigations relating to the programs
                                and operations funded with amounts appropriated or otherwise made available
                                for the reconstruction of Afghanistan.
                             •	 leadership and coordination of, and recommendations on, policies designed
                                to promote economy, efficiency, and effectiveness in the administration of the
                                programs and operations, and to prevent and detect waste, fraud, and abuse
                                in such programs and operations.
                             •	 means of keeping the Secretary of State and the Secretary of Defense fully
                                and currently informed about problems and deficiencies relating to the
                                administration of such programs and operation and the necessity for and
                                progress on corrective action.
                             Afghanistan reconstruction includes any major contract, grant, agreement,
                             or other funding mechanism entered into by any department or agency of the
                             U.S. government that involves the use of amounts appropriated or otherwise made
                             available for the reconstruction of Afghanistan.

                             Source: P.L. 110-181, “National Defense Authorization Act for FY 2008,” 1/28/2008.


                             (For a list of the congressionally mandated contents of this report, see Section 3.)




                             Cover photo:                                                                                            Most of the fuel used in the Afghan economy, such as for this business truck in Herat, must be
                             Tilted columns and sagging reinforcing rods at the Justice Center Court House construction project in   imported because the country’s oil and natural-gas reserves have not been fully developed. See
                             Parwan Province, Afghanistan. SIGAR is launching an examination of the project. (SIGAR photo)           the economics section of this report for more information. (SIGAR photo)




FINAL_Jul2013_Cover.indd 2                                                                                                                                                                                                            7/24/2013 8:39:28 AM
SIGAR OVERSIGHT PRESENCE IN AFGHANISTAN




                               JOWZJAN                      KUNDUZ              BADAKHSHAN
                                             BALKH                    TAKHAR


                                               SAMANGAN
                   FARYAB                                     BAGHLAN
                               SAR-E PUL                          PANJSHIR
         BADGHIS                                                       NURISTAN
                                                       PARWAN   KAPISA      KUNAR
                                             BAMYAN                 LAGHMAN
                                                             KABUL
HERAT
                                                    WARDAK
                                                                      NANGARHAR
                   GHOR                                    LOGAR
                                DAYKUNDI                              PAKTIYA
                                                   GHAZNI                 KHOWST

                             URUZGAN
 FARAH
                                                            PAKTIKA
                                           ZABUL




NIMROZ                                                                                 Current SIGAR offices
         HELMAND
                          KANDAHAR                                                     Provinces where SIGAR has conducted
                                                                                       audit, inspection, and investigation work




                                       2530 CRYSTAL DRIVE ARLINGTON, VIRGINIA 22202
                           SPECIAL INSPECTOR GENERAL             FOR

                           AFGHANISTAN RECONSTRUCTION




I am pleased to submit this quarter’s report on the status of the U.S. reconstruction effort in
Afghanistan. This is my fourth quarterly report and marks the first year anniversary of my
appointment by President Obama.
   When I accepted the position as the Special Inspector General for Afghanistan
Reconstruction, I promised the White House and Congress quicker, smarter, and more
aggressive oversight of the billions of dollars provided to rebuild Afghanistan. With this
renewed dedication to the critical oversight mission in Afghanistan, SIGAR had the most
productive quarter since Congress created the agency in 2008. We issued more than
30 audits, inspections, alert letters, and other reports.
   Over the last year, SIGAR augmented its staff, and we posted more of our workforce
in Afghanistan. SIGAR maintains the largest international oversight force in Afghanistan
because there is no substitute for in-person oversight of U.S.-funded reconstruction
programs. Having skilled oversight staff on-scene will be the best way to protect the
approximately $20 billion of reconstruction funding that has yet to be disbursed.
   Thanks to SIGAR’s experienced oversight professionals, we are now viewed as the key
player in combating corruption and ferreting out contract-related criminal activity in the
reconstruction effort. SIGAR’s investigators, auditors, and inspectors continually find seri-
ous problems that threaten reconstruction goals. For example, during this quarter, SIGAR’s
audits questioned more than $2 billion in spending and costs. SIGAR investigations led to
two arrests, two indictments, two criminal informations, two court-martial convictions, and
two guilty pleas. SIGAR’s ongoing investigations of fuel thefts in Afghanistan saved taxpay-
ers approximately $800,000 during this reporting period.
   These investigations, along with SIGAR’s audits, inspections, and special projects,
highlight serious shortcomings in U.S. oversight of contracts: poor planning, delayed or
inadequate inspections, insufficient documentation, dubious decisions, and—perhaps most
troubling—a pervasive lack of accountability.
   Federal agencies have taken many of SIGAR’s concerns and recommendations to heart
and are trying to protect the taxpayer, but more can be done to make contract oversight a
priority. In particular, SIGAR has a growing concern about the possible disconnect between
overall U.S. policy and its field implementation. There appears to be a growing gap between
the policy objectives of Washington and the reality of achieving them in Afghanistan, espe-
cially when the government must hire and oversee contractors to perform its mission.
   I believe the United States cannot achieve its objectives unless the execution of its poli-
cies receives at least as much attention as the intent behind them. For example, the policy
objective of creating a robust Afghan army that will provide national security in lieu of
Coalition forces, while admirable, will remain hollow unless Washington pays equal atten-
tion to proper contracting and procurement activities to sustain those forces. SIGAR is well
aware of the wartime environment in which contractors are operating in Afghanistan, but
this can neither explain the disconnect nor excuse the failure.




                          2530 CRYSTAL DRIVE ARLINGTON, VIRGINIA 22202
    During my quarterly trips to Afghanistan, I have seen this disconnect first hand. These
trips provide a ground-level view of reconstruction efforts outside the U.S. Embassy and
military compounds in Kabul, which can at times also be isolated from activities and
problems in the rest of the country. On my last trip, my staff and I attended more than
50 meetings and traveled to Bagram, Herat, Mazar-e-Sharif, Hairatan, Camp Leatherneck,
and Kajaki Dam, in addition to numerous events in and around Kabul. In particular, my vis-
its to the Kajaki Dam and Hairatan provided further evidence that contract oversight must
become a top priority to policy planners or else we will repeat the mistakes of the past and
waste taxpayer money.
    The hydroelectric power plant at Kajaki is emblematic of the U.S.-Afghan relation-
ship and the historical commitment our country has made to the people of Afghanistan.
Unfortunately, it is also proof of the serious problems we have encountered in reconstruc-
tion. Built by American engineers in the 1950s, the dam finally had two turbines installed in
the mid-1970s to provide electricity to southern Afghanistan. The project, which included
a planned third turbine and improved irrigation capabilities, was abandoned after the
Soviet invasion in 1979; however, U.S. engineers restarted the effort after the United States
returned to Afghanistan in 2001. Unfortunately, after using multiple contractors and sub-
contractors, spending tens of millions of dollars, and losing scores of U.S. and Coalition
lives, the work is still not complete. As some wryly note, the ancient Egyptians took less
time—about 20–25 years—to complete the Great Pyramid at Giza.
    This year, the United States unexpectedly dropped a plan to have a U.S. Agency for
International Development (USAID) contractor install a third turbine and bring electric-
ity to the city of Kandahar. Instead, it has agreed to pay the Afghan state-run electric utility,
Da Afghanistan Breshna Sherkat (DABS), $75 million to finally accomplish what the
United States, its Coalition partners, and experienced U.S. and international contractors
failed to do.
    The United States will fund DABS’s work using direct assistance, which is govern-
ment-to-government assistance provided through multilateral trust funds and bilateral
agreements. These funds can be used for a wide variety of purposes, from paying Afghan
government employee salaries to hiring development contractors. The U.S. government is
committed to providing billions of dollars of aid using direct assistance. SIGAR’s prior work
has raised concerns about the readiness of the Afghan government to handle direct assis-
tance, which is why we remain concerned about the prospects of success at Kajaki.
    To ensure that U.S. taxpayers dollars are not wasted, this quarter SIGAR launched a
special project to examine how USAID will handle the direct assistance provided to DABS.
SIGAR intends to keep you fully informed about every aspect of the new plan to convey to
Afghanistan millions of U.S. taxpayer dollars to complete the Kajaki Dam project.
    We uncovered another serious contracting issue during our visit to Hairatan, on the
border with Uzbekistan. Hairatan is a major border crossing with a rail link. There we
observed numerous rail tank cars crowding the local siding and were told by U.S. officials
and contractors that fuel to the U.S. military was being held illegally at the border because
of a tax dispute with the Afghan Ministry of Finance. This is just one example of a larger
issue dealing with taxes and duties on reconstruction and military assistance that needs to
be addressed in the Bilateral Security Agreement currently being negotiated between the
Afghan and U.S. governments.
    SIGAR published an audit this quarter documenting nearly $1 billion in business taxes
and penalties the Afghan government has charged contractors supporting U.S. operations
in Afghanistan, despite formal agreements designed to help prevent the taxation of U.S.-
funded contractors. In this case, the U.S. government seemed unable to provide a definitive



                           2530 CRYSTAL DRIVE ARLINGTON, VIRGINIA 22202
and unified response to the contractors who had turned to it for help. The lack of clarity on
these tax issues resulted in arrests of some personnel working on U.S. contracts, increased
costs to U.S. government contracts, and may have interrupted contractor support to U.S.
military operations and U.S. reconstruction efforts.
   Other SIGAR audits issued this quarter raised additional concerns about contracting and
procurement in Afghanistan:
•	 The Defense Department is moving forward with a $771.8 million purchase of aircraft
   the Afghan National Army cannot operate or maintain.
•	 USAID’s main stabilization program has suffered from repeated delays and is failing to
   meet critical contract objectives.
•	 The State Department and USAID need stronger authority to terminate contracts when
   enemy affiliations are identified.
•	 Because the Afghan Public Protection Force (APPF) has a monopoly on providing
   security service, USAID implementing partners that require armed security have
   no choice but to pay the APPF’s often inconsistent and inappropriate fees, and we
   determined that USAID has trouble reviewing these fees to ensure that the APPF only
   charges for the services it provides.

   During this reporting period, SIGAR also completed 11 financial audits of U.S.-funded
reconstruction contracts and found more than $49 million in questioned costs that U.S.
government contracting officers must review to ensure the amounts billed by various con-
tractors are justified. SIGAR launched its financial audit program in 2012 after Congress
and the oversight community expressed concern about the growing backlog and oversight
gaps of incurred cost audits for contracts and grants awarded in support of overseas con-
tingency operations
   As part of our effort to help U.S. agencies and their contracting staff become more effec-
tive in protecting the taxpayer and learn from the issues raised in this quarterly report,
SIGAR plans to launch a new initiative, the “SIGAR High-Risk List.” It will call attention to
programs, projects, and practices in Afghanistan that SIGAR finds especially vulnerable to
waste, fraud, and abuse, or which may be otherwise seriously detrimental to the U.S. gov-
ernment’s reconstruction objectives.
   Despite the pending U.S. troop drawdown and Afghanistan’s political and security transi-
tions being less than a year away, the reconstruction continues and billions remain at risk
due to contracting and procurement challenges. Federal agencies have requested more
than $10.7 billion for Afghanistan reconstruction programs in the Fiscal Year 2014 budget,
and the United States has pledged to provide many billions more for years to come. Much
of these funds will be awarded to contractors, and unless the U.S. government improves its
contract-oversight policies and practices, far too much will be wasted. As SIGAR proceeds
with its audits, inspections, investigations, and special projects in Afghanistan, we will be
vigilant in calling out poor management and inadequate contract oversight, and in suggest-
ing ways that accountability might be improved.
   In conclusion, I would also like to reiterate the concerns I raised in our last report
about the Army’s refusal to act on SIGAR’s recommendations to prevent supporters of the
insurgency, including supporters of the Taliban, the Haqqani network, and al-Qaeda, from
receiving government contracts. SIGAR referred 43 such cases to the Army recommend-
ing suspension and debarment, based on detailed supporting information demonstrating
that these individuals and companies are providing material support to the insurgency in
Afghanistan. But the Army rejected all 43 cases. The Army Suspension and Debarment
Office appears to believe that suspension or debarment of these individuals and companies



                          2530 CRYSTAL DRIVE ARLINGTON, VIRGINIA 22202
would be a violation of their due process rights if based on classified information or if
based on findings by the Department of Commerce.
   I am deeply troubled that the U.S. military can pursue, attack, and even kill terrorists
and their supporters, but that some in the U.S. government believe we cannot prevent these
same people from receiving a government contract. I feel such a position is not only legally
wrong, it is contrary to good public policy and contrary to our national security goals in
Afghanistan. I continue to urge you to change this faulty policy and enforce the rule of com-
mon sense in the Army’s suspension and debarment program.
   My staff and I look forward to working with Congress and the Administration to improve
the reconstruction mission in Afghanistan and protect the interests of U.S. taxpayers. Now,
more than ever, as we approach the new elections in Afghanistan and complete the transfer
of day-to-day security responsibilities to the Afghan government, we need to ensure robust
and independent oversight of our more than 10-year reconstruction effort.

Respectfully,




John F. Sopko
Special Inspector General for Afghanistan Reconstruction




                          2530 CRYSTAL DRIVE ARLINGTON, VIRGINIA 22202
TABLE OF CONTENTS




     SECTION 1
     	 1	 CONTRACT OVERSIGHT
     	   4	Contractors and Liability, Both Gone
     	   5	At Bathkhak, A Roof That Could Kill
     	   6	Oversight Problems: Widespread and Troubling
     	   8	Other Agencies Have Documented
           Oversight Deficiencies
     	 11	 Compounding The Challenge
     	 12	 What To Do?




     SECTION 2
     	 17	 SIGAR OVERSIGHT ACTIVITIES
     	 20	 Proposed Legislation Incorporates
           SIGAR Recommendations
     	 21	 Senators Urge DOD to Implement
           SIGAR Recommendations
     	 21	 SIGAR Conducts Peer Review
     	 22	Audits
     	 49	Inspections
     	 53	 Special Projects
     	 58	Investigations
     	 68	 SIGAR Budget
     	 68	 SIGAR Staff




     SECTION 3
     	 71	 RECONSTRUCTION UPDATE
     	 73	Overview
     	 77	 Status of Funds
     	 91	Security
     	119	Governance
     	143	 Economic and Social Development
TABLE OF CONTENTS




      SECTION 4
      	177	OTHER AGENCY OVERSIGHT
      	 180	 Completed Oversight Activities
      	 184	 Ongoing Oversight Activities




      APPENDICES & ENDNOTES
      	 198	 Appendix A:	 Cross-Reference of Report
             		 to Statutory Requirements
      	202	 Appendix B:	 U.S. Funds for Afghanistan
             		Reconstruction
      	 204	 Appendix C:	 SIGAR Written Products
      	208	 Appendix D:	 SIGAR Investigations and Hotline
      	212	 Appendix E:	 Abbreviations and Acronyms
      	 216	Endnotes
 “Our Inspectors General are the eyes
   and ears of taxpayers within each
    federal agency—they’re the ones
protecting our tax dollars from waste,
and they’re the ones to call out federal
officials for abuse of power. Their work
 is what can give the American people
  confidence that their government is
     functioning the way it should.”
                                  —Senator Claire McCaskill




          Source: Office of Senator Claire McCaskill, news release, May 10, 2013.
1   CONTRACT
    OVERSIGHT




        1
                                               CONTENTS OVERSIGHT CONTENTS
                                               CONTRACT

                                               Contractors and Liability, Both Gone	   4
                                               At Bathkhak, A Roof That Could Kill	    5
                                               Oversight Problems:
                                               Widespread and Troubling	               6
                                               Other Agencies Have Documented
                                               Oversight Deficiencies	                 8
                                               Compounding The Challenge	              11
                                               What To Do?	                            12




Photo on previous page
SIGAR team boards a helicopter for a series of reconstruction
site visits in Afghanistan, May 2013. (SIGAR photo)




                                                   2
                           CONTRACT OVERSIGHT




CONTRACT OVERSIGHT:
A LONG-STANDING CHALLENGE
COMPOUNDED BY TRANSITION
A U.S.-funded school in Sheberghan, Afghanistan, trains aspiring Afghan
teachers—and provides lessons to Americans on the need for effective con-
tract oversight.
   SIGAR inspectors found staff and students busy at their work, but in a
setting of wasted money, lost time, dysfunctional oversight, weak account-
ability, and potential threats to their health and safety.
   The Sheberghan school was built under a multi-million dollar contract, a
small part of the massive effort by the United States and other international
donors to reconstruct and develop a poor, largely illiterate, isolated, and
war-ravaged country.
   A large part of the U.S. reconstruction campaign launched in 2002 takes
the form of written agreements. These commitments range from major pro-
grams to equip and train Afghan security forces, to small-scale endeavors
to build schools and clinics or train court staff. Whether administered as
contracts, grants, or cooperative agreements (this discussion will use “con-
tracts” as a generic term for all three) the undertakings constitute a huge
effort. Total contract obligations run into tens of billions of dollars. Because
no U.S. agency has yet compiled a definitive number, SIGAR is working to
clarify the data.1
   Effective oversight of reconstruction contracts in Afghanistan is a criti-
cal issue to support U.S. political, security, humanitarian, and development
goals for that country. The drawdown of U.S. military and civilian personnel
already under way can only make contract work more difficult to manage
and oversee. SIGAR is therefore devoting increasing attention to contract
issues through performance and financial audits, inspections, and special
projects. The aim is to provide actionable information to Congress on over-
sight challenges while there is still time to make a difference, and before
taking corrective measures in the field gets even more complicated.
   Sheberghan, a northern city of about 150,000 people, sits beside the Safid
River in Jowzjan Province, bordering Turkmenistan, and is the provincial




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2013                   3
                                             CONTRACT OVERSIGHT




                                             capital. The city is about two hours’ drive west of Mazar-e-Sharif and 10
                                             hours from Kabul.2 The province was active in the ancient Silk Road trade,
                                             is now connected to the modern Ring Road, and is proposed for railroad
                                             and natural-gas development.3 But, as in the rest of Afghanistan, about
                                             two-thirds of the province’s people are illiterate.4 So teacher training is an
                                             important aspect of the country’s reconstruction and future development
                                                In May 2008, the U.S. Agency for International Development (USAID)
                                             and the U.S. Army Corps of Engineers (USACE) agreed that USACE would
                                             provide contract administration, construction management, and related
                                             services to design and build three education facilities at institutes of higher
                                             learning in Afghanistan, including teacher-training schools in Sheberghan
                                             and two other cities. In February 2009, USACE awarded the Iraqi firm
                                             Mercury Development a $2.9 million contract to build a two-story, 10-class-
                                             room building, with library and administration office, in each location by
                                             January 12, 2010. After nine modifications, the contract value had risen to
                                             $3.4 million and the completion date had crept out to June 2011.5
                                                Unlike some facilities the United States has built in Afghanistan, the
Students studying in an unlit classroom      Sheberghan teachers school is actually in use for its intended purpose. But
in the Sheberghan teacher-training school.   more than four years from the start of construction, it is still not finished or
(SIGAR photo)
                                             fully functional.
                                                Visiting the school during a cold spell, SIGAR inspectors found students
                                             attending class in their coats because there was no heat, relying on light
                                             from the windows because there was no electricity, and unable to use the
                                             school’s bathrooms because there was no running water.
                                                An electrical generator was on site, but it was not running. That was just
                                             as well. The SIGAR inspectors determined that the school’s electrical wiring
                                             was not up to contractually specified code requirements, and that someone
                                             had made potentially dangerous taps into electrical junction boxes, creat-
                                             ing fire and electrocution hazards. USACE had also recognized the problem
                                             and disconnected the generator so it could not feed current into the sub-
                                             standard electrical circuits. Meanwhile, school staff said the generator’s
                                             batteries and control panel had been stolen. If the generator were running,
                                             the school’s tenants would like the United States to pay the estimated
                                             monthly fuel cost of $50,000 because the Afghan government is not obliged
                                             to pay operating costs until the school is transferred.
                                                The SIGAR inspectors also learned that no resolution had been achieved
                                             for USACE’s concern that sewer lines might be built too close to the
                                             school’s well for drinking water.6


                                             CONTRACTORS AND LIABILITY, BOTH GONE
                                             To its credit, USACE had sent 62 letters to Mercury Development, start-
                                             ing in June 2009, voicing concerns with the contractor’s performance, as
                                             well as noting safety violations, non-payment to subcontractors, use of




                                                4                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                             CONTRACT OVERSIGHT




window glass from Iran, inflated worker counts, and other issues. Mercury
abandoned work on the school projects in September 2011 after collecting
$3.1 million of payments courtesy of U.S. taxpayers.
   Not at all to its credit, USACE closed out the contract as complete
on November 19, 2011, and released Mercury from any further liability.
Although the school remains unfinished to this day, the close-out documents
said all issues had been resolved. USACE officials told SIGAR investigators
they had no explanation for the close-out decision and the liability release.7
   Following Mercury’s departure, USACE contracted with the Afghan
company Zafarkhaliq Construction to finish the work at Sheberghan, award-
ing it a $153,000 contract in January 2012 to correct electrical faults and
complete the facility within 30 days. But eight months later, Zafarkhaliq had
completed less than two-thirds of its work without correcting the code vio-
lations in the school’s electrical system.
   USACE terminated that contract in December 2012 after paying the new
contractor over $130,000 and releasing it—as Mercury had been released—
from further contractual liability. A third contract arrangement is in
prospect. USACE, however, is no longer managing the project; that respon-
sibility has reverted to USAID.
   Meanwhile, the U.S. government remains responsible for the Sheberghan
school’s operation and maintenance costs because the lack of completion
prevents USAID from transferring it to the Afghan government.8


AT BATHKHAK, A ROOF THAT COULD KILL
The Sheberghan story is striking, but not unique. U.S. Forces-Afghanistan
(USFOR-A) awarded the Emaar Emarat Construction Company a contract
for nearly $263,000 in August 2012 to build a 10-classroom addition to a
school in Bathkhak in Kabul Province. SIGAR inspectors found that the




A school in Bathkhak province, built with wood windows and brick walls instead of the
more durable vinyl and stronger cinderblock required by contract. (SIGAR photo)




REPORT TO THE UNITED STATES CONGRESS      I   JULY 30, 2013                      5
CONTRACT OVERSIGHT




contractor had built two smaller buildings rather than the one required,
had used brick rather than the specified concrete blocks for the walls, and
wood- rather than vinyl-framed windows. They also noted that the project
was behind schedule, had its first site visit six months into the construction
process, and was incompletely documented.
   More troubling, given the school’s location in an earthquake zone, the
contractor had installed a concrete-slab roof instead of the required wood-
truss roof. Citing that unauthorized change and problems like exposed
reinforcing rods, poorly mixed and crumbling concrete, and wooden form
boards left to rot in the concrete and create weak spots, the inspectors con-
cluded that “The new Bathkhak school has serious design and construction
flaws and could be a disaster waiting to happen.”9
   Both Bathkhak and Sheberghan reveal shortcomings in U.S. oversight of
contract performance, including delayed or inadequate inspections, poor
documentation, dubious decisions, and lack of accountability. These are not
isolated instances. The Government Accountability Office (GAO), for exam-
ple, “has found systemic weaknesses in USAID’s oversight and monitoring
of project and program performance in Afghanistan.”10
   The USAID examples are instructive, but the bulk of contracting activity
in Afghanistan has been under the aegis of DOD—which also acknowledges
problems. In April 2013, DOD released an action plan for operational con-
tract support that listed among 10 “critical capability gaps” this one:

        The joint force lacks sufficient capacity to effectively admin-
        ister, oversee, and close contracts to ensure contractor
        performance is properly tracked and accessible and desired
        outcomes are achieved.11

   That is a troubling admission for at least two reasons. First, reflecting the
massive scope of the contracting effort, DOD contractors outnumber troops
in Afghanistan by nearly two to one. U.S. Central Command data for March
2013 showed 107,796 contractors and 65,700 U.S. troops.12 Second, despite a
number of widely reported improvements, DOD contract management has
been on the GAO’s list of “high-risk” programs since 1992.13


OVERSIGHT PROBLEMS: WIDESPREAD AND TROUBLING
Recent work by SIGAR offers many other examples of deficient oversight.
   For example, SIGAR has found it impossible to confirm the number of
contracts issued for culvert-denial bars or gratings in Afghanistan, and have
concluded that for about 2,500 locations, documentation does not reveal
whether the devices were actually and properly installed. That is trou-
bling, because the $32 million committed to road work since 2009 includes
culvert-denial requirements to block an easy way for Afghan insurgents to
plant explosive charges under roads.14




   6                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                           CONTRACT OVERSIGHT




Mi-17 undergoing maintenance at a SMW hanger in Kabul. (SIGAR photo)            Destroyed Afghan National Police vehicles
                                                                                in the Gardez regional maintenance center.
                                                                                (SIGAR photo)
   A recent SIGAR audit of a $772 million project to provide new aircraft for
the Afghan Special Forces’ Special Mission Wing (SMW) to help with coun-
ternarcotics and counterterrorism operations concluded that “The Afghans
lack the capacity—in both personnel numbers and expertise—to operate
and maintain the existing and planned SMW fleets.” The audit also noted
that key task orders lacked performance metrics, that contractors failed to
account properly for maintenance hours and misrepresented readiness, and
that DOD personnel in Kabul lacked the authority and experience to pro-
vide effective oversight of contractor performance.15
   Oversight issues also surfaced in SIGAR’s audit of the Combined Security
Transition Command-Afghanistan’s (CSTC-A) contract with Automotive
Management Services FZE to maintain U.S.-purchased vehicles for the
Afghan National Police. CSTC-A had unnecessarily paid out more than
$6 million in 2011–2012 because no one had purged vehicle lists of 7,324
vehicles that had been destroyed or out of service for more than a year. The
auditors also found that 121 of 453 required contracting officer representa-
tive reports were missing from files, and that another 121 were based on
phone calls or emails rather than site visits. Some of the remote-oversight
activity reflected logistical and security constraints, but “many reports
lacked support for why an audit [by CTSTC-A personnel] could not be per-
formed.” CSTC-A concurred with SIGAR’s various recommendations.16
   Financial audits by SIGAR staff have found other problems in
Afghanistan contracts, including poor record keeping and retention, failure
to observe procedures, misstated or unreasonable costs, and lack of track-
ing systems for equipment and spare parts.




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2013                7
CONTRACT OVERSIGHT




    For example, a SIGAR financial audit of a $17.2 million portion of spend-
ing under the U.S. Department of Agriculture’s contract with Volunteers
for Economic Growth Alliance found $720,501 in unsupported costs—not
necessarily illegitimate, but not properly documented.17 Another contrac-
tor, Afghan Integrated Support Services (AISS), holds a DOD contract to
provide vehicle maintenance, training, and capacity building for the Afghan
army. SIGAR engaged an auditing firm to examine nearly $32 million of
AISS expenditures. The auditors found four internal-control deficiencies,
five cases of non-compliance, and more than $2.8 million in questioned
costs, including $217,643 in costs that were ineligible under the contract.18
Other financial audits show similar results.
    A SIGAR Alert in June 2013 advised Ambassador James B. Cunningham
and senior USAID officials of its observations from examining a nearly
$70 million USAID cooperative agreement with International Relief and
Development Inc. (IRD) for projects to promote agriculture, reduce instabil-
ity, and “improve the confidence of Afghans in their government.” The alert
letter noted that USAID did not review and approve IRD’s work plan until
four months into its execution, when about $44 million had already been
obligated. The alert letter summarized the issue:

        Robust oversight by funding agencies—in this case USAID—
        is the first line of defense when U.S. government dollars are
        on the line. In environments such as Afghanistan, strong
        oversight is especially important. However, in the case of
        the [IRD-run] program, USAID did not exercise oversight as
        effectively as it could and should have. As a result, equip-
        ment was purchased that may be left unused or stolen;
        inflated prices for agricultural products were potentially
        paid; and unnecessary costs for storing, disassembling, and
        distributing unneeded [water] pumps were incurred.19



OTHER AGENCIES HAVE DOCUMENTED
OVERSIGHT DEFICIENCIES
SIGAR is not alone in finding deficiencies in contract oversight, or in
the related oversight grants and cooperative agreements that USAID
typically employs.
   A sampling of recent work by the inspector general of the U.S.
Department of Defense, for example, includes findings such as these:
•	 USACE accepted a contractor-built detention facility in Parwan,
   Afghanistan, “although major deficiencies existed.” USACE officials
   “did not provide adequate oversight … and did not comply with their
   internal policies regarding oversight of the contractor’s warranty.”20
•	 The Air Force Center for Engineering and the Environment (AFCEE) “did
   not provide effective oversight of [four] military construction projects
   in Afghanistan” valued at $36.9 million. “AFCEE officials stated that this




   8                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                             CONTRACT OVERSIGHT




   occurred because they relied completely on the technical expertise of their
   contractor personnel.” [Emphasis added.] The DOD IG found “conflicting
   electrical standards” in one contract and “incorrect fire protection
   standards” in two contracts, failure to identify “significant deficient work,”
   and creation of “serious increased hazards to the life and safety of coalition
   forces who occupy two of the four facilities reviewed.”21
•	 The U.S. Army, NATO, CSTC-A, and the Defense Contract Management
   Agency “did not implement adequate oversight” of a $1.2 billion
   contract for training the Afghan National Police. Oversight procedures
   were not coordinated, quality-assurance (QA) requirements were not
   implemented, and contracting officer representatives (CORs) were not
   adequately trained or their work reviewed.22
•	 In overseeing four military construction projects valued at nearly
   $50 million at Bagram Airfield, USACE QA personnel “did not properly
   monitor contractor performance.” Among the failings: the USACE
   personnel did not approve contractor QA plans before work started,
   did not maintain documentation of QA activities, and did not request
   technical specialists to perform technical inspections. Personnel told
   the DOD IG they had not been given adequate training and guidance.23

   USAID’s Office of Inspector General and the Department of State’s IG
have likewise recorded deficiencies in oversight of contracts, grants, or
cooperative agreements. For example:
•	 A 2012 sampling review of USAID/Afghanistan’s monitoring and
   evaluation system—used to track 95 active projects valued at
   $4.5 billion—found that the USAID Mission had issued no guidance
   orders on monitoring projects or on-budget assistance to the Afghan




ANP cadets receive instructions before departing for advanced training courses.
(U.S. Air Force photo)




REPORT TO THE UNITED STATES CONGRESS      I   JULY 30, 2013                       9
CONTRACT OVERSIGHT




   government, had not issued approvals for all projects as required, had not
   provided refresher training for technical officers, had not ensured that
   implementing partners were recording performance in the Afghan Info
   database, and had not consistently validated data reported to them.24
•	 An audit of USAID’s five-year, $150 million Incentives Driving Economic
   Alternatives for the North, East, and West found no documentary
   evidence that USAID Mission staff had visited work sites supporting the
   effort to give Afghan farmers legal and viable alternatives to growing
   opium poppy. Auditors also found that because the agreement officer’s
   representative (the equivalent of a COR) was neither analyzing nor
   confirming the accuracy of progress reports, errors and inconsistencies
   were going undetected.25

   GAO has taken note of various agency steps to improve contract over-
sight with revised policies, more and better trained acquisition personnel,
and more effective data systems. Nonetheless, in February 2013, GAO
reported to Congress that, among other things:
•	 “DOD, State, and USAID face contract management and oversight
   challenges in Afghanistan, and their oversight of U.S. contracts requires
   additional improvement.”
•	 “The three agencies continue to experience difficulty in reporting
   reliable information on their contracts and contractor personnel in
   Afghanistan.”
•	 “DOD oversight personnel in Afghanistan did not always receive
   adequate training and … DOD continued to lack a sufficient number of
   oversight personnel.”
•	 “Individual offices within State and USAID often made case-by-
   case decisions on using contractors to support grant or contract
   administration, and risks, such as possible conflicts of interest or
   insufficient oversight, were not always addressed.26

    Recently, the Special Inspector General for Iraq Reconstruction pub-
lished “Seven Final Lessons from Iraq” after 220 audits and 170 inspections
over nine years’ work. Two lessons on stability and reconstruction opera-
tions (SRO) are pertinent here:
 •	 Establish uniform contracting, personnel, and information management
    systems that all SRO participants use.
 •	 Require robust oversight of SRO activities from the operation’s inception.27

   Incomplete and incompatible data systems, shortages of acquisition
personnel, insufficient training, delayed selection and overloading of con-
tracting officer representatives, short tours of duty that impede gaining and
transmitting local knowledge, tardiness in launching oversight activities,
scarcity of technical experts, inattention to regulations and policy, and




  10                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                           CONTRACT OVERSIGHT




reluctance to use enforcement tools like suspension and debarment have all
drawn official attention in reviews of contracting in Iraq and Afghanistan.
Floating above all these shortcomings is the meta-concern of institutional
culture. As the federal Commission on Wartime Contracting in Iraq and
Afghanistan said in its 2011 final report to Congress:

        Cultural change affecting acquisition is needed at the strategic
        and operational levels of Defense, State, and USAID. … The
        past decade has demonstrated that failure to recognize the
        importance of acquisition and failure to elevate it within each
        agency perpetuates poor planning, aggravates the shortage of
        trained professionals, and contributes to runaway costs through
        inattention and poor and inconsistent decision making.28

   Almost two years since that commission report and more than 11 years
since the start of U.S. military operations in Afghanistan, it seems clear that
federal institutional culture still fails to plan and execute contracting with
the seriousness that its mission criticality and cost deserve, and fails to con-
nect departmental policy and rules effectively with the day-to-day details of
oversight in the field.


COMPOUNDING THE CHALLENGE
Contractors—and repeated demonstrations of the need to oversee them
effectively—have been important features of every American war since the
Revolution, and of many joint operations such as the recent years’ relief
operations for the Haiti earthquake, the Southeast Asia tsunami, and the
Japanese earthquake/tsunami.29
    Contractors can offer specialized expertise, meet temporary demands
that exceed the capacity of the federal workforce, provide managers with
staffing flexibility, and otherwise add value to government operations. But
as experience has shown, contracting can introduce its own problems.
Effective oversight is imperative not only to avoid wasting taxpayers’
money, but to ensure that troops and federal civilian missions are getting
the goods and services they need, that operational goals are being sup-
ported, and that U.S. image and credibility are not undermined.30
    The dangers, hardships, and everyday difficulties of operating in places
like Afghanistan or Iraq must not be minimized. Both U.S. military and civil-
ian employees, and their contract support and implementing partners, take
on considerable burdens beyond normal job descriptions in such places.
Several features of the U.S. involvement in Afghanistan and of domestic poli-
tics appear likely to magnify the existing difficulties of contract oversight:
 •	 U.S. military forces are being steadily withdrawn from the country
    and their bases closed, both of which constrict the “security bubble”
    for relatively safe travel within range of quick-response forces and
    helicopter medevac missions.




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2013                   11
CONTRACT OVERSIGHT




•	 The “Afghan First” policy of steering more acquisition dollars to Afghan
   vendors for purchases and contracts—40,314 or 37% of DOD contract
   personnel in Afghanistan as of March 2013 were local nationals31—piles
   new issues of visibility, vetting, verification, and accountability onto the
   traditional barriers to good oversight.
•	 The policy commitment to providing more funds as direct assistance
   to Afghan ministries presents new challenges to U.S. oversight.
   As the State Department’s deputy IG recently told Congress,
   “Corruption and complexity are fundamental challenges to any
   international assistance program, specifically those operations based
   on government-to-government transfers of funds to countries with
   unstable political climates.”32
•	 Budget cuts or sequestration impacts like furloughs could impair the
   ability of federal acquisition personnel to provide timely and effective
   contract oversight, even if their numbers are not reduced, as has often
   happened in post-conflict and budget-constrained settings.

   Yet the specific challenges of overseas contingency operations must not
be seen as a free pass for agencies to tolerate lax oversight of contracts.
And contract-oversight difficulties in Afghanistan must not be seen as a
unique case or a limited problem. Contract oversight is a long-standing and
widespread problem for the U.S. government, whether the setting is peace-
able or hostile, overseas or domestic, military or civilian.
   As previously noted, GAO has listed DOD contract management on its
“high-risk list” since 1992. But that list also includes the U.S. Department
of Energy (DOE) contract management by its National Nuclear Security
Administration and its Office of Environmental Management. GAO reports
significant improvements, but has kept DOE contract management on the
high-risk list since 1990. GAO notes that most of DOE’s budget is spent on
contracts and large capital-asset projects, so “DOE’s record of inadequate
management and oversight of contractors has left the department vulner-
able to fraud, waste, abuse and mismanagement.”33


WHAT TO DO?
Federal commissions, non-governmental bodies, and oversight agencies like
SIGAR have made literally hundreds of recommendations over the years to
improve contract oversight. They include improving data systems and compat-
ibility standards, augmenting personnel numbers and training, strengthening
policies and practices, creating better metrics and assessing them more
carefully, and establishing dedicated cadres of management and oversight pro-
fessionals that could be deployed at the outset of a contingency operation.34
    To their credit, federal agencies have taken many of these concerns and
recommendations to heart and are adapting to the exigencies of the Afghan




  12                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                           CONTRACT OVERSIGHT




theater. DOD, for example, says that when lack of armed escort repeatedly
prevents CORs from visiting points of execution of contracts, “The program
manager and the [Regional Support Command] look to move the COR,
descope that portion of a contract, or assume the performance risk of not
directly providing oversight on the contract.”35
    USAID, while noting that “Afghanistan is unique amongst USAID
Missions in having a field presence at all”—68 to 70 CORs over the past
year—says it is taking steps to deal with the changing environment there.
“To mitigate any decreased monitoring capability, USAID/Afghanistan is in
the process of procuring contracts with the express purposes of being able
to provide a remote monitoring capability,” while also increasing the role of
host-country or third-country nationals in monitoring.36
    Yet beefing up personnel numbers, employing new technologies, promul-
gating new rules and regulations, and taking other commonly recommended
actions will not address one of the fundamental problems in contract over-
sight: people’s failure to do what they are supposed to be doing.
    The audits and inspections cited in this essay, and many others, recount
incidents of U.S. contract-management and contract-oversight officials failing
to inspect work, failing to insist on corrections, failing to confirm performance
before closing contracts, failing to make or file proper records, failing to secure
technical experts to assess specialized work, and in other ways simply not
doing their jobs or not doing them properly. In a spring 2013 audit—not focused
on Afghanistan, but revealing—the DOD IG looked at Air Force contracting
personnel’s compliance with an interim Federal Acquisition Regulation (FAR)
rule tightening standards for use of cost-reimbursable contracts.
    Cost-reimbursable contracts are basically pass-through arrangements
in which the government pays the costs the contractor submits, subject to
contract limits and to review for qualification and accuracy. The federal
Office of Management and Budget (OMB) considers them a form of “high-
risk contracting” with increased risk of waste and cost overruns. “This is
especially true for cost-reimbursement contracting,” OMB says, “which in
terms of issues such as finance, accounting, cost and price analysis, and
industrial engineering, demands a higher level and broader range of skills
than is required for competitively awarded fixed -price contracts.”37
    Yet when the DOD IG examined 156 cost-reimbursable contracts, it
found that “Air Force contracting personnel did not consistently implement
the interim [FAR] rule” for 75 contracts representing about $8.8 billion of
the total $10.5 billion value in the sample.38 Why?

         … because they were unaware of the rule, assumed it did not
         apply to task or delivery orders when the basic contract was
         issued before the rule, or did not document actions taken
         to conform to the rule. As a result, Air Force contracting
         personnel may increase the Air Force’s risk because cost-
         reimbursable contracts provide less incentive for contractors
         to control costs.39




REPORT TO THE UNITED STATES CONGRESS    I   JULY 30, 2013                   13
CONTRACT OVERSIGHT




   Exhortation, directives, and training are by themselves unlikely to pro-
duce fully effective oversight if the assigned implementers forget or simply
neglect to act, decide that other tasks are more pressing, or act but never
document their results. It is clear that in contract oversight, sins of omission
are common. What is not clear is whether the offending parties consistently
face any actual and substantive personal or programmatic consequences for
their failures—other, that is, than the ephemeral, rhetorical consequence of
receiving an official chiding in an audit or inspection report.
   As Congress considers oversight reports and lessons learned from
Afghanistan to enhance outcomes there in the “decade of transformation”
ahead and to improve contracting oversight in future operations, it may
wish to enquire whether implementing agencies broadly and consistently
impose accountability, including genuine consequences, for personnel
who fail to display proper diligence in carrying out their contract-oversight
tasks. One way to systematize such scrutiny might be to require department
and agency heads to report regularly on their accountability policies and
practices, to assess lessons learned that require changes, and to summarize
actual consequences imposed after reviews.
   In raising this issue, SIGAR recognizes the difficulty of distinguishing
decisions that seemed reasonable at the time, given the known imperatives,
information, and risks, from decisions that were clearly unreasonable or
culpable at the time they were made. We also recognize that vital mission
objectives, urgency, security threats, or travel constraints can force trade-
offs and compromises in the level of oversight applied in some settings. We
recognize the danger that organizations may be tempted to cover institu-
tional or procedural shortcomings by scapegoating unlucky or unpopular
individuals. Those are all reasonable caveats, but they are not an excuse for
tolerating present practice.
   SIGAR’s work and that of other oversight bodies makes it clear that
strict and enforced personal accountability for reckless, thoughtless, lazy,
or uninformed decisions is not a conspicuous feature of federal manage-
ment culture—but it needs to be if we expect better performance from
federal contracts. Taxpayers and national missions deserve no less. As
SIGAR proceeds with audits, inspections, investigations, and special proj-
ects in Afghanistan, we will be vigilant in calling out poor management and
oversight in contracting, and in suggesting ways that accountability might
be improved.
   SIGAR does not expect perfect execution of a complicated job and does
not contemplate ex post facto back-seat driving. But we firmly believe that
more rigorous accountability can improve future judgments and decisions,
thereby preventing many costly oversight blunders.
   Imposing effective oversight on operational contract support is but a new
chapter in a long struggle. In 1784, Thomas Jefferson wrote to the temporarily




  14                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                          CONTRACT OVERSIGHT




retired George Washington to urge on him the “superintendence” of proposed
navigation improvements on the Ohio and Potomac Rivers.
    Jefferson thought Washington’s towering reputation and stern over-
sight might mitigate “a most powerful objection” to such new projects:
“Public undertakings are carelessly managed and much money spent to
little purpose.”40
    Washington, busy with other matters, politely deflected the proposal. But
more than two centuries later and half a world away, Jefferson’s concern
lives on.




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2013               15
 “You’ve got to go kick the tires. You’ve
 got to make certain someone we trust
goes out and makes certain the money
   is spent the way it was intended.
You’ve got to verify that the money you
   gave to buy fuel bought the fuel.”
    —Special Inspector General John F. Sopko




           Source: John F. Sopko, interview with The Fiscal Times, April 26, 2013.
2   SIGAR
    OVERSIGHT




        17
                                              CONTENTS
                                              SIGAR OVERSIGHT CONTENTS

                                              Proposed Legislation Incorporates
                                              SIGAR Recommendations	              20
                                              Senators Urge DOD to Implement
                                              SIGAR Recommendations	              21
                                              SIGAR Conducts Peer Review	         21
                                              Audits	22
                                              Inspections	49
                                              Special Projects	                   53
                                              Investigations	58
                                              SIGAR Budget	                       68
                                              SIGAR Staff	                        68




Photo on previous page
The Special IG and staff meet with the Monitoring and Evaluation Committee,
May 2013. (SIGAR photo)




                                                 18
                                       SIGAR OVERSIGHT




SIGAR OVERSIGHT ACTIVITIES                                                      AUDIT ALERT LETTERS
                                                                                •	 Alert 13-2: Southern Regional Agricul-
                                                                                   tural Development Program
This was SIGAR’s most productive quarter since Congress created the             •	 Alert 13-3: Fines, Fees, and Penalties
agency in 2008. SIGAR issued 30 audits, inspections, alert letters, and other      Levied by Afghan Government
reports. This included six audits, 11 financial audits of costs incurred on     •	 Alert 13-4: Camp Leatherneck Incinera-
                                                                                   tors and Burn Pits
contracts, two inspections, nine management and safety alert letters, and       •	 Alert 13-5: Chemonics International
one Special Project report. Most of this work focused on contracting issues     •	 Alert 13-6: State Agreement with Inter-
and program management. It identified poor planning, project delays, weak          national Development Law Organization
accountability, and deficient oversight. It also found significant waste,
                                                                                COMPLETED AUDITS
shoddy construction, and potential threats to health and safety.
                                                                                •	 Audit 13-8: Business Taxes on
   Ongoing SIGAR investigations of fuel thefts in Afghanistan also saved           Contractors in Afghanistan
the U.S. government approximately $800,000 during this reporting period.        •	 Audit 13-12: State Department
In addition, SIGAR investigations led to two arrests, two indictments, two         Assistance Awards
criminal informations, two court-martial convictions, and two guilty pleas.     •	 Audit 13-13: Afghan Special
                                                                                   Mission Wing
   The six audits SIGAR published this quarter reviewed Department              •	 Audit 13-14: Contracting with
of Defense (DOD), State Department, and U.S. Agency for International              the Enemy
Development (USAID) programs to develop the Afghan security forces,             •	 Audit 13-15: Afghan Public Protection
improve governance, and promote economic and social development.                   Force Concerns
One audit showed that DOD is moving forward with a $771.8 million               •	 Audit 13-16: Stability in Key
                                                                                   Areas Programs
purchase of aircraft the Afghan National Army (ANA) cannot operate or
maintain. Another revealed that USAID’s main stabilization program has          COMPLETED INSPECTIONS
suffered repeated delays and is failing to meet critical contract objec-        •	 Inspection 13-9: Sheberghan Teaching
                                                                                   Training Facility
tives. SIGAR also found that State and USAID need stronger authority to
                                                                                •	 Inspection 13-10: Bathkhak School
terminate contracts when enemy affiliations are identified. In addition,
SIGAR raised concerns about the capabilities and costs of the Afghan            COMPLETED SPECIAL PROJECT
Public Protection Force (APPF), which U.S.-funded contractors must              REPORTS
now rely on for security services. Finally, SIGAR discovered that State’s       •	 Special Project 13-8: Culvert Denial
                                                                                   Systems
reconstruction grants and cooperative agreements have gone largely
unaudited. SIGAR’s financial audits of contracts valued at about $942 mil-      SPECIAL PROJECT ALERT LETTERS
lion identified over $49 million in questioned costs.                           •	 Management Alert 13-4: Subcontractor
   SIGAR inspections of education facilities found such shoddy construc-           Nonpayment Issues
                                                                                •	 Safety Alert 13-5: Bathkhak School
tion that the buildings pose a safety threat to teachers and students. In
                                                                                •	 Safety Alert 13-6: Sheberghan Teacher
addition, SIGAR alert letters informed DOD and USAID about significant             Training Facility
waste of U.S. funds. For example, SIGAR reported on the construction of a       •	 Management Alert 13-7: Command
64,000-square-foot building that may never be used and an agricultural pro-        and Control Facility at Camp Leather-
gram that suffered from poor planning and inadequate oversight.                    neck




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2013               19
SIGAR OVERSIGHT




   During this reporting period, SIGAR also provided a special briefing to
the House Committee on Oversight and Government Reform on the Kabul
Bank crisis, requested implementing agencies to provide an analysis of their
best performing projects, and conducted a peer review.
   In addition to identifying and deterring waste, fraud, and abuse, SIGAR
seeks to make recommendations to U.S. government agencies and the
Congress to improve the efficiency and effectiveness of the nearly $97 bil-
lion U.S. reconstruction effort. This quarter, members of Congress drew on
SIGAR’s work for proposed legislation.


PROPOSED LEGISLATION INCORPORATES SIGAR
RECOMMENDATIONS
During this reporting period, the House and Senate each incorporated
SIGAR findings and recommendations into their drafts of the National
Defense Authorization Act (NDAA) for fiscal year (FY) 2014. The House,
which passed its version of the FY 2014 NDAA on June 14, 2013, would
expand Section 841, which calls on the U.S. Central Command (CENTCOM)
commander to take steps to prevent contracting with the enemy and autho-
rizes DOD to terminate contracts it has determined are providing funding to
active insurgent elements and opponents of U.S. or Coalition forces.
   Other provisions of the bill would require DOD to report on measures
to ensure that U.S. financial assistance to the Afghan security forces is not
used to purchase fuel from Iran in violation of U.S. sanctions, require DOD
to recoup taxes assessed by the Afghan government, and require DOD to
provide information on the capability of the Afghan security forces to oper-
ate and maintain their infrastructure after January 1, 2015. These provisions
drew on recommendations from four SIGAR reports:
•	 Contracting with the Enemy: DOD Has Limited Assurance that
    Contractors with Links to Enemy Groups Are Identified and Their
    Contracts Terminated (Audit 13-6)
•	 Afghan National Security Forces: Limited Visibility Over Fuel Imports
    Increases the Risk that U.S.-Funded Fuel Purchases Could Violate U.S.
    Economic Sanctions against Iran (Special Project Report 13-2)
•	 Taxes: Afghan Government Has Levied Nearly a Billion Dollars in
    Business Taxes on Contractors Supporting U.S. Government Efforts
    in Afghanistan (Audit 13-8)
•	 Afghan National Security Forces Facilities: Concerns with Funding,
    Oversight, and Sustainability for Operations and Maintenance (Audit 13-1)

   The Senate Armed Services Committee, which reported its version of the
FY 2014 NDAA on June 20, 2013, would also expand Section 841. As SIGAR
has recommended, the Committee would direct the Secretary of Defense
to report to Congress on efforts to reduce reliance on open-pit burning




  20                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                       SIGAR OVERSIGHT




of waste at operating bases in Afghanistan. The Committee drew on two
SIGAR reports:
•	 Contracting with the Enemy: DOD Has Limited Assurance that
   Contractors with Links to Enemy Groups Are Identified and Their
   Contracts Terminated (Audit 13-6)
•	 Forward Operating Base Salerno: Inadequate Planning Resulted in
   $5 Million Spent for Unused Incinerators and the Continued Use of
   Potentially Hazardous Open-Air Burn Pit Operations (Inspection 13-8)


SENATORS URGE DOD TO IMPLEMENT SIGAR
RECOMMENDATIONS
After the publication this quarter of SIGAR’s audit of U.S. efforts to support
the Afghan Special Mission Wing (SMW), a bipartisan group of nine sena-
tors urged Secretary of Defense Chuck Hagel to reconsider DOD’s planned
purchase of 48 Russian helicopters. The Afghan government established the
SMW to provide critical air support for the Afghan National Army (ANA)
Special Operations Forces whose primary mission is to combat the nar-
cotics trade and terrorism. The United States awarded contracts totaling
$771 million to purchase 48 new aircraft, and plans to spend hundreds
of millions more for oversight, maintenance, training, and logistical support.
SIGAR’s audit found that the SMW lacks the capacity to operate and main-
tain the aircraft and recommended that DOD suspend all activity under the
contracts awarded for the 48 new aircraft for the SMW until certain condi-
tions were met. For a full summary of this audit see page 30.
   Several members of Congress also urged the Secretary of Defense to
halt the use of open-air burn pits in response to a SIGAR letter alerting
DOD and Congress about the military’s continued use of open-air burn pits
in Afghanistan. They noted that the use of open-air burn pits potentially
endanger the health of U.S. military and civilian personnel supporting
Operation Enduring Freedom in Afghanistan. The alert letter is summarized
on page 21 of this report.


SIGAR CONDUCTS PEER REVIEW
The public office of Inspector General carries with it a responsibility to
apply a high standard of professionalism and integrity, and above all, foster
good governance to promote the public’s trust. As part of this responsibility,
the Council of the Inspectors General on Integrity and Efficiency (CIGIE)
requested that SIGAR conduct an external peer review of the Pension
Benefit Guaranty Corporation, Office of the Inspector General (PBGC-OIG).
SIGAR’s responsibility was to express an opinion about PBGC-OIG’s qual-
ity control system and its compliance with generally accepted government
auditing standards (GAGAS).




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2013                21
                                            SIGAR OVERSIGHT




                                               After completing its review this quarter, SIGAR concluded that
                                            PBGC-OIG deserved a rating of pass with deficiencies. SIGAR identified
                                            deficiencies in audit planning, reporting audit results, and its quality control
                                            and assurance program. These deficiencies must be addressed to ensure
                                            PBGC-OIG provides reliable and objective information to the public.
                                               PBGC-OIG rejected SIGAR’s rating. Its response raised additional con-
                                            cerns about the potential lack of independence in the PBGC-OIG audit
                                            reports. In a letter to the PBGC Inspector General, Senator Charles Grassley
                                            wrote, “I would like to remind you that independence is the heart and soul
                                            of the IG Act and audit oversight.” He requested that the PBGC Inspector
                                            General clarify comments related to IG independence and provide informa-
                                            tion on how the agency intends to address and resolve the issues identified
                                            in the peer review.


                                            AUDITS
                                            This quarter SIGAR issued six performance audit reports, 11 financial
                                            audits of contracts, and five audit alert letters that identified problems
                                            with planning, contract oversight, and accountability as well as serious
                                            safety issues. SIGAR announced seven new audits, including two finan-
                                            cial audits of costs incurred under U.S.-funded awards for Afghanistan
                                            reconstruction activities.

                                            Alert Letters
                                            With the security, political, and economic transitions looming, U.S. mili-
AUDIT ALERT LETTERS
•	 Alert 13-2: Southern Regional
                                            tary commanders and civilian officials have asked SIGAR to provide them
   Agricultural Development Program         with real-time information to prevent waste and increase the effectiveness
   Had Poor Coordination, Waste, and        of U.S. reconstruction programs. One of SIGAR’s main goals is to provide
   Mismanagement
                                            implementing agencies and Congress with actionable information while
•	 Alert 13-3: Afghan Government Levying
   Additional Fines, Fees, and Penalties    there is still time to make a difference. During this reporting period, SIGAR
   that May Cost U.S. Government Millions   sent nine alert letters to inform DOD, State, and USAID about important
   of Dollars
                                            audit findings requiring urgent attention. The Audits and Inspections
•	 Alert 13-4: Camp Leatherneck
   Incinerators, Burn Pit Being Used        Directorate sent five of these letters, drawing agency attention to waste and
•	 Alert 13-5: Concerns with Chemonics      mismanagement in a $70 million USAID agriculture program, nearly $1 bil-
   International, Inc. Meeting Its          lion in taxes levied by the Afghan government on U.S.-funded contractors,
   Responsibilities Under a Federal
   Contract                                 and accountability issues related to two contracts. SIGAR’s Special Projects
•	 Alert 13-6: Serious Deficiencies         Office also sent four management and safety alert letters. See pages 53–56
   Noted in State Agreement with the        for a summary of these letters.
   International Development Law
   Organization
                                            Alert 13-2: Southern Regional Agricultural Development
                                            Program Had Poor Coordination, Waste, and Management
                                            On June 27, 2013, SIGAR informed U.S. officials in Kabul that it had
                                            found major waste and mismanagement of a USAID-funded agricultural
                                            program. SIGAR initiated a review after receiving a series of complaints




                                              22                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                       SIGAR OVERSIGHT




about the $70 million cooperative agreement with International Relief
and Development Inc. (IRD) to implement USAID’s Southern Regional
Agricultural Development (S-RAD) program. The S-RAD program, which
began in 2011, was intended to (1) reduce regional instability, (2) increase
agricultural employment and income opportunities, (3) assist with the
regional transition to a prosperous and sustainable agricultural economy,
and (4) improve the confidence of Afghans in their government. To achieve
these objectives, the program provided equipment, agricultural supplies,
and training to Afghan farmers and agricultural cooperatives in 17 districts
in Helmand and Kandahar provinces.
    SIGAR identified a number of problems in the implementation of this
program:
 •	 IRD did not effectively coordinate and execute the S-RAD project
    activities SIGAR reviewed.
 •	 IRD deviated from its work plan by distributing items—tractors, solar
    panels, and agricultural supplies—that were either more expensive than        Unused water pumps from a USAID
    those called for in the plan or were not called for under the plan.           agricultural-improvement project sit in
 •	 USAID did not provide effective oversight of the program.                     outdoor storage. (SIGAR photo)

   The original work plan called for two-wheel tractors, but IRD purchased
95 four-wheel tractors for a total cost of $1.68 million. IRD officials told
SIGAR they made the decision to switch to four-wheel tractors because
some Afghan officials said they did not want any more two-wheel trac-
tors distributed to farm cooperatives. However, the two-wheel tractors
would have been more appropriate in the small plots with tight spaces. A
subsequent study found that at least one-third of the 95 tractors that were
distributed in Kandahar could not be located.
   U.S. officials and Afghan officials repeatedly raised questions about the
high cost and questionable value of IRD’s approach to the distribution of
solar panels and agriculture supplies. IRD expanded its purchase of solar
panels despite objections from U.S. officials who cited the risk of theft,
resale, or misuse. U.S. and Afghan officials reported that IRD’s approach to
the distribution of seeds, saplings, and fertilizers provided opportunities for
corruption, distorted market prices, and were potentially destabilizing fac-
tors in the critical areas the program was supposed to help stabilize.
   Although the program has ended, SIGAR shared its findings in an alert
letter so that USAID could immediately take action to prevent such prob-
lems in future agricultural development programs.

Alert 13-3: Afghan Government Levying Additional Fines,
Fees, and Penalties that May Cost U.S. Government
Millions of Dollars
On June 28, 2013, in a follow-up letter to an audit published earlier
this quarter, SIGAR informed Congress that it had identified additional




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2013                  23
SIGAR OVERSIGHT




costs—including various fees, fines, and penalties—that the Afghan gov-
ernment was imposing on U.S.-funded contractors. The audit identified
nearly $1 billion in business taxes and penalties imposed by the Afghan
government on contractors supporting U.S. operations. (See Audit 13-8,
Taxes: Afghan Government Has Levied Nearly a Billion Dollars in
Business Taxes on Contractors Supporting U.S. Government Efforts in
Afghanistan, which is summarized on page 27 of this report.)
   The alert letter discussed four types of additional costs imposed on
contractors: customs process fees, fines levied for delayed customs docu-
mentation, visa and work permit fees, and business license and registration
fees. These additional fees, fines, and penalties may cost these contrac-
tors, and ultimately the U.S. government, hundreds of millions of dollars.
Moreover, the actions taken by the Afghan government to enforce them
may have an adverse effect on U.S. military operations.
   U.S. government agencies, including DOD, have executed a number of
international agreements with the Afghan government that clearly exempt
goods imported into Afghanistan in support of the U.S. military mission
from Afghan tariffs and customs duties. However the Afghan government
is charging DOD commercial carriers customs process fees for every
container of goods shipped into Afghanistan in support of U.S. military
operations, even though the containers are supposed to be exempt.
   In apparent violation of the Status of Forces Agreement between the
United States and Afghan governments, the Afghan government has also
charged fines for “late” or unprocessed customs declaration forms. As of
May 2013, an official at the U.S. Army Military Surface Deployment and
Distribution Command estimated that the Afghan government has levied
more than $150 million in improper fines for unprocessed customs declara-
tion forms since 2009. In addition, the Afghan government has restricted
the freedom of movement for commercial carriers to deliver their car-
goes—such as foodstuffs destined for U.S. military and International
Security Assistance Force (ISAF) personnel—resulting in serious con-
sequences for the U.S. government’s combat mission and reconstruction
effort in Afghanistan.
   The Afghan government requires contractors to receive annual visas and
work permits for each non-Afghan employee working in Afghanistan. While
some bilateral agreements between various U.S. government agencies and
the Afghan government may exempt certain U.S. personnel from require-
ments to obtain visas, other agreements are silent on the matter. SIGAR’s
analysis of the visa and work permit process indicates that these costs
amount to approximately $1,138 per employee per year.
   All contractors supporting the U.S. government in Afghanistan are
required to register annually with the Afghanistan Investment Support
Agency to obtain a business license. The fee associated with obtaining the
required business license ranges from $100 to $1,000 per year, depending




  24                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                        SIGAR OVERSIGHT




on the industrial sector. In 2012, at least 1,138 companies operated in
Afghanistan in support of U.S. operations.
   As Congress considers future appropriations for Afghanistan, SIGAR
believes it prudent to consider these costs and their impact on U.S. operations.

Alert 13-4: Observations on Solid Waste Disposal Methods
in Use at Camp Leatherneck
In July, SIGAR alerted the commanders of CENTCOM and U.S. Forces-
Afghanistan (USFOR-A) to the health dangers posed by the continuing
use of open-air burn pit operations to dispose of daily waste at Camp
Leatherneck in Helmand province. The toxic smoke from burning solid
waste each day increases the long-term health risks for camp personnel.
   The camp, which currently houses 13,500 U.S. civilian and military person-
nel, uses a combination of incineration and open-air burn pit operations to
dispose of about 54 tons of solid waste produced every day. Although Camp
Leatherneck spent $11.5 million to purchase and install two 12-ton and two
24-ton capacity incinerators, SIGAR inspectors found that the 12-ton incinera-
tors were not being used to full capacity and the 24-ton incinerators were not
being used at all because a contract for their operation had not been awarded.
Consequently, in apparent violation of DOD guidance, Camp Leatherneck
relies heavily on open-air burn pit operations to dispose of its solid waste.
   Camp officials advised SIGAR that a contract was about to be awarded
for the operation and maintenance of the 24-ton incinerators and that a
$1.1 million contract for hauling trash off-site to a local landfill should be
in place by the end of July 2013. SIGAR’s analysis indicates that making
efficient and effective use of the incinerators should enable the camp to ter-
minate open-air burn pits operations and possibly eliminate the need for a
contract to haul trash off-site.




Open-air burn pit smoke at Camp Leatherneck. (SIGAR photo)




REPORT TO THE UNITED STATES CONGRESS    I   JULY 30, 2013                 25
                                           SIGAR OVERSIGHT




                                             SIGAR urged the military commanders to ensure the incinerators are
                                           used to full capacity and reevaluate the need for the contract to haul solid
                                           waste to a local landfill.

                                           Alert 13-5: Financial Audit of Chemonics International, Inc
                                           On July 2, 2013, SIGAR sent USAID a letter highlighting the refusal of
                                           U.S. contractor Chemonics International, Inc. (Chemonics) to provide
                                           auditors with all the information they requested during the course of
                                           a financial audit. SIGAR urged USAID to take special care in review-
                                           ing about $13.5 million questioned costs, remind Chemonics about its
                                           responsibility to fully cooperate with federal audits, and consider the
                                           issues identified in the financial audit in evaluating future awards and
                                           award modifications involving Chemonics. See page 41 for a summary of
                                           the financial audit of Chemonics.

                                           Alert 13-6: Serious Deficiencies Noted in State Agreement
                                           with International Development Law Organization
                                           SIGAR alerted the Secretary of State to serious deficiencies related to
                                           the Afghanistan Justice Training Transition Program (JTTP) which is
                                           being administered by State’s Bureau of International Narcotics and Law
                                           Enforcement Affairs (INL). In its ongoing audit of State’s rule of law pro-
                                           grams, SIGAR learned that INL had awarded a sole source agreement to
COMPLETED AUDITS                           the International Development Law Organization (IDLO) to provide justice
•	 Audit 13-8: Taxes: Afghan Government    sector training services in Afghanistan. This award does not appear to con-
   Has Levied Nearly a Billion Dollars     tain basic provisions that would allow INL to ensure proper monitoring and
   in Business Taxes on Contractors
   Supporting U.S. Government Efforts in   evaluation of a project expected to cost U.S. taxpayers nearly $50 million.
   Afghanistan                             Moreover, preliminary information gathered by SIGAR auditors suggests
•	 Audit 13-12: Department of State’s      that IDLO is ill-prepared to manage and account for how U.S.-taxpayer
   Assistance Awards for Afghanistan
   Reconstruction Activities Are Largely   funds will be spent on the JTTP.
   Unaudited                                  SIGAR recommended that State address the oversight deficiencies in
•	 Audit 13-13: Afghan Special Mission     INL’s agreement with IDLO and review the circumstances that led to award-
   Wing: DOD Moving Forward with
   $771.8 Million Purchase of Aircraft     ing IDLO an agreement to implement part of the JTTP. In addition, SIGAR
   that the Afghans Cannot Operate and     recommended that State review all similar contracts, grants, and other
   Maintain
                                           agreements related to Afghanistan reconstruction to ensure that arrange-
•	 Audit 13-14: Contracting with the
   Enemy: State and USAID Need Stronger    ments have been made for appropriate oversight.
   Authority to Terminate Contracts When
   Enemy Affiliations Are Identified
                                           Audit Reports Published
•	 Audit 13-15: Afghanistan Public
   Protection Force: Concerns Remain       This quarter, SIGAR completed six audit reports that reviewed Afghan
   about Force’s Capabilities and Cost     government taxes on contractors, State’s oversight of grants and coopera-
•	 Audit 13-16: Stability in Key Areas     tive agreements, State and USAID efforts to prevent contracting with the
   (SIKA): After 16 Months and $47         enemy, DOD’s program to build an Afghan SMW to support counternar-
   Million Spent, USAID Had Not Met
   Essential Program Objectives            cotics and counterterrorism efforts, the status of the APPF, and a USAID
                                           stabilization program.




                                             26                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                             SIGAR OVERSIGHT




Audit 13-8: Taxes on Contractors
Taxes: Afghan Government Has Levied Nearly a Billion Dollars in Business Taxes on
Contractors Supporting U.S. Government Efforts in Afghanistan
U.S. government agencies, including DOD, Department of State, and
USAID have executed agreements with the Afghan government that
exempt their contracts from certain Afghan business taxes. Through these
agreements, the United States seeks to limit the taxes that U.S.-funded
contractors pay in order to reduce the cost of projects to the U.S. taxpayer.
However, SIGAR found that since 2008, the Afghan government has levied
taxes and tax-related penalties on contractors supporting U.S. government
contracts in Afghanistan that should be exempt from such taxes under the
negotiated agreements.

FINDINGS
As shown in Table 2.1, since 2008, the Afghan Ministry of Finance (MOF)
has levied over $921 million in business taxes and associated penalties
on 43 contractors that support U.S. government efforts in Afghanistan.
Of this amount, $93 million represented taxes levied on business receipts
and annual corporate income—a tax category that both the U.S. govern-
ment and the Afghan government agree should be exempt for contractors
operating under covered agreements. SIGAR identified instances where
contractors were taxed despite agreements between U.S. agencies and the
Afghan government that provide exemptions for certain Afghan taxes.
   U.S. and MOF officials disagree about the tax-exempt status of subcon-
tractors, which has created confusion and interrupted of the U.S. effort
in Afghanistan. MOF officials assert that the DOD and State agreements
provide tax-exempt status only to prime contractors. U.S. government
officials contend that the agreements provide tax exemption for all non-
Afghan companies—both prime and subcontractors—supporting U.S.

TABLE 2.1


TAX ASSESSMENT ON CONTRACTORS SUPPORTING U.S. GOVERNMENT CONTRACTS
                                                                                                   Business Receipts & Annual                                                 Number of
 Agency                                        Total Tax                Withholdings                 Corporate Income Taxes                   Undeterminable c                Contractors
 USAID                                        $5,458,7138               $5,223,048                              $235,665                                      $0                     7
 DOD                                          $92,875,298               $8,671,298                          $62,704,000                           $21,500,000                      17
 State                                        $19,095,672               $5,238,000                           $1,200,000                           $12,657,672                        8
 Multiple Agencies a                         $803,967,530              $25,677,833                          $29,300,000                         $748,989,697                       11
 Total b                                $921,397,213                $44,810,180                          $93,439,665                         $783,147,368                         43
Notes:
a	Multiple agency contractors are contractors that work under contracts for a combination of DOD, State, and USAID. No contractor in SIGAR’s sample indicated that it had contracts with agencies
  other than DOD, State, and USAID.
b	For figures presented to SIGAR in Afghanis, SIGAR converted to U.S. Dollar exchange published by Da Afghanistan Bank on 9/18/2012. This table reflects paid and assessed amounts.
c	Some taxes were undeterminable because the tax assessment issued by the Afghan government did not indicate the specific category of tax that was being assessed. However, based on
  SIGAR’s analysis, SIGAR believes that much of this total amount is likely illegitimate.

Source: SIGAR analysis of contractor data.




REPORT TO THE UNITED STATES CONGRESS                         I   JULY 30, 2013                                       27
                                             SIGAR OVERSIGHT




                                             government efforts. Given the ongoing disputes and the ambiguous nature
                                             of the MOF-issued assessments, the 43 contractors in SIGAR’s sample have
                                             paid approximately $67 million of the $921 million in total tax assessments.
                                             Most of them still face unresolved assessments. As a result of the outstand-
                                             ing assessments, the MOF has placed restrictions on some contractors
                                             and refused to renew business licenses. The Afghan government has even
                                             arrested some contractor personnel.
                                                SIGAR also found that DOD and State contracting officers do not fully
                                             understand Afghanistan’s tax laws and, as a result, they have improperly
                                             reimbursed contractors for taxes paid to the Afghan government. While DOD,
                                             State, and USAID have taken some steps to help their prime contractors gain
                                             tax exemption, DOD and State have not taken sufficient steps to ensure that
                                             their subcontractors obtain the required tax exemption certificates.

                                             RECOMMENDATIONS
If approved, new provisions in the FY 2014   SIGAR recommended that the Secretary of State, among other things,
NDAA would require DOD to recoup taxes       develop a consistent, unified position on what the U.S. government deems
assessed by the Afghan government.           appropriate taxation of contractors supporting U.S. government efforts in
                                             Afghanistan. SIGAR also recommends that State and USAID determine if
                                             reimbursed taxes were legitimate and recover any inappropriately reim-
                                             bursed taxes. SIGAR also made three recommendations to State, USAID,
                                             U.S. Army Corps of Engineers (USACE), and the U.S. Central Command’s
                                             Joint Theater Support Contracting Command (C-JTSCC) to develop proce-
                                             dures for contractors to obtain appropriate documentation of tax-exempt
                                             status with the Afghan government, issue guidance to properly identify
                                             taxes in contracts and invoices, and take steps to prevent the improper
                                             reimbursement of taxes to contractors. In addition SIGAR identified two
                                             matters for Congressional consideration to ensure that Congress has com-
                                             plete information on taxes levied by the Afghan government and to address
                                             any improper taxation by the Afghan government.

                                             AGENCY COMMENTS
                                             In commenting on a draft of this report, C-JTSCC and USACE concurred
                                             with SIGAR’s recommendations. State did not explicitly agree or disagree
                                             with SIGAR’s recommendation to develop a consistent, unified position on
                                             what the U.S. government deems appropriate taxation of contractors; it
                                             argued that such a unified position already exists and that it is inappropriate
                                             to suggest that there are inter-agency differences. SIGAR disagrees. SIGAR’s
                                             finding that contractors have failed to receive guidance on differing tax
                                             treatment by different federal agencies shows that inter-agency differences
                                             do, in fact, exist. Regarding SIGAR’s recommendation to determine if reim-
                                             bursed taxes were legitimate and to recover any inappropriately reimbursed
                                             taxes, State neither agreed nor disagreed but requested further details on
                                             SIGAR’s analysis. SIGAR provided State with specific information on the




                                               28                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                       SIGAR OVERSIGHT




types of taxes it identified during an exit conference in January 2013. This
information should be sufficient for State to implement SIGAR’s recommen-
dation. Although SIGAR is willing to provide additional information on its
analysis, SIGAR notes that it is State’s responsibility to ensure that the taxes
it reimburses are legitimate and to recover any inappropriately reimbursed
taxes. USAID neither agreed nor disagreed with SIGAR’s recommendations,
but instead stated that the recommendations made had already been imple-
mented, were not applicable, or lacked detailed analysis for the agency to
implement. SIGAR disagrees and believes its recommendations are well-
supported and valid.

Audit 13-12: State Department Grants and Cooperative
Agreements
Department of State’s Assistance Awards for Afghanistan Reconstruction Activities
Are Largely Unaudited
U.S. government regulations issued by the Office of Management and
Budget (OMB) require that independent auditors examine the expenditures
of non-federal entities expending federal funds. The regulations, outlined in
OMB circular A-133, stipulate that nonprofit organizations spending more
than $500,000 a year in federal funds obtain a single or program-specific
audit conducted by an independent auditor. Recognizing that financial
audits play an important role in ensuring that funds are properly spent and
accounted for, SIGAR initiated this audit to examine the extent to which
funding grants and cooperative agreements have been audited.

FINDINGS
According to State records, the department made 140 grant and cooperative
agreement awards over $1 million, with a total estimated value of $315 mil-
lion between FY 2002 and FY 2011. Only 41—or 29%—of these awards have
been audited. The 99 unaudited awards had disbursed a combined total of
$191.6 million. Table 2.2 on the following page shows a breakdown of the
types of organizations and the number of awards not audited.
    The reasons that financial audits were not conducted varied by award
recipient type:
 •	 50 of 65 awards to foreign organizations were not audited because
    State has not established a department-wide policy requiring that
    these organizations’ awards be audited. Rather, individual bureaus
    have established their own policies, leading to inconsistent audit
    requirements within the agency.
 •	 42 of 68 awards to U.S. nonprofit organizations were not audited
    because they were not considered “major programs.” Moreover,
    three organizations receiving three separate awards did not have
    A-133 audits conducted because State did not provide clear guidance
    to the awardees.




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2013                   29
SIGAR OVERSIGHT




TABLE 2.2


STATE ASSISTANCE AWARDS FOR AFGHAN RECONSTRUCTION, 2002-2011
                                         Total     Total Value of Awards      Awards Not      Amount Disbursed Not
 Type of Organization                   Awards         ($ Millions)a           Audited         Audited ($ Millions)b
 Foreign organizations                    65              $161.3                   50                  $103.0
 U.S. nonprofit organizations             68              $136.4                   42                    $75.3
 U.S. for-profit companies                 4                 $9.4                    4                    $6.7
 Public international organizations        3                 $8.3                    3                    $6.6
 Total                                  140               $315.4                   99                  $191.6
Notes: Numbers have been rounded.
a	Total value as of August 20, 2012; updated with amendments from the Public Affairs Section of U.S. Embassy Kabul as of
  December 10, 2012.
b	Disbursement amounts were obtained from several different bureaus and offices dating from October to December 2012. For
  seven awards missing disbursement data, SIGAR estimated disbursement amounts to be equal to obligated amounts.

Source: SIGAR Audit 13-12, Department of State’s Assistance Awards for Afghanistan Reconstruction Activities Are Largely
Unaudited.


•	 4 awards to for-profit companies were not audited because State has
   not clearly articulated whether these awards are required to be audited.
•	 3 awards to public international organizations were not audited because
   the decision to audit rests with the recipient organizations, none of
   whom requested audits of these particular awards.

   As part of its oversight mandate, SIGAR has initiated a number of financial
audits of contracts, grants, and cooperative agreements funded by State, DOD,
USAID, and the Department of Agriculture (USDA). Of the 99 awards that
State has not audited, SIGAR is conducting financial audits on eight awards to
two foreign organizations. The total value of these awards is $27 million.

RECOMMENDATIONS
SIGAR made four recommendations to the U.S. Secretary of State to
improve accountability over its assistance awards for Afghanistan recon-
struction. These included establishing a policy requiring audits of assistance
awards to foreign organizations and clarifying guidance to ensure that audit
requirements are clear and consistent.

AGENCY COMMENTS
In its comments on the draft of the report, State generally agreed with SIGAR’s
recommendations and noted that the report highlighted the need for State to
enhance the oversight of federal assistance in the overseas environment.

Audit 13-13: Afghan Special Mission Wing
Afghan Special Mission Wing: DOD Moving Forward with $771.8 million Purchase of
Aircraft that the Afghans Cannot Operate and Maintain
In July 2012, the Afghan government established the Afghan Special Mission
Wing (SMW) to provide critical air support for the ANA Special Operations




    30                           SPECIAL INSPECTOR GENERAL                I   AFGHANISTAN RECONSTRUCTION
                                       SIGAR OVERSIGHT




Forces whose primary mission is to combat the narcotics trade and terror-
ism. Since then, DOD has obligated nearly $122 million to develop the SMW,
awarded additional contracts totaling $771 million to purchase 48 new
aircraft, and plans to spend hundreds of millions more for oversight, main-
tenance, training, and logistical support. This audit examined (1) the extent
to which the SMW has the capacity to operate and maintain its current and
planned fleet, and (2) the effectiveness of U.S. government oversight of two
task orders valued at $772 million to provide ongoing maintenance, logis-
tics, and supply support to the SMW.

FINDINGS
SIGAR found the Afghans lack the capacity—in both personnel numbers
and expertise—to operate and maintain the existing and planned SMW
fleets. For example, as of January 23, 2013, the SMW had just 180 person-
nel—less than one-quarter of the personnel needed to reach full strength.
DOD and the NATO Training Mission-Afghanistan (NTM-A) lack a plan                 SIGAR auditors join SMW flight crews as
                                                                                  they prepare for a training mission in Kabul.
that identifies milestones and final dates for achieving full SMW personnel
                                                                                  (SIGAR photo)
force strength to justify the approved fleet. Moreover, ongoing recruit-
ing and training challenges have slowed SMW growth. These challenges
include finding Afghan recruits who are literate and can pass the strict,
18- to 20-month U.S. vetting process which attempts to eliminate candidates
that have associations with criminal or insurgent networks. The lack of
agreement between the Afghan Ministry of Defense (MOD) and Ministry of
Interior (MOI) on the command and control structure of the SMW is also
having a negative impact on SMW growth and capacity.
   DOD has not developed a plan for transferring maintenance and logistics
management functions to the Afghans. DOD contractors perform 50% of the
maintenance and repairs to the SMW’s current fleet of 30 Mi-17 helicopters
and 70% of critical maintenance and logistics management, as well as pro-
curement of spare parts and material.
   The SMW relies heavily on DOD to fulfill its counterterrorism respon-
sibilities, a key part of its mission. As of January 16, 2013, only 7 of the 47
pilots assigned to the SMW were fully qualified to fly with night vision gog-
gles, a requirement for executing most counterterrorism missions.
   Despite these problems, DOD has moved forward to purchase 48 new
aircraft for the SMW. In October 2012, DOD awarded a $218 million con-
tract to Sierra Nevada Corporation for 18 PC-12 fixed-wing aircraft, and
in June 2013, DOD awarded a $553.8 million contract modification to
Rosoboronexport for 30 Mi-17 helicopters.
   In addition to the challenges related to SMW capacity to operate and
maintain its current or planned fleet, SIGAR found that two key DOD task
orders—ones which provide ongoing maintenance, logistics, and supply ser-
vices to support the SMW—lack performance metrics and DOD oversight
has been inadequate. Poor oversight by DOD’s Non-Standard Rotary Wing




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2013                 31
SIGAR OVERSIGHT




Aircraft Contracting Division resulted in the contractor failing to properly
account for certain aircraft hours in depot maintenance and a misrepre-
sentation of readiness. The task orders lack quality assurance surveillance
plans and, at the time of the audit, DOD did not have the personnel in Kabul
with the right authority and requisite experience to effectively oversee U.S.
contractor performance.

RECOMMENDATIONS
SIGAR recommended that the Under Secretary of Defense for Acquisition,
Technology, and Logistics suspend all activity under the contracts awarded
for the 48 new aircraft for the SMW until the memorandum of understand-
ing between the MOI and MOD is completed and signed. Provided the
memorandum of understanding between the MOI and MOD is completed
and signed, SIGAR recommended setting clear personnel, maintenance,
and logistics support milestones for the SMW and tying the acquisition and
delivery of the new aircraft to successful completion of these milestones.
   SIGAR also recommended that DOD develop a plan for transferring
maintenance and logistics management to Afghans and incorporate the per-
formance metrics and milestones into a proposed statement of work for the
new maintenance and logistics contract.
   Finally, SIGAR recommended that the DOD contracting authorities
modify the two key task orders to incorporate performance metrics and
appropriate quality assurance surveillance plans; ensure that the new con-
tract/task order contains these metrics and plans; and deploy Contracting
Officer Representatives to Afghanistan with the appropriate level of author-
ity and requisite experience to effectively oversee contractor support for
the SMW.

AGENCY COMMENTS
SIGAR received formal comments on the draft of this report from the Office
of the Secretary of Defense (OSD), the North Atlantic Treaty Organization
Training Mission-Afghanistan/Combined Security Transition Command-
Afghanistan (NTM-A/CSTC-A), U.S. Army Materiel Command, and the
NSRWA Contracting Division. OSD and NTM-A/CSTC-A did not concur with
SIGAR’s recommendation to suspend plans to acquire new aircraft for the
SMW. Both stated that contracting actions have already been awarded and
that ISAF is engaging the Afghan government to formulate a charter that
would accomplish the same purpose as the planned memorandum of under-
standing between MOI and MOD. However, SIGAR maintains that moving
forward with the acquisition of these aircraft is highly imprudent until an
agreement between the ministries is reached. SIGAR also notes that, prior
to awarding the contract for the 30 Mi-17s on June 16, 2013, DOD received
a draft of this report containing a recommendation to suspend plans to
purchase new aircraft for the SMW. OSD and NTM-A/CSTC-A concurred




  32                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                       SIGAR OVERSIGHT




with the other six recommendations in the report. The U.S. Army Materiel
Command responded to the three recommendations addressed to it and
concurred with each. The NSRWA Project Office concurred with the two
recommendations addressed to it.

Audit 13-14: Contracting with the Enemy
Contracting with the Enemy: State and USAID Need Stronger Authority to Terminate
Contracts When Enemy Affiliations Are Identified
In April 2013, SIGAR reported on the process DOD established to com-
ply with Section 841—Prohibition on Contracting with the Enemy in the
United States Central Command Theater of Operations—of the FY 2012
NDAA and ways to strengthen the legislation. The report noted that
Section 841 does not provide State and USAID the legal authority to
restrict, terminate, or void contracts with persons or entities opposing the
United States or coalition forces.
   In a follow up to SIGAR’s earlier report, this audit (1) describes the
processes State and USAID have established to prevent contracting with
persons that actively support insurgencies or oppose U.S. or coalition
forces in Afghanistan, and (2) discusses the potential impact of State and
USAID not having Section 841 contracting authority.

FINDINGS
To prevent U.S. funds from supporting enemy combatants, both State and
USAID have established processes for vetting non-U.S. contractors in
Afghanistan.
   Since October 2012, State has vetted all non-U.S. companies competing
for U.S.-funded contracts. State’s Office of Risk Analysis and Management
compares the information provided by the contractor against various data-
bases to determine whether derogatory information—which may include
information about ties to enemy groups—on the company or its key offi-
cials exists. The assistant secretary of the office funding the activity makes
the final decision on whether a contractor is eligible to receive a State-
funded contract. If a contractor is deemed eligible, the determination is
valid for one year, unless there are changes in the company’s key officials.
   USAID vets all non-U.S. prime contractors, along with their subcon-
tractors, that are in the competitive range to receive contracts valued
over $25,000. The Vetting Support Unit in USAID’s mission in Afghanistan
reviews an information package from the contractor for completeness
and accuracy. If it identifies no problems, the USAID mission forwards the
package to the agency’s Office of Security in Washington, DC for additional
scrutiny. The USAID security office submits a recommendation of eligibility
for the contractor if it does not find any derogatory information. The USAID
Senior Deputy Mission Director makes the final determination on whether
to declare a contractor eligible for a contract.




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2013                   33
                                                           SIGAR OVERSIGHT




                                                              DOD has provided State and USAID with information on its Section
                                                           841 designees since November 2012. Although the agencies take this infor-
                                                           mation into consideration during their vetting processes, neither relies
                                                           exclusively on this information when making contracting decisions.
                                                              Because State and USAID are not subject to Section 841, they are not pro-
                                                           hibited from contracting with persons or entities identified as supporting an
                                                           insurgency or otherwise opposing U.S. or Coalition forces. In addition, the
                                                           agencies lack the authorities provided by Section 841 to terminate, restrict,
                                                           or void a contract awarded to a person or entity identified as supporting the
                                                           enemy or opposing U.S. forces. Although neither State nor USAID has active
                                                           prime contracts with current Section 841 designees, under existing law the
                                                           agencies would likely have to pay up to the full cost of any contract to com-
                                                           plete a termination with a future Section 841 designee.
Section 841 of the FY 2012 NDAA calls on
the CENTCOM commander to take steps
to prevent contracting with the enemy and                  MATTER FOR CONGRESSIONAL CONSIDERATION
authorizes DOD to terminate contracts it                   Congress may wish to consider expanding Section 841 authority to State
has determined are providing funding to                    and USAID to allow senior procurement executives to void, terminate for
active insurgent elements and opponents of                 default, or restrict future awards to persons or entities identified as enemies
U.S. or Coalition forces.                                  of the United States.

                                                           AGENCY COMMENTS
                                                           State and USAID commented that they would welcome the authority pro-
                                                           vided by Section 841, but both expressed concern with proposals that would
                                                           indiscriminately expand DOD-specific contracting provisions to them.

                                                           Audit 13-15: Security Transition
                                                           Afghanistan Public Protection Force: Concerns Remain about Force’s Capabilities
                                                           and Costs
                                                           In 2012, the Afghan government required nongovernmental organizations
FIGURE 2.1                                                 and private companies implementing USAID’s reconstruction and assistance
MAP OF APPF LOCATIONS                                      programs in Afghanistan to transition their security services from private
                                                           security companies to the state-run APPF. This report, which follows up on
                                                           SIGAR’s June 2012 audit that outlined concerns about the APPF, examined
          Mazar-e-Sharif              Kunduz               the effect of the transition on security provided for USAID projects, the costs
                                                           of the transition to the APPF, and USAID’s mechanisms to review the costs
                                                           of security services. A map of APPF locations is shown in Figure 2.1.
        Herat                Kabul         Jalabad
                             Gardez
                                                           FINDINGS
                                                           The effect of the transition to the APPF has been minimal on the projects
 Lashkar Gah           Kandahar                            in SIGAR’s sample, but only because implementing partners hired risk man-
                                 Main Headquarters         agement companies (RMCs) to fill APPF capacity gaps and perform critical
                                 Regional Headquarters     functions. The Afghan government allowed contractors to hire RMCs to
                                 Provincial Headquarters
                                                           provide security advisory services. These services include advice on logis-
Source: SIGAR Audit 13-15.                                 tics, transportation of goods and equipment, and contract management of




                                                             34                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                       SIGAR OVERSIGHT




the APPF. In addition the RMCs can provide training to the APPF guards
hired by an implementing partner. Although some RMC personnel may
be lightly armed for personal protection, Afghan government regulations
bar RMCs from providing armed security and other guard services. SIGAR
found that without RMCs, the APPF would be unable to provide the full
range of security services needed by USAID implementing partners.
   Contracted security costs decreased for more than half the projects in
SIGAR’s sample following the transition to the APPF because implementing
partners reassessed security needs and renegotiated expatriate labor rates
or contracts. The apparent ease with which implementing partners revised
their approach to providing security raises concern that previous security
requirements and costs were unnecessarily high.
   Ultimately, relying on the APPF as the sole provider of security services
raises concerns for future unrestrained cost increases. The APPF has a
monopoly on the provision of security services and can unilaterally estab-
lish its rates. As a result, USAID’s mechanisms to review the proposed
costs associated with an implementing partner’s use of the APPF do not
ensure that the APPF only charges implementing partners for the services it
provides. For example, SIGAR found that the APPF billed each implement-
ing partner for some services and items actually provided by the RMCs.
Implementing partners that require armed security have no choice but to
pay the APPF’s often inconsistent and inappropriate fees. Although the
contracted security costs for the majority of projects reviewed by SIGAR
decreased, the average rate for armed local guard services increased by as
much as 47% for projects under the APPF.
   Finally, USAID’s continuing inability to ensure that its implementing part-
ners adhere to Afghan government regulations for the proper use of RMCs
may result in Afghan government intervention to disband RMCs without a
valid license. Should the Afghan government intervene in this way, USAID’s
implementing partners would be left without the security services required
to continue operations.

RECOMMENDATIONS
To ensure that USAID implementing partners use RMCs in accordance
with Afghan government regulations, SIGAR recommended that the
USAID Mission Director for Afghanistan (1) determine why a formal
process requiring implanting partners to submit RMC licenses as part of
their requests to enter into subcontracts with RMCs was never created,
(2) establish and implement the necessary processes requiring imple-
menting partners to submit RMC licenses, (3) develop policy guidance
for implementing partners regarding the proper use of RMCs, (4) clarify
the ratio of RMC guards to APPF guards cited in RMC regulations, and
(5) establish a formal process to ensure that implementing partners do not
exceed the RMC ratio.




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2013                35
SIGAR OVERSIGHT




AGENCY COMMENTS
At the time this publication went to press, USAID was finalizing formal
comments on a draft of the report. The final audit report, including USAID’s
comments, can be found on SIGAR’s web site at www.sigar.mil.

Audit 13-16: Stability in Key Areas
Stability in Key Areas (SIKA): After 16 Months and $47 Million Spent, USAID Had Not Met
Essential Program Objectives
Over the past decade, USAID has overseen a series of stabilization pro-
grams aimed at improving security and extending the reach and legitimacy
of the Afghan government. SIGAR’s April 2012 audit of one of these
programs highlighted a number of problems, including high contractor
operating costs, difficulties setting and measuring program outcomes, and
mixed program results.
   USAID currently administers the Stability in Key Areas (SIKA) pro-
grams throughout Afghanistan, as shown in Figure 2.2. USAID created
four regional SIKA programs in the north, south, east, and west through
separate contracts with a total value of more than $203 million. AECOM
International Development Inc. (AECOM) received the contracts for SIKA
East, SIKA West, and SIKA South. Development Alternatives Inc. (DAI) won
the contract for SIKA North. Each of the contracts has an 18-month base
period with the possibility of additional 18-month option periods. USAID
extended the performance period for SIKA East, SIKA West, and SIKA
North before the 18-month base period expired, and signed a new contract
for SIKA South with a new 18-month base period in March 2013.
   SIGAR conducted this audit to (1) describe USAID’s progress in expend-
ing funds under the four regional SIKA programs, and (2) examine the
challenges USAID experienced in expending funds and implementing the
SIKA programs.

FINDINGS
The SIKA contracts called for the award of grants to district entities to
address sources of instability identified by local communities. Although
USAID had disbursed approximately $47 million for the four SIKA contracts
as of March 31, 2013, none of these funds have gone to fund the “labor
intensive or productive infrastructure projects” called for in the contracts.
Moreover, even in a few districts designated as pilot districts, AECOM and
DAI did not complete a full project cycle—from identifying sources of
instability through implementing community grant projects. Furthermore,
neither contractor had awarded grants to eligible district entities. Although
none of the programs had implemented grants, all four reported meetings
and training sessions to identify sources of instability and potential solu-
tions, increase local awareness of Afghan government and nongovernment
organization services, and improve communication between provincial and




   36                  SPECIAL INSPECTOR GENERAL     I   AFGHANISTAN RECONSTRUCTION
                                        SIGAR OVERSIGHT




FIGURE 2.2

SIKA COVERAGE AND EXPANSION, AS OF MARCH 31, 2013




                                        Mazar-e-Sharif       Kunduz PRT




                                                                Bagram
                                                               Kabul
           Herat




                                             Kandahar City                SIKA North                   USAID Contracting Office Representative (COR)
                                                                          SIKA East                    Chief of Party
                                                                          SIKA West                    USAID COR/Chief of Party
                                                                          SIKA South
                                                                          District Rollout Pilot
                                                                          District Rollout Expansion


Source: SIGAR analysis of USAID data.




district entities. However, the value of these events—and ultimately the
overall effectiveness of SIKA itself—cannot be established without grants
execution, which USAID identified as essential in achieving the overall
strategy and expected results of the contracts.
   Contractors for the four regional SIKA programs cited the lack of an
agreement with the Afghan government as one of the reasons for significant
delays in program implementation. The SIKA contracts stressed the impor-
tance of working with and through Afghan government partners so that the
programs were seen as an extension of the Afghan government. However,
USAID did not secure a formal agreement with key Afghan government
partners until nine months after it signed the first SIKA contract.
   The contracts also required that the SIKA programs adhere to a model
in which the community is responsible for project conception, implemen-
tation, and financial management. However, USAID’s failure to clearly




REPORT TO THE UNITED STATES CONGRESS    I   JULY 30, 2013              37
SIGAR OVERSIGHT




present the model led to inconsistencies in how the contractors applied
the model. This undercut the SIKA objectives and further delayed project
implementation.
   The program delays led USAID to extend the performance periods for
each of the contracts, even though the contractors had not executed any
grants. The overall delay in awarding grants appears to have created par-
ticipant dissatisfaction with the program, particularly in the east and the
south. There is a risk that disappointment in the program may undermine
the SIKA goals and result in further destabilization and alienation from the
Afghan government.

RECOMMENDATIONS
SIGAR recommends that the USAID Mission Director for Afghanistan
issue guidance requiring documentation of Afghan government agreement
for future USAID programs that align with Afghan government initiatives
prior to the start of the program. To help ensure that the SIKA programs
achieve identified strategic and program objectives, SIGAR also recom-
mends that the USAID Mission Director for Afghanistan instruct USAID
Mission Afghanistan’s Office of Acquisition and Assistance and Stabilization
Unit to modify the SIKA contracts to clearly articulate a consistent plan for
community contracting and implementing the Kandahar Model of commu-
nity contracting—in which the community is responsible for grant project
conception, implementation, and financial management—and instruct the
Contracting Officer’s Representatives for each of the contracts to ensure
that this approach is applied in the regional SIKA programs.

AGENCY COMMENTS
USAID believed that the first recommendation to require documenta-
tion of Afghan government agreement on future programs that align with
Afghan government initiatives, has been met and requested it be removed.
However, after reviewing the documentation provided by USAID, SIGAR
determined that the intent of the recommendation had not been addressed
and retained the recommendation in the report. USAID partially concurred
with the second recommendation, stating that it planned to modify the
SIKA West contract to add language on the Kandahar Model consistent with
that used in the other SIKA contracts. However, including references to the
Kandahar Model in the contracts does not meet the intent of the recom-
mendation in articulating a consistent plan for community contracting and
implementing the model. USAID did not concur with the third recommen-
dation to instruct the Contracting Officer’s Representatives for each of the
contracts to ensure that this approach is consistently applied in the regional
SIKA programs because it considered it redundant to processes already
in place. However, inconsistencies in the application of the model demon-
strate that the existing processes are not sufficient to ensure consistent




  38                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                       SIGAR OVERSIGHT




application in each of the SIKA programs. SIGAR therefore believes the rec-
ommended action is still necessary.

New Audits Announced This Quarter
This quarter, SIGAR initiated five new performance audits and two new          NEW AUDITS
financial audits, bringing the total number of ongoing audits to 27. Three     •	 Accountability of Weapons and
new performance audits will focus on U.S. efforts in two areas critical to        Equipment Provided to the Afghan
Afghanistan economy: banking and revenue collection. Two will look at U.S.        National Security Forces (ANSF)
programs to support the Afghan security forces. Other ongoing audits are       •	 U.S. Efforts to Develop and Strengthen
                                                                                  the Capacity of Afghanistan’s Central
assessing U.S. transition planning, programs to develop the Afghan security       Bank
forces, projects to develop Afghanistan’s water resources, the capacity of     •	 U.S. Agency for International
the Afghan government to verify payrolls, and the training of justice sector      Development (USAID) and Department
                                                                                  of Homeland Security Customs and
personnel. For a full list of ongoing performance audits, see Appendix C of       Border Protection (CBP) Efforts to
this quarterly report.                                                            Develop and Strengthen Afghanistan’s
                                                                                  Capacity to Assess and Collect
                                                                                  Customs Revenue
Accountability of Weapons and Equipment Provided to The                        •	 Wire Transfer Fees Associated with
Afghan National Security Forces (ANSF)                                            Department of Defense Payments to
                                                                                  Afghan Contractors
Since 2009, DOD has provided more than 714,000 weapons worth approxi-
                                                                               •	 Mobile Strike Force Vehicles for the
mately $1.5 billion to the ANSF. The drawdown of U.S. and Coalition               Afghan National Army
forces and the transition of security responsibilities to the ANSF pose
risks relating to the accountability of these weapons. CSTC-A bears pri-
mary responsibility for the training and equipping of the ANSF. It uses the
Foreign Military Sales (FMS) process, which is administered by the Defense
Security Cooperation Agency, to purchase most of the weapons.
   Both GAO and DOD OIG conducted audits on weapons accountability
for the ANSF in 2009. SIGAR will examine the action CSTC-A has taken to
respond to those reports. The audit will evaluate (1) the procedures for the
accountability of defense materiel and weapons procured by DOD to arm
the ANSF, and (2) the visibility and controls in place for the oversight of
defense materials and weapons after they have been provided to the ANSF.

U.S. Efforts to Develop and Strengthen the Capacity of
Afghanistan’s Central Bank
The near collapse of the Kabul Bank in September 2010 raised major con-
cerns among the U.S. and other international donor agencies regarding
the capacity of Afghanistan’s central bank, Da Afghanistan Bank (DAB), to
regulate Afghanistan’s commercial banks. Recent increased efforts by U.S.
government agencies to provide direct assistance funds to Afghan minis-
tries have raised concerns about the ability of the Afghan banking sector
to process these funds. This audit will evaluate the steps taken by various
U.S. agencies to strengthen the oversight and regulatory capacity of DAB,
the process by which U.S. agencies provide direct assistance funds to the
Afghan government, and the internal controls put in place to safeguard
these funds while deposited in Afghan banks.




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2013               39
SIGAR OVERSIGHT




USAID and Department of Homeland Security Customs and
Border Protection (CBP) Efforts to Develop and Strengthen
Afghanistan’s Capacity to Assess and Collect Customs Revenue
Improving the Afghan government’s ability to generate domestic revenues
by improving international trade and transit conditions is an important
goal of the U.S. reconstruction effort. USAID and the Department of
Homeland Security’s CBP have programs to help the Afghan government
reform customs laws, establish procedures, improve customs and border
operations, and increase revenue collection. This audit will review USAID
and CBP programs to develop and strengthen Afghanistan’s capacity to
assess and collect customs revenue. It will evaluate the extent to which
USAID and CBP programs designed to reform Afghanistan’s customs
processes, procedures, and laws have achieved intended outcomes and
contributed to the fiscal sustainability of the Afghan government.

Wire Transfer Fees Associated with DOD Payments to
Afghan Contractors
DOD, through the Defense Finance Accounting Services, uses multiple
U.S., international, and Afghan banks to execute wire transfers for pay-
ments to its Afghan contractors. These banks charge fees for processing
wire transfers. The Afghan banks that ultimately receive funds through the
final wire transfer are responsible for releasing those funds to the contrac-
tors. This audit will review how DOD uses wire transfers to pay its Afghan
contractors and determine (1) the amount of wire transfer fees that DOD,
or other U.S. government entities acting on behalf of DOD, paid between
January 1, 2010, and January 1, 2013, and (2) the extent to which those fees
are appropriate and reasonable based on applicable law, contracts, regula-
tions, and standards.

Mobile Strike Force Vehicles for the Afghan National Army
In January 2011, CSTC-A began ordering Mobile Strike Force Vehicles
(MSFV) to give the ANA a vehicle capable of providing protection similar
to that of the Mine Resistant Ambushed Protected vehicles used by the
International Security Assistance Force. MSFVs are procured through
DOD’s Foreign Military Sales (FMS) process. Since January 2011, obliga-
tions on these contracts have totaled more than $630 million for 634 MSFVs,
spare parts, maintenance, and training. To date, more than 300 MSFVs have
been delivered and are either in use by ANA battalions or fielded as part of
an in-country vehicle logistics support and operator training program. The
contractor is scheduled to deliver all remaining MSFVs by February 2014.
This audit will (1) evaluate the effectiveness of U.S. government oversight
of contracts to procure, operate, and maintain MSFVs for the ANA; and
(2) determine the extent to which the ANA has the capacity to operate and
maintain its current and planned MSFVs.




  40                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                       SIGAR OVERSIGHT




Financial Audits
This quarter SIGAR completed 11 financial audits of U.S.-funded contracts,      COMPLETED FINANCIAL AUDITS
grants, and cooperative agreements to rebuild Afghanistan. The awards—          •	 Financial Audit 13-1: Audit of Costs
with a combined value of about $942 million—supported U.S. efforts to              Incurred by Chemonics International
build Afghan security forces, improve governance, and foster economic              Inc. in Support of USAID’s Alternative
                                                                                   Livelihoods Program-Southern Region
development. These financial audits identified about $49.4 million in ques-     •	 Financial Audit 13-2: Audit of Costs
tioned costs as a result of internal control deficiencies and noncompliance        Incurred by Cardno Emerging Markets
issues. These deficiencies and noncompliance issues included, among other          Group LTD. in Support of USAID’s
                                                                                   Afghanistan State-Owned Enterprises
things, poor record retention, lack of supporting documentation, failure           Privatization, Excess Land Privatization,
to adhere to procurement procedures, misstatements of costs, indirect              and Land Titling Project
costs that could not be evaluated, unreasonable costs, improper processes,      •	 Financial Audit 13-3: Audit of Costs
                                                                                   Incurred by Futures Group International
and lack of tracking systems for equipment and spare parts. SIGAR has              LLC in Support of USAID’s Project for
provided the audit findings to the implementing agencies, which are respon-        Expanding Access to Private Sector
                                                                                   Health Products and Services in
sible for making the final determination on questioned costs.                      Afghanistan
   SIGAR also announced two new financial audits of USAID-funded con-           •	 Financial Audit 13-4: USAID’s Technical
tracts with a combined value of $410 million, bringing the total number of         Support to the Central and Provincial
                                                                                   Ministry of Public Health Project: Audit
ongoing financial audits to 13, with a combined value of nearly $1.5 billion.      of Costs Incurred by Management
   SIGAR launched its financial audit program in 2012 after Congress and           Sciences for Health
the oversight community expressed concern about oversight gaps and the          •	 Financial Audit 13-5: USAID’s Program
growing backlog of incurred cost audits for contracts and grants awarded in        to Support the Loya Jirga and Election
                                                                                   Process in Afghanistan: Audit of Costs
support of overseas contingency operations. SIGAR competitively selected           Incurred by The Asia Foundation
independent accounting firms to conduct the financial audits. SIGAR             •	 Financial Audit 13-6: USDA’s Program
ensures that the audit work is performed in accordance with U.S. govern-           to Help Advance the Revitalization of
                                                                                   Afghanistan’s Agricultural Sector: Audit
ment auditing standards and coordinates closely with the federal inspector         of Costs Incurred by Volunteers for
general community to avoid potential duplication of effort. A list of new and      Economic Growth Alliance
ongoing financial audits can be found in Appendix C of this quarterly report.   •	 Financial Audit 13-7: Department of
                                                                                   Defense Program to Support the Afghan
   The following is summary of each of the financial audits released this          National Army’s Technical Equipment
quarter, their findings, and SIGAR recommendations.                                Maintenance Program: Audit of Costs
                                                                                   Incurred by Afghan Integrated Support
                                                                                   Services
Financial Audit 13-1: Audit of Costs Incurred by Chemonics                      •	 Financial Audit 13-8: USAID’s Human
International, Inc. in Support of USAID’s Alternative                              Resources and Logistical Support
                                                                                   Program: Audit of Costs Incurred by
Livelihoods Program-Southern Region                                                International Relief and Development
Chemonics International Inc. (Chemonics) expended more than $165 mil-              Inc.
lion from February 2005 through October 2009 on a USAID contract to             •	 Financial Audit 13-9: USAID’s
                                                                                   Alternative Development Project South/
provide short-term employment and assist in the development and expan-             West: Audit of Costs Incurred by Tetra
sion of licit agriculture production that would provide an alternative to          Tech ARD
growing poppies in Afghanistan’s southern region. Activities focused on         •	 Financial Audit 13-10: USAID’s
physical infrastructure construction, small and medium enterprise develop-         Alternative Livelihoods Program–Eastern
                                                                                   Region: Audit of Costs Incurred by
ment, and agricultural and agribusiness assistance. The accounting firm            Development Alternatives Inc.
Crowe Horwath, under contract with SIGAR to conduct financial audits,           •	 Financial Audit 13-11: State
issued a disclaimer of opinion on the Fund Accountability Statement                Department’s Afghanistan Media
                                                                                   Project: Audit of Costs Incurred by
because Chemonics refused to provide support necessary to demonstrate              HUDA Development Organization
that the indirect costs charged to the contract were accurate. The audit firm      Afghanistan
also observed instances of noncompliance with the terms and conditions




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2013               41
SIGAR OVERSIGHT




of the contract and applicable regulations that have a direct and material
effect on amounts presented on the Fund Accountability Statement. Crowe
Horwath reported two material weaknesses, six significant deficiencies in
internal control over financial reporting, and 12 instances of noncompli-
ance. As a result, the auditors questioned a total of more than $13.5 million
in costs. The questioned costs included about $6.7 million in ineligible costs
and $6.8 million in unsupported costs.
    SIGAR made three recommendations to the Mission Director of USAID/
Afghanistan:
 •	 Determine the allowability of and recover, as appropriate, more than
    $13.5 million in questioned costs identified in the report.
 •	 Advise Chemonics to address the eight internal control findings
    identified in the report.
 •	 Advise Chemonics to address the twelve compliance findings identified
    in the report.

   Chemonics disagreed with each of the audit firm’s findings and all of the
questioned costs.
   This audit prompted SIGAR to also send an alert letter to USAID about
the refusal of Chemonics to provide auditors with all the information they
requested during the course of a financial audit. SIGAR urged USAID to
take special care in reviewing about $13.5 million questioned costs, remind
Chemonics about its responsibility to fully cooperate with federal audits,
and consider the issues identified in the financial audit in evaluating future
awards and award modifications involving Chemonics.

Financial Audit 13-2: Audit of Costs Incurred by Cardno
Emerging Markets Group LTD. in Support of USAID’s
Afghanistan State-Owned Enterprises Privatization, Excess
Land Privatization, and Land Titling Project
Cardno Emerging Markets Group LTD. (EMG) claimed total costs of nearly
$55.6 million on its contract with USAID to assist the Afghan government
with securing property registration, simplifying land titling procedures,
and clarifying the legal framework supporting property rights as well as
reforming, restructuring, and rationalizing state-owned enterprises. Regis
& Associates, under contract with SIGAR to conduct this financial audit,
found that EMG’s Fund Accountability Statement presented fairly, in all
material respect, revenues received and costs incurred under the contract
for the period September 15, 2004, through October 14, 2009. However, the
auditors reported two internal control deficiencies and two instances of
noncompliance, which prompted them to question $93,423 in costs. This
included $19,501 in ineligible costs and $73,922 in unsupported costs.
   SIGAR made three recommendations to the Mission Director of USAID/
Afghanistan:




  42                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                       SIGAR OVERSIGHT




•	 Determine allowability of and recover, as appropriate, $93,423 in
   questioned costs identified in the report.
•	 Advise EMG to address the two internal control findings identified in
   the report prior to applying for additional awards with USAID.
•	 Advise EMG to address the two compliance findings identified in the
   report prior to applying for additional awards with USAID.

   In its written response, EMG’s management concurred with the findings
and recommendations. However, EMG’s management requested that USAID
waive the unsupported amounts based on alternate supporting documentation
provided during the audit field work phase. EMG’s management also stated
that it will request approval from USAID on the exceeded budget line item.

Financial Audit 13-3: Audit of Costs Incurred by Futures
Group International LLC in Support of USAID’s Project for
Expanding Access to Private Sector Health Products and
Services in Afghanistan
USAID awarded Futures Group International LLC (Futures Group) a contract
to assist the Afghanistan government with developing and supporting local
health care solutions. From February 15, 2006, through May 12, 2012, the
Futures Group received payments of approximately $37.5 million. Regis &
Associates, under contract with SIGAR to conduct this financial audit, found
that the Futures Group’s Fund Accountability Statement presented fairly, in all
material respects, revenues received and costs incurred under the contract.
However, the auditors found two internal control deficiencies and two areas of
noncompliance. The audit also identified $45,445 in questioned costs, includ-
ing $43,044 in unsupported costs and $2,401 in ineligible costs.
    SIGAR made one recommendation to the Mission Director of USAID/
Afghanistan:
 •	 Determine the allowability of and recover, as appropriate, $45,445 in
    questioned costs identified in the report.

   In its written response, Futures Group concurred with the findings and rec-
ommendations. Futures Group’s management also stated that they will refund
to USAID the ineligible costs and unsupported costs, to the extent that satis-
factory transaction records are not identified for the unsupported costs.

Financial Audit 13-4: USAID’s Technical Support to the
Central and Provincial Ministry of Public Health Project: Audit
of Costs Incurred by Management Sciences for Health
In 2006, USAID awarded a cooperative agreement to Management Sciences
for Health (MSH) to improve the capacity of the Afghan Ministry of
Public Health to plan, manage, supervise, monitor, and evaluate the scale
of public access to basic and hospital health services. Mayer Hoffman




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2013                 43
SIGAR OVERSIGHT




McCann P.C. (MHM), under contract with SIGAR to conduct financial
audits, examined about $85.5 million in MSH expenditures from July 1,
2006, through December 31, 2012.
    MHM found that MSH’s Fund Accountability Statement presented
fairly, in all material respects, revenues received and costs incurred
under the agreement. MHM identified 14 recommendations from prior
audits or assessments for follow-up or corrective action. MSH did not
agree with USAID/Afghanistan’s July 2012 Regulatory Review for vetting
and procurement that corrective actions were necessary for 12 of the
findings and stated that there was no opportunity to remediate the other
two findings because the related sub-awards had ended. MHM reported
one significant internal control deficiency and two instances of noncom-
pliance which resulted in $12,666 in questioned costs. These included
$6,345 in ineligible costs and $6,321 in unsupported costs. The internal
control deficiency was MSH’s inability to provide documentation for
three sampled local staff wages.
    SIGAR made four recommendations to the Mission Director of USAID/
Afghanistan:
 •	 Determine the allowability of and recover, as appropriate, $12,666 in
    questioned costs identified in the report.
 •	 Advise Management Sciences for Health to address the internal control
    finding identified in the report.
 •	 Advise Management Sciences for Health to address the two compliance
    findings identified in the report.
 •	 Resolve the 14 open recommendations to MSH from the July 7, 2012 USAID/
    Afghanistan’s Regulatory Compliance Review for vetting and procurement.

  In its written response, MSH generally concurred with the audit findings
and noted that it had taken steps to address the deficiency and noncompli-
ance issues.

Financial Audit 13-5: USAID’s Program to Support the Loya
Jirga and Election Process in Afghanistan: Audit of Costs
Incurred by The Asia Foundation
In 2003, USAID awarded a cooperative agreement to The Asia Foundation
to support the election process managed by the Afghan Constitutional Loya
Jirga, assist in the establishment of the High Office of Oversight for Anti-
Corruption, and provide technical assistance to the Afghan government.
From August 1, 2003, through April 30, 2010, The Asia Foundation expended
nearly $84.9 million.
   Crowe Horwath, contracted by SIGAR to conduct financial audits, found
that The Asia Foundation’s Fund Accountability Statement presented
fairly, in all material respects, revenues received and costs incurred under
the contract. Nevertheless, Crowe Horwath reported five areas of internal




  44                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                       SIGAR OVERSIGHT




control deficiencies and instances of noncompliance, which led the auditors
to question $26,381 in costs. The questioned costs included $5,457 in ineli-
gible costs and $20,924 in unsupported costs. In addition, the audit found
that The Asia Foundation had not remitted an estimated $110,333 in interest
revenue earned on advances given by USAID.
   SIGAR made four recommendations to the Mission Director of USAID/
Afghanistan:
•	 Determine the allowability of and recover, as appropriate, $26,381 in
   questioned costs identified in the report.
•	 Recover the estimated $110,333 in interest revenue earned from
   advances provided.
•	 Advise The Asia Foundation to address the five internal control findings
   identified in the report.
•	 Advise The Asia Foundation to address the four compliance findings
   identified in the report.

   In its written response, The Asia Foundation disagreed with three of the
audit’s findings, including that it owed any revenue on interest earned on
USAID advances. It noted that it had many grants and cooperative agree-
ments from USAID and they were all covered by a single Letter of Credit
from 2003 to 2008. It provided a financial table to illustrate that it did not
have excess balances. The Asia Foundation concurred with two of the find-
ings and stated it was taking steps to develop an electronic archival system
to maintain records.

Financial Audit 13-6: USDA’s Program to Help Advance the
Revitalization of Afghanistan’s Agricultural Sector: Audit of
Costs Incurred by Volunteers for Economic Growth Alliance
The U.S. Department of Agriculture (USDA) awarded a cooperative agree-
ment to Volunteers for Economic Growth Alliance (VEGA) to enhance
the capability and effectiveness of the Afghan Ministry of Agriculture,
Irrigation, and Livestock. MHM, under contract with SIGAR to conduct
financial audits, examined about $17.2 million in VEGA expenditures from
November 24, 2010, through December 31, 2012. MHM found that except for
the possible effects of (1) not being able to review accounting records from
November and December 2012, totaling more than $2.6 million in costs and
(2) questioning $720,501 in unsupported costs, VEGA’s Fund Accountability
Statement presented fairly, in all material respects, revenues received and
costs incurred under the cooperative agreement.
    SIGAR made three recommendations to the USDA:
 •	 Determine the allowability of and recover, as appropriate, $720,501 in
    questioned costs identified in the report.
 •	 Advise VEGA to address the five internal control findings identified in
    the report.




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2013                 45
SIGAR OVERSIGHT




•	 Advise VEGA to address the two compliance findings identified in the report.

   In a written response, VEGA disagreed with the audit’s findings, particu-
larly concerning the two main deficiencies—timekeeping weaknesses and
lack of adherence to procurement procedures—that accounted for the bulk
of unsupported costs. VEGA also noted that the internal weaknesses identi-
fied by the audit team have been corrected.

Financial Audit 13-7: Department of Defense Program to
Support the Afghan National Army’s Technical Equipment
Maintenance Program: Audit of Costs Incurred by Afghan
Integrated Support Services
In December 2010, DOD awarded a contract to Afghan Integrated
Support Services (AISS) to support the ANA’s Technical Equipment
Maintenance Program by providing maintenance services, training
Afghans in vehicle maintenance, and building the capacity of Afghans
in the areas of management, administration, and leadership. MHM,
under contract with SIGAR to conduct financial audits, examined nearly
$32 million in AISS expenditures.
    MHM issued a disclaimer of opinion on the fair presentation of the Fund
Accountability Statement because AISS refused to provide the required
management representations indicating that it had made available all
information relevant to the audit. In addition, MHM reported four internal
control deficiencies and five instances of noncompliance, which prompted
the auditors to question a total of more than $2.8 million in questioned
costs. These included $217,643 in ineligible costs and more than $2.6 million
in unsupported costs.
    SIGAR made three recommendations to the Contracting Officer:
 •	 Determine the allowability of and recover, as appropriate, $2,869,307 in
    questioned costs identified in the report.
 •	 Advise AISS to address the four internal control findings identified in
    the report.
 •	 Advise AISS to address the five compliance findings identified in the report.
AISS disagreed with all the audit findings, including the more than $2.8 mil-
lion in questioned costs.

Financial Audit 13-8: USAID’s Human Resources and
Logistical Support Program: Audit of Costs Incurred by
International Relief and Development Inc.
USAID awarded International Relief and Development Inc. (IRD) a task
order to provide qualified professionals and technicians to support USAID
activities in Afghanistan. Crowe Horwath, contracted by SIGAR to conduct
financial audits, reviewed more than $81 million in IRD expenditures from
March 2006–April 2011.




  46                  SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                       SIGAR OVERSIGHT




   Crowe Horwath reported that IRD’s Fund Accountability Statement pre-
sented fairly, in all material respects, revenues received and costs incurred
under the contract. Nevertheless, Crowe Horwath reported three significant
deficiencies in internal control and six findings pertaining to matters of non-
compliance. The audit firm identified nearly $1.5 million in questioned costs.
   SIGAR made three recommendations to the USAID Mission Director/
Afghanistan:
•	 Determine the allowability of and recover, as appropriate, questioned
   costs identified in the report.
•	 Advise IRD to address the three internal control findings identified in
   the report.
•	 Advise IRD to address the six compliance findings identified in the report.
Although IRD agreed with some of the audit’s findings, it did not concur
with most of the questioned costs.

Financial Audit 13-9: USAID’s Alternative Development Project
South/West: Audit of Costs Incurred by Tetra Tech ARD
USAID awarded a contract to Tetra Tech ARD to implement the Alternative
Development Project South/West to reduce dependence on opium produc-
tion in Afghanistan’s southern and western regions. The $75 million program
sought to increase agriculture productivity, build relationships between
farmers and the market, strengthen the capabilities of the Ministry of
Agriculture, Irrigation, and Livestock, and rebuild agriculture infrastructure.
    MHM, contracted by SIGAR to conduct financial audits, reported four
internal control deficiencies and three instances of noncompliance. The
audit firm identified more than $3 million in questioned costs which included
almost $2.1 million in ineligible costs and $961,013 in unsupported costs.
MHM reported that, except for more than $3 million in questioned costs, the
Fund Accountability Statement presented fairly the revenues received and
costs incurred under the contract.
    SIGAR made three recommendations to the contracting officer:
 •	 Determine the allowability of and recover, as appropriate, the
    questioned costs identified in the report.
 •	 Advise ARD to address the four internal control findings identified in
    the report.
 •	 Advise ARD to address the three compliance findings identified in the report.
ARD disagreed with all of the findings resulting in questioned costs.

Financial Audit 13-10: USAID’s Alternative Livelihoods
Program–Eastern Region: Audit of Costs Incurred by
Development Alternatives Inc.
In 2005, USAID awarded a task order to Development Alternatives Inc.
(DAI) to implement the Alternative Livelihood Program for the eastern
region in the provinces of Kunar, Laghman, and Nangarhar. At the time




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2013                   47
SIGAR OVERSIGHT




these provinces accounted for almost a third of Afghanistan’s poppy
production. The $118.4 million program sought to accelerate broad-
based, sustainable regional economic development by supporting legal
activities and providing an immediate alternative source of income to
poor households whose livelihoods depended, directly or indirectly, on
the opium economy.
    MHM, contracted by SIGAR to conduct financial audits, reported four
internal control findings and one instance of noncompliance. The audit firm
identified more than $25 million in questioned costs. This included nearly
$24 million in unsupported costs and another $1.4 million in costs incurred
by a subcontractor that filed for bankruptcy. DAI had not obtained support
for the expenses incurred by this subcontractor. MHM reported that except
for questioned costs identified, the Fund Accountability Statement pre-
sented fairly the revenues received and costs incurred under the task order.
    SIGAR made three recommendations to the USAID Mission Director in
Afghanistan:
 •	 Determine the allowability of and recover, as appropriate, the
    questioned costs identified in the report.
 •	 Advise DAI to address the four internal control findings identified in
    the report.
 •	 Advise DAI to address the compliance finding identified in the report.
DAI disagreed with all the audit findings.

Financial Audit 13-11: State Department’s Afghanistan
Media Project: Audit of Costs Incurred by HUDA Development
Organization Afghanistan
State provided three grants to HUDA Development Organization
Afghanistan (HUDA) to promote independent journalism through the
Afghan Media Project. HUDA was to provide the journalism departments
of the universities with the ability to produce stories for the print, radio,
and television media in both Dari and Pashto. HUDA claimed total costs of
nearly $7.1 million from July 15, 2010, through December 31, 2012.
    MHM, contracted by SIGAR to conduct financial audits, reported fif-
teen internal control deficiencies and six instances of noncompliance,
which prompted them to question $2,405,102 in costs. This included
$173,469 in ineligible costs and about $2.2 million in unsupported costs.
MHM reported that, except for questioned costs identified, HUDA’s Fund
Accountability Statement presented fairly revenues received and costs
incurred under the grants.
    SIGAR made three recommendations to State’s grant agreement officer:
 •	 Determine the allowability of and recover, as appropriate, the
    questioned costs identified in the report.
 •	 Advise HUDA to address the fifteen internal control findings identified
    in the report prior to applying for additional awards with State.




  48                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                       SIGAR OVERSIGHT




•	 Advise HUDA to address the six compliance findings identified in the
   report prior to applying for additional awards with State.

   In its written response, HUDA’s management concurred with three
of the fifteen internal control and noncompliance findings and recom-
mendations. However, HUDA’s management did not concur with any of
the questioned costs findings and recommendations, stating that (1) they
followed relevant standards for competitive process in awarding the
subcontracts, and (2) they located and provided supporting documents
subsequent to the audit fieldwork.


INSPECTIONS
This quarter, SIGAR published two inspection reports and two safety alert
letters resulting from the inspections, which highlighted a number of con-
                                                                                   COMPLETED INSPECTIONS
                                                                                    •	 Inspection 13-9: Sheberghan Teaching
struction deficiencies, risks to health and safety, and ongoing problems with          Training Facility: U.S. Army Corps
contract oversight of infrastructure projects.                                         of Engineers Paid Contractors and
                                                                                       Released them from Contractual
   In addition to ongoing work, SIGAR also initiated an inspection of the              Obligations before Construction Was
Justice Center Court House construction project in Parwan, pictured on the             Completed and Without Resolving
                                                                                       Serious Health and Safety Hazards
cover of this report, to determine whether the project complies with con-
                                                                                    •	 Inspection 13-10: Bathkhak School:
struction requirements and adheres to key contract terms and conditions.               Unauthorized Contract Design
                                                                                       Changes and Poor Construction Could
Inspection 13-9: Sheberghan Teaching Training Facility: U.S. Army                      Compromise Structural Integrity
Corps of Engineers Paid Contractors and Released them from
Contractual Obligations Before Construction Was Completed
and Without Resolving Serious Health and Safety Hazards
In 2008, USAID and the U.S. Army Corps of Engineers (USACE) agreed
to build educational facilities in Afghanistan. In February 2009, USACE-
Afghanistan Engineer District North (USACE-TAN) awarded a $2.9 million
contract to build three teacher training facilities in northern Afghanistan
to Mercury Development, an Iraqi company. One of these facilities was
to be located in Sheberghan in Jawzjan Province and completed in
December 2010. USACE extended the contract to June 2011 and increased
its value to $3.4 million.
    SIGAR assessed whether the construction was completed in accordance
with the contract and whether the facilities were being used as intended
and maintained.

FINDINGS
After four years and two separate contracts, the Sheberghan training facility
                                                                                Improper electrical wiring and over-
remains incomplete. Water, sewage, and electrical systems have not been
                                                                                loaded electrical circuits (circled in red)
finished. The lack of electricity prevented SIGAR from testing the light-       demonstrate the risk of fire and electrical
ing, heating and cooling, water, and other systems. However, SIGAR found        shock to Sheberghan school occupants.
the wiring in the facility does not meet U.S. electric codes. Moreover, an      (SIGAR photo)




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2013               49
SIGAR OVERSIGHT




improper “tap” into the system presents a serious safety hazard. In addi-
tion, the water well may have been placed too close to the facility’s sewage
system, raising potential health issues. SIGAR issued a safety alert letter
highlighting this issue. See page 55 for details on the alert letter.
   Despite the contractor’s failure to complete construction and resolve health
and safety issues, USACE-TAN closed out the contract in late 2011. Having
paid Mercury Development $3.1 million of the contract’s $3.4 million for work
completed at three teacher training facilities, USACE-TAN released the con-
tractor from further liability. In January 2012, USACE-TAN awarded a $153,000
contract to an Afghan company to complete the facility within 30 days. Almost
a year later, USACE-TAN terminated this contract because of the contrac-
tor’s failure to complete the project. USACE-TAN also released the second
contractor from further liability. USACE-TAN plans to hire a third contractor
to finish the work. SIGAR noted a disturbing trend where USACE fails to hold
contractors accountable for completing the work they were paid to perform.
In January 2013, USAID terminated the agreement with USACE and is now
taking steps to award a new contract to complete the facility, remediate prob-
lems, and formally transfer the facility to the Afghan government.
   Afghan teachers and students are using the unfinished Sheberghan facili-
ties despite the lack of working systems and the health and safety issues.
The U.S. government remains responsible for operations and maintenance
because it has not yet transferred the facility to the Afghan government. The
facility’s occupants have asked the U.S. government to fund an estimated
$50,000 per month in fuel costs for the electrical generator.

RECOMMENDATIONS
SIGAR made five recommendations to address the problems identified
in this inspection. SIGAR recommended that the Commanding General,
USACE direct USACE-TAN to determine, and report the results to SIGAR,
on the reasons why two contractors were released from their contractual
obligations and liabilities despite poor performance, unfinished construc-
tion, and electrical problems and determine disciplinary action may be
appropriate. SIGAR also made four recommendations to the USAID Mission
Director for Afghanistan determine whether sanitary sewer lines were
improperly placed in relation to the water well, take measures to mini-
mize the health and safety risks arising from faculty and students’ current
unauthorized use of the facility, complete construction of the Sheberghan
teacher training facility and expedite its turnover to the Afghan govern-
ment, and provide adequate project oversight.

AGENCY COMMENTS
USACE agreed to review the circumstances surrounding the contracts’
close-outs contracts and report its results to SIGAR. SIGAR initially
directed its recommendations concerning sewer line placement and




  50                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                       SIGAR OVERSIGHT




addressing health and safety risks to USACE. However, USACE no longer
has the authority to conduct work on the project or control the facility’s
usage. As a result, SIGAR directed these recommendations to the USAID
Mission Director. In its comments, USAID concurred with the last two rec-
ommendations. USAID also provided information on its efforts and plans
to award a contract to complete the project, provide oversight, and transfer
the facility to the Afghan government.

Inspection 13-10: Bathkhak School: Unauthorized Contract
Design Changes and Poor Construction Could Compromise
Structural Integrity
In August 2012, USFOR-A, through the Commander’s Emergency Response
Program, awarded a $262,899 contract to build an addition and improve
conditions at a school located in the village of Bathkhak in Kabul Province.
The contract had a 150-day performance period and required construction
of a single-story, 10-classroom building. The contractor was also supposed
to build a structure to house the generator, repair the water wells, install an
irrigation system, complete a brick wall around the compound, and upgrade
the existing classroom building. SIGAR assessed whether construction was
completed in accordance with contract requirements and whether construc-
tion deficiencies had been identified and corrected.

FINDINGS
SIGAR found that the contractor failed to meet contract design and material
requirements. This, together with poor construction, jeopardizes the struc-
                                                                                  Construction deficiencies found at
tural integrity of Bathkhak School.
                                                                                  Bathkhak school include large gaps
   Instead of building a single-story, 10-classroom building, the contractor      between bricks in the wall that support the
is building two five-classroom buildings. Without U.S. government approval        ceiling and roof. (SIGAR photo)
or knowledge, the contractor substituted building materials, using brick
instead of cinderblock for the walls and a concrete slab for the roof instead
of the wood-trussed framing system called for in the contract. The roof sub-
stitution raises serious safety concerns because the school sits in an area
of high seismic activity. SIGAR issued a safety alert letter highlighting this
issue. See page 55 for details on the alert letter.
   SIGAR found a number of construction flaws including (1) large gaps
between bricks in the walls that support the concrete ceiling and roof;
(2) walls that did not appear to be reinforced; and (3) honeycombing,
exposed rebar, and concrete form boards that remain in the roof. Each of
these issues could compromise the building’s structural integrity.

RECOMMENDATIONS
SIGAR recommended that the Commanding General of USFOR-A direct the
appropriate USFOR-A units to (1) immediately conduct a thorough inspec-
tion of the two new school buildings to determine whether to certify their




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2013                 51
SIGAR OVERSIGHT




structural integrity, (2) require the contractor to correct the deficiencies,
(3) review the product substitutions and determine whether the changes
warrant a reduction in the overall cost of the contract, and (4) identify the
contractor officer(s) responsible for initial oversight of the construction
projects. SIGAR recommended that USFOR-A determine why no oversight
visits were made during the first six months of construction, no contracting
modifications were made approving the substitution of building materials,
and no pricing determinations were made of the substituted materials. After
making these determinations, SIGAR recommended that USFOR-A decide
what, if any, disciplinary action should be taken against the contracting
officer(s) responsible for not properly overseeing construction activities.

AGENCY COMMENTS
In its written comments on a draft of this report, USFOR-A generally agreed
with SIGAR’s recommendations and noted that, as a result of SIGAR’s
report, it has implemented several new policies and re-inspected all recently
completed infrastructure projects.

STATUS OF SIGAR RECOMMENDATIONS
The Inspector General Act of 1978, as amended, requires SIGAR to report
on the status of its recommendations. This quarter, SIGAR closed nine rec-
ommendations contained in Audit 11-5 which examined U.S. salary support
for Afghan government employees and technical advisors.
   From 2009 through June 2013, SIGAR published 85 reports and made a
total of 291 recommendations to recover funds, improve agency oversight,
and increase program effectiveness. To date, SIGAR has closed about 70%
of these recommendations. Closing a recommendation generally indicates
SIGAR’s assessment that the audited agency has either implemented the
recommendation or otherwise appropriately addressed the issue. In some
cases, a closed recommendation will be the subject of follow-up audit work.
   Corrective actions taken for the closed audit recommendations this period
included the designation of a representative to serve as a focal point for
requests for salary support and to monitor salary support provided to Afghan
civil servants by U.S. agencies. SIGAR closed this audit but on condition that it
would examine more recent U.S. efforts to support the Afghan civil service.
   The Inspector General Act of 1978, as amended, also requires SIGAR to
report on any significant recommendations from prior reports on which correc-
tive action has not been completed. In this quarter, SIGAR continued to monitor
agency actions on recommendations in 28 audit and inspection reports.
   Currently, there is only one audit report over 12 months old that is pending
resolution. Audit 11-13, Limited Interagency Coordination and Insufficient
Controls over U.S. Funds in Afghanistan Hamper U.S. Efforts to Develop the
Afghan Financial Sector and Safeguard U.S. Cash, was published on July 20,
2011. The audit, discussed in SIGAR’s April 2013 quarterly report, contains




  52                  SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                       SIGAR OVERSIGHT




four recommendations. One was directed to the U.S. ambassador to improve
interagency coordination on financial sector development programs; the other
three were directed at the Secretaries of State and Defense to strengthen over-
sight over the flow of U.S. funds through the Afghan economy.
   SIGAR considers the recommendations resolved for five other audit and
inspection reports that have remained open over 12 months. SIGAR is wait-
ing for the agencies to complete the agreed upon actions.


SPECIAL PROJECTS
During this reporting period, SIGAR’s Office of Special Projects issued a
                                                                                    COMPLETED SPECIAL PROJECT
special report on contracts for culvert denial systems, two safety alert let-
                                                                                    •	 SIGAR SP 13-8: Improvised Explosive
ters, and two management alert letters. SIGAR sent the alert letters to State,         Devices: Unclear Whether Culvert
USAID and DOD to highlight urgent issues related to nonpayment of subcon-              Denial Systems to Protect Troops Are
                                                                                       Functioning Or Were Ever Installed
tractors, U.S. government waste, and school safety. It also provided a special
briefing on the Kabul Bank crisis for the House Committee on Oversight and
Government Reform. In addition, SIGAR continued its efforts to get imple-
menting agencies to identify their ten best performing programs.

SP 13-8: Improvised Explosive Devices: Unclear Whether
Culvert Denial Systems to Protect Troops Are Functioning
Or Were Ever Installed
Because of the serious threat posed by the placement of improvised explo-
sive devices (IEDs) in roadway culverts, DOD has funded a number of
contracts to install systems to prevent insurgents from being able to access
culverts. In 2012, A SIGAR investigation found that at least two Afghan
companies in one province—with contracts valued at nearly $1 million to
install culvert denial systems—had either never installed the systems or
had improperly installed them. The ongoing investigation is looking into
whether this apparent failure to perform may have been a factor in the
death and injury of several U.S. soldiers. To date, an Afghan contractor and
his sub-contractor have both been arrested and charged with fraud and neg-
ligent homicide. SIGAR investigators are working with the Afghan Attorney
General’s Office to arrest the second contractor. SIGAR alerted DOD to the
investigations findings earlier this year.
    SIGAR initiated this review to identify the number of contracts DOD has
awarded for culvert denial systems and the extent to which DOD is provid-
ing oversight of these important contracts.
    SIGAR found insufficient evidence to determine the number of contracts
that DOD has awarded to install culvert denial systems. SIGAR identified
three reasons for the lack of visibility into where these systems have been
installed and at what they have cost:
 •	 The installation of culvert denial systems is often included as a requirement
    in a road construction contract rather than as a separate contract.




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2013                   53
                                              SIGAR OVERSIGHT




                                              •	 Military units generate very different requirements for these systems
                                                 based on the threat levels in their areas.
                                              •	 U.S. troops have also constructed and installed the systems.

                                                  In addition, SIGAR has serious concerns about contract oversight for the
                                              construction and the installation of these systems. Existing documentation
                                              did not show whether culvert denial systems paid for with U.S. government
                                              funds were ever installed or, if they were, that the systems were installed
                                              properly. The accuracy, completeness, and quality of the contract files dem-
                                              onstrated significant problems with quality control and quality assurance.
                                              Finally, SIGAR believes that it is important to know where culvert systems
                                              have been installed and what condition they are in to prevent any further
                                              loss of life from the placement of IEDs in roadside culverts. SIGAR made
                                              three recommendations to the commanders of USFOR-A and C-JTSCC to
                                              improve contract management and oversight:
Culvert-denial systems like this grid
of steel rods prevent insurgents from
                                               •	 Ensure that specific requirements are included in all contracts for
easily placing explosives beneath roads.          quality assurance and quality control to be performed and documented.
(SIGAR photo)                                  •	 Ensure that contracting officials are performing the required quality
                                                  assurance and quality control for culvert denial systems prior to making
                                                  payments.
                                               •	 Ensure actions are taken to identify, to the extent possible, the
                                                  locations of culvert denial systems throughout Afghanistan.

                                                 In its response to this report, C-JTSCC noted that it had taken a num-
                                              ber of steps to improve the quality to its contract oversight. C-JTSCC also
                                              requested additional time to assemble and review all records associated
                                              with culvert denial contracts awarded by regional commands in order to
                                              identify locations of culvert denial systems throughout the military theater.
                                              SIGAR believes this is reasonable.
                                                 The IJC emphasized that, due to the drawdown of Coalition Forces over
                                              the coming months and years, they may have to use alternative measures
                                              to inspect and identify locations of culvert denial systems. SIGAR acknowl-
                                              edges that alternative measures, such as aerial observation, may be needed.
                                              However, SIGAR also believes that it is not acceptable to spend taxpayer
                                              money on a contract when the contracting officer has no way to verify that
   SPECIAL PROJECT ALERT LETTERS              the contract has been fulfilled.
   •	 Management Alert SP 13-4:
      Subcontractor Nonpayment Issues         Management Alert SP 13-4: Subcontractor Nonpayment Issues
   •	 Safety Alert SP 13-5: Bathkhak School   SIGAR sent a management alert letter to DOD, State, and USAID to inform
   •	 Safety Alert SP 13-6: Sheberghan        these agencies about the numerous complaints SIGAR has received relat-
      School                                  ing to nonpayment of subcontractors. Nearly a quarter of SIGAR’s hotline
   •	 Management Alert SP 13-7: Command       complaints from 2009 through 2012 have been related to Afghan prime
      and Control Facility and Camp
      Leatherneck                             contractor and subcontractor nonpayment issues. SIGAR has opened 52
                                              investigations involving claims of $69 million that had not been paid. SIGAR




                                                54                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                       SIGAR OVERSIGHT




views the failure of prime contractors to pay their Afghan subcontractors as
a serious risk to the U.S. reconstruction effort. The potential risks to subcon-
tractors include business disruption and failure, with severe consequences
for the livelihoods of employees and their families. Prime contractors
accused of failing to pay subcontractors also face considerable risk of work
stoppages, denial of access to work sites, death and kidnapping threats. As a
result, U.S.-funded projects may be delayed, left incomplete, or sabotaged.
   SIGAR urged the U.S. senior civilian and military leadership to determine
the extent of the problem in the contracts that DOD, State, and USAID have
awarded for Afghanistan reconstruction projects and to (1) more aggres-
sively oversee these contractors to ensure subcontractors are promptly
paid for their work, and (2) ensure that contract payment disputes are
resolved according to contract terms.

Safety Alert SP 13-5: Bathkhak School                                              A risk of collapse exists at the Bathkhak
SIGAR alerted the USFOR-A Commander that shoddy construction under-                School because the contractor installed
mined the structural integrity of the U.S.-funded additions to the Bathkhak        a concrete-slab roof atop brick walls
School in the Bagami district of Kabul province. Among other things,               instead of the wood-framed roof atop
SIGAR found that design and construction flaws in the walls and roof               concrete blocks as required by contract.
                                                                                   (SIGAR photo)
could compromise the building’s structural integrity. SIGAR was concerned
that the roof could collapse on school children if it was not fixed before
the school opened. Therefore, SIGAR urged USFOR-A to take all neces-
sary and appropriate measures to address the safety risks that SIGAR had
identified. SIGAR also urged USFOR-A to delay transferring the Bathkhak
School buildings to the Afghan government until it received the full inspec-
tion report and was able to take action to address all its concerns. The final
inspection report and USFOR-A’s response to SIGAR’s report and recom-
mendations are summarized on page 51, under the inspections subheading
of this report.

Safety Alert SP 13-6: Sheberghan Teacher Training Facility
SIGAR notified DOD and USAID about the safety risks it found during its
inspection of the US.-funded teacher training facility in Sheberghan in
Jawzjan province. SIGAR sent the alert letter, outlining structural issues
as well as problems with the electrical, water, and sewage systems to
enable the implementing agencies to correct the problems as quickly as
possible. SIGAR inspectors had found problems with the electrical wiring
that created potential electrocution risks and fire hazards for the building’s
occupants. Despite the fact that the building was still under construc-
tion, SIGAR found that Afghans were already using the building. SIGAR
urged that USAID take all the appropriate measures to address the safety
                                                                                   Despite water and sewage system prob-
risks identified as soon as possible. The final inspection report and agency       lems, as well as electrical concerns, the
responses to the report and recommendations are summarized on page 49,             Sheberghan school is already in use by
under the inspections subheading of this report.                                   Afghans. (SIGAR photo)




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2013                  55
SIGAR OVERSIGHT




Cavernous and unneeded by the U.S. military, a $34 million command-and-control
complex with an acre and a half of floor space sits idle in Helmand Province, with no
current plans for alternative use. (SIGAR photo)


Management Alert SP 13-7: Command and Control Facility
at Camp Leatherneck
SIGAR alerted the Secretary of Defense, the CENTCOM Commander, and
the USFOR-A Commander to its discovery that a $34 million, 64,000 square-
foot-building and related infrastructure at Camp Leatherneck may never
be occupied. Documents provided to SIGAR indicated that as early as
May 2010 military commanders in Afghanistan determined that the build-
ing, which was meant to serve as a command headquarters in Helmand to
support the surge, was not needed. Nevertheless, the military still built the
facility and continued to purchase equipment and make various improve-
ments to the building through early 2013. In addition, SIGAR understands
that U.S. military officials expect the building to be either demolished or
turned over to the Afghan government as the U.S. military presence in
Afghanistan declines and Camp Leatherneck is reduced in size.
   To better understand why construction on this facility was not stopped
after it became clear that it was not necessary, SIGAR requested DOD and
the senior military leadership to provide detailed information about the
decision to continue building the command headquarters. Those responses
are due after this report went to press.

Top Ten Success and Failures
Last quarter SIGAR wrote to the Secretaries of State and Defense, and the
Administrator of USAID, asking that each of their agencies submit a list of
their 10 most-successful and 10 least-successful projects or programs in the
Afghanistan reconstruction effort, along with an explanation of the criteria
used for assessment and selection.




   56                   SPECIAL INSPECTOR GENERAL      I   AFGHANISTAN RECONSTRUCTION
                                       SIGAR OVERSIGHT




   Although the agencies responded, they did not submit top-10/bot-
tom-10 lists. They said, among other things, that many projects were
conducted in cooperation with other agencies, and that performance
criteria were often project-specific. The agencies did, however, present
general descriptions of their efforts and pointed to various indicators of
overall progress in Afghanistan.
   This quarter SIGAR replied, noting that they had not complied with the
agency’s request for information. After pointing out that 2012 Office of
Management and Budget guidance for executive departments and agen-
cies had specifically called for measures to facilitate project comparisons,
SIGAR observed that some of the overall indicators the agencies cited were
not prima facie evidence of program or project success. For example, the
cited metric of percentage of population within an hour’s walk of a health
facility could partly reflect Afghanistan’s increasing urbanization or even
better roads and paths, as well as health-program success.
   SIGAR also noted that the agency responses indicated some level of pro-
gram evaluation was being conducted and asked why the agencies could
not compare outcomes. SIGAR repeated its earlier request, but modified it
to ask for three lists of 10 more- and 10 less-successful projects or programs
to avoid imposing burdensome research tasks on agency personnel to com-
pile an absolute ranking.

Congressional Briefing on Kabul Bank Crisis
SIGAR briefed staff of the House Oversight and Government Reform
Committee on its review of all the official reports related to the Kabul
Bank crisis. When the bank collapsed in 2010, loans and advances to
customers totaled about $935 million and amounted to 70% of depositor
funds at the bank. Customer deposits were the sole source of financ-
ing for the bank’s activities. Afghanistan’s central bank, Da Afghanistan
Bank (DAB) covered the losses. As of July 2013, only $173.2 million has
been recovered.
   SIGAR informed the Committee that it had found no evidence to suggest
than any U.S. foreign assistance funds were directly lost in the Kabul Bank
crisis. Although the U.S. government and international organizations used
the bank to transfer salary payments for the Afghan security forces and
Afghan civilian employees, it did not play a direct role in the establishment
or development of the bank.
   SIGAR is conducting an audit of U.S. efforts to develop and build the
capacity of DAB. The audit will evaluate the steps taken by U.S. agencies
to strengthen the oversight and regulatory capacity of DAB after the near
collapse of the Kabul Bank. The audit will also assess the process by which
U.S. agencies provide direct assistance funds to the Afghan government,
and the internal controls put in place to safeguard these funds while they
are in Afghan banks.




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2013                57
                                                  SIGAR OVERSIGHT




                                                  INVESTIGATIONS
                                                  During this reporting period, SIGAR’s ongoing investigations related to
                                                  fuel thefts saved the U.S. government approximately $800,000. SIGAR
                                                  investigations also resulted in two arrests, two indictments, two criminal
                                                  informations and two guilty pleas in the United States as well as two court-
                                                  martial convictions under the Uniform Code of Military Justice and two
                                                  arrests under Afghan law. Criminal fines and restitutions amounted to over
                                                  $88,000. In addition, SIGAR’s suspension and debarment program referred
                                                  27 individuals and 15 companies for suspension or debarment based on evi-
                                                  dence developed as part of SIGAR’s investigations.
                                                      During this reporting period, SIGAR initiated 33 new cases and closed 42,
                                                  bringing the current number of active investigations to 289, of which SIGAR
                                                  is the lead agency on 238, as shown in Figure 2.3.

                                                  Criminal Information Filed Against U.S. Army Captain and
                                                  Military Member Debarred
Reporting fraud is the goal of a SIGAR            On May 28, 2013, the United States Attorney’s Office in the Eastern District of
Investigations Directorate outreach cam-          North Carolina filed a criminal information against Captain Franklin Delano
paign that includes advertisements and            Rivera-Medina, charging him with one count of solicitation and acceptance
posters featuring the Fraud Hotline number        of gratuities; a second count of bulk cash smuggling; and aiding and abetting
and e-mail address. (SIGAR image)
                                                  the same. The criminal information is the result of a multi-agency investiga-
                                                  tion conducted by SIGAR, the Federal Bureau of Investigation (FBI), Defense
                                                  Criminal Investigative Service (DCIS), and Army Criminal Investigation
                                                  Command-Major Procurement Fraud Unit (CID-MPFU).
                                                     From April 2008 through February 2009, Rivera-Medina was deployed to
                                                  Afghanistan with the Combined Joint Special Operations Task Force. As the
 Indictment: a formal, written accusation         Service Detachment Commander, Rivera was responsible for re-supplying
 originating with a prosecutor and issued         17 forward operating bases by contracting with local vendors for vehicles
 by a grand jury against a party charged
                                                  known in Afghanistan as “jingle trucks” that transport and deliver supplies.
 with a crime. Its sole purpose is to identify
                                                  In collusion with another military member, Tonya Long, Rivera accepted
 the defendant’s alleged offense, and is
 not evidence that the offense charged was        cash gratuities, as well as large screen televisions, high-end electronics, and
 committed and may not be considered as           other gifts from Afghanistan trucking vendors in exchange for preferential
 evidence in a subsequent trial.                  treatment. He smuggled more than $10,000 in currency back into the United
                                                  States with the intent to evade currency-reporting requirements by conceal-
 Criminal Information: a written accusation       ing the money in gutted video players. Rivera has been ordered to forfeit all
 made by a public prosecutor, without the         property and proceeds that resulted from his illegal activity.
 participation of a grand jury. The function of      Additionally, on June 6, 2013, the U.S. Army Legal Services Agency
 an information is to inform the defendant of     issued a letter advising Long, the second subject of this investigation, that
 the nature of the charge made against him        she was debarred for a period of ten years. In September 2012, a criminal
 and the act constituting such charge so that
                                                  information was filed against Long charging her with one count of bulk cash
 he can prepare for trial and to prevent him
                                                  smuggling and with aiding and abetting another in doing the same. Long
 from being tried again for the same offense.
                                                  smuggled approximately $1 million from Afghanistan to North Carolina. In
 (Black’s Law Dictionary)
                                                  March 2013 she pled guilty to the charges and was sentenced to 60 months
                                                  confinement and $1 million in restitution.




                                                    58                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                       SIGAR OVERSIGHT




Investigation Results in Court-Martial Convictions for Theft,                   FIGURE 2.3

Bribery, and Drugs                                                              SIGAR INVESTIGATIONS: NUMBER OF OPEN
In April 2013, a military judge sentenced two U.S. servicemen to be con-
                                                                                INVESTIGATIONS, AS OF JUNE 30, 2013
fined for 21 months and nine months respectively. The court-martial--which
resulted from a SIGAR investigation of fuel theft, bribery and drugs on U.S.
                                                                                                       Total: 289
bases in Afghanistan--also reduced the ranks of the two men.
   The investigation began when the 147th Financial Management Support
Detachment at Forward Operating Base (FOB) Salerno contacted SIGAR
in March this year and advised investigators that U.S. Army Private First
                                                                                                               Corruption
Class Jesse Montel Anderson had been conducting unusual transac-                             Procurement       90
                                                                                             and Contract
tions using his Eagle Cash card, a debit card used by the military. From                     Fraud
September 2012 until February 2013, Anderson had been assigned as a                          113
                                                                                                             Miscellaneous
fuel technician to Combat Outpost Terazayi. From February 23 through                                         63
March 9, 2013, Anderson made five transfers of cash to his Eagle Cash
account in $350 increments totaling $1,750. In addition, on or about
February 6, 2013, Anderson inquired about converting $4,500 in denomina-                  Theft
                                                                                          23
tions of $100 to his Eagle Cash account. Anderson was informed that the
limit for each transaction was $350 and that no denomination larger than        Source: SIGAR Investigations Directorate, 7/9/2013.
$20 would be authorized.
   SIGAR and Army CID agents interviewed Anderson and he admitted that
while assigned to Terazayi he had taken money from two Afghan citizens
in exchange for fuel. Anderson stated that an interpreter from Terazayi
told him that he had purchased fuel from a soldier with the previous unit
assigned to the outpost. Anderson told SIGAR agents that he sold the fuel to
the interpreter and Noor Wali Khan, a local contractor, by allowing 400-500
gallons of fuel to remain in the trucks after they were unloaded. He said the
interpreter and Noor paid him $100 per 100 gallons of fuel on nine separate
occasions totaling $4,500. Anderson stated that Noor told him that he, the
truck driver, and the fuel company would divide the profits from the sale of
the fuel. Anderson also admitted to having deposited $350 to his Eagle Cash
account on five different occasions.
   SIGAR and Army CID agents conducted a search of Anderson’s room on
FOB Salerno. During the search, investigators seized 550 grams of hashish,
$4,500 in $100 denominations, $1,400 in $20 denominations, and a note-
book containing fuel records.
   During a second interview, Anderson admitted to having exchanged $900
of fuel for a kilogram of hashish from Noor on Terazayi. He stated that he
had arranged for a transfer of the hashish via Facebook communications
with a service member who was assigned to FOB Salerno, Specialist Keith
Williams. Williams agreed to sell the hashish on FOB Salerno for Anderson
and later divide the profits. Anderson granted SIGAR agents access to his
Facebook account, which confirmed his statement.
   Anderson also stated that he had provided some of the hashish to
another service member assigned to Terazai, Specialist James Sellers.




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2013               59
                                             SIGAR OVERSIGHT




                                                 SIGAR agents interviewed Williams, who admitted that he had received
                                             the hashish from Anderson and that the two had discussed selling it on
                                             Facebook. Williams stated that a fourth service member, Specialist James
                                             Morris, actually sold the hashish on FOB Salerno. Williams said he collected
                                             and held the money from the sales for Anderson.
                                                 In subsequent interviews, Sellers admitted that he had used hashish
                                             obtained from Anderson. Morris admitted to using hashish given to him
                                             by Williams. Based on their confessions and corresponding co-defendant
                                             statements, Sellers and Morris were charged with possession and use of a
                                             controlled substance by U.S. Army JAG Office on FOB Salerno. They were
                                             both reduced in rank from E-4 to E-1, fined two months pay ($1,516) and
Cash and drugs derived from fuel theft       ordered to serve 45 days extra duty.
and bribery and seized by SIGAR and Army         On April 30, 2013, Anderson was sentenced by court-martial to 21 months
investigators earned two Army enlisted men   in confinement, a reduction in rank from Private First Class (E-3) to Private
court-martial convictions and months of      (E-1), forfeiture of all pay and allowances, and a bad conduct discharge.
confinement. (SIGAR photo)
                                             On April 29, 2013, Williams was sentenced by court martial to nine months
                                             confinement, a reduction in rank from specialist (E-4) to private (E-1), and a
                                             bad conduct discharge.
                                                 SIGAR agents identified the contractor, Noor, as an employee of Adrees
                                             Ekhlas Construction Company. On April 6, 2013, the U.S. military black-
                                             listed Khan due to his involvement in fuel theft and corruption. Khan is no
                                             longer allowed access to any U.S./NATO bases in Afghanistan.

                                             Investigation Identifies Fraudulent Fuel Invoices Resulting
                                             in Recovery of $600,000
                                             A SIGAR special agent learned from discussions with the staff at the
                                             General Support Contracting Command (GSCC) at Camp Phoenix that the
                                             command was accumulating invoices that might be indicative of fraud,
                                             theft, or government employee corruption.
                                                SIGAR launched an investigation in April 2013. Agents reviewed discrepant
                                             delivery invoices for further investigative consideration. To date, 11 transpor-
                                             tation movement requests (TMRs) have been determined to be fraudulent.
                                             The fabricated TMRs gave drivers the authorization to upload fuel from the
                                             fuel yard and subsequently, the drivers diverted the fuel for sale. Statements
                                             provided by military members confirmed that the deliveries were never com-
                                             pleted and that the signatures on the delivery forms were forgeries.
                                                Because of this investigation, the GSCC was able to bill the trans-
                                             port providers for the value of the fuel and deny them delivery charges.
                                             According to the GSCC, recovered fuel costs and averted delivery charges
                                             are estimated to amount to over $600,000.

                                             SIGAR Thwarts $150,000 Fuel Theft Scheme
                                             On April 19, 2013, SIGAR and Army CID were notified that two forged
                                             TMRs had been discovered in connection to two 5,000 gallon fuel trucks




                                               60                  SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                       SIGAR OVERSIGHT




owned and operated by an Afghan company, Sheenz Varatis Logistics. The
Afghan company was under contract to deliver 10,000 gallons of fuel to
FOB Orgun-E. At the time the forged TMRs were discovered, the drivers
and their two trucks were waiting at FOB Sharana for an escort before con-
tinuing on to FOB Orgun-E. After SIGAR and Army CID were notified of the
forgeries, the trucks were held at FOB Sharana, pending an investigation.
SIGAR investigators interviewed the Afghan transport company’s program
manager as well as the U.S. military personnel involved in documenting
the initial order and the discovery of the forged TMRs. The investigation
determined that two Afghan local nationals were involved in a $20,000
bribery scheme to steal the fuel by falsifying TMRs to indicate the fuel had
been delivered to FOB Orgun-E. The investigation resulted in the recovery
and eventual return of the 10,000 gallons of fuel to the U.S. government
inventory at Bagram Airfield on June 20, 2013. Based upon the U.S. Army
calculation of $15 per gallon, the recovered fuel amounted to $150,000 cost
savings to the U.S. government.

Fuel Theft Investigation Results in Two Arrests and Cost                        Checking fuel-pump meters against
Savings of $90,000                                                              delivery records helps detect and deter
                                                                                fuel theft, a multi-million-dollar problem in
On June 27, 2013, in response to complaints that Afghan fuel truck drivers
                                                                                Afghanistan. (SIGAR photo)
were offering bribes to U.S. fuel point soldiers, SIGAR and Army CID initi-
ated a “sting” operation at FOB Goode. The sting operation was designed
to identify Afghan drivers who offered a bribe to a soldier in exchange for
fuel. Two National Fuel Trucking Company trucks, each capable of holding
12,000 gallons of fuel, arrived at the FOB Goode fuel point for download-
ing. The first truck, driven by Mohammed Ameen, was unloaded and found
to be 353 gallons short of fuel. When Ameen was informed of the shortage,
he offered the soldiers a small quantity of hashish in return for modifying
the paperwork to reflect that he had delivered the correct amount of fuel.
The soldiers were allowed to accept the bribe as part of the sting opera-
tion. After conferring with the second truck driver, Khan Agha, Ameen gave
the fuel point soldiers a bribe comprising $95 and 8,500 afghanis in order
to leave 6,000 gallons of fuel in Agha’s truck. Ameen and Agha were then
arrested by local Afghan authorities and turned over to Afghan local law
enforcement officials for prosecution.
   Based on the U.S. Army fuel contract price of $15 per gallon, the 6,000
gallons of recovered fuel has a value of $90,000.

U.S. Soldier Indicted for Fuel Theft Scheme at FOB Fenty
On April 9, 2013, a federal grand jury in the District of Colorado returned a
five-count indictment charging Specialist Stephanie Shankel-Charboneau
with conspiracy, bribery, theft, money laundering, and structuring transac-
tions to evade reporting requirements. That same day a summons was issued
requiring Shankel-Charboneau to surrender to the U.S. Marshal Service and




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2013               61
SIGAR OVERSIGHT




appear in court on April 24, 2013. The charges came after a SIGAR investiga-
tion revealed that Shankel-Charboneau, Sergeant Christopher Weaver, and
civilian Jonathon Hightower conspired in Afghanistan with Afghan nation-
als to facilitate the theft of fuel from FOB Fenty in exchange for cash. The
Afghan nationals were subcontractors to Afghan American Army Services
and Guzar Merbachakot Transportation (GMT).
   Thirteen search warrants were executed for email and social media
accounts. After reviewing the contents of the accounts, agents of SIGAR,
Army CID, and DCIS developed probable cause to obtain and execute
search warrants at the residences of Weaver and Shankel-Charboneau in
Colorado as well as Hightower’s residence in Houston, Texas. During the
course of these searches, interviews were also conducted with Weaver,
Shankel-Charboneau and Hightower, who all admitted to conspiring with an
Afghan representative of GMT to facilitate the theft of fuel from FOB Fenty.
In addition, Weaver and Hightower implicated another service member,
Staff Sergeant Bilah Abdullah, in the scheme to steal fuel from FOB Fenty.
Abdullah is the subject of a separate SIGAR investigation. As previously
reported, Weaver and Hightower have already been prosecuted.

U.S. Contractor Employee Pleads Guilty to Conspiracy
On May 2, 2013, in the Eastern District of Louisiana, U.S. contractor Elton
Maurice McCabe III pled guilty to one count of conspiracy to commit
wire fraud and receive illegal kickbacks. McCabe had been arrested in
December 2012, following an investigation by SIGAR and other U.S. law
enforcement agencies.
   From June through December 2009, McCabe worked in Afghanistan for
an American company while maintaining a residence in Slidell, Louisiana.
During that time, McCabe was assigned to subcontract four construction
projects at Kandahar Airfield, including one to build an apron between the
runway and the hangars.
   McCabe awarded the apron subcontract at a value of $3.2 million. At the
time of the award, he asked the subcontractor for what he called a $60,000
“loan.” Although McCabe called the payment a loan, he and the subcontrac-
tor established no repayment conditions or terms of interest.
   On July 18, 2009, the subcontractor gave McCabe $7,000 cash. On July 22,
2009, the subcontractor wire-transferred an additional $53,000 from Beirut,
Lebanon to the bank account in Louisiana of McCabe’s wife. “To buy a vehi-
cle from McCabe’s wife” was noted on the bank’s transfer form.
   On December 13, 2012, McCabe was arrested at his Louisiana residence
by agents from SIGAR, DCIS, FBI, Air Force Office of Special Investigations,
and Army CID. McCabe agreed to cooperate fully. His plea agreement
includes a forfeiture of $60,000, which represents the sum of money equal to
the amount of proceeds derived from the conspiracy to commit wire fraud.
   Sentencing is scheduled for August 2013.




  62                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                       SIGAR OVERSIGHT




Investigation Results in Guilty Plea of U.S. Military Member
Christopher Chase Bradshaw pled guilty in the United States District Court
for the Southern District of Mississippi on June 19, 2013, to one count of
conspiracy to commit wire fraud and a second count of theft of government
property. An Army Reservist who served as a finance office cashier at FOB
Salerno in Afghanistan from April 2010 to March 2011, Bradshaw allegedly
used his position to add stored cash value to his military debit card and to
those of two co-conspirators. Bradshaw would add the stored value to the
cards but fail to include those transactions in the daily transaction report,
which was electronically submitted from Afghanistan to the Federal Reserve
Bank in Boston every day. The Defense Finance and Accounting Service
of the Department of Defense lost about $32,300 which was the amount of
stored cash value which Bradshaw added to the cards but failed to report.
   Bradshaw is tentatively scheduled for sentencing in August 2013. SIGAR
and Army CID-MPFU are continuing the investigation and will work
together to bring the two co-conspirators to prosecution.

Bribery Investigation Results in Seizure of U.S. Soldier’s Property
After a multi-agency investigation, Special Forces member James Travis
admitted to accepting bribe payments from Afghan trucking companies in
exchange for preferential treatment in contract awards. Travis, who was
deployed to Afghanistan, admitted to accepting $95,000 in bribes. He also
admitted to selling U.S. government-appropriated fuel to Afghan vendors.
On March 28, 2013, a seizure warrant was issued that allowed U.S. authori-
ties to take $46,131 from the bank accounts of James and Marla Travis.
Almost two months later, on May 17, 2013, a federal judge in the Eastern
District of North Carolina issued another seizure warrant for a vehicle
owned by James Travis. On May 20, 2013, agents from SIGAR, DCIS, and
the FBI recovered the vehicle. It was later relinquished to the U.S. Marshals
Service, where it will be sold at an auction. The current appraised value of
the vehicle is estimated at approximately $40,985.

U.S. Contractor Arrested for Bid-Rigging
SIGAR and several other U.S. law enforcement agencies executed the arrest
of a U.S. contractor, Keith Johnson, on May 1, 2013. SIGAR, DCIS, the FBI,
and Army CID opened their investigation after a complainant alleged that
Keith Johnson, an employee of PAE Government Services, which is a sub-
sidiary of Lockheed Martin Corp, and his family members were steering
supply contracts and rigging bids in order to award contracts to a company
owned and operated by Johnson’s wife and his mother-in-law. Johnson, the
program manager for PAE, allegedly had his wife, Angela Johnson, establish
a company called Military Logistics Support (MLS) and then positioned
her as the sales manager. The complainant also alleged that close associ-
ates of the Johnsons had established other companies so that Johnson




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2013               63
SIGAR OVERSIGHT




could steer contracts to them as well. Johnson then received kickbacks
through a shell company operated under the name of Johnson’s daughter,
Christine Hammer. Johnson awarded purchase orders to MLS in excess of
$10 million. Contracts awarded to Johnson’s associates may have exceeded
$12 million in total. The investigation is continuing.

Former Soldier Arrested
In early 2011, SIGAR launched an initiative to review and analyze postal
money order purchases by U.S. personnel stationed in Afghanistan for indica-
tions of fraud. In February 2011, SIGAR identified two Army personnel, Staff
Sergeant Phillip Wooten and Sergeant First Class Mauricio Espinoza, as having
engaged in suspicious monetary transactions during their deployment.
   Both Wooten and Espinoza were assigned to the 7th Special Forces
Group based at Fort Bragg, North Carolina when they allegedly stole
more than $215,000 earmarked for reconstruction efforts in Kandahar,
Afghanistan. According to his indictment, Espinoza was deployed to
Afghanistan as a paying agent, while Wooten was responsible for contract-
ing with local vendors. Between July 2009 and April 2010, the two allegedly
conspired to inflate and falsify receipts to Afghan vendors, allowing them to
steal the money and send it home.
   As previously reported, Wooten pled guilty in December 2011 to a two-
count criminal information of conspiracy and theft of government property.
He is currently awaiting sentencing.
   Espinoza was arrested on July 20, 2012, and released on bail. When he
failed to appear in federal court on June 3, 2013, in the Eastern District
of North Carolina, a federal bench warrant was issued for his arrest. On
June 6, 2013, Espinoza was arrested in the state of California. He was
subsequently transported by the U.S. Marshals Service to detention in the
Pamlico County Jail in North Carolina. Following oral arguments by the
defense and prosecution, the presiding judge in a federal court in New Bern,
North Carolina, deemed him a flight risk and ordered that he be held in jail
until the next scheduled court date of September 16, 2013.

Former State Employee Indicted for $30,000 Bribe
On April 2, 2013, Department of State employee Kenneth Michael Brophy
was indicted in the District of Delaware for conspiracy, receipt of an ille-
gal gratuity by a public official, and willful receipt of an illegal payment
for assisting a contractor pursue a claim against USACE. SIGAR arrested
Brophy on October 14, 2012, with assistance from the FBI and the State
Department, Office of the Inspector General.
   Brophy’s alleged illegal activities occurred while serving as a per-
sonal service contract employee working for the Bureau of International
Narcotics and Law Enforcement (INL) at the U.S. Embassy Kabul during
2009. He supervised construction contracts of police facilities, including the




  64                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                       SIGAR OVERSIGHT




renovation of the Pol-i-Charkhi Prison performed by an Afghan contractor.
The contractor paid Brophy $30,000 to lobby USACE to re-instate a contract
previously terminated due to unsatisfactory performance. Brophy assisted
company officers in drafting documents for submission to the USACE, pro-
vided general advice regarding the Afghan company’s communications with
the USACE, and personally lobbied a USACE official to re-instate the con-
tract. Brophy initially provided false statements to federal officials about
the gratuity payment, claiming the cash payment was “slipped” into his coat
pocket and that he “did not notice the money” until he returned to his billet
in the U.S. Embassy.
   Brophy’s trial is scheduled for September 2013.

American Contractor Blacklisted; Marijuana Valued at
$276,000 Seized
Lawrence Tucker, an American contractor, was blacklisted from access to
any military installation in Afghanistan after an investigation by SIGAR and
other law enforcement agencies. On June 20, 2013, the Army CID at FOB
Salerno seized 921 marijuana plants in a plot near the perimeter of a storage
yard managed by a U.S. contractor, AC First. Investigators also recovered
containers of Miracle Grow and empty water bottles in the plot. Officials
identified Lawrence Tucker, a resident of Houston, Texas, as the individual
responsible for growing the marijuana. Army CID agents on FOB Salerno
asked SIGAR for assistance as Tucker was a contractor employed by a U.S.
company. As a result of the seizure, AC First fired Tucker and he returned
to the United States. SIGAR and Army CID presented the facts of the
investigation to the FOB Salerno JAG office and Tucker was subsequently
blacklisted. SIGAR submitted the same information to the Regional Security
Office, Kabul, in order to ensure that the State Department bars him from
access to any contracts.
   The Drug Enforcement Administration (DEA) estimates that a mature
marijuana plant will produce a pound of processed ingestible substance.
DEA estimates the value of a pound of processed marijuana in Afghanistan
at $300. The value of 921 plants at maturity and after processing is $276,300.

Suspensions and Debarments
This quarter, SIGAR’s suspension and debarment program referred 27 indi-
viduals and 15 companies for suspension or debarment based on evidence
developed as part of investigations conducted by SIGAR in Afghanistan and
the United States. To be suspended and debarred means to be excluded
from receiving federal contracts or assistance because of misconduct.
Of these 42 contractors, 14 individuals, and 10 companies were referred
for debarment based on allegations that they engaged in fraud and non-
performance as part of six contracts valued at $5,344,982. An additional
18 individuals were referred for suspension or final debarment based on




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2013                65
SIGAR OVERSIGHT




criminal allegations of theft from coalition forces, acceptance of bribes,
bulk cash smuggling into the United States, or final criminal convictions in
U.S. District Court. These 42 referrals bring the total number of such refer-
rals made by SIGAR since 2008 to 327—180 individuals and 135 companies
to date, as shown in Figure 2.4.
   As of the end of June 2013, these referrals have resulted in a total of 59
suspensions and 68 finalized debarments of individuals and companies
engaged in U.S. funded reconstruction projects. For a complete list, please
see Appendix C.
   A continuing problem is the Army’s refusal to act on SIGAR’s recom-
mendations to suspend or debar individuals who are supporters of the
insurgency, including the Taliban, the Haqqani Network, and al-Qaeda. The
Army suspension and debarment official has taken the position that suspen-
sion or debarment of such individuals and entities would be a violation of
their due process rights if based on classified information or if based on
findings by the Department of Commerce which placed them on the Entities
List. SIGAR has referred 43 such cases to the Army, and all have been
rejected, despite detailed supporting information demonstrating that these
individuals and entities are providing material support to the insurgency in
Afghanistan. In other words, they may be enemies of the United States, but
that is not enough to keep them from getting government contracts.
   Suspensions and debarments are an important tool for ensuring that U.S.
agencies award contracts only to responsible entities. SIGAR’s program
addresses three challenges posed by U.S. policy and the contingency con-
tracting environment in Afghanistan: the need to act quickly, the limited

FIGURE 2.4

SIGAR INVESTIGATIONS: CUMULATIVE REFERRALS FOR SUSPENSION AND DEBARMENT,
Q2 FY 2011 – Q3 FY 2013

350

300

250

200
150

100

 50

   0
          Q2         Q3         Q4         Q1          Q2   Q3        Q4      Q1     Q2   Q3
       FY 2011                          FY 2012                            FY 2013

Source: SIGAR Investigations Directorate, 7/11/2013.




    66                          SPECIAL INSPECTOR GENERAL        I   AFGHANISTAN RECONSTRUCTION
                                       SIGAR OVERSIGHT




U.S. jurisdiction over Afghan nationals and Afghan companies, and the
vetting challenges inherent in the use of multiple tiers of subcontrac-
tors. SIGAR continues to look for ways to enhance the U.S. government’s
responses to these difficulties through the innovative use of information
resources and investigative assets both in Afghanistan and the United
States. SIGAR makes referrals for suspensions and debarments based on
completed investigations that SIGAR participates in. In most cases, SIGAR
makes its referrals in cases where there is no possibility of criminal prose-
cution or remedial action by a contracting office. In such cases, suspensions
and debarments are the primary remedy to address contractor misconduct.
In making referrals to agencies, SIGAR provides the basis for a suspen-
sion or debarment decision as well as all of the supporting documentation
needed for an agency to support that decision should it be challenged by
the contractor at issue.
   SIGAR’s increasing emphasis on suspension and debarment is exem-
plified by the fact that of the 327 referrals for suspension and debarment
that have been made by the agency to date, 291 have been made since the
second quarter of 2011. Beginning in July 2012, SIGAR accelerated its sus-
pension and debarment program, referring 103 individuals and companies
for exclusion from contracting to suspension and debarment officials in
implementing agencies. SIGAR’s referrals over this nine month period rep-
resent allegations of theft, fraud, poor performance, financial support to
insurgents, and mismanagement in reconstruction contracts having a value
of $165,326,264.

Proposed Debarment of Mesopotamia Group
On May 7, 2013, following up on SIGAR’s recommendation from last quarter,
the Army proposed debarring Mesopotamia Group and three of its officers.
As a result the company is temporarily excluded from contracting. A final
debarment decision is currently pending with the Army.
   Last quarter, SIGAR proposed the debarment of Mesopotamia Group
and three of its officers based upon the company making false claims of
approximately $5 million as part of a U.S. Army contract to provide medi-
cal equipment maintenance to Afghan National Army hospitals. SIGAR’s
investigation found that Mesopotamia Group had provided inadequately
trained personnel, substandard repairs to equipment, and maintained inad-
equate records all in violation of the contract’s requirements. This poor
performance was illustrated by the inability of staff at the Dawood National
Military Hospital to use any of its ventilators to aid victims of an October
2007 suicide bomb attack on a Kabul bus that resulted in the deaths of 13
Afghans. It was also shown by a second incident at Herat Provincial ANA
Hospital in which an improperly attached regulator prevented hospital staff
from using a breathing incubator during surgery, contributing to the death
of an Afghan soldier.




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2013               67
SIGAR OVERSIGHT




   On repeated occasions, Mesopotamia Group allegedly refused to pro-
vide its staff with the resources to address these problems while billing the
entire amount the contract allowed, regardless of whether the work was
actually completed according to the terms of the contract.

Debarment of Afghan Local National
In July 2012, a SIGAR special agent received information from Task Force
2010 that employees of an Afghan business, 77 Construction Company, were
stealing U.S. military property at Camp Leatherneck and selling it to other
companies operating within Camp Leatherneck. The investigation revealed
that Zikrullah Shahim, a translator for 77 Construction, had stolen five gen-
erators. Shahim was interviewed and subsequently arrested by the Afghan
Attorney General’s Office. On May 7, 2013, the Department of the Army
Legal Services Office issued a Notice of Proposed Debarment to Shahim
effective May 7, 2013.


SIGAR BUDGET
Congress appropriated $49.9 million for SIGAR’s operating expenses
through Fiscal Year 2013 in the Full Year Continuing Appropriations
Act 2013 (P.L. 113-6). SIGAR’s Fiscal Year 2013 annual funding was then
reduced, in accordance with Office of Management and Budget direction on
the implementation of sequestration, to $48.0 million.
   Since SIGAR was established in 2008, Congress has appropriated a total
of $164 million for SIGAR through 2013. Recently, the Office of Management
and Budget released the President’s Fiscal Year 2014 Budget, which
includes SIGAR’s request for $49.7 million to continue critical oversight
operations of reconstruction funds.


SIGAR STAFF
Since its last report to Congress, SIGAR increased its staff from 182 to 185
federal employees. During this reporting period, SIGAR welcomed 17 new
employees and lost 14. SIGAR has extended offers of employment that will
bring the number of full-time staff to 194 by the end of August 2013. SIGAR
is on target to begin FY 2014 at its assigned strength of 205.
   As a temporary agency with a demanding mission, SIGAR faces chal-
lenges recruiting and retaining professional staff, but continues to attract
highly qualified auditors, investigators, and analysts. SIGAR is authorized 57
billets in Afghanistan. SIGAR expects to fill all 57 billets next quarter.
   This quarter, SIGAR had 32 authorized personnel at the U.S. Embassy
Kabul and 14 authorized at locations outside the U.S. Embassy. SIGAR
has staff members stationed at six locations across the country, includ-
ing Kandahar and Bagram airfields, Mazar-e-Sharif, Camp Leatherneck,




  68                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                          SIGAR OVERSIGHT




The Special IG, center, and some stateside staff gather with SIGAR’s forward team at the
U.S. Embassy in Kabul. (SIGAR photo)

USFOR-A headquarters in Kabul, and the U.S. Consulate in Herat. SIGAR
employs three local Afghans in its Kabul office to support investigations and
audits. In addition, SIGAR supports its work with staff assigned to short-
term temporary duty in Afghanistan. This quarter, SIGAR had 18 personnel
on temporary duty in Afghanistan for a total of 282 days.




REPORT TO THE UNITED STATES CONGRESS      I   JULY 30, 2013                      69
 “While the nature of our relationship
    is changing, the commitment of
  the international community to the
people of Afghanistan remains resolute
            and enduring.”
        —General Joseph Dunford Jr., USMC
           Commander, ISAF and USFOR-A




          Source: American Foreign Press Service article, June 18, 2013.
3   RECONSTRUCTION
    UPDATE




        71
                                                RECONSTRUCTION UPDATE CONTENTS

                                                Overview	73
                                                Status of Funds	                   77
                                                Security	91
                                                Governance	119
                                                Economic and Social Development	   143




Photo on previous page
Children look on as a soldier of the U.S. 101st Airborne Division patrols with
Afghan police in Khowst Province, July 2013. (DOD photo)
                  RECONSTRUCTION UPDATE




OVERVIEW
Section 3 presents updates on accomplishments, challenges, and initiatives
in Afghanistan reconstruction to provide context for oversight. Sidebars
identify SIGAR audits, completed and ongoing, relating to those efforts.
Cross-references to Section 1 point to more detail.
    SIGAR presents the data in this section in compliance with Public Law
110-181, which mandates that each of SIGAR’s quarterly reports to Congress
on reconstruction activities in Afghanistan include, among other things:
 •	 obligations and expenditures of appropriated funds
 •	 discussions of U.S. government entities’ contracts, grants, agreements,
    or other mechanisms
 •	 funds provided by foreign nations or international organizations to
    programs and projects funded by U.S. government entities


TOPICS
This section has four subsections: Status of Funds, Security, Governance,
and Economic and Social Development.
   The Status of Funds subsection describes monies appropriated, obli-
gated, and disbursed for Afghanistan reconstruction, including U.S. funds
and international contributions.
   The organization of the other three subsections mirrors the three pillars
in the Prioritization and Implementation Plan developed in an international
conference in July 2010 and announced by the Afghan government.
   The Security subsection describes U.S. efforts to bolster the Afghan
National Security Forces (the Army and Police), the transition away from
private security contracting, and the battle against the narcotics trade.
   The Governance subsection provides an overview of the Afghan govern-
ment’s progress toward good governance through capacity-building efforts,
rule of law initiatives, and human rights recognition. This subsection also
describes the status of reconciliation and reintegration, Afghan government
control in various provinces, and initiatives to combat corruption.
   The Economic and Social Development subsection looks at reconstruc-
tion activities by sectors like energy, mining, and health. It provides a snapshot




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2013                    73
                                                                                     73
RECONSTRUCTION UPDATE




of the state of the economy and updates on progress in regulating financial
networks, achieving fiscal sustainability, and delivering essential services.


METHODOLOGY
Section 3 was compiled from open-source and U.S. agency data.
Attributions appear in endnotes or notes to tables and figures. Multiple
organizations provide data, so numbers may conflict. SIGAR has not verified
data other than that in its own audits or investigations. Information from
other sources does not necessarily reflect SIGAR’s opinion. For details on
SIGAR audits and investigations this quarter, see Section 2.

Data Call
The data call is a series of questions directed to U.S. agencies about their
contributions and involvement in reconstruction programming, and the
state of affairs in Afghanistan. U.S. agencies responding to the latest
data call include the Departments of State, Defense, Transportation, and
Treasury, and the U.S. Agency for International Development. Responding
agencies received a preliminary draft of this section so they could verify
and comment on specific data they provided for this quarterly report.

Open-Source Research
Open-source research draws on the most current, publicly available data
from reputable sources. Sources used include the U.S. agencies represented
in the data call, the International Security Assistance Force, the United
Nations (and relevant branches), the International Monetary Fund, the
World Bank, and Afghan ministries and other government organizations.




  74                  SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                    GRAPHICS KEY




UNDERSTANDING THE GRAPHICS AND DATA TERMS
All figures and tables report data for this quarter, except where identified in titles or notes.
       ASFF      CERP DoD CN     ESF     INCLE



BAR CHARTS
       DoD                       USAID    DoS                       UNITS IN BILLIONS AND MILLIONS
This report discusses many funds and projects with                  Because this report details funding in both billions
dollar values ranging from millions to billions. To                 and millions of dollars, it uses a visual cue to distin-
provide an accurate graphical representation of these               guish the two measurement units. Dollars reported in
numbers, some bar graphs appear with a break (a                     billions are represented in blue, and dollars reported
wavy line) to indicate a jump between zero and a                    in millions are depicted in green.
larger number.
        ASFF


     $500         DoD                    $200

     $450
                                         $150
     $400
                                         $100
     $350
                 CERP
                                         $50
                                                                           Pie chart in billions        Pie chart in millions

        $0        DoD                      $0

              Bar chart with a                  Bar chart without
               break in scale                   a break in scale


FUNDING MARKERS
            DoD CN
                                                                    CALENDAR AND SOLAR YEARS
Funding markers identify individual funds dis-                      Afghanistan follows the solar Hejri calendar, which
cussed in the text. The agency responsible for                      began in 622 A.D. in the Gregorian calendar. SIGAR
managing the DoD
              fund is listed in the tan box below                   converts Hejri solar years to Gregorian equivalents.
the fund name.                                                      The current Afghan solar year (SY) is 1392. It began
                                                                    on March 21, 2013, and ends on March 20, 2014.
                                                                    The Afghan government’s fiscal year runs from
                                                                    December 21, 2012, to December 20, 2013.
                                 ESF



                                 USAID




                                         INCLE



                                          DoS
REPORT TO THE UNITED STATES CONGRESS            I   JULY 30, 2013             75
STATUS OF FUNDS CONTENTS

U.S. Reconstruction Funding
for Afghanistan	                       78
Afghanistan Security Forces Fund	      80
ASFF Budget Activities	                81
Commander’s Emergency
Response Program	                      82
Afghanistan Infrastructure Fund	       83
Task Force for Business and
Stability Operations	                  84
DOD Drug Interdiction and
Counter-Drug Activities	               85
Economic Support Fund	                 86
International Narcotics Control
and Law Enforcement 	                  87
International Reconstruction Funding
for Afghanistan	                       88




  76
                                                           STATUS OF FUNDS




STATUS OF FUNDS
To fulfill SIGAR’s legislative mandate, this section details the status of U.S.
funds appropriated, obligated, and disbursed for reconstruction activities
in Afghanistan. As of June 30, 2013, the United States had appropriated
approximately $96.57 billion for relief and reconstruction in Afghanistan
since FY 2002. This total has been allocated as follows:
 •	 $54.30 billion for security
 •	 $24.70 billion for governance and development
 •	 $6.92 billion for counternarcotics efforts
 •	 $2.67 billion for humanitarian aid
 •	 $7.99 billion for operations and oversight
Figure 3.1 shows the major U.S. funds that contribute to these efforts.

FIGURE 3.1

U.S. FUNDS SUPPORTING AFGHANISTAN RECONSTRUCTION EFFORTS ($ BILLIONS)


                                       FUNDING SOURCES (TOTAL: $96.57)
                                                                                                                     ASFF: Afghanistan Security Forces Fund
                                                                                                                     CERP: Commander’s Emergency
       ASFF        CERP         AIF        TFBSO       DOD CN              ESF               INCLE       Other
                                                                                                                     Response Program
                                                                                                                     AIF: Afghanistan Infrastructure Fund
     $52.78       $3.64        $1.02       $0.68        $2.64            $16.65              $4.15      $15.00
                                                                                                                     TFBSO: Task Force for Business and
                                                       AGENCIES                                                      Stability Operations
                                                                                                                     DOD CN: DOD Drug Interdiction and
                                                                                       Department of   Distributed   Counter-Drug Activities
                  Department of Defense (DOD)                            USAID                         to Multiple
                                                                                       State (State)
                           $60.76                                        $16.65           $4.15         Agenciesa    ESF: Economic Support Fund
                                                                                                         $15.00      INCLE: International Narcotics Control and
                                                                                                                     Law Enforcement
Notes: Numbers have been rounded.                                                                                    Other: Other Funding
a   Multiple agencies include DOJ, State, DOD, USAID, Treasury, USDA, DEA, BBG, and SIGAR.
Sources: DOD, responses to SIGAR data call, 7/22/2013, 7/3/2013, 7/1/2013, 10/22/2012, 10/14/2009, and
10/1/2009; State, responses to SIGAR data call, 7/16/2013, 7/2/2013, 6/27/2013, 10/5/2012 and 6/27/2012;
Treasury, response to SIGAR data call, 7/1/2013; OMB, response to SIGAR data call, 7/19/2013 and 1/4/2013; USAID,
responses to SIGAR data call, 7/17/2013, 10/15/2010, 1/15/2010, and 10/9/2009; DOJ, response to SIGAR data call,
7/7/2009; USDA, response to SIGAR data call, 4/2009; P.L. 113-6, 3/26/2013; P.L. 112-74, 12/23/2011; P.L. 112-10,
4/15/2011; P.L. 111-212, 10/29/2010; P.L. 111-118, 12/19/2009; FY 2010 Defense Explanatory Statement.




           REPORT TO THE UNITED STATES CONGRESS                     I   JULY 30, 2013                      77
                                                                    STATUS OF FUNDS




                                                                    U.S. RECONSTRUCTION FUNDING FOR AFGHANISTAN
  ASFF   CERP     AIF    TFBSO DODCN    ESF     INCLE               As of June 30, 2013, cumulative appropriations for relief and reconstruction
                                                                    in Afghanistan totaled approximately $96.57 billion. This total can be divided
                                                                    into five major categories of reconstruction funding: security, governance and
                 DOD                   USAID DOS
                                                                    development, counternarcotics, humanitarian, and oversight and operations.
                                                                    For complete information regarding U.S. appropriations, see Appendix B.
The amount provided to the seven major
                                                                       On March 26, 2013, President Obama signed the Consolidated and Further
U.S. funds represents nearly 84.5% (nearly
$81.57 billion) of total reconstruction                             Continuing Appropriations Act, 2013, funding the U.S. government for the
assistance in Afghanistan since FY 2002.                            rest of the fiscal year and increasing cumulative funding for Afghanistan
OfASFF
   this amount, over 84.9% (more than                               reconstruction to approximately $96.57 billion, as shown in Figure 3.2.
$69.25 billion) has been obligated, and                                As of June 30, 2013, the total appropriated for Afghanistan reconstruc-
over 73.9% (more than $60.28 billion) has                           tion for FY 2013 amounted to nearly $9.79 billion—a 33% decrease from the
been disbursed.
           DOD The following pages provide
additional details on these funds.

FIGURE 3.2

CUMULATIVE APPROPRIATIONS BY FUNDING CATEGORY, AS OF JUNE 30, 2013 ($ BILLIONS)

         CERP
$100
                                                                                                                                                                                    $96.57
 $95
 $90                                                                                                                                                         $86.77
                 DOD
 $85
 $80
 $75                                                                                                                                 $72.17
 $70
 $65
                             DOD CN
 $60
                                                                                                              $56.33
 $55
 $50             DOD
 $45
 $40                                                                                  $39.64

 $35
 $30                                                           $29.25

 $25                                   ESF
                                        $23.06
 $20
 $15             $13.04
                                       USAID
 $10
   $5
   $0
                2002–2006                2007                   2008                    2009                   2010                    2011                   2012                   2013

                        Security              INCLE
                                         Governance/Development                Counternarcotics              Humanitarian             Oversight and Operations              Total


Notes: Numbers have been rounded. FY 2013 figures for State and USAID accounts reflect draft allocation amounts and are subject to final Congressional approval. DOD reprogrammed $1 billion from
FY 2011 ASFF. DOD reprogrammed $1 billion fromDOS  FY 2012 ASFF. P.L. 113-6 rescinded $1 billion from FY 2012 ASFF. DOD transferred $101 million from FY 2011 AIF to FY 2011 ESF to fund an
infrastructure project to be implemented by USAID.
Sources: DOD, responses to SIGAR data call, 7/22/2013, 7/3/2013, 7/1/2013, 10/22/2012, 10/14/2009, and 10/1/2009; State, responses to SIGAR data call, 7/16/2013, 7/2/2013,
6/27/2013, 10/5/2012 and 6/27/2012; Treasury, response to SIGAR data call, 7/1/2013; OMB, response to SIGAR data call, 7/19/2013 and 1/4/2013; USAID, responses to SIGAR data call,
7/17/2013, 10/15/2010, 1/15/2010, and 10/9/2009; DOJ, response to SIGAR data call, 7/7/2009; USDA, response to SIGAR data call, 4/2009; P.L. 113-6, 3/26/2013; P.L. 112-74,
12/23/2011; P.L. 112-10, 4/15/2011; P.L. 111-212, 10/29/2010; P.L. 111-118, 12/19/2009; FY 2010 Defense Explanatory Statement.
                 AIF

                                                                        78                             SPECIAL INSPECTOR GENERAL                  I   AFGHANISTAN RECONSTRUCTION
                 DOD
                                                             STATUS OF FUNDS




                                                                                                                                     TABLE 3.1
$14.60 billion appropriated for FY 2012, as shown in Figure 3.3. Despite the
                                                                                                                                     FY 2012 APPROPRIATIONS AND
funding decrease from FY 2012 to FY 2013, the President’s Budget Request                                                             OBLIGATIONS, AS OF JUNE 30, 2013
for FY 2014—approximately $12 billion with oversight and operations bud-                                                             ($ MILLIONS)

get requests included—is significantly higher than FY 2013 appropriations.41                                                                              Appropriated               Obligated
This increase is primarily attributed to a higher request for the Afghanistan                                                         ASFFa                       $9,200               $6,951
Security Forces Fund to purchase equipment for the Afghan National                                                                    AIF                          $400                   $322

Army’s Special Mission Wing and Air Force.42                                                                                          ESF                         $1,837               $1,699

   Last quarter SIGAR reported that more than $5.2 billion appropriated to                                                            INCLE                        $324                   $310

four of the largest U.S. reconstruction funds for FY 2012 remained available                                                          TOTAL                  $11,761                  $9,282

for obligation. More than $2.7 billion of this amount was obligated during                                                                  To Be Obligated                $2,479
this quarter, leaving approximately $2.5 billion remaining to be obligated by                                                        Notes: Numbers have been rounded. DOD reprogrammed
                                                                                                                                     $1 billion out of FY 2012 ASFF, and P.L. 113-6 rescinded
the end of the fiscal year, as shown in Table 3.1.43                                                                                 $1 billion from FY 2012 ASFF, reducing the funding level from
                                                                                                                                     $11.2 billion to $9.2 billion.
                                                                                                                                     a	ASFF data as of May 31, 2013

                                                                                                                                     Sources: DOD, response to SIGAR data call, 7/22/2013;
                                                                                                                                     USAID, response to SIGAR data call, 7/17/2013; State,
                                                                                                                                     response to SIGAR data call, 7/15/2013; P.L. 112-74,
FIGURE 3.3
                                                                                                                                     12/23/2011.
APPROPRIATIONS BY FISCAL YEAR, AMOUNT, AND CATEGORY ($ BILLIONS)

$17                                                                                                          $16.69
$16                                                                                                                                  $15.84

$15                                                                                                                                                         $14.60
$14
               $13.04
$13

$12

$11
                                                                                      $10.38
                                       $10.03                                                                                                                                        $9.79
$10

 $9

 $8

 $7
                                                                 $6.19
 $6

 $5

 $4

 $3

 $2

 $1

 $0
            2002–2006                   2007                     2008                  2009                   2010                    2011                   2012                    2013

                      Security            Governance/Development                Counternarcotics              Humanitarian             Oversight and Operations              Total


Notes: Numbers have been rounded. FY 2013 figures for State and USAID accounts reflect draft allocation amounts and are subject to final Congressional approval. DOD reprogrammed $1 billion from FY
2011 ASFF. DOD reprogrammed $1 billion from FY 2012 ASFF. P.L. 113-6 rescinded $1 billion from FY 2012 ASFF. DOD transferred $101 million from FY 2011 AIF to FY 2011 ESF to fund an
infrastructure project to be implemented by USAID.
Sources: DOD, responses to SIGAR data call, 7/22/2013, 7/3/2013, 7/1/2013, 10/22/2012, 10/14/2009, and 10/1/2009; State, responses to SIGAR data call, 7/16/2013, 7/2/2013,
6/27/2013, 10/5/2012 and 6/27/2012; Treasury, response to SIGAR data call, 7/1/2013; OMB, response to SIGAR data call, 7/19/2013 and 1/4/2013; USAID, responses to SIGAR data call,
7/17/2013, 10/15/2010, 1/15/2010, and 10/9/2009; DOJ, response to SIGAR data call, 7/7/2009; USDA, response to SIGAR data call, 4/2009; P.L. 113-6, 3/26/2013; P.L. 112-74,
12/23/2011; P.L. 112-10, 4/15/2011; P.L. 111-212, 10/29/2010; P.L. 111-118, 12/19/2009; FY 2010 Defense Explanatory Statement.




REPORT TO THE UNITED STATES CONGRESS                         I   JULY 30, 2013                                        79
                                                       STATUS OF FUNDS
 ASFF    CERP   AIF    TFBSO DODCN    ESF    INCLE




                DOD                  USAID DOS




                                                       AFGHANISTAN SECURITY FORCES FUND
  ASFF                                                 The Congress created the Afghanistan Security Forces Fund (ASFF) to
                                                       provide the ANSF with equipment, supplies, services, and training, as well
                                                       as facility and infrastructure repair, renovation, and construction.44  The pri-
                DOD                                    mary organization responsible for building the ANSF is the North Atlantic
                                                       Treaty Organization (NATO) Training Mission-Afghanistan/Combined
ASFF FUNDS TERMINOLOGY                                 Security Transition Command-Afghanistan.45 
DOD reported ASFF funds as appropriated,                  The Consolidated and Further Continuing Appropriations Act, 2013,
obligated, or disbursed                                appropriated more than $5.12 billion for the ASFF for FY 2013, increasing
Appropriations:
      CERP      Total monies available for             total cumulative funding to nearly $52.78 billion.46 As of June 30, 2013, more
commitments                                            than $45.27 billion of total ASFF funding had been obligated, of which more
Obligations: Commitments to pay monies                 than $41.45 billion had been disbursed.47 Figure 3.4 displays the amounts
                DOD                                    made available for the ASFF by fiscal year.
Disbursements: Monies that have been
                                                          DOD reported that cumulative obligations as of June 30, 2013, increased
expended
                                                       by more than $1.14 billion over cumulative obligations as of March 31, 2013.
Source: DOD, response to SIGAR data call, 4/13/2010.
                                                       Cumulative disbursements as of June 30, 2013, increased by more than
                                                       $1.46 billion over cumulative disbursements as of March 31, 2013.48 Figure
                          DOD CN
                                                       3.5 provides a cumulative comparison of amounts made available, obligated,
                                                       and disbursed for the ASFF.
                DOD
                                                       FIGURE 3.4                                                          FIGURE 3.5

                                                       ASFF APPROPRIATED FUNDS BY FISCAL YEAR ASFF FUNDS, CUMULATIVE COMPARISON
                                                       ($ BILLIONS)                                                       ($ BILLIONS)

                                     ESF
                                                       $12.0                                                              $55.0
                                                                                                                                                Appropriated             Appropriated
                                     USAID                                                                                                                               $52.78
                                                                                                                                                $52.75
                                                       $10.0
                                                                                                                          $50.0


                                                           $8.0
                                             INCLE                                                                                                                       Obligated
                                                                                                                          $45.0                                          $45.27
                                                                                                                                                Obligated
                                                           $6.0                                                                                 $44.13
                                                                                                                                                                         Disbursed
                                             DOS                                                                                                                         $41.45
                                                                                                                          $40.0                 Disbursed
                                                                                                                                                $39.99
                                                           $4.0


                AIF                                        $2.0                                                           $35.0



                DOD                                        $0.0                                                               $0
                                                                  05 06 07 08 09 10 11a 12b 13                                      As of Mar 31, 2013         As of May 31, 2013


                                                       Notes: Numbers have been rounded.
                                                       a DOD reprogrammed $1 billion of FY 2011 ASFF.

                                                       b   DOD reprogrammed $1 billion of FY 2012 ASFF; another $1 billion was rescinded in P.L. 113-6.
                      TFBSO
                                                       Sources: DoD, response to SIGAR data call, 7/22/2013 and 4/16/2013; P.L. 113-6, 3/26/2013.



                DOD
                                                             80                           SPECIAL INSPECTOR GENERAL                   I   AFGHANISTAN RECONSTRUCTION
                                                       STATUS OF FUNDS




ASFF BUDGET ACTIVITIES
DOD allocates funds to three budget activity groups within the ASFF:
•	 Defense Forces (Afghan National Army, ANA)                                                                             Budget Activity Groups: categories
•	 Interior Forces (Afghan National Police, ANP)                                                                          within each appropriation or fund account
•	 Related Activities (primarily Detainee Operations)                                                                     that identify the purposes, projects, or
                                                                                                                          types of activities financed by the appro-
                                                                                                                          priation or fund
   Funds for each budget activity group are further allocated to four sub-
activity groups: Infrastructure, Equipment and Transportation, Training and
                                                                                                                          Sub-Activity Groups: accounting groups
Operations, and Sustainment.49 
                                                                                                                          that break down the command’s disburse-
   As of June 30, 2013, DOD had disbursed more than $41.45 billion for                                                    ments into functional areas
ANSF initiatives. Of this amount, nearly $27.44 billion was disbursed for the
ANA, and more than $13.69 billion was disbursed for the ANP; the remain-
ing nearly $0.32 billion was directed to related activities.50                                                          Sources: DOD, “Manual 7110.1-M Department of Defense
   As shown in Figure 3.6, the largest portion of the funds disbursed for the                                           Budget Guidance Manual,” accessed 9/28/2009; Department
                                                                                                                        of the Navy, “Medical Facility Manager Handbook,” p. 5,
ANA—more than $11.07 billion—supported Equipment and Transportation.                                                    accessed 10/2/2009.

Of the funds disbursed for the ANP, the largest portion—nearly $4.77 bil-
lion—supported Sustainment, as shown in Figure 3.7.51 


FIGURE 3.6                                                   FIGURE 3.7

ASFF DISBURSEMENTS FOR THE ANA                               ASFF DISBURSEMENTS FOR THE ANP
By Sub-Activity Group                                        By Sub-Activity Group
FY 2005–May 31, 2013 ($ BILLIONS)                            FY 2005–May 31, 2013 ($ BILLIONS)


                  Total: $27.44                                                Total: $13.69


Infrastructure                             Training and     Infrastructure                               Training and
                                                            $2.37              Equipment and             Operations
$4.11                                      Operations                          Transportation
                      Equipment and                                                                      $3.06
                                           $2.74                               $3.49
                      Transportation
                      $11.07


                 Sustainment                                                  Sustainment
                 $9.52                                                        $4.77



Note: Numbers have been rounded.                             Note: Numbers have been rounded.
Source: DOD, response to SIGAR data call, 7/22/2013.         Source: DOD, response to SIGAR data call, 7/22/2013.




REPORT TO THE UNITED STATES CONGRESS                   I   JULY 30, 2013                                  81
                                                       STATUS OF FUNDS
  ASFF



                DOD




                                                       COMMANDER’S EMERGENCY RESPONSE PROGRAM
         CERP                                          The Commander’s Emergency Response Program (CERP) enables U.S.
                                                       commanders in Afghanistan to respond to urgent humanitarian relief and
                                                       reconstruction requirements in their areas of responsibility by supporting
                DOD                                    programs that will immediately assist the local population. Funding under
                                                       this program is intended for small projects that are estimated to cost less
CERP FUNDS TERMINOLOGY                                 than $500,000 each.52 Projects with cost estimates exceeding $1 million are
DOD reported CERP funds as appropriated,               permitted, but they require approval from the Commander of U.S. Central
obligated, or disbursed                                Command; projects over $5 million require approval from the Deputy
                         DOD CN
Appropriations: Total monies available for             Secretary of Defense. CERP-funded projects may not exceed $20 million.53 
commitments                                               The Consolidated and Further Continuing Appropriations Act, 2013,
                                                       appropriated $200 million for CERP for FY 2013, increasing total cumulative
Obligations:DOD
             Commitments to pay monies
                                                       funding to nearly $3.64 billion.54 Of this amount, DOD reported that more
Disbursements: Monies that have been                   than $2.27 billion had been obligated, of which more than $2.21 billion had
expended                                               been disbursed.55 Figure 3.8 shows CERP appropriations by fiscal year, and
Source: DOD, response to SIGAR data call, 4/14/2010.   Figure 3.9 provides a cumulative comparison of amounts appropriated, obli-
                                    ESF                gated, and disbursed for CERP projects.


                                   USAID               FIGURE 3.8                                                   FIGURE 3.9

                                                       CERP APPROPRIATIONS BY FISCAL YEAR                          CERP FUNDS, CUMULATIVE COMPARISON
                                                       ($ MILLIONS)                                                ($ BILLIONS)



                                           INCLE       $1,000                                                      $4.0
                                                                                                                                        Appropriated              Appropriated
                                                                                                                   $3.6                 $3.64                     $3.64
                                            DOS
                                                        $800                                                       $3.2

                                                                                                                   $2.8

                AIF                                     $600                                                       $2.4                 Obligated                 Obligated
                                                                                                                                        $2.27                     $2.27
                                                                                                                   $2.0                                           Disbursed
                                                                                                                                        Disbursed
                                                                                                                                        $2.20                     $2.21
                DOD                                     $400                                                       $1.6

                                                                                                                   $1.2

                                                        $200                                                       $0.8
                      TFBSO
                                                                                                                   $0.4

                                                           $0                                                      $0.0
                DOD                                             04 05 06 07 08 09 10 11 12 13                             As of Mar 31, 2013           As of Jun 30, 2013

                                                       Notes: Numbers have been rounded. Data may include inter-agency transfers.
                                                       Sources: DOD, responses to SIGAR data call, 7/22/2013 and 4/17/2013; OMB, response to SIGAR data call, 1/4/2013;
                                                       P.L. 113-6, 3/26/2013; P.L. 112-74, 12/23/2011; P.L. 112-10, 4/15/2011.




                                                          82                           SPECIAL INSPECTOR GENERAL                  I   AFGHANISTAN RECONSTRUCTION
                                                                                                                                                               USAID

                                                             STATUS OF FUNDS
                                                                                                                                                                       INCLE



                                                                                                                                                                        DOS



AFGHANISTAN INFRASTRUCTURE FUND
The Ike Skelton National Defense Authorization Act for FY 2011 established                                                                 AIF
the Afghanistan Infrastructure Fund (AIF) to pay for high-priority, large-
scale infrastructure projects that support the U.S. civilian-military effort.
Congress intended for projects funded by the AIF to be jointly selected and                                                               DOD

managed by DOD and State. Thirty days before obligating or expending
funds on an AIF project, the Secretary of Defense and Secretary of State                                                    AIF FUNDS TERMINOLOGY
are required to notify the Congress with details of the proposed project,                                                   DOD reported AIF funds as appropriated,
                                                                                                                                             TFBSO
                                                                                                                            obligated, or disbursed
including a plan for its sustainment and a description of how it supports the
counterinsurgency strategy in Afghanistan.56                                                                                Appropriations: Total monies available for
   The Consolidated and Further Continuing Appropriations Act, 2013,                                                        commitmentsDOD
appropriated $325 million for the AIF for FY 2013, increasing total cumula-                                                 Obligations: Commitments to pay monies
tive funding to more than $1.02 billion.57 This figure excludes $101 million
                                                                                                                            Disbursements: Monies that have been
of FY 2011 AIF funds transferred to the FY 2011 Economic Support Fund
                                                                                                                            expended
for USAID’s AIF-funded infrastructure project. As of June 30, 2013, nearly
$616.07 million of total AIF funding had been obligated, of which more than                                                 Source: DOD, response to SIGAR data call, 4/13/2012.

$134.18 million had been disbursed.58 Figure 3.10 shows AIF appropria-
tions by fiscal year, and Figure 3.11 provides a cumulative comparison of
amounts appropriated, obligated, and disbursed for AIF projects.


FIGURE 3.10                                                  FIGURE 3.11

AIF APPROPRIATIONS BY FISCAL YEAR                            AIF FUNDS, CUMULATIVE COMPARISON
($ MILLIONS)                                                 ($ MILLIONS)




$800                                                         $1,200


                                                                                    Appropriated             Appropriated
                                                             $1,000                 $1,024.00                $1,024.00
$600
                                                                 $800


                                                                                    Obligated                Obligated
$400                                                             $600               $616.40                  $616.07


                                                                 $400
$200
                                                                                                             Disbursed
                                                                                     Disbursed
                                                                 $200                                        $134.18
                                                                                     $102.90


    $0                                                            $0
             2011a              2012              2013                  As of Mar 31, 2013         As of Jun 30, 2013

Notes: Numbers have been rounded. Updated data resulted in a lower obligation figure than that reported as of 3/31/2013.
a   FY 2011 figure excludes $101 million transferred to USAID to execute an AIF project.
Sources: DoD, responses to SIGAR data call, 7/22/2013 and 4/17/2013; P.L. 113-6, 3/26/2013; P.L. 112-74,
12/23/2011; P.L. 112-10, 4/15/2011.




REPORT TO THE UNITED STATES CONGRESS                         I   JULY 30, 2013                                  83
                                            DOS

                                                       STATUS OF FUNDS
               AIF



              DOD



                                                       TASK FORCE FOR BUSINESS AND STABILITY OPERATIONS
                     TFBSO                             In 2010, the Task Force for Business and Stability Operations (TFBSO) began
                                                       operations in Afghanistan aimed at stabilizing the country and countering
                                                       economically motivated violence by decreasing unemployment and creating
              DOD                                      economic opportunities for Afghans. TFBSO projects include activities that
                                                       facilitate private investment, industrial development, banking and financial
TFBSO FUNDS TERMINOLOGY                                system development, agricultural diversification, and energy development.59
DOD reported TFBSO funds as appropriated,                  TFBSO has two separate funding streams. The funds authorized for TFBSO
obligated, or disbursed                                in the National Defense Authorization Act are used to pay for activities directly
Appropriations: Total monies available for             related to reconstructing Afghanistan. The funds TFBSO receives from the
commitments                                            Operations and Maintenance, Army, account are used to pay for sustainment
Obligations: Commitments to pay monies                 of U.S. assets, civilian employees, travel, security, and other operational costs.
                                                           As of June 30, 2013, TFBSO had been appropriated nearly $129.84 mil-
Disbursements: Monies that have been
                                                       lion for FY 2013, bringing cumulative appropriations for the task force to
expended
                                                       more than $684.59 million.60 Of this amount, nearly $590.76 million had been
Source: DOD, response to SIGAR data call, 4/13/2010.
                                                       obligated and more than $421.62 million had been disbursed.61 Figure 3.12
                                                       displays the amounts appropriated for TFBSO projects by fiscal year, and
                                                       Figure 3.13 provides a cumulative comparison of amounts made available,
                                                       obligated, and disbursed for TFBSO projects.

                                                       FIGURE 3.12                                                 FIGURE 3.13

                                                       TFBSO APPROPRIATIONS BY FISCAL YEAR                         TFBSO FUNDS, CUMULATIVE COMPARISON
                                                       ($ MILLIONS)                                                ($ MILLIONS)




                                                       $200                                                        $700                                           Appropriated
                                                                                                                                         Appropriated
                                                                                                                                                                  $684.59
                                                                                                                                         $672.04
                                                                         NDAA
                                                                                                                   $600                                           Obligated
                                                       $160              OMA                                                            Obligated                 $590.76
                                                                                                                                        $551.11
                                                                                                                   $500

                                                       $120                                                                                                        Disbursed
                                                                                                                   $400                                            $421.62
                                                                                                                                        Disbursed
                                                                                                                                        $369.97
                                                                                                                   $300
                                                        $80

                                                                                                                   $200

                                                        $40
                                                                                                                   $100


                                                         $0                                                           $0
                                                               2009       2010      2011       2012      2013              As of Mar 31, 2013           As of Jun 30, 2013

                                                       Notes: Numbers have been rounded. NDAA = National Defense Authorization Act. NDAA funding is used to pay for activities
                                                       directly related to reconstructing Afghanistan. OMA = Operations and Maintenance, Army. OMA funding is used to pay for
                                                       sustainment of U.S. assets, civilian employees, travel, security, and other operational costs.
                                                       Sources: DOD, responses to SIGAR data call, 7/3/2013 and 10/4/2011; P.L. 113-6, 3/26/2013; P.L. 112-74,
                                                       12/23/2011; P.L. 112-10, 4/15/2011.




                                                           84                          SPECIAL INSPECTOR GENERAL                  I   AFGHANISTAN RECONSTRUCTION
                                                                                                                                               DOD




                                                               STATUS OF FUNDS
                                                                                                                                        CERP



                                                                                                                                               DOD




DOD DRUG INTERDICTION AND COUNTER-DRUG ACTIVITIES
DOD’s Drug Interdiction and Counter-Drug Activities Fund (DOD CN)                                                                                       DOD CN
supports efforts to stabilize Afghanistan by combating the drug trade and
related activities. DOD uses the DOD CN to provide assistance to the
counternarcotics effort by supporting military operations against drug traf-                                                                   DOD
fickers; expanding Afghan interdiction operations; and building the capacity
of Afghan law enforcement bodies—including the Afghan Border Police—                                                            DOD CN FUNDS TERMINOLOGY
with specialized training, equipment, and facilities.62                                                                         DOD reported DOD CN funds as appropriated,
    DOD CN funds are appropriated by Congress to a single budget line for                                                       obligated, or disbursed
                                                                                                                                                                    ESF
all military services. DOD reprograms the funds from the Counternarcotics                                                       Appropriations: Total monies available for
Central Transfer Account to the military services and defense agencies,                                                         commitments
which track obligations of the transferred funds. DOD reported DOD CN                                                           Obligations: Commitments toUSAID
                                                                                                                                                            pay monies
accounts for Afghanistan as a single figure for each fiscal year.63
                                                                                                                                Disbursements: Monies that have been
    As of June 30, 2013, DOD reported that DOD CN received more than
                                                                                                                                expended
$333.11 million for Afghanistan for FY 2013, bringing cumulative funding
for DOD CN to more than $2.64 billion since fiscal year 2004.64 Figure 3.14                                                     Source: DOD, response to SIGAR data call, 4/13/2010.
                                                                                                                                                                           INCLE
shows DOD CN appropriations by fiscal year, and Figure 3.15 provides a
cumulative comparison of amounts appropriated and transferred to the
military services and defense agencies for DOD CN projects. SIGAR is cur-                                                                                                   DOS
rently working with the defense agencies to report DOD CN obligations and
disbursements for Afghanistan.

FIGURE 3.14                                                        FIGURE 3.15
                                                                                                                                               AIF

DOD CN APPROPRIATIONS BY FISCAL YEAR                               DOD CN FUNDS, CUMULATIVE COMPARISON
($ MILLIONS)                                                       ($ BILLIONS)
                                                                                                                                               DOD


$450                                                               $2.7                 Appropriated
                                                                                        $2.68                    Appropriated
$400                                                               $2.6                                          $2.64                               TFBSO

$350
                                                                   $2.5
                                                                                        Transferreda             Transferreda                  DOD
$300                                                                                    $2.44                    $2.44
                                                                   $2.4
$250
                                                                   $2.3
$200
                                                                   $2.2
$150
                                                                   $2.1
$100

 $50                                                               $2.0

   $0                                                                $0
        2004 05 06 07 08 09 10 11 12 13                                    As of Mar 31, 2013          As of Jun 30, 2013

Notes: Numbers have been rounded. Updated data resulted in a lower appropriation figure for FY 2013.
a
  DOD reprograms all funds to the military services and defense agencies for obligation and disbursement.
Sources: DOD, responses to SIGAR data call, 7/1/2013 and 4/1/2013.



REPORT TO THE UNITED STATES CONGRESS                           I   JULY 30, 2013                                    85
              DOD



                                                         STATUS OF FUNDS
                        DOD CN



              DOD




                                                         ECONOMIC SUPPORT FUND
                                    ESF                  Economic Support Fund (ESF) programs advance U.S. interests by helping
                                                         countries meet short- and long-term political, economic, and security needs.
                                                         ESF programs support counterterrorism; bolster national economies; and
                                   USAID                 assist in the development of effective, accessible, independent legal systems
                                                         for a more transparent and accountable government.65
ESF FUNDS TERMINOLOGY                                       The ESF was appropriated more than $1.62 billion for FY 2013, bringing
USAID reported ESF funds as appropriated,                cumulative funding for the ESF to more than $16.65 billion. Of this amount,
obligated, or disbursed         INCLE                    more than $14.59 billion had been obligated, of which nearly $10.93 billion
Appropriations: Total monies available                   had been disbursed.66 Figure 3.16 shows ESF appropriations by fiscal year.
for commitments                                             USAID reported that cumulative obligations as of June 30, 2013,
                                            DOS          increased by more than $1.69 billion over cumulative obligations as of
Obligations: Commitments to pay monies
                                                         March 31, 2013. Cumulative disbursements as of June 30, 2013, increased by
Disbursements: Monies that have been
                                                         more than $313.37 million over cumulative disbursements as of March 31,
expended
                                                         2013.67 Figure 3.17 provides a cumulative comparison of the amounts appro-
               AIF
Source: USAID, response to SIGAR data call, 4/15/2010.
                                                         priated, obligated, and disbursed for ESF programs.

              DOD                                        FIGURE 3.16                                                       FIGURE 3.17

                                                         ESF APPROPRIATIONS BY FISCAL YEAR                                 ESF FUNDS, CUMULATIVE COMPARISON
                                                         ($ BILLIONS)                                                      ($ BILLIONS)


                     TFBSO
                                                         $3.5                                                              $18

              DOD                                                                                                                                                            Appropriated
                                                         $3.0                                                              $16                                               $16.65

                                                                                                                                                Appropriated
                                                         $2.5                                                                                   $15.05                       Obligated
                                                                                                                           $14                                               $14.59

                                                         $2.0                                                                                   Obligated
                                                                                                                                                $12.90
                                                                                                                           $12
                                                         $1.5                                                                                                                Disbursed
                                                                                                                                                Disbursed                    $10.93
                                                                                                                           $10                  $10.61
                                                         $1.0

                                                                                                                             $8
                                                         $0.5


                                                         $0.0                                                                $0
                                                                02 03 04 05 06 07 08 09 10 11 12 13                               As of Mar 31, 2013           As of Jun 30, 2013

                                                         Notes: Numbers have been rounded. FY 2013 figure reflects draft allocation amount for Afghanistan and is subject to final
                                                         Congressional approval. FY 2011 figure includes $101 million that was transferred to the ESF from the Afghanistan Infrastructure
                                                         Fund.
                                                         Sources: USAID, response to SIGAR data call, 7/17/2013 and 4/18/2013; State, response to SIGAR data call, 6/27/2013.




                                                             86                             SPECIAL INSPECTOR GENERAL                     I   AFGHANISTAN RECONSTRUCTION
                                                                                                                                                 DOD



                                                              STATUS OF FUNDS
                                                                                                                                                                       ESF



                                                                                                                                                                      USAID




INTERNATIONAL NARCOTICS CONTROL
AND LAW ENFORCEMENT                                                                                                                                                           INCLE
The U.S. Bureau of International Narcotics and Law Enforcement Affairs
(INL) manages an account for advancing rule of law and combating narcot-
                                                                                                                                                                               DOS
ics production and trafficking—the International Narcotics Control and
Law Enforcement (INCLE) account. INCLE supports several INL program
groups, including police, counternarcotics, and rule of law and justice.68                                                        INL FUNDS TERMINOLOGY
   State reported that the Consolidated and Further Continuing                                                                    INL reported INCLE and other INL funds as
                                                                                                                                              AIF
Appropriations Act, 2013, appropriated nearly $568.81 million for INCLE,                                                          appropriated, obligated, or disbursed.
bringing cumulative funding to nearly $4.15 billion. Of this amount, nearly                                                       Appropriations: Total monies available
$3.47 billion had been obligated, of which more than $2.69 billion had been                                                       for commitments
                                                                                                                                             DOD
disbursed.69 Figure 3.18 shows INCLE appropriations by fiscal year.                                                               Obligations: Commitments to pay monies
   State reported that cumulative obligations as of June 30, 2013, decreased
                                                                                                                                  Disbursements: Monies that have been
by more than $15.11 million compared to cumulative obligations as of
                                                                                                                                  expended
March 31, 2013. Cumulative disbursements as of June 30, 2013, increased by                                                                             TFBSO
more than $115.93 million over cumulative disbursements as of March 31,                                                           Source: State, response to SIGAR data call, 4/9/2010.

2013.70 Figure 3.19 provides a cumulative comparison of amounts appropri-
                                                                                                                                                DOD
ated, obligated, and disbursed for INCLE.

FIGURE 3.18                                                       FIGURE 3.19

INCLE APPROPRIATIONS BY FISCAL YEAR                               INCLE FUNDS, CUMULATIVE COMPARISON
($ MILLIONS)                                                      ($ BILLIONS)




$700                                                              $4.5

                                                                                                                   Appropriated
$600                                                                                                               $4.15
                                                                  $4.0

$500                                                                                  Appropriated
                                                                  $3.5                $3.58                        Obligated
                                                                                                                   $3.47
$400                                                                                  Obligated
                                                                                      $3.49
                                                                  $3.0
$300                                                                                                               Disbursed
                                                                                      Disbursed                    $2.69
                                                                  $2.5                $2.58
$200


$100                                                              $2.0


   $0                                                               $0
        02 03 04 05 06 07 08 09 10 11 12 13a                             As of Mar 31, 2013           As of Jun 30, 2013

Notes: Numbers have been rounded. Data may include inter-agency transfers. Updated data resulted in a lower obligation figure
than that reported as of 3/31/2013.
a Figure reflects draft allocation amount for Afghanistan and is subject to final Congressional approval.

Sources: State, response to SIGAR data call, 7/15/2013, 6/27/2013, and 4/15/2013.




REPORT TO THE UNITED STATES CONGRESS                          I   JULY 30, 2013                                         87
STATUS OF FUNDS




INTERNATIONAL RECONSTRUCTION FUNDING
FOR AFGHANISTAN
In addition to assistance provided by the United States, the international
community provides a significant amount of funding to support Afghanistan
relief and reconstruction efforts. As noted in previous SIGAR quarterly
reports, most of the international funding provided is administered through
trust funds. Contributions provided through trust funds are pooled and then
distributed for reconstruction activities. The two main trust funds are the
Afghanistan Reconstruction Trust Fund (ARTF) and the Law and Order
Trust Fund for Afghanistan (LOTFA).71

The Afghanistan Reconstruction Trust Fund
The largest share of international contributions to the Afghan operational
and development budgets comes through the ARTF. From 2002 to June 21,
2013, the World Bank reported that 33 donors had pledged more than
$6.96 billion, of which nearly $6.30 billion had been paid in.72 According to
the World Bank, donors have pledged approximately $846.88 million to the
ARTF for Afghan fiscal year 1392, which runs from December 21, 2012, to
December 20, 2013.73 Figure 3.20 shows the 10 largest donors to the ARTF
for FY 1392.


FIGURE 3.20

ARTF CONTRIBUTIONS FOR FY 1392 BY DONOR, AS OF JUNE 21, 2013 ($ MILLIONS)

                                                       Total Commitments: $847         Total Paid In: $184
                                                                                                        300
   United States        0
                                                                       132
United Kingdom          0
                                                                 110
           Japan                                                 110
                                                      79
        Germany         0
                                                 63
        Australia                           54
                                       41
           EC/EU        0
                                       37
         Sweden         3
     Netherlands                   33
                        0
                             15
         Canada             12
                            13
          Finland       0
                                  24
           Others       5

                    0                                      100               200                     300       400
                                                            Paid In                       Commitments

Notes: Numbers have been rounded. FY 1392 = 12/21/2012–12/20/2013.
Source: World Bank, "ARTF: Administrator's Report on Financial Status as of June 21, 2013," p. 1.




    88                                      SPECIAL INSPECTOR GENERAL              I   AFGHANISTAN RECONSTRUCTION
                                       STATUS OF FUNDS




   As of June 21, 2013, the United States had pledged more than $2.04 bil-     FIGURE 3.21
lion and paid in more than $1.74 billion since 2002.74 The United States and
                                                                               ARTF CONTRIBUTIONS PAID IN BY DONORS
the United Kingdom are the two biggest donors to the ARTF, together con-       SY 1381 (2002)–JUNE 21, 2013 (PERCENT)
tributing nearly 46% of its total funding, as shown in Figure 3.21.
   Contributions to the ARTF are divided into two funding channels—the
                                                                                               Total Paid In: $6.3 billion
Recurrent Cost (RC) Window and the Investment Window.75 As of June 21,
2013, according to the World Bank, nearly $2.83 billion of ARTF funds had
been disbursed to the Afghan government through the RC Window to assist                                 United States
with recurrent costs such as salaries of civil servants.76 The RC Window                                28%
supports the operating costs of the Afghan government because the gov-                                              United
                                                                                               Others               Kingdom
ernment’s domestic revenues continue to be insufficient to support its                         31%                  18%
recurring costs. To ensure that the RC Window receives adequate funding,
donors to the ARTF may not “preference” (earmark) more than half of their                                                      Canada
annual contributions for desired projects.77                                                                                   9%

   The Investment Window supports the costs of development programs.                 Netherlands
                                                                                                                   Germany
As of June 21, 2013, according to the World Bank, nearly $2.90 billion had           7%
                                                                                                                   7%
been committed for projects funded through the Investment Window, of
which nearly $2.04 billion had been disbursed. The World Bank reported 22      Notes: Numbers have been rounded. "Others" includes 28
                                                                               donors.
active projects with a combined commitment value of nearly $1.84 billion,      Source: World Bank, "ARTF: Administrator's Report on
of which approximately $980.40 million had been disbursed.78                   Financial Status as of June 21, 2013," p. 5.



The Law and Order Trust Fund for Afghanistan                                   FIGURE 3.22
The United Nations Development Programme (UNDP) administers the
LOTFA to pay ANP salaries and build the capacity of the Ministry of            DONORS' CONTRIBUTIONS TO THE LOTFA
Interior.79 Since 2002, donors have pledged more than $3.35 billion to the     SINCE 2002, AS OF MARCH 31, 2013
                                                                               (PERCENT)
LOTFA, of which nearly $2.92 billion had been paid in, according to the
most recent data available.80 The LOTFA’s sixth support phase started on
January 1, 2011. On March 20, 2013, the UNDP-LOTFA Steering Committee
approved an extension of Phase VI to expand the phase from the planned                                          Japan
end date of March 31, 2013, to December 31, 2013. In the 27 months since                   United States        28%
Phase VI began, the UNDP had transferred more than $1.13 billion from                      38%
the LOTFA to the Afghan government to cover ANP and Central Prisons
                                                                                                                 EU
Directorate staff remunerations and an additional $25.61 million for capac-                      Others
                                                                                                                 15%
                                                                                                 13%
ity development and other LOTFA initiatives.81 As of March 31, 2013, donors
had committed more than $1.82 billion to the LOTFA for Phase VI. Of that
                                                                                                              Germany
amount, the United States had committed nearly $859.37 million, and Japan                                     6%
had committed more than $614.76 million. Their combined commitments
make up nearly 81% of LOTFA Phase VI commitments.82 The United States          Notes: Numbers have been rounded. EC/EU = European
                                                                               Commission/European Union. "Others" includes 18 donors.
had contributed more than $1.12 billion to the LOTFA since the fund’s          Sources: UNDP, "LOTFA Phase VI Quarterly Progress Report
inception.83 Figure 3.22 shows the four largest donors to the LOTFA since      Q1/2013," Annex 1, 6/26/2013; SIGAR analysis of UNDP's
                                                                               quarterly and annual LOTFA reports, 7/23/2013.
2002, based on the latest data available.




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2013              89
SECURITY CONTENTS

Key Events	                           91
U.S. Forces in Afghanistan	           95
ANSF Strength	                        95
Afghan Local Police	                  96
Afghan Public Protection Force	       96
ANSF Assessments	                     96
Ministry of Defense and Ministry of
Interior Assessments	                 98
Afghan National Army	                 99
Afghan National Police	               105
ANSF Medical/Health Care	             108
Removing Unexploded Ordnance	         109
Counternarcotics	109




  90
                                                                SECURITY




SECURITY
As of June 30, 2013, the U.S. Congress had appropriated more than $54 bil-
lion to support the Afghan National Security Forces (ANSF). Most of these
funds ($52.8 billion) were appropriated through the Afghanistan Security
Forces Fund (ASFF) and provided to the Combined Security Transition
Command-Afghanistan (CSTC-A). Its purpose is to build, equip, train, and
sustain the ANSF, which comprises the Afghan National Army (ANA) and
the Afghan National Police (ANP). Of the $52.8 billion appropriated for the
ASFF, approximately $45.3 billion had been obligated and $41.5 billion dis-
bursed as of May 31, 2013.84
   This section discusses assessments of the ANSF and the Ministries of
Defense and Interior; gives an overview of U.S. funds used to build, equip,
train, and sustain the ANSF; and provides an update on efforts to combat
the cultivation of and commerce in illicit narcotics in Afghanistan. This sec-
tion also discusses the challenges to transitioning to Afghan-led security by
the end of 2014.


KEY EVENTS
Key events this quarter include a proposed increase in funding in the
Department of Defense’s (DOD) FY 2014 ASFF budget request, the status
of the FY 2014 National Defense Authorization Act (NDAA), the status of
U.S.-Afghan negotiations on a bilateral security agreement, the increasing
number of ANSF casualties, and the progress toward transition to ANSF-led
security in Afghanistan.

FY 2014 ASFF Budget Request
This quarter, DOD released its budget request for the FY 2014 ASFF. The
request is broken into two parts: a core request for $5.11 billion and an
“enabler” request for $2.62 billion.85 According to DOD, the funding listed
under the enabler request is conditional. It “shall not be available for obli-
gation until the Department of Defense, with approval from the Office of
Management and Budget, notifies the congressional defense committees
that such amount, or a portion thereof, is necessary to further develop the
capabilities of the Afghanistan Security Forces.”86




     REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2013             91
SECURITY




    At its current level, the total request of $7.73 billion is $1.98 billion
more than the FY 2013 ASFF budget request and $2.60 billion more than
the final amount appropriated for FY 2013. The FY 2014 request would
increase funding for ANA equipment by 803% and for infrastructure by 210%
above what Congress provided for these categories in FY 2013, as shown
in Table 3.2. DOD is requesting $2.18 billion for ANA equipment (up from
$242 million in FY 2013) to purchase equipment and weapons. Notably, new
equipment requested includes the following items aimed at bolstering the
ANSF’s enabler, or combat support, capabilities:87
 •	 Mobile Strike Force Vehicles ($886.9 million)
 •	 4 medium airlift aircraft to replace the Afghan Air Force’s fleet of G-222s
    ($250 million)
 •	 Replacement helicopters ($345 million)
 •	 10 C-208 fixed-wing training aircraft ($28.6 million)
 •	 20 light air support fixed-wing aircraft for air-to-ground missions
    ($416.8 million)
 •	 8 MD-530 helicopters for special operations and quick-reaction forces
    ($28 million)
 •	 NATO Standard 155mm howitzers ($163.4 million)

TABLE 3.2


AFGHANISTAN SECURITY FORCES FUND
                                      Consolidated Appropriations         FY 2014 Overseas Contingency
                                        Act, 2013 (P.L. 113-6)              Operations (OCO) Request             Change
 MOD/ANA
 Infrastructure                                  90,000,000                           278,650,000                 +210%
 Equipment and Transportation                   241,521,000                         2,180,382,000                 +803%
 Training and Operations                        758,380,000                           626,550,000                  –17%
 Sustainment                                  2,523,825,000                         2,735,603,000                   +8%
 MOI/ANP
 Infrastructure                                  50,000,000                                     0                 –100%
 Equipment and Transportation                    84,859,000                            54,696,000                  –36%
 Training and Operations                        569,868,000                           626,119,000                  +10%
 Sustainment                                  1,305,950,000                         1,214,995,000                   –7%
 Related Activities
 Infrastructure                                    1,200,000                                       0              –100%
 Equipment and Transportation                      1,239,000                                       0              –100%
 Training and Operations                           4,000,000                               2,500,000               –38%
 Sustainment                                      18,325,000                               7,225,000               –61%
 Reductions
 General Reduction                            –525,000,000                                                          NA
 TOTAL                                     5,124,167,000                        7,726,720,000                     +51%
Notes: Numbers have been rounded. MOD = Ministry of Defense. MOI = Ministry of Interior.

Sources: DOD, “Justification for FY 2014 Overseas Contingency Operations, Afghanistan Security Forces Fund (ASFF),” 5/2013,
p. 2; DOD, “Justification for FY 2013 Overseas Contingency Operations, Afghanistan Security Forces Fund (ASFF),” 2/2012, p.
44; Congressional Record, House, 3/6/2013, p. H1013; Congressional Record, Senate, 3/11/2013, p. S1531; GPO, H.R.
933, 3/26/2013, p. H.R. 933–136.




    92                           SPECIAL INSPECTOR GENERAL                 I   AFGHANISTAN RECONSTRUCTION
                                                           SECURITY




   Although DOD has asked for funds, CSTC-A said no Afghan authority
had asked for MD-530s. Further there were no authorized positions for
MD-530 pilots or maintainers.88 The additional “enabler” request for ANA
infrastructure ($278.7 million) includes funding for facilities to house
the new aircraft, ammunition bunkers for the new howitzers, and a new
regional hospital. DOD is also requesting $192.4 million for Afghan Air
Force training.89
   Despite the increase in the request for ANA equipment and infrastruc-
ture, the amounts requested in eight of the 12 ASFF funding categories were
less than the amounts appropriated for FY 2013, as shown in Table 3.2.

National Defense Authorization Act for FY 2014
As of July 8, 2013, the House of Representatives had passed its version (H.R.
1960) of the NDAA for FY 2014; the Senate is now considering the bill.90
The current version of the bill withholds $2.6 billion of ASFF funding until
the Secretary of Defense certifies to Congress that the United States and
Afghanistan have signed a bilateral security agreement that ensures:91
•	 protection for DOD and its contractors from taxes or charges for efforts
   to carry out missions in Afghanistan that had been agreed to by both the
   United States and Afghanistan
•	 exclusive U.S. jurisdiction over U.S. forces in Afghanistan
•	 no infringement of the U.S. military and its personnel’s self-defense rights
•	 ability of the U.S. military to protect U.S. government offices and
   personnel in Afghanistan as needed
•	 U.S. military access to bases as needed to carry out its mission
•	 U.S. freedom of movement necessary to defeat al-Qaeda and its associates

   H.R. 1960 withholds the same $2.6 billion until the Secretary of Defense
submits to Congress a report on certain equipment (helicopters, systems
for close air support, air-mobility systems, and armored vehicles) to be pur-
chased with ASFF funds authorized by the Act that includes:92
•	 lists of all equipment
•	 the expected date such equipment would be delivered and operable in
   Afghanistan
•	 full requirements for operating such equipment
•	 the plan for maintaining such equipment and estimated costs by year
   through 2020
•	 the expected date that ANSF personnel would be fully capable of
   operating and maintaining such equipment without U.S. support
•	 an explanation of the extent to which the acquisition of such equipment
   will impact longer-term U.S. costs of supporting the ANSF

   H.R. 1960 also includes limitations on use of FY 2013 and later DOD
funding for purchasing equipment from Rosoboronexport, the Russian




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2013                 93
                                                SECURITY




                                                agency that sells military equipment, until the Secretary of Defense certi-
                                                fies that Rosoboronexport is cooperating with the Defense Contract Audit
                                                Agency, has not provided anti-aircraft missiles to Syria, and has not signed
                                                any new contracts with President Bashar al Assad’s regime. The Secretary
                                                of Defense may waive the limitation by certifying that the purchase is in the
                                                national security interests of the United States.93
                                                   Since 2005, DOD has been procuring Russian-made Mi-17 helicopters for
                                                the ANSF. In 2011, the Army contracted Rosoboronexport to purchase 21
                                                Mi-17 military helicopters with the option to buy another 12.94
                                                   H.R. 1960 also requires that no less than $47.3 million be used to recruit and
                                                retain women in the ANSF.95 Recruitment of women has been a challenge: cur-
                                                rently only 0.2% of ANA personnel and 1% of ANP personnel are women.96

Seth Jones of the RAND Corporation shared       Bilateral Security Agreement
his views with SIGAR staff on the U.S. effort   Since November 15, 2012, the United States and Afghanistan have been
to secure and stabilize Afghanistan. SIGAR      negotiating a Bilateral Security Agreement (BSA) to determine the status
periodically invites subject matter experts     and role of U.S. forces post-2014.97 The top U.S. and NATO commander in
to speak with staff. (SIGAR photo)
                                                Afghanistan, General Joseph F. Dunford Jr., told Congress on April 17 that
                                                the BSA was needed to show our commitment to both Afghanistan and to
                                                Coalition partners and to counter the Taliban message that Afghanistan will
                                                be abandoned.98 On June 19, 2013, President Karzai suspended talks with the
                                                United States on the BSA due to disagreements over the peace process.99
                                                   The United States has yet to determine the number of troops that will
                                                remain in Afghanistan after 2014. Last quarter, U.S. Central Command
                                                (CENTCOM) commander General James Mattis recommended a post-2014
                                                force of 20,000 Coalition troops, 13,600 of them American. NATO defense
                                                ministers have discussed leaving a force of 9,500 U.S. and 6,000 Coalition
                                                troops.100 As of July 9, 2013, the United States had not ruled out a “zero
                                                option” whereby all U.S. troops would exit Afghanistan post-2014.101

                                                Security Environment and ANSF Casualties
                                                In testimony before the Senate Foreign Relations Committee on July 11, a
                                                senior DOD official noted that close to 400 Afghan army and police person-
                                                nel are being killed in action every month.102
                                                   From February 16 to May 15, 2013, the number of security incidents in
                                                Afghanistan had increased by 10% over the same period in 2012, according
                                                to the UN Secretary-General.103

                                                Transition Progress
                                                This quarter, all five tranches of geographic areas were transitioning to
                                                ANSF-led security. President Karzai’s June 18 announcement of the start
                                                of the transition process for the fifth and final tranche means 100% of
                                                the Afghan population now lives in areas under transition to ANSF secu-
                                                rity lead. The announcement also coincided with the “Milestone 2013”




                                                  94                  SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                                                         SECURITY




ceremony which marked the International Security Assistance Force’s
(ISAF) shift in focus from combat to supporting the ANSF through a train-
advise-assist mission.
   According to DOD, ISAF will continue to engage in combat operations,
as needed, until the end of 2014, and remain committed to helping the ANSF
by providing enablers such as air, aviation, medical support, intelligence,
counter-IED, signals, and logistics. However, ANSF will be responsible for
day-to-day execution of security operations. Afghanistan’s Ground Forces
Command, a new Ministry of Defense (MOD) operational headquarters, will
oversee security in the country.104
   To ensure proper security in transitioning areas, ISAF will continue to
provide the ANSF with training, advising, and assistance support using
the Security Force Assistance Brigades, according to DOD. Through this
transition process, the level of ISAF support can be adjusted as the ANSF
demonstrate improved capabilities. During this shift, the Coalition forces
will realign their posture, setting the conditions for the ANSF to assume full
security responsibility and authority in late 2014.105


U.S. FORCES IN AFGHANISTAN
According to CENTCOM, 70,100 U.S. forces were serving in Afghanistan
as of June 30, 2013. Of those, approximately 51,000 were assigned to ISAF                                                            SIGAR AUDIT
and 1,700 to the NATO Training Mission-Afghanistan (NTM-A)/CSTC-A.
                                                                                                                                     In an ongoing audit, SIGAR is assess-
Of the remaining U.S. personnel, 7,200 were assigned to the U.S. Forces-
                                                                                                                                     ing the reliability and usefulness of
Afghanistan and 10,200 were designated “other military personnel.”106
                                                                                                                                     data for the number of ANSF personnel
As of July 15, 2013, a total of 2,115 U.S. military personnel have died in
                                                                                                                                     authorized, assigned, and trained. In
Afghanistan—83% of whom were killed in action—and 18,957 were wounded
                                                                                                                                     the same audit, SIGAR is examin-
as part of Operation Enduring Freedom since it began on October 7, 2001.107
                                                                                                                                     ing the methods and tools used to
                                                                                                                                     measure and evaluate the ANSF’s
ANSF STRENGTH                                                                                                                        operational effectiveness, including
                                                                                                                                     the extent to which these methods and
This quarter, ANSF’s assigned force strength was 337,111 (185,287 assigned
                                                                                                                                     tools are consistently applied, reliable,
to the ANA and Afghan Air Force, and 151,824 assigned to the ANP),
                                                                                                                                     and validated.
according to data provided by CSTC-A.108 This is 14,889 less than the end-
strength goal, as shown in Table 3.3.
TABLE 3.3


ANSF ASSIGNED STRENGTH, MAY 20, 2013
 ANSF Component                Current Target                                  Status as of 5/2013         Difference Between Current Strength and Target End-Strength Goals
 Afghan National Army          187,000 personnel by December 2012                       178,826                                               -8,174
 Afghan National Police        157,000 personnel by February 2013                       151,824                                               -5,176
 Afghan Air Force              8,000 personnel by December 2014                            6,461                                              -1,539
 ANSF Total                    352,000                                                337,111                                              -14,889
Sources: DOD, “Report on Progress Toward Security and Stability in Afghanistan,” 12/2012, p. 56; CSTC-A, response to SIGAR data calls, 7/2/2013.




REPORT TO THE UNITED STATES CONGRESS                       I   JULY 30, 2013                                      95
                                                               SECURITY




                                                               AFGHAN LOCAL POLICE
                                                               This quarter, the number of trained and equipped Afghan Local Police (ALP)
                                                               personnel was 23,551. The current goal is for the ALP to reach 30,000 per-
                                                               sonnel. According to the Special Operations Joint Task Force, the ALP are
                                                               operational at 115 sites. The United States has obligated $151 million to sup-
                                                               port the ALP as of June 30, 2013.109 ALP numbers are not counted as ANSF.


                                                               AFGHAN PUBLIC PROTECTION FORCE
    SIGAR AUDIT                                                As of June 30, 2013, the number of personnel assigned to the APPF was
                                                               18,821, according to CSTC-A. Of these, 1,352 were officers, 1,336 were non-
    Last quarter, SIGAR initiated a follow-                    commissioned officers (NCOs), and 16,133 were guards.110 APPF numbers
    on audit to the agency’s March 2012                        are not counted as ANSF.
    testimony and its June 2012 report
    that assessed the potential effects of
    USAID’s transfer of security functions                     ANSF ASSESSMENTS
    for its projects from PSCs to the APPF.                    Assessments of the ANA and ANP are indicators of the effectiveness of
                                                               U.S. and Coalition efforts to build, train, equip, and sustain the ANSF. These
                                                               assessments also provide both U.S. and Afghan stakeholders with updates
                                                               on the status of these forces as transition continues and Afghanistan
                                                               assumes responsibility for its own security.
                                                                  In assessing the capability of ANA and ANP units, ISAF uses the
                                                               Commander’s Unit Assessment Tool (CUAT), which has five rating levels:111
                                                               •	 Independent with Advisors: The unit is able to plan and execute
                                                                  its missions, maintain command and control of subordinates, call on
                                                                  and coordinate quick-reaction forces and medical evacuations, exploit
                                                                  intelligence, and operate within a wider intelligence system.
  Enablers: specialized units that support
  combat units, such as engineering, civil
                                                               •	 Effective with Advisors: The unit conducts effective planning,
  affairs, military intelligence, helicopter,                     synchronizing, directing, and reporting of operations and status.
  military police, and intelligence,                              Leaders, staff, and unit adhere to a code of conduct and are loyal to the
  surveillance, and reconnaissance assets.                        Afghan government. Coalition forces provide only limited, occasional
                                                                  guidance to unit personnel and may provide enablers as needed.
                                                                  Coalition forces augment support only on occasion.
                                                               •	 Effective with Partners: The unit requires routine mentoring for
Source: DOD, “Mullen Tours Forward Outposts in Afghanistan,”
4/22/2009, accessed 1/4/2012.                                     planning, synchronizing, directing, and reporting of operations and status;
                                                                  coordinating and communicating with other units; and maintaining
                                                                  effective readiness reports. Leaders, staff, and most of the unit adhere
                                                                  to a code of conduct and are loyal to the Afghan government. ANSF
                                                                  enablers provide support to the unit; however, coalition forces may
                                                                  provide enablers to augment that support.
                                                               •	 Developing with Partners: The unit requires partnering and assistance
                                                                  for planning, synchronizing, directing, and reporting of operations
                                                                  and status; coordinating and communicating with other units; and
                                                                  maintaining effective readiness reports. Leaders and most of the




                                                                 96                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                                                                   SECURITY




   staff usually adhere to a code of conduct and are loyal to the Afghan
   government. Some enablers are present and effective, providing some of
   the support. Coalition forces provide enablers and most of the support.
•	 Established: The unit is beginning to organize but is barely capable of
   planning, synchronizing, directing, or reporting operations and status,
   even with the presence and assistance of a partner unit. The unit is barely
   able to coordinate and communicate with other units. Leadership and
   staff may not adhere to a code of conduct or may not be loyal to the
   Afghan government. Most of the unit’s enablers are not present or are
   barely effective. Those enablers provide little or no support to the unit.
   Coalition forces provide most of the support.

   During this reporting cycle, the total number of ANA units rose from 302
to 312. According to ISAF Joint Command (IJC), this increase is the result
of new units being fielded in the 111th Capital Division, the Mobile Strike
Brigades, and the 201st, 203rd, and 215th Corps.112 For the ANP, the total
number of units fell from 528 to 514.113
   Because not every unit is reported in every CUAT cycle, the IJC uses the
most recent assessment (within the last 18 months) to “enable cycle to cycle

FIGURE 3.23

CUAT RATINGS OF ANSF UNITS, QUARTERLY CHANGE


                                                  ANA                                                                                           ANP
200                                                                                                                   193 195

                        174

160                           155                                                                           157
                                                                                                      141

120
               100
                                                                                                                                      91
 80                                                                                                                                          76
         63
                                                                                                                                                                                    55

 40                                     33 33                                                                                                         37 39                              33

                                                        13 10                          15 11                                                                          11 14
                                                                          4     4
  0
        Independent       Effective       Effective      Developing      Established      Not         Independent       Effective       Effective      Developing     Established     Not
        with Advisors   with Advisors   with Partners   with Partners                   Assessed      with Advisors   with Advisors   with Partners   with Partners                 Assessed

              Q2 2013 | ANA Total - 302                          Q3 2013 | ANA Total - 313                  Q2 2013 | ANP Total - 528                          Q3 2013 | ANP Total - 514


Sources: DOD, responses to SIGAR data call, 4/17/2013 and 7/9/2013.




REPORT TO THE UNITED STATES CONGRESS                              I     JULY 30, 2013                           97
                                         SECURITY




                                         comparisons.”114 When compared this way, 37 more ANA units and 16 more
                                         ANP units were rated “independent with advisors,” as shown in Figure 3.23
                                         on the previous page. According to the most recent assessments, more than
                                         81% of all ANA units were rated at the two highest levels: 32% were “inde-
                                         pendent with advisors” and 50% were “effective with advisors.” For the ANP,
                                         more than 68% of units were rated at the two highest levels: 31% were “inde-
                                         pendent with advisors” and 38% were “effective with advisors.”115


                                         MINISTRY OF DEFENSE AND MINISTRY OF
                                         INTERIOR ASSESSMENTS
                                         Assessments of the MOD and the MOI continued to show progress this quar-
                                         ter. To rate the operational capability of these ministries, NTM-A uses the
                                         Capability Milestone (CM) rating system. This system assesses staff sections
                                         (such as the offices headed by assistant or deputy ministers) and cross-
                                         functional areas (such as general staff offices) using four primary and two
                                         secondary ratings:116
                                         •	 CM-1A: capable of autonomous operations
                                         •	 CM-1B: capable of executing functions with coalition oversight only
                                         •	 CM-2A: capable of executing functions with minimal coalition assistance
                                         •	 CM-2B: can accomplish its mission but requires some coalition assistance
                                         •	 CM-3: cannot accomplish its mission without significant coalition assistance
                                         •	 CM-4: exists but cannot accomplish its mission

                                            At the MOD, all 46 staff sections and cross-functional areas were
                                         assessed this quarter. Of those, nine progressed and two regressed. Notably,
SIGAR SPECIAL PROJECT                    the Logistics Command became the first MOD office to achieve the highest
In an ongoing special project, SIGAR     rating of CM-1A (capable of autonomous operations).
is reviewing assessments of the MOD         The other offices that received a higher rating this quarter were:117
and MOI to determine those ministries’   •	 General Staff Policy and Planning (CM-1B)
capacity to manage and account for       •	 First Deputy Minister of Defense (CM-1B)
U.S. direct assistance funds. For more   •	 Assistant Minister of Defense for Reserve Affairs (CM-2B)
information, see SIGAR’s April 2013      •	 Afghan Air Force Command (CM-2B)
Quarterly Report to Congress.            •	 Assistant Minister of Defense for Education (CM-2B)
                                         •	 General Staff Logistics (CM-2B)
                                         •	 Vice Chief of General Staff - Air (CM-2B)
                                         •	 Assistant Minister of Defense for Intel Policy (CM-3)

                                            The two MOD offices that regressed were the MOD Chief of the
                                         Legal Department (fell to CM-3) and the MOD Chief of Finance (fell to
                                         CM-2B).118 One MOD office—Gender Integration—was rated CM-4 (down
                                         from 3 last quarter), meaning that it cannot accomplish its mission, as
                                         shown in Figure 3.24.119




                                           98                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                                                             SECURITY




FIGURE 3.24

CAPABILITY MILESTONE RATINGS OF MOD AND MOI, QUARTERLY CHANGE
                                                                  MOD                                                                                 MOl

CM-1A: capable of                          0                                                                                         1
autonomous operations          CM-1A                                                                               CM-1A
                                                1                                                                                    1
CM-1B: capable of                                                     6                                                                       3
executing functions with       CM-1B                                                                               CM-1B
coalition oversight only                                              6                                                                           4
CM-2A: capable of                                                                                            17                                                         9
executing functions with       CM-2A                                                                               CM-2A
minimal coalition assistance                                                                       15                                                                             12
CM-2B: can accomplish its                                                               12                                                                                  10
mission but requires some      CM-2B                                                                               CM-2B
coalition assistance                                                                                    16                                                      8
CM-3: cannot accomplish its                                                   8                                                                                         9
mission without significant    CM-3                                                                                CM-3
coalition assistance                                                      7                                                                                 7

CM-4: exists but cannot                                   3                                                                    0
accomplish its mission         CM-4                                                                                CM-4
                                                 1                                                                             0
                                           0                                                                                   0
Not Assessed                    NA                                                                                  NA
                                           0                                                                                   0
                                       0              3           6           9       12        15            18           0              3           6             9            12        15       18

                                               Q2 MOD Staff Sections              Q3 MOD Staff Sections                            Q2 MOI Staff Sections                    Q3 MOI Staff Sections


Sources: CSTC-A, responses to SIGAR data call, 4/1/2013, 7/2/2013, and 7/15/2013.




   All 32 staff sections at the MOI were assessed; nine progressed and two
regressed—the Recruiting Command and the Inspector General—since last
quarter. No MOI sections were rated CM-4. Those whose ratings increased
this quarter were:120
•	 Force Management (CM-1B)
•	 Legal Affairs (CM-2A)
•	 Intelligence (CM-2A)
•	 Civil Service (CM-2A)
•	 Afghan Border Police (CM-2A)
•	 Anti-Crime Police (CM-2A)
•	 Information, Communications, and Technology (CM-2B)
•	 Training Management (CM-2B)
•	 Counter-IED (CM-2B)


AFGHAN NATIONAL ARMY
As of May 31, 2013, the United States had a obligated $29.9 billion, and dis-
bursed $27.4 billion of ASFF funds to build, train, and sustain the ANA.121




REPORT TO THE UNITED STATES CONGRESS                          I   JULY 30, 2013                                    99
SECURITY




ANA Strength
As of May 21, 2013, the overall strength of the ANA was 185,287 person-
nel (178,826 Army and 6,461 Air Force), according to CSTC-A. This is
an increase of 3,453 since last quarter, as shown in Table 3.4. The total
includes 18,033 trainees, students, and those awaiting assignment, as
well as 4,667 cadets. According to CSTC-A, the ANA includes 7,806 civil-
ians (both ANA and Air Force personnel) in determining its end strength.
CSTC-A noted that it worked with the ANA to identify and separate civil-
ians from military personnel.122 SIGAR’s reporting of ANA’s end strength
does not include these civilians, but does count unassigned military per-
sonnel and cadets.
   CSTC-A stated that 52,650 ANA and Afghan Air Force personnel were
in the field or actively engaged in combat operations. Another 69,707
were “present for duty” which meant that they were “in [their] barracks.”
Personnel both present for duty and in the field did not include “Echelon
Above Corps” personnel—those assigned to the MOD, General Staff, or the
Intermediate Commands.123
   Determining accurate ANA strength is challenging. The ANA often
collects data by hand, on paper. CSTC-A has said “there is no 100%
viable method of validating ANA personnel numbers,” although it does

TABLE 3.4


ANA STRENGTH, QUARTERLY CHANGE
                                                 Authorized                                           Assigned
                                                                  Quarterly                                      Quarterly
 ANA Component                    Q1 2013         Q2 2013          Change           Q1 2013           Q2 2013     Change
 201st Corps                        17,821           17,638           -183            17,427            18,116     +689
 203rd Corps                        20,022           20,002             -20           19,095            20,288   +1,193
 205th Corps                        18,476           18,287           -189            18,982            19,351     +369
 207th Corps                        14,313           14,097           -216            12,803            14,279   +1,476
 209th Corps                        14,458           14,236           -222            13,065            13,371     +306
 215th Corps                        16,933           16,733           -200            17,307            17,447     +140
 111th Capital Division               9,273            9,174            -99             8,654            8,619       -35
 Special Operations Force           12,261           12,238             -23           10,366            10,970     +604
 Echelons Above Corpsa              37,592           38,773        +1,181             37,837            33,685    -4,152
 TTHSb                                      -                -                        19,905c          22,700d   +2,795
 ANA Total                       161,149         161,218e             +69          175,441            178,826    +3,385
 Afghan Air Force (AAF)               7,639            7,097          -542              6,393            6,461       +68
 ANA + AAF Total                 168,788          168,315             -473         181,834            185,287    +3,453
Notes: Q1 data is as of 2/18/2013. Q2 data is as of 5/21/2013.
a	Includes MOD, General Staff, and Intermediate Commands
b	Trainee, Transient, Holdee, and Student; these are not included in counts of authorized personnel
c	Includes 3,802 cadets
d	Includes 4,667 cadets
e	CSTC-A provided total; actual sum of ANA components was 161,178


Sources: CSTC-A, responses to SIGAR data calls, 4/1/2013, 4/16/2013, and 7/2/2013.




   100                            SPECIAL INSPECTOR GENERAL                   I   AFGHANISTAN RECONSTRUCTION
                                                           SECURITY




cross-reference reported numbers with pay records and personnel sta-
tus reports. In addition, CSTC-A cross-references ANA reporting of new
recruits with ANA training-center strength reports. While these efforts leave
room for error, CSTC-A reported that discrepancies are relatively minor
and acceptable considering “the potential for over/under reporting in a
still largely paper-based system.” CSTC-A noted that the use of the Afghan
Human Resources Information System will provide a more reliable platform
for reporting and validating ANA strength numbers.124 That automated sys-
tem is still in development, however, and its launch date is not yet set.

ANA Sustainment
As of May 31, 2013, the United States had obligated $9.8 billion and dis-
bursed $9.5 billion of ASFF funds for ANA sustainment.125
  As part of sustainment funding, the United States has provided the ANA
with ammunition at a cost of approximately $1.03 billion, according to
CSTC-A.126

ANA Salaries, Food, and Incentives
As of June 30, 2013, the United States had provided nearly $1.8 billion through
the ASFF to pay for ANA salaries, food, and incentives since FY 2008. This
includes $51 million provided this quarter. Since FY 2009, the United States
contribution to ANA salaries alone (not including food and incentives) was
$1.2 billion. The estimated annual amount of funding required for the base
                                                                                  SIGAR AUDIT
salaries, bonuses, and incentives of a 195,000-person ANA is $686.1 million.127   This quarter, SIGAR announced an
                                                                                  audit to evaluate the effectiveness of
ANA Equipment and Transportation                                                  U.S. government oversight of contracts
While the U.S. effort to equip the ANA has at times appeared to be ending,        to procure, operate, and maintain
new requirements for additional equipment are resulting in new pro-               Mobile Strike Force Vehicles (MSFV) for
curements. These new requirements are evident in quarterly changes to             the ANA. The audit will also determine
equipment cost totals, as well as in DOD’s FY 2014 ASFF budget request for        the extent to which the ANA has the
approximately $2 billion in new equipment.128                                     capacity to operate and maintain its
   As of May 31, 2013, the United States had obligated and disbursed              current and planned MSFVs. For more
$11.1 billion of the ASFF for ANA equipment and transportation.129Most            information, see Section 2, page 40.
of these funds were used to purchase weapons and related equipment,
vehicles, communications equipment, and aircraft and aviation-related             SIGAR AUDIT
equipment.130 Nearly 82% of U.S. funding in this category was for vehicles
                                                                                  SIGAR completed a financial audit of a
and transportation-related equipment, as shown in Table 3.5 on the follow-
                                                                                  contract to support the ANA’s Techni-
ing page. The United States has also procured more than $768 million in
                                                                                  cal Equipment Maintenance Program.
other equipment such as clothing and personal gear.131
                                                                                  The audit found four internal control
   Last quarter, CSTC-A stated that the United States had procured
                                                                                  deficiencies and five instances of non-
$878 million of weapons for the ANA. However, this quarter, CSTC-A stated
                                                                                  compliance, which brought into ques-
that the total cost was actually $623 million due to a $153 million correction
                                                                                  tion $2.8 million in costs. For more
in the total cost of some equipment and accounting for nearly $102 million
                                                                                  information, see Section 2, page 46.
in donated equipment that was not U.S.-funded (but still tracked as part




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2013                 101
                                           SECURITY




                                           TABLE 3.5


                                           COST OF U.S.-FUNDED ANA EQUIPMENT
                                            Type of Equipment                                        Procured           Remaining to be Procured
                                            Weapons                                                $622,775,356                 $226,000
                                            Vehicles                                             $5,558,632,248                        $0
                                            Communications Equipment                               $599,498,880                        $0
                                            Total                                              $6,780,906,484                 $226,000
                                           Source: CSTC-A, response to SIGAR data call, 7/2/2012.




                                           of the ANA’s equipment inventory).132 The updated equipment cost total is
                                           reflected in Table 3.5.
                                               CSTC-A also stated last quarter that no new vehicles or communica-
                                           tions equipment remained to be procured for the ANA. However, this
                                           quarter, CSCT-A’s latest cost totals had increased for vehicles (by more
                                           than $2 million) and communications equipment (by nearly $19 mil-
                                           lion).133 According to CSTC-A, this is due, in part, to new requirements to
                                           support APPF convoy-security operations and the General Directorate of
                                           Police Special Units.134
                                               This quarter, the Afghan Air Force inventory consisted of 108 aircraft,
                                           according to CSTC-A:135
                                            •	 48 Mi-17s (transport helicopters)
                                            •	 6 Mi-35s (attack helicopters)
                                            •	 16 C-27As (cargo planes)
                                            •	 26 C-208s (light transport planes)
SIGAR AUDIT                                 •	 6 C-182s (four-person trainers)
                                            •	 6 MD-530Fs (light helicopters)
A SIGAR audit released this quarter
found that DOD is moving forward with
                                              Still to be procured are 20 light support aircraft, 12 Mi-17 helicopters, and
a $771.8 million purchase of aircraft
                                           four C-130H cargo planes.136 Last February, the U.S. Air Force awarded a
for the SMW despite the SMW having
                                           U.S. company a $427 million contract to deliver the 20 light support aircraft;
less than one-quarter of the personnel
                                           the contract is capped at $950 million through February 2019.137
needed, facing steep recruitment and
                                              Ten of the Afghan Air Force’s 48 Mi-17s are loaned to the Special Mission
training challenges, and lacking the
                                           Wing (SMW).138 The SMW is a unit that provides air support for Afghan
ability to maintain its current aircraft
                                           Special Forces executing counternarcotics and counterterrorism mis-
fleet. For more information, see Sec-
                                           sions.139 This quarter, the SMW inventory consisted of 30 Mi-17 helicopters:
tion 2, page 30.
                                           13 from DOD, 10 on loan from the Afghan Air Force, five from the United
                                           Kingdom, and two from Germany.140

                                           ANA Infrastructure
                                           As of May 31, 2013, the United States had obligated $6.2 billion and dis-
                                           bursed $4.1 billion of the ASFF for ANA infrastructure.141 At that time, the
                                           United States had completed 227 infrastructure projects (valued at $2.65 bil-
                                           lion), with another 124 projects ongoing ($2.93 billion) and eight planned




                                             102                           SPECIAL INSPECTOR GENERAL          I   AFGHANISTAN RECONSTRUCTION
                                                           SECURITY




($180 million), according to CSTC-A. Of the ongoing projects, five new con-
tracts (valued at more than $58 million) were awarded this quarter.142
   While the number of completed projects is increasing (227 this quarter        SIGAR AUDIT
compared to 213 last quarter), the total number of projects—ongoing and          An ongoing SIGAR audit will examine
planned—is decreasing. According to CSTC-A, the overall decrease is due, in      CSTC-A’s justification and support for
part, to project completions and to a reduction in planned projects because      the ANSF infrastructure project require-
transfers of Coalition bases are reducing ANSF facility requirements.143         ments. The audit will also assess: (1)
   This quarter, the largest ongoing ANA infrastructure projects were a          the extent to which U.S. and Coalition
brigade garrison for the 201st Corps in Kunar (at a cost of $115.8 million),     basing plans for the ANSF reflect ANSF
phase one of the MOD’s headquarters in Kabul ($108 million), and a brigade       force-strength projections; (2) whether
garrison for the 205th Corps in Kandahar ($89.1 million).144                     CSTC-A fully considered alternatives to
   DOD’s FY 2014 ASFF budget request of nearly $279 million for ANA infra-       new construction; (3) whether CSTC-A
structure was 210% more than the amount appropriated ($90 million) for           developed and used appropriate crite-
FY 2013. FY 2013 ASFF funding was not for construction projects, but for         ria to ensure that current and proposed
upgrades and modernizations of garrisons and force-protection systems, and       construction projects for the ANSF are
to prepare Coalition facilities for handover to the ANSF as U.S. forces are      necessary, achievable, and sustainable
drawn down. The FY 2014 ASFF budget request is mostly for the construction       by the Afghan government.
of facilities for the planned increase of ANA equipment, including bunkers for
howitzers and additional facilities for new Afghan Air Force aircraft.145

ANA and MOD Training and Operations
As of May 31, 2013, the United States had obligated $2.8 billion and
disbursed $2.7 billion of the ASFF for ANA and MOD operations and train-
ing.146 This quarter, 58,828 ANA personnel were enrolled in some type of
training, with 42,500 enrolled in literacy training, according to CSTC-A. In
addition, 7,770 enlisted personnel were enrolled in basic warrior-training
courses, 2,781 were training to become commissioned officers, and 1,371
were training to become NCOs. Other training programs include combat
specialty courses such as infantry training; combat-support courses such as
engineering, signals, and logistics; and courses to operate the high-mobility
multipurpose wheeled vehicles known as “Humvees.”147
   According to CSTC-A, the United States funds a variety of contracts to
train the MOD and the ANA. The largest of these are a $256 million contract
for advising, training, and supporting the MOD; a $76.3 million contract to
train elements of the ANA Special Operations Command; and a $65.4 mil-
lion contract to train ANA specialized personnel to respond to improvised
explosive devices (IEDs) and other explosive ordnance.148

ANA Literacy
Since its start in 2009, NTM-A/CSTC-A’s literacy program has sought to achieve
greater literacy rates within the ANA. The program is based on a 312-hour
curriculum. According to CSTC-A, in order to progress from illiteracy to
functional literacy, a student may take as many as seven tests. The student’s
performance determines if he or she progresses to the next training level.149




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2013               103
                                          SECURITY




                                             Level 1 literacy is the ability to read and write single words, count up
                                          to 1,000, and add and subtract whole numbers. At Level 2, an individual
                                          can read and write sentences, carry out basic multiplication and division,
                                          and identify units of measurement. At Level 3, an individual has achieved
                                          functional literacy and can “identify, understand, interpret, create, commu-
                                          nicate, compute and use printed and written materials.”150
                                             As of June 13, 2013, ANA personnel who have completed a literacy pro-
                                          gram include:151
                                          •	 128,370 Level 1 graduates
                                          •	 37,404 Level 2 graduates
                                          •	 31,977 Level 3 graduates

                                             According to CSTC-A, the goal is to achieve 100% Level 1 literacy
                                          and 50% Level 3 (or functional) literacy by the time the program ends.152
                                          However, CSTC-A stated that it does not know how many literacy program
                                          graduates are still in the ANA.153
                                             Since 2010, the United States has funded three literacy contracts for the
                                          ANSF. Each has a base year and a five-year limit—one-year options may
                                          be exercised in August of each year—and a maximum cost of $200 million.
                                          According to CSTC-A, these contractors were providing 684 literacy trainers
                                          to the ANA:154
                                          •	 OT Training Solutions, a U.S. company, was providing 254 trainers.
                                          •	 Insight Group, an Afghan company, was providing 180 trainers.
                                          •	 The Higher Education Institute of Karwan, an Afghan company, was
                                              providing 250 trainers.

                                             CSTC-A said responsibility for literacy training for ANA personnel in the field
                                          will transition to the ANA between October 1, 2013, and October 1, 2014.155
                                             Although a deputy to the commander of the NATO Training Mission and
                                          CSTC-A said in May 2011, “We know that we will improve the literacy rate
                                          in Afghanistan in the Afghanistan national security forces to over 50 percent
                                          by January 2012,” the current literacy rate has not been reported.156

                                          Women in the ANA
                                          The number of women in the ANA is increasing, but the goal for women to
                                          make up 10% of the ANA and Afghan Air Force remains distant. At a Senate
                                          hearing on July 11, a senior DOD official called the statistics of over 400
                                          women in the ANA “impressive” and a “very significant [increase] from
                                          zero.”157 Despite an increase this quarter, however, women make up only
                                          0.2% of the force.158 This is the same percentage as three years ago, when
                                          301 women were serving.159
ANA Officer adjusts the sights on her
                                             According to CSTC-A, institutional barriers stemming from tradi-
weapon. Women currently make up 0.2% of   tional and cultural biases have impeded progress in women’s integration.
the ANA. (ISAF photo)                     Moreover, many families do not want their daughters to join because of




                                           104                  SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                                                           SECURITY




concerns for their security. Nonetheless, more women are showing an inter-
est in joining the military. But the MOD has not capitalized on this interest
and “has not organized necessary initial training” for women.160 U.S. and
Coalition personnel continue to work closely with the MOD and the ANA to
address gender integration issues.161
   This quarter, 426 women were serving in the ANA—255 officers, 89
NCOs, 53 enlisted personnel, and 29 cadets—according to CSTC-A. This is a
14% increase over the number of women serving last quarter. In the Afghan
Air Force, 34 women were serving—22 officers and 12 NCOs.162


AFGHAN NATIONAL POLICE
As of May 31, 2013, the United States had obligated $15 billion, and dis-
bursed $13.7 billion of ASFF funds to build, train, and sustain the ANP.163
                                                                                                                           SIGAR AUDIT
ANP Strength                                                                                                               In an ongoing audit, SIGAR will assess
As of May 20, 2013, the overall strength of the ANP was 151,824 person-                                                    the ANP’s logistics capacity for pe-
nel, including 108,128 Afghan Uniform Police (AUP), 21,422 Afghan Border                                                   troleum, oil, and lubricants. The audit
Police (ABP), 14,515 Afghan National Civil Order Police (ANCOP), 3,059 in                                                  focuses on two main issues: accuracy
the Counter Narcotics Police of Afghanistan (CNPA), and 3,779 students in                                                  of fuel requirements, and accountabil-
training—according to CSTC-A.164 The total is an increase of 905 since last                                                ity for fuel purchases.
quarter, as shown in Table 3.6.

TABLE 3.6


ANP STRENGTH, QUARTERLY CHANGE
                                            Authorized                                       Assigned
                                                               Quarterly                                       Quarterly
 ANP Component                Q1 2013         Q2 2013           Change         Q1 2013         Q2 2013          Change
 AUP                          108,122         108,122            None          103,851         108,128         +4,277
 ABP                           23,090           23,090           None           22,029           21,422          -607
 ANCOP                         14,541           14,541           None           14,592           14,515            -77
 NISTAa                          9,000           9,000           None            7,388            3,779        -3,609
 Other                                 -               -                               -
 ANP Total                  154,753          154,753            None        147,860           147,844             -16
 CNPA                            2,247           2,247           None            3,059            3,059          None
 ANP + CNPA Total           157,000          157,000            None        150,919           151,824b          +905
Notes: Q1 data is as of 2/18/2013. Q2 data is as of 5/20/2013; NR = Not reported
a	Personnel in training
b	CSTC-A provided total; actual sum of all ANP components and the personnel in the NISTA account was 150,903


Sources: CSTC-A, responses to SIGAR data calls, 4/1/2013 and 7/2/2013.




ANP Sustainment
As of May 31, 2013, the United States had obligated $4.9 billion, and dis-
bursed $4.8 billion of ASFF funds for ANP sustainment.165




REPORT TO THE UNITED STATES CONGRESS                       I   JULY 30, 2013                                    105
                                             SECURITY




                                               As part of sustainment funding, the United States has provided the ANP
                                             with ammunition at a cost of approximately $246 million, according to
                                             CSTC-A.166

                                             ANP Salaries
                                             From 2008 through June 30, 2013, the U.S. government had provided
                                             $818 million through the ASFF to pay ANP salaries, incentives (extra pay
                                             for personnel engaged in combat or employed in specialty fields), and food,
                                             CSTC-A reported. However, that number does not include non-ASFF funds.
                                             As of June 30, 2013, the United States had provided approximately $1.01 bil-
                                             lion through the UN-administered Law and Order Trust Fund-Afghanistan
                                             (LOTFA) to support the ANP. The United States also provided more than
                                             $73 million outside of LOTFA for salaries and incentives.167
                                                According to CSTC-A, when the ANP reaches its final strength of 157,000
                                             personnel, it will require an estimated $628.1 million per year to fund sala-
                                             ries ($265.7 million), incentives ($224.2 million), and food ($138.2 million).168

                                             ANP Equipment and Transportation
SIGAR AUDIT                                  As of May 31, 2013, the United States had obligated and disbursed $3.5 bil-
                                             lion of ASFF funds for ANP equipment and transportation.169 Most of these
In an ongoing audit, SIGAR will assess       funds were used to purchase weapons and related equipment, vehicles, and
the process CSTC-A uses to determine         communications equipment.170 More than 82% of U.S. funding in this cat-
requirements and to acquire, manage,         egory was for vehicles and vehicle-related equipment, as shown in Table 3.7.
store, and distribute repair parts for the
ANSF, and evaluate internal controls         TABLE 3.7
to determine if they are sufficient to
account for these parts and to prevent       COST OF U.S.-FUNDED ANP EQUIPMENT
fraud, waste, and abuse.                      Type of Equipment                                          Procured             Remaining to be Procured
                                              Weapons                                                  $368,722,984                    $273,538
                                              Vehicles                                                $2,646,263,422                 $5,519,620
                                              Communications Equipment                                 $201,958,600                     $42,500
                                              Total                                              $3,216,995,006                    $5,835,658
                                             Source: CSTC-A, response to SIGAR data call, 7/2/2013.




                                             ANP Infrastructure
                                             As of May 31, 2013, the United States had obligated $3.5 billion and dis-
                                             bursed $2.4 billion of ASFF funds for ANP infrastructure.171 As of June 30,
                                             2013, the United States had completed 538 infrastructure projects (valued
                                             at $1.74 billion), with another 199 projects ongoing ($1.13 billion) and 29
                                             planned ($245 million), according to CSTC-A.172
                                                This quarter, the largest ongoing ANP infrastructure projects were a
                                             regional police-training center in Herat ($62.2 million), administrative facili-
                                             ties at the MOI Headquarters ($59.5 million), and an ANCOP training center




                                               106                           SPECIAL INSPECTOR GENERAL              I   AFGHANISTAN RECONSTRUCTION
                                                           SECURITY




in Jowzjan ($35.8 million).173 The contract for the regional police-training
center in Kandahar (reported as a $62.3 million ongoing project in prior
SIGAR quarterly reports) was terminated last quarter, according to CSTC-A.
                                                                                 SIGAR AUDIT
At the time of its termination, $34 million worth of work had been com-          In an ongoing audit, SIGAR will exam-
pleted. An additional contract is scheduled to be awarded for the remaining      ine CSTC-A’s justification and support
work required to make the center operational.174                                 for the ANSF infrastructure project re-
                                                                                 quirements. The audit will also assess:
ANP Training and Operations                                                      the extent to which U.S. and Coalition
As of May 31, 2013, the United States had obligated and disbursed $3.1 bil-      basing plans for the ANSF reflect ANSF
lion of ASFF funds for ANP and MOI training and operations.175 This quarter,     force-strength projections; whether
6,596 ANP personnel were enrolled in some type of training, according to         CSTC-A fully considered alternatives to
CSTC-A. Of those, 1,175 were training to become officers and 1,304 were          new construction; and whether CSTC-A
training to become NCOs.176                                                      developed and used appropriate crite-
    The total number of students has decreased this quarter. According to        ria to ensure that current and proposed
CSTC-A, this decrease is due, in part, to a yearly trend whereby enrollment      construction projects for the ANSF are
steadily decreases through the third quarter. CSTC-A stated that the ANP         necessary, achievable, and sustainable
is taking a more proactive role in training by reviewing their requirements      by the Afghan government.
and realigning courses and enrollment numbers to better meet their fielded-
force and professionalization needs.177                                          SIGAR AUDIT
    NTM-A/CSTC-A contracts with DynCorp International to provide train-
ing, mentoring, and support services at multiple training sites around the       In an ongoing audit, SIGAR is evaluat-
country. The ASFF-funded contract provides 458 mentors and trainers as           ing the implementation and oversight
well as approximately 2,500 support personnel at regional training centers       of the three ANSF literacy training
and in mobile support teams. The contract value is $1.18 billion.178             program contracts. SIGAR will also
                                                                                 assess whether the contractors provide
ANP Literacy                                                                     qualified instructors and services; the
NTM-A/CSTC-A’s literacy program for the ANP follows the same curriculum          extent to which CSTC-A monitored the
and uses the same standards as the ANA’s literacy program previously men-        contractors’ performance and training
tioned in this section. The program is based on moving students through          outcomes; and the extent to which
three levels of literacy training.179                                            the contracts are meeting the goal of
   As of June 13, 2013, ANP personnel who have completed a literacy pro-         providing basic, sustainable levels of
gram include:180                                                                 literacy for the ANSF.
•	 76,337 Level 1 graduates
•	 48,304 Level 2 graduates
•	 30,944 Level 3 graduates

   According to CSTC-A, the goal is to achieve 100% Level 1 literacy
and 50% Level 3 (or functional) literacy by the time the program ends.181
However, CSTC-A stated that it does not know how many literacy program
graduates are still in the ANP.182 The current literacy level of the force has
not been reported.
   Since 2010, the United States has funded three literacy contracts for the
ANSF. Each has a base year and a five-year limit—one-year options may
be exercised in August of each year—and a maximum cost of $200 million.




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2013                107
SECURITY




According to CSTC-A, these contractors were providing 700 literacy trainers
to the ANP:183
•	 OT Training Solutions, a U.S. company, was providing 274 trainers.
•	 Insight Group, an Afghan company, was providing 152 trainers.
•	 The Higher Education Institute of Karwan, an Afghan company, was
    providing 274 trainers.

   CSTC-A said responsibility for literacy training for ANP person-
nel in the field will transition to the ANP between October 1, 2013, and
October 1, 2014.184

Women in the ANP
As of May 20, 2013, ANP personnel included 1,489 women—226 officers,
605 NCOs, and 658 enlisted personnel—according to CSTC-A.185 This is the
exact same number of women as reported last quarter. At this level, women
make up 1% of the ANP. This is the same percentage as three years ago,
when 1,100 women were serving.186
   The ANP has a total of 2,995 authorized positions for women, but some
are currently occupied by men. According to CSTC-A, the MOI is consider-
ing moving some of these men into positions authorized for males.187


ANSF MEDICAL/HEALTH CARE
As of June 30, 2013, the United States has funded construction of 174 ANSF
medical facilities valued at $134 million, and has funded $11 million in con-
tracts to provide the ANSF with medical training, according to CSTC-A. The
United States is also funding ongoing construction of 10 additional medical
facilities valued at $33 million. Moreover, since 2006, Coalition forces have
procured and fielded $25 million in ANSF medical equipment. Coalition
partners have also funded service, supply, and equipment contracts at a cost
of $561,924.188
   This quarter, the ANSF health care system had 775 physicians—a
decrease of 140 since last quarter—out of 944 authorized. Of these,
566 were assigned to the ANA and 209 were assigned to the ANP. The ANSF
had 6,860 other medical personnel (including nurses and medics)—an
increase of 39 since last quarter—out of 10,284 needed.189 In June 2013, the
ANSF took full control of three of four major regional military hospitals.190
   The shortage of medical personnel is becoming a larger concern as the
ANSF takes on more security responsibility. According to CSTC-A, progress
is being made in recruiting physicians; although the Afghan Office of the
Surgeon General has found it difficult to recruit physicians to serve in “less
desirable areas.”191




 108                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                                                        SECURITY




TABLE 3.8


CONVENTIONAL WEAPONS DESTRUCTION PROGRAM METRICS, APRIL 1, 2012–MARCH 31, 2013
                                                                                                         Fragments               Minefields           Estimated Contaminated Area
 Date Range                     AT/AP Destroyed         UXO Destroyed           SAA Destroyed             Cleared               Cleared (m2)                Remaining (m2)
 4/1–6/30/2012                          1,559                  28,222                20,580               3,601,378                7,251,257                    563,000,000
 7/1–9/30/2012                          5,542                 165,100              121,520                2,569,701               11,830,335                    550,000,000
 10/1–12/31/2012                        2,146                  62,449                22,373               3,672,661                7,265,741                    570,000,000
 1/1–3/31/2013                          1,984                 100,648              105,553                3,722,289                7,978,836                    552,000,000
 Total                               11,231               356,419                 270,026               3,722,289              34,326,169                    552,000,000
Notes: AT/AP = anti-tank/anti-personnel ordnance. UXO = unexploded ordnance. SAA = small-arms ammunition. Fragments are reported because their clearance requires the same care as for
other objects until their nature is determined.

Source: DOS, PM/WRA, response to SIGAR data call, 6/27/2013.




REMOVING UNEXPLODED ORDNANCE
From 2002 through 2012, the U.S. Department of State has provided nearly
$260 million in funding for weapons destruction and de-mining assistance
to Afghanistan, according to its Political-Military Affairs’ Office of Weapons
Removal and Abatement (PM/WRA). Through its Conventional Weapons
Destruction program, the Department of State funds five Afghan nongovern-
mental organizations (NGOs), five international NGOs, the United Nations
Mine Action Service, and a U.S. government contractor. These funds enable
clearance of areas contaminated by explosive remnants of war, support
removal and destruction of abandoned weapons that insurgents might use
to construct improvised explosive devices, and provide mentoring to the
Afghan government’s Department of Mine Clearance.192
   From April 1, 2012, through March 31, 2013, Department of State-funded
implementing partners cleared over 34 million square meters (about 13
square miles) of minefields, according to the most recent data from the
PM/WRA.193 An estimated 552 million square meters (more than 200 square
miles) of contaminated areas remain to be cleared, as shown in Table 3.8.
The PM/WRA defines a “minefield” as an area contaminated by landmines,
and a “contaminated area” as an area contaminated with both landmines
and explosive remnants of war.194


COUNTERNARCOTICS
The Afghan opium economy undermines U.S. reconstruction efforts by
financing the insurgency and fueling corruption. Despite efforts to reduce
poppy cultivation and illicit drug trafficking, Afghanistan is expected to pro-
duce 90% of the world’s opium this year, as it has in the past.195 Moreover,
the illicit trade continues to generate substantial revenue: a 2012 report
from the Asian Development Bank said opium exports are equivalent to 13%
of Afghan GDP.196




REPORT TO THE UNITED STATES CONGRESS                      I    JULY 30, 2013                                   109
SECURITY




   The U.S. counternarcotics strategy focuses primarily on combating
the narco-insurgency nexus.197 The main components of the strategy
include U.S.-sponsored eradication, alternative livelihoods and public-
awareness initiatives, and interdiction operations. As of July 1, 2013, the
United States has appropriated $4.42 billion for counternarcotics initia-
tives in Afghanistan since efforts began in 2002. Most of these funds were
appropriated through two channels: the State Department’s International
Narcotics Control and Law Enforcement (INCLE) account ($1.78 billion),
and the DOD Drug Interdiction and Counter-Drug Activities (DOD CN)
fund ($2.64 billion).198
   State’s Bureau of International Narcotics and Law Enforcement Affairs
(INL) is the primary U.S. entity charged with funding Afghan-led eradica-
tion, alternative livelihoods, and public awareness programs. DOD and
INL coordinate to support the counternarcotics efforts of the Ministry of
Counternarcotics (MCN), MOI, and MOD.199

The Narco-Insurgency Nexus
In 2009, President Obama stated that Afghanistan’s “economy is undercut
by a booming narcotics trade that encourages criminality and funds the
insurgency.”200 According to the Congressional Research Service, narco-traf-
ficking generates $70–100 million per year for insurgents.201 However, the
benefit to insurgents may be greater than previously thought. In June 2013,
Afghanistan’s Minister of Counternarcotics said that insurgents receive
$155–400 million per year.202 In insurgent-controlled territory, insurgents
collect this income by taxing poppy farmers, running protection rackets,
operating heroin labs, and conducting kidnappings and other smuggling
schemes.203 Insurgents also win political support by protecting farmers from
eradication or interdiction efforts.204 Since 2001, insurgent territorial control
has centered in the south and southwest. Today, Helmand, Kandahar, and
Farah account for over 80% of Afghanistan’s poppy cultivation per year,
according to the U.S. Institute of Peace.205

The Narco-Corruption Nexus
The narcotics trade is also linked to corruption by both high- and low-level
officials in the Afghan government. “High-level corruption” occurs when
Afghan officials collude in the opium economy to gain the financial and/or
political support of local power brokers.206 On the other end of the corrup-
tion spectrum, low-level or “need-driven” corruption occurs, for example,
when low-paid law enforcement officials supplement their income with
bribes that enable narco-trafficking.207 Both types of corruption erode pub-
lic faith in government and indirectly enrich insurgents.208 Moreover, the
participation of officials in narco-trafficking distorts eradication and alter-
native livelihood initiatives, obstructs interdictions, and shields offenders
from punishment.




 110                  SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                           SECURITY




Afghanistan in the Global Opium Economy
Afghanistan has emerged over the past thirty years as the world’s leading
opium producer. In 1972, Iran, Pakistan, and Turkey began enforcing drug
bans, which created an opening for a new opium supplier in Southwest
Asia.209 Soon thereafter, the Soviet occupation of Afghanistan destroyed
the rural economy there. The repercussions were significant: as opium
was both durable and highly valuable, farmers used opium for savings and
exchange and mujahedeen used opium to finance weapons procurement.210
   Opium continued as a source of income for warring factions, includ-
ing the Taliban, during the Afghan Civil War.211 Under the Taliban’s rule,
opium production doubled from 1996–1999.212 From 2000–2001, the Taliban
enforced a ban on poppy cultivation, creating a humanitarian crisis for
farmers left without income and starving during a drought.213
   By the end of the 1990s, Afghanistan produced about 70% of the world’s
opium.214 From 2003–2012, Afghanistan produced an average of 85% of the
world’s opium annually, according to United Nations Office of Drugs and
Crimes (UNODC).215 However, analysts attribute these decreases more to
global market saturation, crop disease, and poor weather than to U.S. coun-
ternarcotics efforts.216                                                        Farm Gate Price: the price of the product
   Between 2005 and 2012, the farm-gate value of opium production was           available at the farm, excluding any
equivalent to 8% on average of Afghanistan’s total GDP, according to the        separately billed transport or delivery
UNODC. From 2007–2012, the total export value of opiates was equivalent         charge.
to 25% of the country’s GDP on average.217 Both values have shrunk over
time due to the growth of the Afghan economy and lower opium production         Export Value: The value of exports at
since 2007, as shown in Figure 3.25 on the following page.                      the seaport, airport, or border port of
   Although the Western European heroin market is shrinking, the global         export, based on the transaction price,
opium market remains stable, according to the UNODC’s 2013 World Drug           including inland freight, insurance, and
Report.218 Canada is the only North American country supplied by heroin         other charges incurred in placing the
                                                                                merchandise alongside the carrier at
produced in Afghanistan.219 However, new markets for heroin and other
                                                                                the port of exportation. The value, as
opium-based products are opening in Africa and East Asia, and new traf-
                                                                                defined, excludes the cost of loading the
ficking routes are opening, connecting Afghanistan—through Iran and             merchandise aboard the exporting carrier
Pakistan—to Iraq and the Middle East.220                                        and also excludes freight, insurance, and
   In its 2013 Opium Risk Assessment of Afghanistan, UNODC projects             any charges or transportation costs beyond
poppy cultivation will increase in most regions and the main poppy-grow-        the port of exportation.
ing provinces. Of the 20 provinces that produce opium, UNODC expects
12 to increase their poppy cultivation, seven to remain unchanged, and
one to decrease. Another 14 provinces are expected to maintain their
                                                                              Sources: U.S. Census Bureau, “Guide to Foreign Trade
poppy-free status. UNODC warned that some provinces may lose their            Statistics: Description of the Foreign Trade Statistical
                                                                              Program,” 2/16/2012; IMF, “Producer Price Index Manual:
poppy-free status without timely eradication. UNODC further reported          Theory and Practice,” 2004, p. 598.

that cultivation is expected to expand in some areas where it had previ-
ously existed and also in “new areas or in areas where poppy cultivation
was stopped.”221 Increases in Helmand and Kandahar are projected due
to the current high price of opium as well as recovery from weather- and
crop disease-related low yields in 2012.222 INL said that increased poppy




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2013            111
SECURITY




FIGURE 3.25

SIZE OF THE AFGHAN OPIUM ECONOMY ($ MILLIONS)

$4,000
                                                                       Total farm-gate value of opium production
$3,500
                                                                       Total export value of opiates
$3,000

$2,500

$2,000

$1,500

$1,000

  $500
             1,000

                     4,000




                                         3,400




                                                               2,800




                                                                                      1,400


                                                                                               1,400

                                                                                                        2,600




                                                                                                                          2,500
                              732




                                                    438




                                                                            604




                                                                                                                   700
     $0
                2007            2008                  2009                    2010                2011              2012

                                    Total farm-gate value of opium production equivalent of % of GDP
                 13%                7%                    4%                      5%                   7%                4%
                                       Total gross export value of opiates equivalent of % of GDP
                 53%             33%                   26%                        11%               16%                  13%


Note: 2012 export value computed from UNODC data.
Sources: UNODC, “Afghanistan Opium Survey 2008,” 8/2008, p. 1; UNODC, “Afghanistan Opium Survey 2009,” 12/2009,
Fact Sheet; UNODC, “Afghanistan Opium Survey 2010,” 9/2010, Fact Sheet; UNODC, “Afghanistan Opium Survey 2011,”
12/2011, p. 3; UNODC, “Afghanistan Opium Survey 2012 Summary Findings,” 11/2012, p. 3; Asia Development Bank,
“Afghanistan Fact Sheet,” 12/2012, p. 1.




cultivation predicted by UNODC for 2013 “should not overshadow the
positive counternarcotics gains made since 2007” and “fluctuations in
poppy cultivation are expected.”223
    The report identified a strong relationship between security and poppy
cultivation, noting that “almost all villages with very poor security and most
villages with poor security” cultivated poppy.224 UNODC observed that vil-
lages reached by agricultural assistance and public awareness campaigns
were less likely to grow poppy, but also found the correlation was not statis-
tically significant. However, UNODC noted that in some areas, agricultural
programs “seemed to have led to comparatively low and possibly declining
levels of poppy cultivation.”225

Poppy Eradication
From 2004 to 2008, the U.S. counternarcotics strategy in Afghanistan
centered on eradication.226 In 2009, the United States stopped leading eradi-
cation efforts because the strategy was “ineffective and drove farmers to




  112                          SPECIAL INSPECTOR GENERAL                          I    AFGHANISTAN RECONSTRUCTION
                                                                                       SECURITY




side with the Taliban.”227 However, the United States continues to support
Afghan-led eradication efforts. Since 2010, INL has obligated $7 million to
the Governor-Led Eradication (GLE) program which reimburses governors
for the cost of self-initiated eradication efforts.228 From January 1 through
June 24, 2013, GLE eradicated 7,692 hectares, a decrease compared to the
11,032 hectares eradicated by the same point in 2012.229 (Note: INL’s figure
for hectares eradicated in 2012 did not match the UNODC’s data, which
shows 9,672 hectares eradicated in all of 2012).230
   Since 2008, eradication efforts have affected on average less than 4% of
the annual national poppy crop, as shown in Figure 3.26. Yet GLE may be an
effective deterrent: according to UNODC, fear of eradication was a primary
driver in many farmers’ decisions not to farm in 2012, unlike in previous
years.231 But concerns remain that eradication delegitimizes local authorities
and builds support for the Taliban by impoverishing farmers.232 Reflecting
these worries, DOD noted that the MCN “believes that GLE is most effective
when paired with an Alternative Livelihood (AL) campaign designed to give
subsistence farmers a viable alternative to growing poppy.”233
   INL has also obligated $85 million since 2010 to the MCN’s Good
Performers’ Initiative (GPI) which provides incentives for governors
to reduce poppy cultivation in their provinces.234 A province becomes
eligible for $1 million in GPI development projects if it is deemed poppy-
free, defined as having fewer than 100 hectares (about 247 acres) under

FIGURE 3.26

HECTARES OF POPPY CULTIVATED AND ERADICATED, 2008–2012 (THOUSANDS)

  200



  150       157                                                                                  154
                                                                                131
                                   123                   123
  100



   50


                       5                      5                                                          10
                                                                       2                  4
     0
                2008                   2009                     2010               2011            2012

                      Hectares Under Cultivation                           Hectares Eradicated


Note: A hectare is 10,000 square meters, or almost 2.5 acres.
Sources: UNODC, “World Drug Report 2012,” 6/2012, pp. 27–28; UNODC, “World Drug Report 2012,” 6/2012 p. 27;
UNODC, “Afghanistan Opium Survey 2012: Summary Findings,” 11/2012, p. 3.




REPORT TO THE UNITED STATES CONGRESS                      I     JULY 30, 2013                          113
                                                       SECURITY




                                                       cultivation during the year.235 Since the start of the GPI in 2007, more than
                                                       170 development projects are either complete or in progress in all 34 prov-
                                                       inces.236 Nonetheless, national poppy cultivation levels remain high.

                                                       Alternative Livelihoods and Anti-Poppy Awareness
                                                       Alternative livelihood (AL) programs aim to end farmers’ dependence on
                                                       illicit narcotics.237 The United States has funded numerous cash-for-work
                                                       and short-term crop-substitution programs to provide short-term employ-
                                                       ment.238 However, experts contend that these programs often do not create
                                                       sustainable alternative labor and goods markets.239 For example, many of
                                                       the wheat seeds distributed in Helmand in 2008–2009 were sold locally
                                                       rather than sown because the favorable wheat-to-opium price ratios under
                                                       which the program took effect were unsustainable.240
                                                           A Brookings Institution report argues that sustainable AL initiatives
                                                       should develop and integrate the whole agricultural production chain.241
                                                       Among other initiatives, the U.S. Agency for International Development
                                                       (USAID) has obligated $131 million to Incentives Driving Economic
                                                       Alternatives for North, East, and West (IDEA-NEW) which increases fam-
                                                       ers’ access to agricultural inputs and instruction, processing facilities,
                                                       markets, and credit.242 But IDEA-NEW has had mixed results due to inad-
                                                       equate planning and oversight, according to the USAID Inspector General.243
                                                       Further, AL affiliates are threatened by insurgents, and as security bubbles
                                                       shrink, performing oversight will be increasingly difficult.244
                                                           INL also funds the Counternarcotics Public Information (CNPI) program
                                                       to promote continued poppy-free status in provinces through nation-
                                                       wide pre-planting-season public awareness campaigns in poppy-growing
The Helmand Food Zone is an Afghan-led ini-            areas.245 UNODC said that awareness campaigns like CNPI “seem to have
tiative to reduce poppy cultivation. It includes:      a positive influence on the decision not to grow opium.”246 In addition, INL
--Distribution of heavily subsidized wheat             funds a grant to the Aga Khan Foundation, which focuses on helping six
  seeds and fertilizers to farmers who
                                                       key provinces eliminate poppy cultivation by working with communities
  pledge to not grow poppy
                                                       and local NGOs to increase opportunities for residents to find non-narcot-
--Targeted eradication against crops of
  farmers who continue growing poppy                   ics-related jobs.247
--Anti-poppy public-awareness efforts                      This quarter, INL launched a year-long public opinion survey initiative to
                                                       track different aspects of the illicit drug trade to guide INL policy and assis-
Source: Civil-Military Fusion Center, “The Food Zone
Programme,” 5/2012, pp. 1, 3.                          tance to Afghanistan. The $729,000 project will be completed in May 2014.248

                                                       Counternarcotics Police of Afghanistan
                                                       This quarter, 3,059 personnel were assigned to the Counternarcotics Police
                                                       of Afghanistan (CNPA).249 The CNPA includes the National Interdiction
                                                       Unit (NIU), Sensitive Investigation Unit (SIU), Technical Investigation Unit
                                                       (TIU), and other elements.250
                                                          Since 2006, INL has obligated $219.8 million to support the interdiction
                                                       activities of the NIU and SIU by providing investigative and strategic men-
                                                       toring, logistics, housing, food and fuel, as well as transportation to and




                                                        114                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                           SECURITY




from interdiction operation sites. INL also underwrites the NIU’s salary sup-
plements, and since 2010, has obligated $249.8 million for counternarcotics
aviation support.251
   Since 2004, DOD has provided more than $415 million on CNPA training,
equipment, and facilities.252 DOD also funds programs to improve the CNPA’s
Tactical Operations Center which targets drug trafficking networks. Further,
DOD funds the Afghan Special Mission Wing (SMW) which, along with INL
helicopters, supports CNPA operations.253 As detailed in SIGAR’s recent
audit, DOD is moving forward with a $771.8 million purchase of aircraft for
the SMW although the SMW lacks the absorptive capacity for them.254
   NTM-A and the Drug Enforcement Administration (DEA) provide men-
tors and advisors to the CNPA. According to CSTC-A, NTM-A provides 16
advisors and the DEA provided 33 counternarcotics trainers (of which 20
are in country at a time). Also according to CSTC-A, a U.S. contractor pro-
vides 37 staff to assist the CNPA.255

Interdiction Operations
The objectives of U.S. interdiction policy are to decrease drug trafficking
and processing through direct action, and “to build the capability of Afghan
law enforcement to disrupt and dismantle drug trafficking organizations.”256
In 2009, the interdiction policy was refined to target drug lords connected to
the insurgency in order to break the narco-insurgency nexus.257
   From April 1 through June 30, 2013, Afghan forces conducted 73
unilateral interdiction operations.258 These operations resulted in 73
detentions and the seizure of several thousand kilograms of narcotics
and narcotics-related chemicals.259 But as shown in Figure 3.27 on the
following page, seizures have affected on average only 1.2% of the total
opium produced annually.
   Interdiction operations have not significantly decreased Afghan drug
trafficking, in part because they increasingly target small-scale poppy farm-
ers, according to a Brookings Institution report.260 In addition, the impact
of interdiction may be limited because Afghanistan’s judicial system is inca-
pable of bringing high-level narco-traffickers to justice, according to a 2010
U.S. Senate report.261 However, the Afghan Minister of Counternarcotics
pointed out at a June 2013 event that Afghan authorities have arrested
seven of the top 10 traffickers targeted, including individuals with sig-
nificant political power.262 The State Department also noted the recent
conviction of a well-connected “drug kingpin” as an example of how the
Afghan judiciary is improving.263
   While interdiction efforts have yielded limited results, U.S. efforts to
build Afghan capability to mount counternarcotics operations have shown
some progress. Afghan forces are increasingly conducting unilateral opera-
tions.264 Moreover, Afghan specialized and conventional units continued
to execute operations with support from Afghan interagency elements.




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2013               115
SECURITY




FIGURE 3.27

AFGHAN OPIUM PRODUCED AND SEIZED (2008–2012) (THOUSANDS OF KILOGRAMS)

8,000
           7,700
                                  6,900
6,000
                                                                             5,800


4,000
                                                       3,600                                     3,700

2,000


                      19                   102                     57                 88                   74
     0
               2008                   2009                 2010                  2011                   2012

                           Opium Produced: 27,700,000 KG                     Opium Seized: 340,000 KG


Note: Numbers have been rounded. A kilogram is about 2.2 pounds.
Sources: UNODC, “World Drug Report 2012,” 6/2012, p.28; UNODC, “Afghanistan Opium Survey 2012: Summary Findings,”
11/2012, p.3; DOD, response to SIGAR data call, 4/1/2013.




However, all operations continued to be coordinated with and supported by
U.S. and Coalition military commanders and the DEA continued to mentor
specialized counternarcotics units.265

Challenges to the U.S. Counternarcotics Strategy
The U.S. counternarcotics strategy in Afghanistan faces many short-term
challenges, especially high global opium prices and the upcoming Afghan
elections.266 Persistent high prices mean that the opium trade will remain
lucrative, benefiting corrupt officials, insurgents, and farmers alike.267 The
upcoming 2014–2015 election cycle may cause officials to back off from
their support for policies like eradication and interdiction that could nega-
tively affect farmers or constituents.268
   Corruption, a deteriorating security environment, and decreased aid
will make it difficult to achieve U.S. goals in the long-term. The Afghan
public loses faith in its government when political elites use eradication
to destroy rivals’ poppy crops and pay bribes to escape eradication them-
selves.269 Similarly, public officials’ selling of Afghan government-provided
AL agricultural inputs—such as the seeds or fertilizer required to cultivate
non-poppy crops—in bazaars delegitimizes the government, according
to a 2011 European Commission-funded report.270 Finally, according to a
Brookings Institution expert, the U.S.-supported interdiction policy’s failure




  116                            SPECIAL INSPECTOR GENERAL              I   AFGHANISTAN RECONSTRUCTION
                                                           SECURITY




to consistently target powerful traffickers conveyed “the message that gov-
ernment-linked traffickers have little to fear.”271                               SIGAR AUDIT
   The withdrawal of U.S. forces from the south and southwest—the geo-
                                                                                  Due to concerns about the effective-
graphic center of the narco-insurgency nexus—will “reduce the overall
                                                                                  ness and sustainability of the U.S.
security presence” in these areas, according to the U.S. Institute of Peace.272
                                                                                  counternarcotics strategy in Afghani-
This reduced presence will likely dampen ongoing counternarcotics efforts.
                                                                                  stan, SIGAR has a counternarcotics
The institute also warned that decreases in counternarcotics aid will under-
                                                                                  audit scheduled for FY 2014.
cut AL efforts, potentially leaving eradication as the Afghan authorities’
primary means to control opium production.273




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2013                117
GOVERNANCE CONTENTS

Key Events	                            119
Reconciliation and Reintegration	      120
National and Subnational Governance	   122
Judicial Reform and Rule Of Law	       132
Anticorruption	134
Human Rights	                          139




 118
                                                  GOVERNANCE




GOVERNANCE
As of June 30, 2013, the United States had provided nearly $24.7 billion to
support governance and economic development in Afghanistan. Most of this
funding, nearly $16.7 billion, was appropriated to the Economic Support
Fund (ESF), which is administered by the State Department and the United
States Agency for International Development (USAID).274


KEY EVENTS
At a Senior Officials Meeting held July 3, 2013, in Kabul, donors called upon
the Afghan government to fulfill its pledges to fight corruption, hold fair
elections, and protect women’s rights in order to qualify for $16 billion in
future aid. The Senior Officials Meeting followed up on the Tokyo Mutual
Accountability Framework, which was the main outcome of the 2012 Tokyo
Conference. Under the Framework, the Afghan government committed to
improve governance and its record on human rights, while the international
community pledged to provide $16 billion through 2015. Delegations from
40 countries and eight international agencies as well as senior Afghan gov-
ernment officials and representatives of Afghan civil society attended.275
   Participants agreed that credible and inclusive elections in 2014 will be pro-
foundly important for sustaining international support. They said it was vital
that the Afghan government safeguard women’s rights. They also urged the
Afghan government to secure criminal convictions in the Kabul Bank case to
allow recovery of stolen assets. And they said the government needed to meet
revenue targets as agreed with the International Monetary Fund (IMF).276
   Preparations went forward for Afghanistan to hold presidential elec-
tions on April 5, 2014. President Hamid Karzai signed a law on July 17,
2013, laying out the composition and rules for Afghanistan’s election com-
mission, the Independent Election Commission (IEC), and a separate
commission to adjudicate complaints about voter fraud and other irregu-
larities, the Electoral Complaints Commission (ECC).277 The IEC began
registering voters in all 34 of Afghanistan’s provinces in May.278 On July 9,
2013, the U.S. Senate passed a non-binding resolution urging the Afghan
government to hold transparent and credible presidential and provincial
elections by adhering to internationally accepted democratic standards,




     REPORT TO THE UNITED STATES CONGRESS    I   JULY 30, 2013            119
GOVERNANCE




establishing a transparent electoral process, and ensuring security for vot-
ers and candidates.279
   The Taliban opened an office in Qatar in June, but the Afghan govern-
ment and the United States have not yet opened peace talks with the
movement. U.S. Special Representative for Afghanistan and Pakistan James
F. Dobbins told a press conference that the Taliban’s statement opposing
the use of Afghan territory for attacks on any other state was sufficient for
the United States to begin talks with them. But on June 27, 2013, Dobbins
said the Taliban had not given the United States a definitive response about
whether its representatives were to meet with the United States or with rep-
resentatives of Afghanistan’s High Peace Council.280


RECONCILIATION AND REINTEGRATION
Long-stalled peace negotiations looked likely to get under way this quar-
ter when the Taliban opened an office in Qatar in June. But plans for talks
collapsed after the Taliban put up signs reading “The Islamic Emirate of
Afghanistan” and raised their black-and-white flag over the office. Afghan
officials considered the actions an affront to their government’s legitimacy.
President Karzai backed away from plans to send a delegation from the
High Peace Council to Qatar for talks and suspended negotiations with the
United States on a Bilateral Security Agreement. The Taliban later took
down the signs and the flag, but no publicly reported talks with the group
were held by the end of the quarter.281

High Peace Council
President Hamid Karzai’s announcement in June that members of the High
Peace Council would soon visit Qatar to open talks with the Taliban offered
some hope for jump-starting the reconciliation process.282 It was not clear,
however, that the movement was any more receptive to peace talks than in
the past. The Taliban also carried out multiple attacks on targets in Kabul in
June and July.283
   Earlier in the quarter, the High Peace Council held its first meeting with
Afghan political parties. More than 45 representatives of various politi-
cal parties, including influential political figures, attended the meeting to
discuss ways to move the peace process forward. The overall aim was to
broaden consensus among key political actors to enable the council to enter
into negotiations with the armed opposition from a position of strength.284

Afghanistan Peace and Reintegration Program
This quarter was another rocky one for the Afghanistan Peace and
Reintegration Plan (APRP). As in the preceding quarter, international
donors cut off funds when the APRP’s Joint Secretariat (JS) was unable
to reconcile financial accounts, the Department of Defense (DOD) said.




 120                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                                    GOVERNANCE




FIGURE 3.1

REINTEGREES BY REGIONAL COMMAND, MARCH 2012–JUNE 2013


8,000

7,000

6,000                                                                                                                              RC-NORTH



5,000
                                                                                                                                           RC-CAPITAL
                                                                                                       RC-WEST
4,000
                                                                                                                                       RC-EAST

3,000
                                                                                                                        RC-SOUTH

2,000
                                                                                                   RC-SOUTHWEST

1,000

     0
          Mar 2012     Jun 2012     Sep 2012      Jan 2013    March 2013    June 2013


Sources: SIGAR Quarterly Report, 1/30/2013, p. 97; DoS, responses to SIGAR data call, 4/2/2013, 1/2/2013, 10/2/2012, 7/5/2012, 3/30/2012, and 7/1/2013.


As a result, the JS and Provincial Joint Secretariat Teams could not fund
transition assistance, salaries, small grants, or other efforts for long peri-                                            Afghanistan Peace and Reintegration
ods in April and May. Funds finally began to flow to the provinces in June.                                               Program: the Afghan government’s main
The State Department (State) observed that the delays have damaged the                                                    program for promoting and managing
process of reintegration.285 Partly in response to a letter from international                                            insurgent reintegration. It provides a
donors at the end of May, the JS implemented a series of financial reforms                                                way for Taliban members and other anti-
that have the potential to prevent future cash-flow shutdowns.286                                                         government elements to renounce violence
   During this reporting period, 370 new reintegrees were formally accepted                                               and become productive members of
into the APRP for a total of 6,779 since the program began, as shown in                                                   Afghan society. The program also attempts
Figure 3.1. Regional Command-East had the most growth, with 42% of the                                                    to link peacefully re-entering society with
new reintegrees coming from its provinces of Bamyan, Ghazni, Kapisa,                                                      development opportunities to enhance
Khowst, Kunar, Laghman, Logar, Nangarhar, Nuristan, Paktika, Paktiya,                                                     the attractiveness of the program. It is ad-
                                                                                                                          ministered through a Joint Secretariat. The
Panjshayr, Parwan, and Wardak.287 The introduction of the commander’s
                                                                                                                          United Nations Development Programme
reintegration program, which raises the amount and duration of transitional
                                                                                                                          (UNDP) provides operational support.
assistance for individuals who reintegrate along with combatants under
their command, has improved the APRP’s ability to attract key brokers.
Approximately 370 commanders are now enrolled in APRP.288 Twelve donor
countries have given the APRP a total of $176.3 million. Of this, $84 million                                           Sources: UNDP, “UNDP Support to Afghan Peace and
                                                                                                                        Reintegration Program,” 7/2/2013; ISAF, “APRP,” accessed
had been expended as of June 27, 2013.289                                                                               online 7/2/2013.



National Dispute Resolution Strategy
The APRP had originally intended to interview a wide variety of govern-
ment officials and members of civil society to determine what drives




REPORT TO THE UNITED STATES CONGRESS                   I   JULY 30, 2013                                 121
GOVERNANCE




disputes in a particular province. The organization then planned to map
grievances and develop a National Dispute Resolution Strategy.290 But DOD
said grievance mapping remains very much in preliminary stages. Nor has
the Grievance Resolution Strategy adopted by the JS in June 2012 been put
into practice. According to DOD, one problem is that it is not clear whether
the JS or another Afghan government body is responsible for leading griev-
ance resolution.291


NATIONAL AND SUBNATIONAL GOVERNANCE
The United States has implemented many programs to help Afghanistan
improve its national and subnational governance in such areas as capac-
ity building, local governance, and civil-service training. Nevertheless, an
inability to generate sufficient revenues, corruption, limited experience in
public financial management, ineffective program monitoring, and budget
shortfalls for subnational governance all continue to plague efforts to build
a stable Afghan government.

Karzai Decree Implementation
Progress in implementing President Karzai’s 164-point plan to reduce cor-
ruption under Presidential Decree 45 has slowed in the last quarter, but the
government moved forward with implementing two articles relating to the
system for collecting customs, the State Department said.292
   One of the decree’s articles recommends that the Ministry of Finance
(MOF) develop a plan to improve collection of customs duties to boost
government revenue. According to the April report of the independent
Monitoring and Evaluation Committee (MEC), tasked with evaluating
progress on anticorruption aspects of the decree, the finance ministry had
developed a credible 40-point plan to improve customs collection, but
needed to develop additional administrative controls to keep revenue from
being diverted from official accounts.
   The second article of the decree called on Da Afghanistan Bank (DAB) to
develop a strategy to prevent transfers of bulk cash out of the country, espe-
cially through the Kabul International Airport. The report noted that DAB had
produced a strategy, but should consult with other agencies involved in detect-
ing and preventing bulk cash transfers, such as the Afghan Border Police.293
   The MEC praised U.S. Embassy Kabul efforts to train border police
in anti-money-laundering techniques, but noted that currency counters
installed at the airport by the Embassy are not currently in use. SIGAR
found the same problem when it inspected the counters in 2012.294
   The report assessed as “partially or fully implemented” other MEC
recommendations to prevent corruption in the customs regime: the estab-
lishment of the Presidential Executive Commission on Transparency
and Accountability at Borders, Airports, and Inland Customs Depots;




 122                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                   GOVERNANCE




mechanisms for traders to pay their customs duties electronically;
expanded use of the Automated System for Customs Data to consolidate
and analyze customs data; restricting access to customs facilities to essen-
tial officials; increasing the salaries of customs officials; and revising the
Afghan Customs Act to clarify customs procedures and grant non-transfer-
rable legal authority to customs and border-control agencies.295

Elections
Two of the United States’ highest-ranking former defense officials warned
this quarter that “the real make-or-break political event for Afghanistan
will likely be the 2014 election.” In a paper written for the Center for a
New American Security, former International Security Assistance Force
(ISAF) commander General John Allen and former Undersecretary for
Defense Michele Flournoy, together with Brookings Senior Fellow Michael
O’Hanlon, said an illegitimate process or outcome in the elections sched-
uled for April 5, 2014, could polarize the country ethnically, spark a descent
into civil war, and so frustrate donors that they cut off aid or substantially
downsize their security commitments.296
                                                                                   525 women voted, representing the
   David Pearce, Deputy Special Representative to Afghanistan and Pakistan,        largest turn out of female voters ever in a
testified in May before Congress that the State Department has identified          local election in Helmand. Four seats were
three priorities to lay a solid foundation for credible elections. The first was   reserved for women; five female candidates
for parliament to pass legislation establishing a truly independent body to        stood for election. (PRT Helmand photo)
adjudicate complaints. Second, the Independent Elections Commission (IEC)
charged with running the elections must have a competent and effective
chairman. Third, the IEC must implement its operational plan.297
   Afghanistan made progress on the first priority when President Karzai
signed a law establishing the ECC as the body that will adjudicate electoral
complaints. However, the ECC will no longer have two foreigners appointed
by the United Nations among its five members. Instead a committee will
present the Afghan president with a shortlist of Afghan candidates from
which to appoint the ECC’s members.298 On the second issue, at press time,
Karzai had not yet appointed a new chairperson for the IEC.299 On the third
issue, the IEC is moving forward to put its operational plan into action.300
   President Karzai is constitutionally prohibited from standing for presi-
dent again next year and has said many times he does not intend to run. No
leading candidates for president have yet emerged.301

Independent Elections Commission
The IEC began registering voters for the 2014 presidential and provincial
council elections on May 26, 2013. Voter cards issued in previous years
will still be valid. New cards are being issued to Afghans over 18 or who
will turn 18 by the elections and have not previously registered. The cards
are also being issued to Afghan citizens who moved from their previous
electoral constituencies, whose voter cards were lost or damaged, or who




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2013                 123
GOVERNANCE




recently returned to the country.302 The IEC is consulting with the security
ministries to finalize a comprehensive plan to secure polling stations, while
the security ministries are starting to assess security at polling stations.
According to USAID, the IEC’s operational plan for the elections contains
a good framework for implementing fraud mitigation measures to improve
the fairness and transparency of the election.303 The current commission
chairman’s term expired April 15, 2013, but he remains in place pending the
appointment of a successor.304

Electoral Complaints Commission
The ECC received a new lease on life when President Karzai signed a law on
July 17, 2013, reestablishing it as the country’s adjudicator of electoral com-
plaints. The ECC invalidated hundreds of thousands of votes, primarily for
Karzai, during the 2009 elections, leading to a runoff that was only avoided
when Karzai’s opponent withdrew. Earlier this year, Karzai vetoed a law that
would have allowed the commission to include two foreigners appointed by
the United Nations. Later a compromise was struck in Parliament for a com-
mission that will be composed only of Afghans. The president will appoint
its members from a shortlist selected by a committee made up of the two
speakers of Parliament, the head of the Afghanistan Independent Human
Rights Commission, the head of the Supreme Court, a member of a constitu-
tional watchdog, and a member of civil society. The United States and other
donors had pressed the Afghan government to pass the law, saying that con-
tinued aid would depend on conducting fair and free elections.305

E-taskera
The Ministry of the Interior has postponed the issuance of the e-taskera, an
electronic national identification card that can be used for voter registra-
tion.306 E-taskera cards are intended to serve as the foundation for voter
identification in the medium to long term. The State Department said the
advantage of the e-taskera is that a single identification data set can improve
the delivery of government services, reduce fraud and corruption, facilitate
inclusive voting processes, and improve security through positive identifi-
cation. The disadvantage in Afghanistan is the difficulty of accessing and
recording identification data from all citizens, either because of poor road
infrastructure or because of security concerns. Both increase the cost of
implementation. The Afghan government has estimated the initial enrolment
process will cost $120 million for a population of approximately 30 million.307

USAID Election Support
USAID is the lead agency in providing assistance and administering pro-
grams to build the capacity of Afghan institutions and civil society to
manage and participate in electoral processes. The U.S. Government pro-
vided $179 million in assistance from 2009 to 2013 for programs focusing




 124                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                   GOVERNANCE




on effective voter registration, civic and voter education, electoral reform
and legislation, and expanding political participation. It will provide an
additional $95 million for the 2014 presidential and provincial council elec-
tions and the 2015 parliamentary elections.308 The IEC estimates that the
total cost of the 2014 elections will be $129 million.309 USAID contributes
to the United Nations Development Programme’s (UNDP) comprehensive
electoral support program, the Enhancing Legal and Electoral Capacity for
Tomorrow project.310
   Another major electoral program USAID is funding is Afghanistan
Electoral Reform and Civic Advocacy (ACERA). Run by the Maryland-
based, small-business contractor Democracy International, ACERA
conducts field research on electoral civic education and awards grants
to civil society organizations to educate communities on the importance
of participating in the electoral process. Some $25.59 million has been
expended on the program to date.311
   This quarter Democracy International announced the results of a survey
revealing that Afghans are divided on how well democracy functions overall
in their nation. While 39% of Afghans report some level of satisfaction with
how democracy works, 33% report dissatisfaction. While 46% of Afghans are
satisfied with the election process, common understanding of the institu-
tions that manage Afghan elections is low. Some 62% of Afghans report that
they are unfamiliar with the function of the ECC and 33% report that they
are not well informed about the role of the IEC. Despite the information
gap, 76% of Afghans plan to participate in the upcoming presidential elec-
tions. The survey also found that 73% of Afghans did not believe that armed
insurgents, either former or present, should be permitted to participate as
candidates in elections. About 4,000 randomly selected Afghans from all
34 of Afghanistan’s provinces took the 63-question survey from October 1
through November 20, 2012.312

National Assembly
Afghanistan’s National Assembly is slowly growing into a stronger, more
politically mature institution, State said. While consistently fractious, the
Parliament is occasionally capable of protecting its legislative prerogatives
and directing a public spotlight on ministries. The legislative branch remains
weak in comparison to the executive, but members of parliament appear to
be trying to strengthen their hand. However, staffing struggles, corruption,
and low levels of education and experience continue to handicap the body.313
   State said the most notable bill passed by the National Assembly this
quarter was the IEC Structure Law, which outlines the procedures for
appointing IEC commissioners and convening an electoral complaints com-
mission. Karzai vetoed the law on April 27, citing constitutional grounds.
The IEC Structure Law was resubmitted to the lower house, which passed a
revised version on June 10. The upper house passed the draft law on June 23




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2013               125
GOVERNANCE




with further revisions. A joint committee reviewed the two versions to rec-
oncile differences.314 On July 17, President Karzai signed the bill into law.315
   Until this quarter, USAID had been providing aid to the Afghan National
Assembly through the Afghanistan Parliamentary Assistance Program.
USAID says that program has been replaced by the Assistance to Legislative
Bodies of Afghanistan (ALBA) project. ALBA will run through April of 2017
with a possible one-year extension depending upon funding and project
success. In the first two years of the ALBA project, efforts will focus on
building parliamentary capacity ahead of the 2015 parliamentary elections.
Once the new parliament is in place, the project will shift focus to more
individualized training for parliamentarians and parliamentary commis-
sions. As of June 30, 2013, USAID had obligated $4.91 million for assistance
to the parliament.316

Civil Service Capacity
Afghanistan’s Independent Administrative Reform and Civil Service
Commission had planned to implement a general entrance exam this year
to recruit recent university graduates for civil-service positions nationwide,
as President Karzai directed in his anticorruption measure, Presidential
Decree 45. The exam was supposed to take place in April, but has been
delayed until Parliament approves legislation concerning the exam. For the
time being, civil servants are being recruited under previous procedures.317

National Budgeting
In January 2013, the National Assembly passed the national budget sub-
mitted by the MOF. The submission noted the urgency of ensuring greater
self-sufficiency through revenue generation. The total proposed budget is
$6.81 billion ($3.77 billion in the operational budget and $3.03 billion in the
development budget).318
   The World Bank reported that Afghan government revenues rose by
13.1% in 2012, but still missed IMF targets, mainly because customs rev-
enue fell by 9.6% in spite of higher import volumes.319 The Senior Officials
Meeting Joint Report warned that revenue collection faces significant
challenges as the enforcement of taxation is hampered by a deteriorating
security situation, limitations on the application of the rule of law, and low
organizational capacity, all leading to a potential leakage of revenue.320

Local Governance
The United States and its allies continue to close the Provincial
Reconstruction Teams (PRTs) they originally established to assist
Afghanistan’s local governments. Nine of the 22 PRTs still operating in
January 2013 have since closed: Baghlan, Bamyan, Kandahar, Khowst,
Kunar, Logar, Nangarhar, Patika, and Paktiya, as shown in Figure 3.28.321
More closings are expected in the coming year.




 126                  SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                                      GOVERNANCE




FIGURE 3.28

STATUS OF PROVINCIAL RECONSTRUCTION TEAMS




                                                            JOWZJAN                    KUNDUZ
                                                                         BALKH



                                                                                         BAGHLAN


                                BADGHIS
                                                                        BAMYAN                                KUNAR


                HERAT                                                            WARDAK
                                                                                                        NANGARHAR
                                            GHOR                                            LOGAR
                                                                                              PAKTIYA
                                                                              GHAZNI               KHOWST

                                                        URUZGAN
                  FARAH
                                                                                        PAKTIKA
                                                                      ZABUL
                                                                                                              Closed since Janurary 2013
                                                                                                              Currently Open



                                HELMAND
                                                     KANDAHAR




Source: DOD response to SIGAR data call, 6/5/2013.



   By the end of 2012, the PRT model of daily mentoring provincial, district,
and line-ministry officials had become outdated, State said. As local govern-
ments assumed the lead and U.S. officials pulled back, governors, ANSF
officials, provincial and district councils, and line ministries began work-
ing together to solve local problems. State is using U.S. military support to
monitor U.S.-funded programs while this is still possible. The department
recognizes that military mobility support will wane and it is moving toward
a third-party monitoring system.322
   USAID’s Support to the Sub-National Governance Structure project aims
to develop the capacity of Afghanistan’s 32 provincial councils and provide




REPORT TO THE UNITED STATES CONGRESS                    I   JULY 30, 2013                               127
                                        GOVERNANCE




                                        technical assistance to the Independent Directorate of Local Governance.
                                        This quarter, the program conducted a number of public hearings, site
                                        visits, NGO briefings, cross-regional visits, and trainings on different topics
                                        in most of the country’s provinces. Of $18.98 million obligated, the program
                                        has expended $16.75 million. It is scheduled to end September 30, 2013.323

                                        U.S. Stability Programs
                                        The Department of Defense and USAID conduct stability programs to
                                        extend the reach of the Afghan government into less secure areas, to keep
                                        security from deteriorating, and to enable the conditions for transition and
                                        long-term development.324

                                        Stability in Key Areas Program
                                        USAID currently administers the Stability in Key Areas (SIKA) programs
                                        throughout Afghanistan. USAID created the four regional SIKA programs—
SIGAR AUDIT
                                        North, South, East, and West—through separate contracts with a total value
A SIGAR audit this quarter found that   of over $203 million. AECOM International Development Inc. received
the SIKA program has suffered from      the contracts for SIKA East, SIKA West, and SIKA South. Development
serious delays in implementation and    Alternatives Inc. received the contract for SIKA North. According to the
has not met contract requirements.      contracts, the programs would award grants to communities for projects
For more information, see Section 2,    that address sources of stability identified by the community.
page 36.                                   Although USAID had disbursed approximately $47 million for the four
                                        SIKA contracts as of March 31, 2013, a SIGAR audit released this quarter
                                        found that none of the funds have gone to grants that fund community
                                        projects such as those that are “labor-intensive or productive infrastructure
                                        projects,” as called for in the SIKA contracts.
                                           The SIKA contracts stressed the importance of the programs being
                                        viewed as extensions of the Afghan government. However, USAID did not
                                        secure a formal agreement with key Afghan government partners until nine
                                        months after it signed the first SIKA contract. In addition, contractors for
                                        the four regional SIKA programs cited the lack of an agreement with the
                                        Afghan government as the reason for significant delays in program imple-
                                        mentation. The delay led USAID to extend the performance periods for
                                        three contracts, even though the contractors had executed no grants. The
                                        overall delay in awarding grants appears to have created participant dissat-
                                        isfaction with the programs. For example, the audit found that participants
                                        in one of the regional programs are experiencing “fatigue” with the many
                                        planning workshops they have attended. Consequently, the program is at
                                        risk of undercutting its stated objectives to promote stability and improve
                                        Afghan perceptions of their government.325

                                        Village Stability Operations
                                        Village Stability Operations (VSO) and the Afghan Local Police (ALP) are
                                        complementary components of the Afghan government and of the Afghan




                                         128                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                   GOVERNANCE




National Army (ANA) Special Operations Command’s counterinsurgency
strategy. DOD said that VSO/ALP has made substantial progress in pro-
tecting and mobilizing rural populations, preventing their exploitation by
the insurgency, and expanding the influence of the Afghan government.
Increased security provided by the ALP improves the ability of the provincial
and district government to provide essential services and goods to the popu-
lace. According to DOD, ALP is a cost-effective means of achieving relative
security in key rural areas. It costs $6,000 per year to train and maintain each
ALP member, or one-sixth the cost of an Afghan policeman and one-eighth
the cost of an ANA soldier. At the currently approved number of 30,000 ALP
members, the program as a whole costs $180 million a year. ISAF is submit-
ting a request to expand the current ALP by an additional 5,000 members,
which would require an increase of $30 million per year.326

U.S. Capacity-Building Programs for Public Administration
A top goal of the U.S. reconstruction effort is to improve the Afghan capac-
ity for administering government. The United States is implementing a
number of programs to build Afghan governing capacity at the national, pro-
vincial, and local levels. This subsection reviews some of these efforts.

Initiative to Promote Afghan Civil Society
USAID said its Initiative to Promote Afghan Civil Society (IPACS) has three
objectives. First, it seeks to improve civil society’s accountability and the
legal and regulatory framework for it. Second, it seeks to increase civil
society’s capacity. Third, it seeks to increase citizen mobilization and policy
engagement. Counterpart International is the implementer. Some $45 mil-
lion has been obligated for the program, of which $32.3 million had been
expended by June 29, 2013.327
   Among the highlights of the program this quarter: Counterpart developed
a package of proposed tax incentives that will support the sustainability of
Afghan NGOs. Counterpart and its key partners have conducted 76 commu-
                                                                                   The World Bank defines civil society as “the
nity dialogues and 16 provincial policy dialogues. And Counterpart selected
                                                                                   wide array of non-governmental and not-for-
34 candidates to participate in its “Emerging Leaders” program and hosted
                                                                                   profit organizations that have a presence
the first in a series of training events for the participants.328                  in public life, expressing the interests and
   While the program has made significant inroads, USAID said Afghans              values of their members or others, based
continue to lack understanding of the role of civil society, resulting in a lack   on ethical, cultural, political, scientific,
of trust in civil society at large. IPACS plans to address this next quarter by    religious or philanthropic considerations.”
running a series of short TV and radio spots. The advertisements will give a       Source: World Bank, “Defining Civil Society,” http://web.world-
simple presentation of what civil society is and what it does for citizens and     bank.org/WBSITE/EXTERNAL/TOPICS/CSO/0,,contentMDK:20
                                                                                   101499~menuPK:244752~pagePK:220503~piPK:220476~th
communities at the local and the policy-making level.329                           eSitePK:228717,00.html, accessed 7/6/2013.



Performance Based Governance Fund
USAID’s Performance Based Governance Fund (PBGF) focuses on building
the financial-management capacity of provincial governors’ offices (PGOs).




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2013                 129
GOVERNANCE




Quarterly assessments of the PGOs’ capacity are used to determine which
receive incentive funding. The assessments show steady improvements in
PGO performance.330
   The program faces challenges. Due to security issues, USAID said it can-
not operate in one of Afghanistan’s 34 provinces. Its work environment is
also highly political and subject to change. Last year, 12 governors resigned
or were replaced. Changes in governors often affect the budget process. The
new governors stop budget execution and implementation while they learn
about PBGF. They also seek changes to the budgets their predecessors devel-
oped, further disrupting the process. Governors who receive low rankings in
the quarterly evaluation have required the project to engage in extensive and
difficult discussions about the results. Although the project includes a strong
internal audit component, cases of corruption have arisen.331
   The total obligated for PBGF to date is $48.89 million, of which
$45.85 million has been expended.332

RAMP-UP and Kabul City Initiative
USAID’s Regional Afghan Municipalities Program for Urban Populations
(RAMP-UP) and the Kabul City Initiative (KCI) both help municipal govern-
ments in Kabul and other urban centers increase the capacity of municipal
officials, improve the delivery of municipal services, support economic
growth initiatives, and raise revenues.333 As of June 30, 2013, USAID had
obligated $251.04 million for RAMP-UP and $41.43 million for KCI, of which
$198.28 million and $38.98 million had been expended, respectively.334
   The municipal-support programs work in all of Afghanistan’s 34 pro-
vincial capitals, plus several district centers. More recently, RAMP-UP has
provided limited training and mentorship to 10 district municipalities in
Regional Command-East, using the larger provincial capitals as training
hubs. The small-scale infrastructure undertaken as a part of these programs
includes road and sidewalk repair, drainage-ditch and culvert rehabilita-
tion, street light installation, and construction of markets, latrines, landfills,
slaughterhouses, and public parks.335
   USAID said citizens can now hold municipal officials accountable
through a host of formal mechanisms such as town hall meetings, budget
hearings, and radio call-in shows. USAID is assisting with the formation of
Municipal Advisory Boards, representative bodies that monitor municipal
activities and solicit citizen concerns. Municipal elections could take place
as early as 2015. That would bring the municipal governance structure in
line with Afghanistan’s constitution. The Integrated Financial Management
System, which USAID funded and will eventually expand to include all
municipalities, is reducing corruption by making municipal financial trans-
actions automated and transparent.336 SIGAR plans work with regard to
RAMP-UP and KCI in the future.




  130                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                      GOVERNANCE




Afghan media attend a press conference held by Afghan Defense Minister
Bismullah Khan before a shura of the governors of seven provinces north of Kabul.
(U.S. Army photo)


Afghanistan Media Development and Empowerment Project
USAID’s Afghanistan Media Development and Empowerment Project
(AMDEP) was designed to strengthen the capacity of independent media by
promoting greater professionalism within and among media institutions in
Afghanistan. The implementer is the Internews Network.337
   AMDEP supports the Salam Watander (“Hello Countrymen”) radio news
and current-affairs service and a network of 58 provincial partner radio sta-
tions. AMDEP provides daily radio content, ongoing mentoring, and tailored
assistance to enhance the quality of programming, increase the technical
capacity of staff, and improve financial sustainability. AMDEP-sponsored
Salam Watander programming has an audience reach of an estimated
13 million Afghan citizens through the provincial partner radio network.
During this reporting period, six additional radio stations joined the net-
work. AMDEP promotes TV as well as radio, providing technical upgrades
to independent TV outlets in Ghazni, Kunduz, Takhar, and Helmand.338
   AMDEP backs Nai Supporting Open Media in Afghanistan (Nai), the lead-
ing media advocacy and training organization in Afghanistan, with offices in
Kabul, Nangarhar, Kandahar, Herat, and Balkh provinces. Nai brings media
representatives together to conduct a range of advocacy initiatives such as
press conferences, press releases, and associated events. Nai Media Watch
tracks threats against journalists and incidents that impact free speech. The
Nai Graduate Club provides a forum for ongoing professional development
and support to Nai training recipients and young media enthusiasts. The Nai




REPORT TO THE UNITED STATES CONGRESS      I   JULY 30, 2013                    131
GOVERNANCE




Media Institute provides higher-quality vocational education through a two-
year diploma course.339
  Internews advisors also provide in-depth technical support and advice in
spectrum management and monitoring to the Ministry of Communications
and Information Technology and the Ministry of Information and Culture.340
  USAID has obligated $31.8 million for AMDEP, of which $28.65 million
has been spent.341


JUDICIAL REFORM AND RULE OF LAW
Establishing the rule of law is an enormous governance challenge for
Afghanistan. Justice continues to be administered in Afghanistan by several
parallel systems. The government funds a formal system, complete with for-
mal courts and judges trained according to Afghan and sharia law. As shown
in Figure 3.29, Afghans for the first time in 2012 used the formal system more
often than the informal system, which is composed of elders, local govern-
ment officials, and religious leaders.342 USAID noted that the formal system
is challenged by corruption, while the informal system operates according to
traditional beliefs that often violate Islamic law and the Afghan constitution.
Finally, the Taliban runs its own courts in the areas it controls.343
    Afghans consider the judiciary the most corrupt segment of their society,
Transparency International reported in its annual survey of public opinion

FIGURE 3.29

PERCENT USING AFGHAN JUSTICE SYSTEMS

100%

 90%

 80%                                                                                    Formal Justice System
                                                                                        Informal Justice System
 70%
                                                                                        Both
 60%

 50%

 40%

 30%

 20%

 10%

   0%
                  2008                         2009                           2011                     2012

Note: No data reported for 2010.
Source: Asia Foundation, Afghanistan in 2012: A Survey of the Afghan People, 2012, p. 148.




  132                              SPECIAL INSPECTOR GENERAL              I   AFGHANISTAN RECONSTRUCTION
                                                   GOVERNANCE




on corruption. The survey found that 60% of Afghans see the judiciary
as affected by corruption, or more than any other profession, while 65%
reported paying a bribe to the judiciary, also more than any other profes-
sion.344 Of the 22 national priority programs the government is using to
guide its development, only two remain to be endorsed. One of these is
“Law and Justice for All.”345

Supreme Court
Under the Afghan constitution, Supreme Court judges serve set terms.
Five of the eight judges’ terms have expired, but they are still on the bench
and have not been replaced. The term of the current chief justice and
an associate justice expired in August 2010. The terms of another three
associate justices expired in July 2013.346 David Pearce, Deputy Special
Representative for Afghanistan and Pakistan, told Congress in May that it
was important that the Supreme Court justices whose constitutional terms
have expired be removed and replaced.347
   A suicide bomber attacked the Supreme Court on June 11, 2013. The
bomb killed 17 people, most of them court employees. The Taliban later
said the attack aimed to punish Supreme Court judges for imposing tough
sentences on insurgents.348

Criminal Procedure Code
The lower house of the National Assembly passed the updated Criminal
Procedure Code in early June 2013, the State Department said. State was
told that it passed substantially intact, and incorporates the recommended
amendments. As of mid-July, the bill is pending with the upper house. The
Afghan government had pledged at the end of the Kabul Conference in July
2010 to enact its draft Criminal Procedure Code.349

Taliban Justice
The Taliban’s judicial system is the closest thing the movement has to a
functioning shadow government, according to a report by Integrity Watch
Afghanistan. The system is defined by mobile courts, lean structures, and
little recordkeeping. The report found that Taliban courts have suffered
from problems like corruption and cronyism, but said the movement has
been trying to contain them with tools like multiple channels of reporting
on the judges within the Taliban themselves and external oversight, often
by village elders and religious figures. Non-Taliban interviewees told the
report’s authors that Taliban courts appeared to have achieved a relatively
high degree of perceived fairness when judging disputes and criminal cases.
However, the Taliban often resort to arbitrary executions or show trials
where the defendant does not have a fair chance in the case of charges of
spying or collaborating with the Afghan government. Overall, the report




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2013               133
                                           GOVERNANCE




                                           says the Taliban’s judiciary has served the group better than any other non-
                                           military aspect of their movement.350

                                           U.S. Justice Sector Training
                                           The State Department’s Bureau of International Narcotics and Law
                                           Enforcement Affairs (INL) cited The Asia Foundation survey which found
                                           that, for the first time, more Afghans were using the formal justice system than
                                           the informal one as evidence that its justice-sector programs were working.
                                              INL said its Justice Sector Support Program (JSSP) has been operat-
                                           ing continuously since 2005, working with ministries in Kabul, providing
SIGAR AUDIT                                nearly nationwide provincial training, and implementing other important
In an ongoing audit, SIGAR is              programs such as legislative drafting help and the case-management sys-
assessing the Department of State’s        tem. Moreover, the increasing usage of the formal justice system since 2008
JSSP. The program aims to train justice-   tracks closely with greater appropriations for justice, greater U.S. Embassy
sector personnel and build the overall     engagement on justice issues, and the expansion of INL justice projects.
capacity of the Afghan judicial system.    INL noted that while other donors have stopped and started projects since
                                           the beginning of Afghan reconstruction, INL has been able to maintain its
                                           relationship with the justice ministries for eight years, including relation-
                                           ships with significant cohorts of Afghan JSSP attorneys.
                                              INL said it expects the formal justice system to survive intact after
                                           the 2014 transition, largely because it represents the restoration of an
                                           accepted Afghan model that predates the Soviet invasion of 1979. INL said
                                           Afghanistan now has the ability to deploy a minimally adequate and func-
                                           tioning system that will support continuing reform.
                                              INL has agreed to fund the Justice Training Transition Program, previ-
                                           ously implemented by JSSP, at $47 million over 2.5 years.351

                                           U.S. Corrections Sector Training
                                           State listed INL’s support for Afghanistan’s General Directorate of Prisons
                                           and Detention Centers (GDPDC) as among its most successful development
                                           programs. State said INL had helped the GDPDC improve its capability to
                                           operate safe, secure, and humane Afghan correctional facilities. The depart-
                                           ment said these improvements were particularly important given sharp
                                           increases in arrests and prosecutions, which caused the prison population
                                           to grow dramatically from 600 prisoners in 2001 to more than 27,000 in
                                           2013. INL’s Corrections Support System Program has trained more than
                                           8,000 corrections officers since 2006 under oversight from INL’s program
                                           managers and contracting personnel.352


                                           ANTICORRUPTION
                                           The United States joined other members of the international community
                                           at the Senior Officials meeting on July 3, 2013, in calling for Afghanistan to
                                           combat corruption. In statement released after the meeting to follow up




                                            134                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                   GOVERNANCE




on the Tokyo Mutual Accountability Framework, participants said contin-
ued efforts were necessary in the Kabul Bank fraud case to hold complicit
parties accountable and to secure criminal convictions that would allow
the Afghan government to recover stolen assets. They said that while
Afghanistan had made progress on the declaration and publication of assets
of senior government officials, the assets needed to continue to be veri-
fied according to Afghan law.353 Afghanistan’s national priority program on
transparency and accountability has yet to be endorsed by the Afghan gov-
ernment and the international community.354
   The United States’ anticorruption efforts received a blow this quarter
when President Karzai confirmed a report by The New York Times that he
received regular cash payments from the U.S. Central Intelligence Agency
(CIA). Karzai, who said the CIA had promised him the payments would
continue, claimed they had helped pay for rent for various officials, treat
wounded members of his staff, and even pay for scholarships. Other offi-
cials said the practice undercuts a key goal of the U.S. reconstruction effort:
building a clean and credible Afghan government that can reduce popular
support for the Taliban.355

Afghan Attorney General’s Office
State said the Attorney General’s Office (AGO) lacks the political will
to prosecute high-level, corrupt officials. The Attorney General was in
Germany during the first half of this reporting period recovering from a
heart attack. His deputy, serving as acting Attorney General during most of
the absence, has been unresponsive.356
   The new director of the Anti-Corruption Unit (ACU) at the AGO does
not appear to have the support to combat high-level corruption. Generally
speaking, morale at the ACU is very low and line prosecutors feel con-
strained by the lack of political will. According to State, the teams of two
to three prosecutors assigned to each case do not share information and an
atmosphere of paranoia prevails.357
   The Kabul Bank case continues to epitomize the AGO’s lack of zeal.
Although the AGO has appealed the rather weak convictions handed down
by the primary court, the analysis it provided the court does not go much
beyond the arguments that failed in the primary court. Moreover, there is
no movement toward bringing charges against the remaining shareholders
despite a court order to do so.358

Special Cases Committee Cases
As of June 2013, the Special Cases Committee (SCC) is effectively defunct.
The Afghan Attorney General created the SCC in December 2011. From the
outset, he invited international participation, including the U.S. Department
of Justice (DOJ). The committee was meant to be a means for identifying
cases of special significance, marking them for special attention by the ACU




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2013                135
GOVERNANCE




and the Military Anti-Corruption Unit (MACU) within the Attorney General’s
office, and tracking progress and outcomes. In May, DOJ drafted a proposed
charter to document the purpose, policies, and procedures for the SCC. This
was delivered to the AGO as a means of reinvigorating and formalizing the
SCC concept. The initial reaction to the proposed charter was lukewarm.
    The National Military Hospital case was the first identified by the SCC
for investigation and prosecution. At least one charge has been filed against
former ANA Surgeon General Zia Yaftali for crimes committed in con-
nection with his oversight and responsibility for the hospital. The charge,
essentially for dereliction leading to waste, relates to Yaftali’s failure to
enforce the terms of a sales contract for swine flu vaccine. In May, the Anti-
Corruption Tribunal returned the case to the MACU for further refinement;
it is not clear when it will be re-filed. A second case, involving the unneces-
sary purchase of a mammography machine, has the potential for a more
serious charge of procurement fraud, because the machine was purchased
from a company in which Yaftali’s brother held a financial interest. MACU
prosecutors say this case will be filed “soon,” but they have been saying this
for nearly eight months.359

Monitoring and Evaluation Committee
USAID’s Assistance to Afghanistan’s Anticorruption Authority (4A Project)
temporarily transferred a team specializing in vulnerability to corruption
assessments to the Independent Joint Anti-Corruption MEC this quar-
ter. The team finalized draft reports in the areas of land distribution to
repatriates and university-certificate issuance. It also drafted most of an
assessment of the civil service commission.360

High Office of Oversight and Anticorruption
USAID said the High Office of Oversight and Anticorruption (HOO) contin-
ues to be dysfunctional and ineffective, owing to mismanagement and top
leadership’s lack of political will to carry out its corruption-fighting man-
date. When HOO does take on a case, it selectively targets people who are
not politically connected.361

Assistance to Afghanistan’s Anticorruption Authority
The work of USAID’s 4A Project with the HOO is now limited to providing
assistance to its Human Resources Directorate. The HOO refuses to share
information with the 4A Project since the level of funding it provided over
the last two years is no longer available. The 4A Project believes that, given
the help the HOO has received, it now has the capacity to function as an
effective anticorruption institution. However, it is not functioning effec-
tively because of interventions from ethnic, regional, and political figures.
   Despite these problems, the HOO is slowly and steadily registering
assets in the provinces, processing corruption complaints, and conducting




 136                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                   GOVERNANCE




vulnerability-to-corruption assessments. The Kabul Municipality has sig-
nificantly simplified the process of issuing residential and commercial
construction permits. The new rules have not been put to the test, but
if they manage to simplify the process and reduce corruption, then this
would be a success story.362

Audits
Earlier this year, the National Assembly passed a National Audit Law. The
parliament stripped out key provisions that would have strengthened the
independence of the Control and Audit office, now renamed the National
Audit Office (NAO). USAID said that the NAO is subject to the caprices of
the presidency. It lacks the capacity to conduct performance audits and
can conduct only the bare minimum of financial audits. Nor can the MOF
now conduct internal audits of line ministries. Only the line ministries’
internal audit departments are now permitted to undertake such audits.
USAID said these changes represent backward steps for transparency and
accountability.363

Corruption in Afghan Security Forces
Afghanistan’s security ministries made progress fighting corruption this
quarter, DOD said. Transparency International’s Government Defense
Anti-Corruption Index rates the country’s Ministry of Defense (MOD)
and Ministry of Interior (MOI) above many of their counterparts in the
region and on a par with those of countries such as Bahrain, Oman, and
Saudi Arabia.
   The MOD continues to push anticorruption reform measures. In
March, it held a two-day conference that outlined the ministry’s approach
to anticorruption and provided detail on the way the Transparency and
Accountability Working Group, set up to provide oversight for MOD, will
work. Likewise, the MOD Inspector General is now demonstrating a more
robust stance against corruption with a number of investigations and, more
important, prosecutions. Unfortunately, the MOI did not put forward any
new reform measures, according to DOD.364

CJIATF-Shafafiyat
Combined Joint Interagency Task Force (CJIATF)-Shafafiyat, an ISAF-
interagency group created in 2010 to coordinate anticorruption efforts, has
been encouraging ISAF and Afghan leaders to take corruption and organized
crime into account when planning for transition. Dr. Ashraf Ghani, President
Karzai’s transition lead, is ensuring that transparency and accountability
issues are considered throughout the planning process, but tangible prog-
ress on tackling wider corruption and organized crime remains to be seen.
Suspects in corruption and organized crime cases often have the backing of
senior Afghan government officials and are protected by strong patronage




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2013             137
                                         GOVERNANCE




                                         networks. With a reduction in personnel and transition well underway,
                                         CJIATF’s focus has shifted away from broad-spectrum counter corruption
                                         toward hardening Afghan security ministries against corruption.365

                                         Corruption in Customs Collections
SIGAR AUDIT                              Fraud and corruption in customs continue to threaten the Afghan govern-
                                         ment’s ability to fund itself. Customs revenues fell in 2012 as a result of
SIGAR is reviewing USAID and the
                                         increased corruption and in 2013 the Afghan government missed its IMF
Department of Homeland Security
                                         revenue targets by nearly 30%.366 In its April edition of its Afghanistan
Customs Border Protection programs to
                                         Economic Update, the World Bank stated although a variety of factors
develop and strengthen Afghanistan’s
                                         could explain shortfalls in revenue collection, it is likely that a deteriorating
capacity to assess and collect customs
                                         customs governance environment contributed to the problem.367 Figure 3.30
revenue. For more information, see
                                         shows the increasing disparity between budgeted customs and tax revenues
Section 2, page 40.
                                         and actual revenue collection.

                                         FIGURE 3.30

                                         COLLECTED TAX AND CUSTOMS REVENUES: PERCENTAGE GREATER OR LESS THAN BUDGETED

                                          35%

                                                                                                                               Tax Revenues
                                          25%
                                                                                                                               Customs Revenues

                                          15%


                                           5%


                                          -5%


                                         -15%


                                         -25%


                                         -35%

                                                   Solar Year 1388        Solar Year 1389        Solar Year 1390       Solar Year 1391        Solar Year 1392
                                                                                                                         (9 Months)         (March 21–May 18)
                                                                                                                                                   Target

                                         Notes: Solar years run approximately March 20 to March 20 of Gregorian calendar years. SY 1388 corresponds to March 20,
                                         2009, to March 20, 2010, and so on. Nine–month data for solar year 1391 reflect a change in the Afghan fiscal year. SY
                                         1392 (2013) is not over.
                                         Sources: MOF, “1388 National Budget,” accessed 7/2/13; MOF, “1389 National Budget,” accessed 7/2/13; MOF, “1390
                                         National Budget,” accessed 7/2/13; MOF, “1391 National Budget,” accessed 7/2/13; MOF, “National Budget Procedures
                                         Fiscal Year 1391” accessed 6/26/13; MOF, “Annual Fiscal Report 1391,” accessed 6/20/2013; MOF, “1392 National
                                         Budget,” accessed 7/1/13; MOF, “Monthly Fiscal Bulletin, Month 2,” 5/18/13, accessed 6/24/2013.




                                           138                           SPECIAL INSPECTOR GENERAL               I   AFGHANISTAN RECONSTRUCTION
                                                   GOVERNANCE




   As a result of this underperformance, the MOF lost $13 million in fund-
ing from the Afghanistan Reconstruction Trust Fund Incentive Program.368
Partially because of this loss, the MOF undertook a large-scale restructuring
of the Afghan Customs Department.369 To prevent customs officials from
building local corruption networks, the MOF also replaced a large number
of high-ranking officials and rotated most provincial customs directors.
The Minister of Finance expressed confidence in the capabilities of the
new senior officials. At the end of the quarter, it was too early for the State
Department to know how effective this move was, but it has the potential to
reduce corruption.370


HUMAN RIGHTS
Afghanistan failed to improve its human rights record in this quarter. Human
rights organizations warned that women’s rights were in danger. More civil-
ians were killed, mostly in anti-government attacks. The United Nations
found that 533 civilians were killed and 882 injured between February 1 and
April 30, a 25% increase over the same period in 2012. Antigovernment ele-
ments were responsible for 73% of the civilians killed or wounded in this
period; government-affiliated elements were responsible for 12%.371

Gender Equity
Human Rights Watch warned this quarter that women’s rights face a darker
future in Afghanistan with the drawdown of foreign forces in 2014. On
May 18, 2013, a female lawmaker attempted to strengthen Afghanistan’s
2009 Law on the Elimination of Violence Against Women (EVAW) by hav-
ing Parliament endorse it. Instead, conservatives so harshly castigated the
law that it was withdrawn. The law’s opponents, including religious leaders
serving in parliament, attacked key provisions such as shelters for female
victims of violence and a minimum marriage age. The criticism was so
vociferous that the speaker halted debate after 15 minutes and sent the law
back to parliamentary commissions.372
   At the Senior Officials Meeting on the Tokyo Mutual Accountability
Framework, participants noted that implementing EVAW and monitor-
ing its progress was one of the Afghan government’s commitments to the
international community.373 In a July submission to the United Nations
Committee on the Elimination of Discrimination Against Women, Human
Rights Watch said that extreme forms of discrimination remain part of
the day-to-day experience of most Afghan women, and violence against
women is common and largely unpunished. Half of girls are not in school
and female literacy remains extremely low. Child marriage and forced mar-
riage are common, with 39% of girls married before age 18, according to
the UN Population Fund.374




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2013                139
                                                         GOVERNANCE




                                                            USAID plans to address these issues in the coming year with its
                                                         Promoting Gender Equality in the National Priority Program (PROMOTE).
                                                         PROMOTE will assist the Afghan government in working toward the goal
                                                         of achieving a rate of 30% female staff in the Afghan civil service laid out
                                                         in the Tokyo Mutual Accountability Framework. It will also support the
                                                         networking among established women’s rights groups. And it may establish
                                                         professional business development services and market-driven technical
                                                         and vocational education for women. Some $214.4 million in funding is
                                                         planned for PROMOTE through fiscal year (FY) 2014.375

                                                         Women’s Shelters
                                                         The State Department listed an INL program to support operations of nine
                                                         women’s shelters across Afghanistan and the Afghan Women’s Shelter
                                                         Network, which brings together Afghan shelter providers to discuss best
                                                         practices and advocate for victims, as one of its most successful reconstruc-
                                                         tion projects. State said that INL’s support had expanded the number of
                                                         provinces where services are available to victims of gender-based violence
                                                         and discrimination and facilitated an Afghan-led campaign to increase
                                                         public acceptance of women’s shelters. State has seen an increase in gov-
                                                         ernment referrals to and political support for the shelters, indicating that
                                                         the Afghan government is starting to accept shelters as legitimate resources
                                                         for women seeking legal and protective services. Shelters have been
                                                         provided multi-year funding that extends into 2014 and 2015. In 2012, INL-
                                                         funded shelters benefitted approximately 2,000 women and children in 30 of
                                                         Afghanistan’s 34 provinces.376

                                                         Refugees
                                                         Pakistan agreed to extend the validity of the registration cards held by
                                                         1.6 million Afghan refugees beyond a June 30, 2013, deadline. The decision
The AIHRC was established in accordance                  means that Afghan cardholders in Pakistan will continue to have legal sta-
with the 2001 Bonn Agreement as the main                 tus until the approval of a National Policy for Afghan Refugees. That policy
institution within the Afghan government                 is pending approval by the Pakistani Cabinet and Prime Minister.377
responsible for promoting human rights.
Although the commission is a government                  Afghanistan Independent Human Rights Commission
body, with commissioners appointed by                    After more than 18 months’ delay, President Karzai appointed a group
the president, it is by law independent. The             of new commissioners to the Afghanistan Independent Human Rights
commission’s responsibilities include moni-              Commission (AIHRC) on June 15, 2013. The president extended Sima
toring the general human rights situation in
                                                         Samar’s tenure as the head of the commission, and gave five others five-year
Afghanistan, making recommendations to
                                                         appointments as commissioners.378
the government on human rights, investigat-
ing specific human rights violations, and
                                                            Human Rights Watch complained that most of the new commis-
assisting individual Afghans whose rights                sioners appeared to have little human rights experience and that the
have been violated.                                      president had made his appointments without consulting civil-society
                                                         organizations involved in defending human rights.379 The United Nations
Source: HRW, “Afghanistan: Weak Appointments Undermine
Rights Body,” 6/18/2013.                                 High Commissioner for Human Rights warned that the appointments




                                                          140                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                                                   GOVERNANCE




compromised the commission’s independence and effectiveness and under-
mined its standing with the public and international partners.380 Karzai had
been under pressure from donors to appoint new commissioners. In the
Tokyo Mutual Accountability Framework, the Afghan government had com-
mitted to allowing the AIHRC to perform its “appropriate functions.”381




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2013             141
ECONOMIC AND SOCIAL DEVELOPMENT




ECONOMIC CONTENTS

Key Events	                             143
Economic Profile	                       144
Extended Credit Facility Arrangement	   146
U.S. Economic Support Strategy	         147
Debt Relief	                            150
Money Laundering	                       151
Banking and Finance 	                   151
Development of Natural Resources	       154
Agriculture	157
Essential Services/Development	         159
Transportation	164
Education	166
Labor	169
Health	170
Private Sector Development	             172
Communications	173




 142
ECONOMIC AND SOCIAL DEVELOPMENT




 ECONOMIC AND SOCIAL DEVELOPMENT
 As of June 30, 2013, the U.S. government has provided nearly $24.7 billion      TABLE 3.9
 to support governance and economic development in Afghanistan. Most
 of the appropriated funds flowed into four major programs and accounts,          CUMULATIVE APPROPRIATIONS FOR
                                                                                  AFGHANISTAN DEVELOPMENT,
 as shown in Table 3.9. Of the $22 billion appropriated for these four funds,     AS OF JUNE 30, 2013 ($ MILLIONS)
 approximately $18.1 billion had been obligated, $13.7 billion disbursed, and     Name          Managed by                Appropriated
 $1.5 billion expired as of June 30, 2013.                                        ESF           USAID                       $16,654
    This quarter, the United States and the international community sought        CERP          DOD                          $3,639
 to further prepare Afghanistan to take full control of its national security     TFBSO         DOD                            $685
 and to minimize economic contraction in what the international community         AIF           STATE/DOD                    $1,024
 is calling Afghanistan’s “Transformation Decade” following the drawdown          Total                                   $22,002
 of Coalition forces in 2014.                                                    Notes: ESF = Economic Support Fund; CERP = Commander’s
                                                                                 Emergency Response Program; TFBSO = Task Force for
                                                                                 Business and Stability Operations; AIF = Afghanistan
                                                                                 Infrastructure Fund.

 KEY EVENTS                                                                      Source: See Appendix B of this report.
 This quarter saw several important developments. First, senior officials
 from 40 countries and eight international organizations, as well as civil-
 society and private-sector representatives, met in Kabul on July 3, 2013,
 to review implementation of commitments made under the Tokyo Mutual
 Accountability Framework agreed to in July 2012.382
    Second, the Swiss-based Basel Institute on Governance issued its second
 annual Anti-Money Laundering Index. Afghanistan ranked as the country
 most at risk for money laundering and terrorist financing activity out of 149
 countries assessed. Iran had held that position in the 2012 rankings.383
    Third, a major jobs conference held in Kabul focused on the state of
 Afghanistan’s labor market and the need for strategic, inclusive employment
 growth as the basis of future development.384                                   Senior officials met in Kabul in July to dis-
    In other developments, the International Monetary Fund’s Extended            cuss progress towards goals articulated in
 Credit Facility Arrangement review and disbursement remain delayed              the Tokyo Mutual Accountability Framework.
                                                                                 (UNAMA photo)
 due to insufficient Afghan progress under the agreement’s quantita-
 tive and legislative requirements.385 And a national railway plan for
 Afghanistan was released. Successful implementation of the plan is seen
 as critical for developing Afghanistan’s mining sector and its position as a
 regional trading partner.386




      REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2013         143
ECONOMIC AND SOCIAL DEVELOPMENT




ECONOMIC PROFILE
Afghanistan’s economy has grown 10% annually on average since 2002,
fueled by international military spending and development assistance. The
services sector has been the most important driver of economic growth,
while construction has propelled the industrial sector. Demand in these
areas has been buoyed by increased public spending in 2013.387
   Legal agriculture is the second leading contributor to GDP, but fluctuates
with the weather. Good rains in 2012 led to a near-record-breaking wheat
and cereal harvest, driving real GDP growth to an estimated 11.8%. But
moderate rainfalls in early 2013 should yield a more conventional harvest,
slowing real GDP growth to 3.1% for the year.388
   Fading business and investor confidence in response to Afghanistan’s
volatile political and security environments is expected to slow economic
growth in 2013 and 2014, according to the World Bank. Moreover, with an
expected decline in aid post-2014, World Bank projections show average
real GDP growth declining to 4–6% annually during 2011–2018.389

Fiscal Sustainability
Afghanistan’s fiscal sustainability ratio—domestic revenues versus operat-
ing expenses—remains one of the lowest in the world, according to DOD.390
The Ministry of Finance (MOF) projected domestic revenue for Afghan
fiscal year (FY) 1392 (December 2012 to December 2013) at $2.4 billion, an
increase of 33% over FY 1391 (March 2012 to December 2012). However,
in the first two months of FY 1392, total domestic revenues decreased by
19.2% from the same period in FY 1391, and missed MOF budget targets
by 25.9%.391 Figure 3.31 depicts the disparity between the government’s
domestic revenues—derived primarily from taxes and customs duties—and
budgeted operating expenditures from FY 1388 to FY 1392. The Senior
Leaders Meeting Joint Report to assess the Afghan Government’s progress
on meeting Tokyo Mutual Accountability Framework benchmarks con-
cluded that the government’s enforcement of taxation is increasingly being
hindered by a deteriorating security situation, limitations on the application
of the rule of law, and low organizational capacity.392 More detailed informa-
tion on revenue collection may be found on page 138.

Afghanistan Chamber of Commerce and Industries
This quarter, the Afghanistan Chamber of Commerce and Industries
released results of its inaugural December 2012 surveys of 896 Afghan busi-
nesses in Kabul and Balkh provinces. The surveys had two purposes­­: to
assess business owners’ perceptions of the existing business environment
(the Business Tendency Survey), and to document obstacles facing the
private sector (the Bottleneck Survey). Respondents characterized the cur-
rent business climate as “slightly worse than normal,” but expected more
positive economic activity in the first half of 2013. Meanwhile, security risks




 144                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




 FIGURE 3.31

 AFGHANISTAN'S DOMESTIC REVENUES COMPARED TO OPERATING BUDGET ($ MILLIONS)


 $3,500


 $3,000


 $2,500


 $2,000


 $1,500


 $1,000


   $500


      $0
                Fiscal Year           Fiscal Year             Fiscal Year         Fiscal Year           Fiscal Year
                   1388                  1389                    1390                1391                  1392
                                        Domestic Revenues                      Operating Budget

 Notes: Until recently, Afghan fiscal years ran approximately March 20 to March 20 of Gregorian calendar years. FY 1388
 corresponds to March 20, 2009, to March 20, 2010, and so on. Nine–month data for fiscal year 1391 reflect a change in
 the timing of the Afghan fiscal year. FY 1392 (2013) is not over.
 Sources: MOF, “1388 National Budget,” accessed 7/2/13; MOF, “1389 National Budget,” accessed 7/2/13; MOF, “1390
 National Budget,” accessed 7/2/13; MOF, “1391 National Budget,” accessed 7/2/13; MOF, “National Budget Procedures
 Fiscal Year 1391” accessed 6/26/13; MOF, “Annual Fiscal Report 1391,” accessed 6/20/2013; MOF, “1392 National
 Budget,” accessed 7/1/13; MOF, “Monthly Fiscal Bulletin, Month 2,” 5/18/13, accessed 6/24/2013.



 remain a major impediment to private sector growth, as is difficulty navigat-
 ing Afghanistan’s land, tax and customs regimes. Additionally, registering
 a new company is not as problematic as extending an existing business
 license, which the survey indicates is a particularly acute challenge.
 Expanded follow-on surveys are planned.393

 Trade
 The State Department’s FY 2014 budget request includes $20.9 million for
 programs that aim to further integrate Afghanistan’s economy into the
 central Asia region. Funding will target improving regional cooperation on
 trade, transit of goods and services, energy resources, water and other natu-
 ral resources, and governance along trade and transit corridors.394




 REPORT TO THE UNITED STATES CONGRESS                     I    JULY 30, 2013                                  145
ECONOMIC AND SOCIAL DEVELOPMENT




World Trade Organization Accession: Update
On May 4, 2013, Afghanistan reaffirmed its commitment to finalizing its
bilateral market negotiations by July 2013 and completing World Trade
Organization (WTO) accession at the organization’s 9th Ministerial
Conference in early December 2013.395
   Afghanistan drafted 22 out of 26 required laws, which were submitted to
the WTO, but must still pass Afghanistan’s parliament. Afghanistan is also
currently conducting bilateral market-access negotiations with eight WTO
members and has launched six institutional initiatives to comply with WTO
requirements.396 Negotiations are part of the final stage before the accession
package is sent to the WTO General Council or Ministerial Conference for
final approval.397
   While Afghanistan wants accession to the WTO by the end of 2013, the
State Department deems it unlikely, given the National Assembly’s legisla-
tive backlog.398 Accession by the end of 2014 is an Inclusive and Sustained
Growth and Development indicator under the Tokyo Mutual Accountability
Framework.399
   For more information about the U.S. Agency for International
Development’s (USAID) trade-accession assistance to Afghanistan, see
page 173.


EXTENDED CREDIT FACILITY ARRANGEMENT
The Afghan government’s poor performance in completing specific banking
and financial structural reforms, and in meeting the quantitative macro-
economic targets set forth under the International Monetary Fund’s (IMF)
Extended Credit Facility (ECF) Arrangement, have delayed IMF Board
reviews and accompanying disbursement of funds. Neither the second
review, originally planned for December 2012, nor the third, originally
planned for March 2013, has been completed.400
   According to Treasury, the Afghan government has not yet submitted
a revised Anti-Money Laundering/Countering Financing of Terrorism Law
to parliament, nor has it taken sufficient corrective actions to address its
recent underperformance on quantitative targets, according to Treasury.
Other missed targets for end-FY 1391, as reported to SIGAR:401
•	 FY 1391 (March 2012 to December 2012) revenue target of 85.1 billion
   afghanis (Afs) missed by Afs 8.7 billion.
•	 Revised FY 1392 (December 2012 to December 2013) revenue targets
   believed to have been missed in the first two quarters.
•	 The central bank —Da Afghanistan Bank (DAB)—missed its net
   international reserve floor target for end-FY 1391 (approximately
   $7.05 billion) by more than $575 million.
•	 The ceiling on net central bank credit to the government was missed for
   end-FY 1391.




 146                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




    Quantitative targets achieved for end-FY 1391, as reported to SIGAR
 (“zero ceiling” provisos bar the Afghan government from taking any of the
 steps noted beyond the terms of the IMF agreement):402
 •	 Ceiling on reserve money
 •	 Zero ceiling on contracting of new medium or long-term non-
     concessional debt by public sector
 •	 Zero ceiling on short-term external debt owed or guaranteed by the
     public sector
 •	 Zero ceiling on net external payment arrears
 •	 Zero ceiling on lending from state-owned banks or the central bank to,
     or government guaranteed borrowing by, public enterprises in need of
     restructuring; and
 •	 Zero ceiling on government guarantees
 IMF staff will assess Afghanistan’s progress on these and other measures
 during the next fiscal quarter to determine whether to present its reviews to
 the IMF Executive Board.403
    The three-year, $129 million ECF loan agreement signed in November
 2011 is conditions-based. Disbursements are contingent upon completion
 of program reviews, as determined by IMF Management and the Executive                                   Afghanistan’s IMF Program is financed from
 Board. The IMF has released two disbursements of $18.2 million—the first                                the Poverty Reduction and Growth Trust, to
 at initial ECF approval, the second in June 2012 despite a first review that                            which the United States does not contribute.
 characterized Afghan reform as weak and slow.404                                                        Source: Treasury, response to SIGAR data call, 6/26/2013.




 U.S. ECONOMIC SUPPORT STRATEGY
 The U.S. economic transition strategy in Afghanistan seeks to mitigate the
 negative economic impact of the withdrawal of most international secu­
 rity forces by 2014 and the expected accompanying reduction in donor
 assistance. It also seeks to help Afghanistan develop its resources for sus­
 tainable growth.405 Figure 3.32 shows USAID assistance by sector.

 FIGURE 3.32


 USAID DEVELOPMENT ASSISTANCE, AS OF JUNE 30, 2013 ($ MILLIONS)

     Infrastructure                                                                            3,252
        Agriculture                                            1,477
        Democracy                                     1,305
  Economic Growth                    544
  Program Support                                                      1,827
      Construction        85
         Education              452
             Health            357
      Stabilization                                1,144
                      0        500         1,000         1,500         2,000   2,500   3,000     3,500

 Note: Numbers rounded.
 Source: USAID, response to SIGAR data call 7/10/2013.




 REPORT TO THE UNITED STATES CONGRESS                      I   JULY 30, 2013                   147
                                                               ECONOMIC AND SOCIAL DEVELOPMENT




FIGURE 3.33

USAID ON-BUDGET ASSISTANCE OBLIGATED, FY 2002–FY 2012 ($ MILLIONS)

$650
                                                                                                                                    $612



                         Afghanistan Reconstruction Trust Fund Total: $1,743.2
$520
                         Bilateral Total: $686.9
                                                                                                                                                         $434.7

$390                                                                                                                                              $359

                                                                                                                     $290

$260


                                                                                                                                           $144
                                                                                                      $124
$130
                                                         $89
                                          $72                                           $72                                 $56.2
           $38            $40                                             $48
                                                                                                             $27.2
                                                $14.2                                          $4.1                                                                    $5.1
                  $0             $0                             $1.1            $.1                                                                               $0
   $0
             2002            2003           2004             2005          2006            2007         2008           2009             2010        2011          2012a

Notes: Numbers have been rounded.
a Most FY 2012 USAID funding for on-budget assistance had not been obligated as of June 25, 2013.
Sources: USAID, responses to SIGAR data call, 7/16/2013 and 4/1/2013.




  “Trends in public finance                                    U.S. Direct Assistance to the Afghan Government
   deserve attention: more                                     In line with donor commitments made at the 2012 Tokyo Conference, the
     on-budget aid poses                                       United States has been gradually increasing the amount of development
                                                               assistance it provides directly to the Afghan government. This quarter,
      challenges [to] the                                      USAID obligated approximately $235 million in on-budget assistance, pri-
   Government’s capacity                                       marily from prior fiscal-year funds, for a total of more than $2.4 billion, as of
  to execute an increasing                                     June 30, 2013, as shown in Figure 3.33.406
           budget.”
                                                               Transition Planning
Source: World Bank, “Afghanistan Economic Update,” 4/2013.     SIGAR is concerned about the safety of all U.S. agency personnel in
                                                               Afghanistan as security responsibility increasingly is being transferred to
                                                               the Afghan Public Protection Force (APPF). SIGAR is also concerned about
                                                               the ability of U.S. implementing agencies to provide effective oversight over
                                                               development programs as most international combat forces transition out
                                                               of Afghanistan in 2014.407




                                                                    148                        SPECIAL INSPECTOR GENERAL            I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




    A 2012 review of USAID/Afghanistan’s monitoring and evaluation system
 by the USAID Office of Inspector General stated that managing develop-
 ment programs in high-threat environments like Afghanistan presents
 special oversight risks and challenges. It described the security situation
 in Afghanistan as “[a] significant and continuing constraint to USAID/
 Afghanistan’s program monitoring and evaluation,” a sentiment echoed
 repeatedly by Mission personnel in Afghanistan to their counterparts in
 Washington, DC.408
    However, USAID told SIGAR that it expects any impact from the secu-
 rity transition to be minimal since all implementing partners are already
 required to operate independently of U.S. government services, including
 those provided by International Security Assistance Force (ISAF) forces.
 In the lead-up to the March 2012 transfer of security responsibility to the
 APPF, USAID requested contingency security plans from all of its imple-
 menting partners, and stayed in frequent contact with them throughout
 the process. USAID also reported no project shut-downs and no reduction
 in mobility from its development project staff as a result of the transi-
 tion, and fully expects to be able to continue providing effective oversight
 and management of its programs through third-party monitoring. 409 While           SIGAR AUDIT
 using third-party monitors may mitigate some security-related access
                                                                                    This quarter, SIGAR published a follow-
 issues—e.g., local nationals are less likely to attract hostile attention than
                                                                                    up audit on the impact of the transition
 foreigners—SIGAR is concerned that the practice may raise new issues
                                                                                    from private security companies to
 such as vetting, accuracy, effectiveness, and accountability.
                                                                                    the Afghan Public Protection Force
    For its priority development projects, USAID reports it is able to execute
                                                                                    on USAID reconstruction and assis-
 site visits as needed.410
                                                                                    tance programs. In its findings, SIGAR
    So far, USAID completed two APPF cost analyses for its 31 implementing
                                                                                    expressed concerns about potentially
 partners currently using their security services: the first in July 2012 for the
                                                                                    high APFF costs. For more information,
 quarter immediately following transition, and the second in June 2013. The
                                                                                    see Section 2, page 34.
 average monthly cost to the implementing partners for APPF services is
 approximately $1.4 million.411

 The U.S. Civil-Military Strategic Framework for Afghanistan
 The U.S. Civil-Military Strategic Framework for Afghanistan, last
 updated in October 2012 and now under revision, will emphasize transi-
 tion to Afghan control. U.S. efforts will shift from providing security to
 advising and preserving gains, will aim to gain additional clarity on the
 Transformation Decade (2015–2024) once the post-2014 coalition military
 footprint is established and better converge with Afghanistan’s national
 planning strategies. The U.S. government aims to replace its Civil-Military
 Strategic Framework in 2014 with a multi-year Integrated Country
 Strategy that will include policy priorities, objectives, and the means for
 achieving them.412




 REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2013                 149
                                                           ECONOMIC AND SOCIAL DEVELOPMENT




                                                           Award Closeouts
                                                           USAID’s Office of Acquisition and Assistance (OAA) is actively identify-
                                                           ing grants and contracts for closeout. Priority is given to awards that have
                                                           the highest funding amounts to deobligate, followed by awards that have
                                                           long expired. Over the last year, OAA closed out more than 72 awards and
                                                           deobligated approximately $29 million in excess funds. OAA is experiencing
                                                           some challenges including difficulty locating implementing-partner points
                                                           of contact for long-expired awards, and an audits backlog to determine final
                                                           indirect cost rates needed to finalize a closeout. According to OAA, closing
                                                           out awards should be and is being given higher priority than in the past, and
                                                           an automated reporting and tracking system should be used to ensure all
                                                           awards scheduled for closeout are accounted for.413


                                                           DEBT RELIEF
                                                           Afghanistan currently has approximately $1.16 billion in outstanding debt,
                                                           which needs to be restructured or forgiven through Paris Club and
                                                           Enhanced Highly Indebted Poor Country (HIPC) initiative agreements.
                                                           These debts are owed to four countries, one commercial entity, and one pri-
                                                           vate party, as seen in Table 3.10.414

                                                           TABLE 3.10


                                                           AFGHANISTAN’S OUTSTANDING DEBTS ($ MILLIONS)
                                                            Country                      Owed       Note
                                                            Bulgaria                         $56 Agreement reached in principle to restructure this debt.
                                                            Iran                             $10
                                                            Kuwait Fund                      $22
                                                                                                    Represents residual amount remaining (and accrued interest) after first
                                                            Russia                       $1,000
                                                                                                    round of debt relief.
                                                                                                 Transferred to a private party who unsuccessfully sued Afghanistan’s
                                                            Euro-Pacific
The Paris Club is an informal group of                      (Old Czech Debt)
                                                                                             $68 Central Bank about it in a German Court. It is shown as a potential
official creditors—including the United                                                          liability since the plaintiff may sue in another jurisdiction.
States, which is a permanent member—                        France Telecom                    $4
whose role is to find coordinated and                      Note: Amounts are approximate.
sustainable solutions to the payment
                                                           Source: Treasury, response to SIGAR data call, 6/26/2013.
difficulties experienced by debtor countries.
Solutions include debt rescheduling and                       Treasury’s Office of Technical Assistance (OTA) had previously helped
reduction in debt-service obligations.
                                                           Afghanistan successfully navigate the HIPC process, which it completed
                                                           in March 2010. HIPC was designed for countries with unsustainable debt
The Comparable Treatment clause requires
debtor countries to seek debt solutions
                                                           burdens, for whom traditional debt reduction or rescheduling mecha-
from non-Paris Club or private creditors on                nisms would not be sufficient. Countries under the HIPC designation
terms comparable to Paris Club agreements.                 receive assistance in lowering their debt burden to sustainable levels and
                                                           reducing poverty.415
Source: Paris Club, http://www.clubdeparis.org, accessed
7/3/2013.




                                                             150                            SPECIAL INSPECTOR GENERAL             I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




    No payments have been made on any of Afghanistan’s debts since the
 early 1990s. In accordance with standard Paris Club and international
 procedures, payments are deferred until the creditor agrees to Paris Club/
 HIPC–comparable treatment and a bilateral agreement has been signed.
 OTA has one part-time advisor from its Government Debt Issuance and
 Management team providing technical assistance to Afghanistan on debt
 management issues, including forgiveness, debt-management process issues
 and strategy, and organization. Treasury’s FY 2013 allocation toward this
 effort is $38,987.416


 MONEY LAUNDERING
 This quarter, the Basel Institute on Governance released its second annual
 Anti-Money Laundering Index—a review of countries at risk for money
 laundering and terrorist financing activity. Afghanistan ranked most vul-
 nerable, followed by Iran, which held the top position in 2012. Rankings
 were based on five risk categories: money laundering/terrorist financing;
 corruption; financial transparency and standards; public transparency and
 accountability; and political and legal.417
    The State Department’s recent International Narcotics Control Strategy
 Report listed Afghanistan as a major money-laundering country in 2012. The
 report says illegal financial activities “continue to pose serious threats to the
 security and development of Afghanistan.” This is largely perpetuated by
 informal, honor-based “hawala” methods of transferring money without mov-
 ing it. Afghans rely upon hawala networks because of official corruption and
 weakness in the banking sector. Unlicensed and unregulated hawala brokers
 in drug-producing areas like Helmand are responsible for much of the money
 laundering through Afghanistan’s financial system. But Afghan business con-
 sortiums that own hawalas and banks are complicit, too—the depreciation of
 the Iranian rial in 2012 led to increased cash smuggling from Afghanistan to
 satisfy increased Iranian demand for U.S. dollars, according to the report.418


 BANKING AND FINANCE
 Private-sector development depends on establishing solid financial institu-
 tions to provide capital and facilitate the exchange of money for goods and
 services. However, Afghanistan’s financial sector remains largely underde-
 veloped, makes limited capital investments in businesses, and contributes
 little to Afghanistan’s private-sector activity.419
     Afghanistan’s banking and financial sector has not fully recovered from
 the 2010 near-collapse of Kabul Bank, and suffers from a loss of consumer
 confidence. Audits of major banks in Afghanistan conducted in the wake of
 the Kabul Bank scandal revealed “systemic fragility and vulnerability in all




 REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2013                   151
                                                              ECONOMIC AND SOCIAL DEVELOPMENT




                                                              areas of banking governance and operations,” according to a World Bank
                                                              report released this quarter.420
                                                                 Total assets in the banking sector declined from $5.5 billion in 2010
                                                              to $4.4 billion in 2012. The average growth rate of demand deposits was
                                                              80% from 2005 to 2009, but declined to 12.5% growth over the last three
                                                              years. Commercial loans grew an average 40% annually before the 2010
                                                              crisis, but have been declining to -20% since 2010. The World Bank char-
                                                              acterized this trend as a “change in the risk perception of the commercial
                                                              banks and a declining performance of the banking sector.”421 The Bank
                                                              is also tracking negative trajectories in the microfinance sector. It noted
                                                              that several institutions have left the country, other institutions are in
                                                              danger of bankruptcy, loan portfolio growth has slowed since 2008, and
                                                              there are fewer active borrowers.422

                                                              Currency
                                                              Afghanistan’s currency, the afghani (Afs), depreciated by 8% against the
                                                              U.S. dollar in 2012. It cost 47.9 afghanis to buy a U.S. dollar in 2011, but
                                                              51.8 afghanis in 2012. The World Bank attributed the depreciation largely to
                                                              security concerns and uncertain business-sector conditions in the lead-up
                                                              to the political and security transitions in 2014.
                                                                 U.S. dollars are in higher demand than Afs. Afghanistan’s central bank—
                                                              Da Afghanistan Bank (DAB)—curbed reserve money growth at 4% in 2012,
    “The handing down of                                      and manages the floating exchange rate via foreign-exchange transactions
relatively light sentences to                                 to limit excessive Afs depreciation.423 Depreciation typically improves the
  21 people involved in the                                   price competitiveness of a country’s exports, but Afghanistan has limited
                                                              export opportunities and limited domestic substitutes for some imports,
collapse of the Kabul Bank                                    and its exports actually declined in 2012. The country is not self-sufficient
   must not signal the end                                    in cereal grains and imports large quantities of fuel.424 Under these circum-
   of accountability in this                                  stances, further depreciation, which typically narrows trade deficits, could
 scandal. Robust and ongo-                                    help to widen it.
 ing action, in particular on The Kabul Bank
  asset recovery and sound On March 5, 2013, the Special Tribunal of the Supreme Court on Kabul Bank
   financial regulation, are  issued its judgment on 21 individuals charged with fraud. Afghanistan’s
 essential. Demonstrations Attorney General’s Office (AGO) appealed the verdict on March 16.425 The
                              Attorney General is seeking longer prison terms and additional convictions
   of commitment to sound
                              for the two leaders of the fraud, ex-chairman Sherkhan Farnood and ex-
  institutional and financial CEO Khalilullah Ferozi, who were given modest five-year prison sentences
 fundamentals will be criti- and ordered to pay only partial restitution.
  cal to ensuring sustained      According to the U.S. Department of Justice (DOJ), the Attorney
  international assistance.”  General  requested additional convictions for Farnood and Ferozi to include
                                                              embezzlement and money laundering under Afghanistan’s Anti-Money
Source: UN Secretary-General, “The Situation in Afghanistan   Laundering and Proceeds of Crime Law, which carries with it a confiscation
and its Implications for International Peace and Security,”
6/13/2013, p. 15.                                             order to recover stolen funds. The Attorney General is seeking additional




                                                               152                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




 convictions for the remaining defendants, but is not asking for penalties
 other than those initially ordered by the Tribunal.426
    Kabul Bank had been Afghanistan’s largest banking service provider, dis-
 tributing most civil salaries on behalf of the Afghan government. The Bank’s
 2010 near-collapse brought to light the theft of more than $935 million, over
 92% of which went to 19 individuals and companies. Afghanistan’s central
 bank, Da Afghanistan Bank, covered these losses, equivalent to 5-6% of
 Afghanistan’s total GDP.427

 Cash and Asset Recoveries: Update
 The Afghan government claimed cash recoveries of $142.3 million
 on March 1, 2013, compared to the $138 million that was reported to
 SIGAR in April. As of July 3, 2013, the Kabul Bank Receivership reported
 $173.2 million in cash recoveries, according to the Senior Officials
 Meeting Joint Report (on Tokyo Mutual Accountability Framework imple-
 mentation).428 Even this larger figure amounts to less than 20% of the total
 stolen funds.

 Prosecutions: Update
 Since the Special Tribunal of the Supreme Court on Kabul Bank issued its
 March 5, 2013, verdict against 21 individuals charged with fraud, no effort
 has been made to hold anyone else accountable. At that time, the Special
 Tribunal ordered the arrest and prosecution of 16 additional individuals
 with existing warrants: 13 Kabul Bank executives and/or shareholders and
 three Central Bank officials. Most of the 16 have fled Afghanistan and the
 Afghan government has made no decisive attempt to pursue them, accord-
 ing to the DOJ.429
    The Special Tribunal’s order also directed the investigation and pros-
 ecution of 16 other recipients of illegal loans, including five Kabul Bank
 shareholders and six related companies. However, DOJ reported that the
 chief of the investigative prosecutors at the AGO Anti-Corruption Unit was
 unaware of any plans to pursue further investigations. The Deputy Attorney
 General, after being given a copy of the Special Tribunal’s order, promised
 charges and investigations, but he, along with the Attorney General and
 others within the AGO, indicated to DOJ that any new investigations will
 focus on international actors, who are both beyond the reach of Afghan
 law enforcement, and whose criminal responsibility is highly suspect. As of
 June 30, 2013, no new investigations were opened into the identified indi-
 viduals or entities.430
    Several news reports this quarter stated that the AGO will prosecute
 four companies that audited Kabul Bank in the years leading up to the
 2010 crisis, including PricewaterhouseCoopers and Deloitte Consulting.431
 Even though Afghanistan’s Independent Joint Anti-Corruption Monitoring
 and Evaluation Committee (MEC) accused these companies of wrongly




 REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2013              153
                                            ECONOMIC AND SOCIAL DEVELOPMENT




                                            attesting to Kabul Bank’s compliance with Afghan law, and failing to iden-
                                            tify and follow up on reports of fraudulent activity at the bank, the MEC
                                            feels this is an imprudent strategy and use of resources. Instead, the MEC
                                            recommends that the AGO work with other countries to gather the neces-
                                            sary evidence and focus on investigating those with a more direct role in
                                            the fraud.432


                                            DEVELOPMENT OF NATURAL RESOURCES
                                            The United States, the Afghan government, and the international donor
                                            community count on developing Afghanistan’s natural resources to under-
                                            pin future economic growth in the face of declining external aid. Although
                                            mining has contributed less than 2% to the country’s GDP to date, the
In a June 2013 lecture at SIGAR, Clare
                                            Afghan government expects to receive significant revenues from large-
Lockhart, co-founder of the Institute for
State Effectiveness, spoke on a range       scale investments in the Aynak (copper) and Hajigak (iron-ore) mines, and
of topics, including the importance         from oil and gas fields in the Afghan-Tajik basin.433 However, SIGAR has
of stabilizing the Afghan economy.          consistently cautioned that the Afghan government may not be able to earn
(SIGAR photo)                               revenues from Afghanistan’s minerals, coal, petroleum, and natural gas
                                            resources any time soon because of the considerable infrastructure invest-
                                            ment required to develop them.
                                               The World Bank also warned that the potential for direct job creation
                                            from mining is limited and demographically uneven. Afghanistan can
                                            expect to create between 15,000 and 20,000 direct jobs from oil, gas, and
                                            mining activities, with 2,000 to 4,000 jobs at a major mine and fewer jobs
                                            at oil and gas operations. Of these, approximately 70% will be skilled and
                                            semi-skilled labor, largely benefitting urban areas where skilled laborers
                                            typically live. Rural communities will generally fill the remaining available
                                            unskilled positions.434
                                               The United States, through DOD’s Task Force for Business and Stability
                                            Operations (TFBSO), has supported the Afghan government’s efforts to
                                            attract investment in the mining sector. Out of $10.2 million total for mining-
                                            sector development in FY 2013, TFBSO obligated $9.7 million, as of June
                                            30, 2013. Last quarter, TFBSO reported $6.8 million in total mining assis-
                                            tance, with $4.8 million obligated.435 Additionally, USAID is scheduled to
                                            launch its Mining Investment and Development for Afghan Sustainability
                                            (MIDAS) project, having awarded a contract on March 31, 2013. With a total
                                            estimated cost of $41 million—descoped from $90 million reported last
                                            quarter—it will focus on legal and regulatory reform, technical assistance
                                            to the Ministry of Mines and Petroleum (MOMP), small and medium enter-
                                            prise development, assistance in geo-science field investigation, and other
                                            support as needed.436 MIDAS will also absorb some of TFBSO’s extractives
                                            programs as it transitions out of Afghanistan.437




                                             154                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




 Impact on Afghan Businesses and Investors
 Development of the mining, oil, and gas sectors could stimulate local busi-
 nesses. For example, the World Bank estimates that $800 million worth of
 needed goods and services for Aynak copper mine and Amu Darya oil and
 gas deposits can be procured from local Afghan suppliers. However, Afghan
 businesses operate under imperfect economic conditions. These suppliers
 require support and investment to ensure they deliver quality goods in suffi-
 cient quantities. Since Afghan manufacturing is negligible and in some cases
 of questionable quality, most consumable goods, construction materials,
 and equipment are imported.438

 New Minerals Law: Update
 On June 24, 2013, the Ministry of Justice officially submitted the draft Minerals
 Law to the Ministry of Parliamentary Affairs for transmittal to the lower house
 of parliament. Once passed by both the lower and upper houses, it will be sent
 to the president for final approval. An unofficial copy of the law has already
 been distributed to expedite review.439 The law would, among other things,
 link exploration and extraction rights. DOD’s TFBSO has previously warned
 that without that legislative provision many companies will not bid on new
 tenders and will not sign contracts on existing awards.440 A July 1, 2013, news
 report quoted a MOMP advisor who said four major mining contracts are on
 hold pending passage of the new minerals law—Hajigak (iron ore); Zarkashan
 (gold); Badakhshan (gold); and Balkhab (copper).441
    Passing a revised minerals law is an IMF and Tokyo Mutual
 Accountability Framework benchmark.442 Updating the law is meant to bet-
 ter protect Afghan resources, encourage investors, and align regulations to
 international best practices.443 Its delay has significantly hindered private-
 sector investment, according to TFBSO, which said mining companies value
 political and legal stability even more than security.444

 Assistance to the Ministry of Mines and Petroleum, and
 the Afghanistan Geological Survey
 This quarter, the United States continued to provide technical assistance to
 the MOMP and Afghan Geological Survey (AGS) through TFBSO and the
 U.S. Geological Survey (USGS). These organizations are providing support
 for mineral and hydrocarbon tenders and oil-and-gas data management,
 including geology reports, seismic data, well logs, and production logs. They
 are also assisting MOMP and AGS with visits to U.S. mines, participation
 in official meetings, and attendance at international conferences related to
 resource development. As of June 30, 2013, TFBSO obligated $9.7 million out
 of $10.2 million allocated in FY 2013 for mining sector development. Most of
 those funds are for technical assistance and advisory services.445
    TFBSO contributes subject-matter expert advisors who provide geo-
 logical reports, legal documentation, and financial-transaction services to




 REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2013                  155
ECONOMIC AND SOCIAL DEVELOPMENT




the MOMP for its international mining and hydrocarbon-tender programs.
TFBSO also works with the AGS to refine and expand their drilling and
data-collection programs for future tenders, and develop a cadre of Afghan
geologists who can explore areas for future tender. TFBSO, along with
USGS, is training AGS employees on updated remote-sensing techniques
and geographic-data software, and is helping move Afghanistan’s geologi-
cal data off USGS servers and onto their own. TFBSO helped develop
a regulatory and legal framework for the sale of natural gas from the
Sheberghan-Mazar pipeline and provided training programs in welding, con-
struction safety, program management, equipment maintenance, and other
midstream transportation operations.446

Aynak Copper Mine: Update
Metallurgical Corporation of China (MCC) was awarded the contract
for extraction rights at the Mes Aynak copper mine in Logar province in
2008, but has not yet begun excavation. Development of the mine remains
delayed by the discovery of cultural relics in the area, difficulties in land
acquisition, lack of primary infrastructure, and security concerns.447
   According to published summaries of the contract, MCC has agreed
to pay the government $808 million in pre-royalty payments and royalty
rates of up to 19.5% of revenues, build a 400 MW coal-fired power plant,
and develop an associated coal mine. MCC has the option to renegotiate
its contract in 2013, and may defer further investment until it evaluates
the results of Afghanistan’s 2014 presidential election and post-transition
security environment.448
   MOMP and the Ministry of Information and Culture (MOIC) are work-
ing with approximately 30 international archeologists at Aynak to excavate
and transfer culturally significant artifacts before mining begins. This Mes
Aynak Archaeological Project is financed by the World Bank’s International
Development Association, and supported by the Delegation Archeologique
Francaise en Afghanistan. Archaeological work is scheduled through
July 2013 and may be extended.449

Hajigak Iron-ore Mine: Update
Contract negotiations for the Hajigak iron-ore concessions continue. The
MOMP awarded three blocks to AFISCO, a seven-member Indian consor-
tium led by state-owned Steel Authority of India Ltd. in November 2011,
and one block to Canadian Kilo Iron Ore, a subsidiary of Kilo Goldmines.
Kilo Iron Ore has consented in principle to all contract negotiating terms.
Both firms are awaiting parliamentary approval of the new Minerals Law
before signing. AFISCO is also still in negotiations about surrounding infra-
structure, including a steel plant and a power plant. AFISCO may also be
experiencing investor and financial difficulties, according to TFBSO.450




 156                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




 Hydrocarbons
 Afghanistan’s efforts to develop its oil and gas reserves focus on the Amu
 Darya Basin and Afghan-Tajik Basin, both in northern Afghanistan. This
 quarter, TFBSO continued its technical assistance to the MOMP and AGS.

 Amu Darya Basin Production: Update
 The three awarded blocks of the Amu Darya Basin are estimated to con-
 tain 87 million barrels of crude oil, according to the State Department
 and TFBSO.451 The China National Petroleum Corporation Watan Energy
 Afghanistan (CNPCI-W) produced approximately 10,709 barrels of crude
 from three blocks as of June 1, 2013. The Afghan government has received
 $4.66 million in royalty and surface rental fees as of June 3, 2013.452
    State reported that although CNPCI-W is able to continue production, it
 is currently producing no oil while it works to secure a buyer for its output.
 CNPCI-W began export agreement negotiations with regional refineries
 in April 2013 to purchase its Amu Darya oil, with bids being assessed this
 quarter. Government revenues from Amu Darya will depend on future
 production rates and market values. While technically capable, CNPCI-W’s
 low-level production to date makes it unlikely to reach its legally required
 FY 2013 production rate of 1.65 million barrels.453
    The Amu Darya Petroleum Authority, which manages the Amu Darya
 contract, evolved into the Afghanistan Petroleum Directorate (APD) in
 early 2013. TFBSO helped develop APD’s organizational chart, and advised
 their hiring of accounting, finance, human resources, and technical areas
 staff. TFBSO also provides subject-matter expert support to the APD—
 technical (oil and gas engineering), legal (contract implementation), and
 financial (accounting and analysis)—to assist in the oversight of TFBSO-
 supported contracts.454


 AGRICULTURE
 Since 2002, USAID has obligated about $29 million to build capacity at the
 Ministry of Agriculture, Irrigation, and Livestock (MAIL), increase access
 to markets, and provide alternatives to poppy cultivation.455 Agriculture
 plays a dominant role in the Afghan economy. Only 12% of the land is ara-
 ble and less than 6% is cultivated, yet 80% of Afghans directly and indirectly
 earn a living from agriculture.456 Given its importance to the labor force,
 agriculture could be a catalyst for GDP growth, improved food security,
 and more stable employment opportunities.457 A United Nations-Afghan-
 World Bank jobs conference this quarter emphasized that Afghanistan’s            Participants in a May 2013 conference
 national strategy for economic growth and sustainable job creation should        focused on the importance of vocational
 focus on the agriculture sector.458                                              training and the agricultural sector to the
                                                                                  Afghan economy. (UNAMA photo)




 REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2013                157
ECONOMIC AND SOCIAL DEVELOPMENT




   USAID provides assistance to the agriculture sector through several
programs. The three highest priorities, worth more than $350 million
total, are:459
•	 Agricultural Development Fund (ADF) and Agricultural Credit
   Enhancement (ACE)
•	 Incentives Driving Economic Alternatives—North, East, and West
   (IDEA-NEW)
•	 Commercial Horticulture and Agricultural Marketing Program
   (CHAMP)
These three programs are providing lessons learned for USAID as it works
to award five new regional agriculture-development programs.

Agricultural Development Fund and Agricultural
Credit Enhancement
Agricultural Development Fund and Agricultural Credit Enhancement
(ADF-ACE), a $150 million agricultural-credit project, has two complemen­
tary activities that aim to support MAIL’s efforts to provide loans and build
MAIL’s capacity to manage them. The $100 million, on-budget ADF was
established to provide loans across the agricultural value chain through
banks, farm stores, leasing com­panies, and food processors, which in turn
provide agricultural credits to farmers. ADF-ACE designed and launched
nine innovative financial lending products, one exclusively for women. Of
ADF’s $50.4 million total alloca­tion (revised downward from $75 million last
quarter), $29 million has been obligated (compared to $64.6 million reported
last quarter) and $9 million has been disbursed (compared to $53.7 million
last quarter), as of June 30, 2013.460
   The $50 million, off-budget ACE is the technical-assistance component
that manages all ADF lending activities and helps build MAIL capacity.
According to USAID, ADF has over 20,000 clients in 30 of Afghanistan’s
34 provinces. A total of $67.8 million in loans have been approved, and of
that, $32 million has been disbursed. USAID reports a loan default rate of
only 4%. Despite these successes, USAID noted that Afghan political and
legal obstacles delayed ADF legal registration and access to lending funds,
which, in turn, reduced the number of loans approved and the number of
beneficiaries. Of USAID’s $68.4 million total allocation for ACE, $43.6 mil-
lion was obligated (from $20 million last quarter) and fully disbursed (from
$5.8 million last quarter), as of June 30, 2013.461

Incentives Driving Economic Alternatives-North, East, and West
Incentives Driving Economic Alternatives-North, East, and West (IDEA-
NEW) is a five-year, $160 million, cooperative-agreement project that
provides agricultural assis­tance and economic alternatives to growing pop-
pies in select provinces in eastern Afghanistan and in poppy regions in the
northern and western parts of the country. As of June 30, 2013, USAID has




 158                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




 allocated $154.6 million, obligated $131.1 million to the IDEA-NEW program
 ($4 million more than reported last quarter) and has disbursed $125.1 mil-
 lion ($6.9 million more than last quarter). IDEA-NEW helps farmers shift
 to legal agricultural production by increasing commercial opportunities,
 extending access to financial services, and promoting value-chain devel-
 opment for key regional industries and trade corridors. It also facilitates
 connections between producers, traders, and buyers through mar­ket-
 information activities and sales promotion.462
    USAID reported 52,242 households have directly ben­efitted from IDEA-
 NEW (revised from 950,000 households reported last quarter), which
 resulted in over 46,000 full-time jobs and $4.7 million in agricultural exports.
 IDEA-NEW is planning a poppy-impact assessment to determine what, if
 any, impact the program has had on poppy cultivation.463
    According to USAID implementers, oversight remains a chal­lenge. Even
 though USAID says that it can provide oversight with third-party moni-
 tors, in its data-call response to SIGAR it acknowledged that safety and site
 access are becoming more acute concerns as provincial reconstruction
 teams and foreign combat forces leave Afghanistan.464 SIGAR has consis­
 tently expressed concern about this constraint.

 Commercial Horticulture and Agricultural Marketing Program
 Commercial Horticulture and Agricultural Marketing Program (CHAMP),
 a $40 million program begun in 2010, aims to help farmers plant and oper-
 ate more profitable orchards and vineyards. CHAMP works with farmers
 to improve crop quality and promotes export and trade corridors. The pro­
 gram also works with traders to improve harvesting, packing, cold storage,
 and shipping methods.465
    USAID reported more than 13,000 households have directly benefited
 from CHAMP, while 2.7 million fruit trees have been planted over 5,000 hect-
 ares of land. As CHAMP approaches the 2014 transition, it will shift focus
 to post-harvest commercialization of high-value crops. It aims to increase
 exports through marketing, and promote import substitution domestically.
    Of the almost $37.8 million that USAID has allocated to CHAMP, $30.3 mil-
 lion has been obligated ($6 million more than last quarter) and almost
 $26.5 million has been disbursed ($3.2 million more than last quarter),
 as of June 30, 2013. However, USAID said that insecurity con­tinues to be
 CHAMP’s most acute challenge to full implementation and material distribu-
 tion. Insurgent groups threaten both CHAMP staff and farmers, particularly
 in Kandahar, Helmand, Zabul, Wardak, Logar, and Ghazni provinces.466


 ESSENTIAL SERVICES/DEVELOPMENT
 Since 2002, the United States has provided reconstruction funds to increase
 electricity, build roads and bridges, and improve health and education. This




 REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2013                 159
                                              ECONOMIC AND SOCIAL DEVELOPMENT




                                              section addresses key developments in U.S. efforts to improve the govern-
                                              ment’s ability to deliver essential services such as electricity, transportation,
                                              health, and education.

                                              Energy
                                              Electricity is critical to Afghanistan’s development. In collaboration with the
                                              Afghan government and in line with its stated priorities, the United States
                                              has made developing an integrated energy sector one of its top reconstruc-
                                              tion priorities since 2002. From 2002–2011, USAID alone has provided close
                                              to $2 billion from the ESF to build generators, substations, and transmission
                                              lines, and provide technical assistance to the sector. It plans to spend at least
                                              $900 million more over the next few years.467 In addition, DOD has provided
                                              $292 million for electricity projects through CERP and $530 million through
                                              the Afghanistan Infrastructure Fund (AIF), which is jointly managed by DOD
                                              and State.468 This assistance has lifted the number of Afghans with access to
                                              electricity from 5% of the population in 2001 to 30% in 2012.469
                                                 Afghanistan currently has nine separate power systems. The primary two
An Afghan electric-utility staffer welcomes   are the Northeast Power System (NEPS) and the Southeast Power System
a SIGAR team at the Kajaki Dam power
                                              (SEPS). USAID has three projects to connect and increase the electricity
plant. (SIGAR photo)
                                              supply in both systems—Sheberghan; Kandahar-Helmand Power Project,
                                              which includes Kajaki Dam hydropower; and the Power Transmission
                                              Expansion and Connectivity Program. The Afghan government, coordi-
                                              nating closely with USAID, prioritized these programs with the goal of
                                              increasing the availability of affordable, grid-based power.470

                                              Sheberghan Program
                                              The Sheberghan project is a critical first step in identifying and manag-
                                              ing gas resources and adding domestic power generation for Afghanistan,
                                              which currently imports more than 70% of its energy needs, according
                                              to USAID.471 USAID is implementing its part of the Sheberghan Program
                                              through two mechanisms: the $90 million, on-budget Sheberghan Gas
                                              Development Project (SGDP), and the $35 million, off-budget Sheberghan
                                              Gas Generation Activity. As of June 15, 2013, $30 million has been
                                              obligated for SGDP, with none disbursed; while $20.5 million has been obli-
                                              gated for Sheberghan Gas Generation Activity, of which almost $7.4 million
                                              was disbursed.472
                                                 USAID is funding 21% of the Sheberghan program; the Overseas Private
                                              Investment Corporation is backing financ­ing of a $300 million privately
                                              funded 200 MW gas-fired power plant (52% of total funding); the Asian
                                              Development Bank (ADB) will support construction of the associated
                                              transmission lines (22% of total funding); and the MOMP will cover the
                                              remaining 5%.473
                                                 A second round of bids for the drilling and rehabilitation of SGDP
                                              were received and evaluated this quar­ter. The project was descoped from




                                               160                  SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




 four wells to three. Companies view this job as a small return on invest-
 ment given the security and political risks. An award is scheduled to be
 announced in August 2013.474 Additionally, after a mid-contract review this
 quarter, USAID exercised its option to extend a second 18-month option
 for Advanced Engineering Associates International, which is providing
 technical assistance to the MOMP and its Gas Business Unit, as well as Da
 Afghanistan Bereshna Sherkat (DABS) employees. USAID said Afghanistan
 currently lacks the technical competence to produce gas, negotiate energy
 sales, and execute operations-and-maintenance programs.475
    In a separate development this quarter, the United States, with TFBSO
 assistance, signed two Memorandums of Understanding (MOU) with the
 MOMP. One is to rehabilitate the existing 89 km Sheberghan to Mazar gas
 pipeline, which supplies the Northern Fertilizer Power Plant in Mazar-e-
 Sharif. The other is to build a new, 94 km pipeline between Sheberghan and
 Mazar-e-Sharif, and install a gas refinery in Yateemtaq. The total estimated
 cost of these projects is $32 million. Scheduled to be completed in June 2014,
 the projects will be implemented by state-owned Afghan Gas Enterprise.476

 Kandahar-Helmand Power Project
 The Kandahar-Helmand Power Project (KHPP) is intended to increase the
 power supply in Kandahar and make power more accessible to the popu-
 lation. It was designed to support interim diesel power for critical needs,
 increase long-term sustainable hydro power, and reduce losses while
 strengthening the southern transmission and distribution system.477 In
 2010, USAID awarded a $266 million contract to Black & Veatch to rehabili-
 tate power substations, upgrade the medium-voltage distribution system
 in Kandahar City, install a third turbine at the Kajaki Dam, and design and
 install new, yet temporary, die­sel-powered generators. DOD is committed
 to funding the fuel for these and other U.S. Army Corps of Engineers-
 installed generators through 2014 using AIF. This fuel subsidy will be
 extended, but USAID expects it to decrease as Afghanistan’s national util-
 ity, DABS, takes the required steps to secure the revenue needed to sustain
 the fuel costs.478
     As of June 15, 2013, USAID had obligated $229.6 million of ESF funds for
 the KHPP, and of that, approximately $176.6 million had been disbursed, an       Parts for the third turbine at the Kajaki
 increase of $24.4 million from last quarter.479                                  Dam power plant have languished outdoors
     Last quarter, USAID transitioned responsibility for installing the third     under tarps for years, awaiting installation.
 Kajaki turbine to Afghanistan’s national utility, DABS, and committed to         (SIGAR photo)
 fund it on-budget. The turbine could provide an additional 18.5 MW of
 power. In May 2013, USAID signed a bilateral, on-budget implementa-
 tion letter with the Afghan government, and committed $75 million for
 the project. DABS solicited requests for proposals to install the third
 turbine and for a construction-management consultant. Bids were due in
 June and are being evaluated. This implementation strategy of on-budget




 REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2013               161
ECONOMIC AND SOCIAL DEVELOPMENT




assistance has shifted the timeline for completion to late 2015. Black &
Veatch is available to provide technical assistance and site security until
its contract expires in September 2013. The most recent insurgent attack
on Kajaki transmission lines occurred in May 2013 and resulted in an
eight-day power outage.480
   U.S. Forces-Afghanistan, the U.S. Army Corps of Engineers, and USAID
are working closely on related power-infrastructure efforts within SEPS.
KHPP continued to encounter logistical difficulties this quarter. USAID
reported two shipping containers carrying equipment critical for Kandahar
medium-voltage distribution upgrades are still being held indefinitely in
Pakistan. Additionally, the APPF, which provides site security along SEPS,
has been unilaterally changing contract terms, conditions, and unit pric-
ing due to leadership and contracting-officer turnover at its headquarters.
According to USAID, contracts and guard salaries have consequently been
delayed, at times compromising site security.481

Power Transmission Expansion and Connectivity Program
Power Transmission Expansion and Connectivity (PTEC), a U.S.-funded
program designed to strengthen and expand the power-generation, trans­
mission, and distribution systems, directly supports the National Energy
Supply Program of the Afghanistan National Development Strategy. The
strategy calls for improving the collection rate against energy billings and
increasing the supply of power.482
   A key component of PTEC is funding to construct a transmission line
between Kabul and Kandahar to connect NEPS with SEPS. This 530 km
con­nection, together with the rehabilitation of the Kajaki Hydropower
Plant, was identified in 2010 as the only viable, long-term solution to
displace costly and unsustainable diesel-power generation in Kandahar.
Connecting NEPS to SEPS is a multi-donor effort. The ADB is responsible
for the first 40 km Kabul–Arghandi substation connector. DOD, through the
U.S. Army Corps of Engineers, is constructing the transmission line from
Arghandi to Pul-e Alam and Gardez. USAID will fund construction of the
120 km section from Arghandi to Ghazni through on-budget aid to DABS.483
   USAID plans to contribute $417 million from its $814 million PTEC
project to ADB’s Afghanistan Infrastructure Trust Fund (AITF), of which
approximately $290 million will be used to construct the remaining trans-
mission line from Ghazni to Kandahar to complete the NEPS to SEPS
connection. The ADB established the AITF in December 2010, to allow
bilateral, mul­tilateral, and individual contributors to partner with the ADB
in financing infrastructure investments. AITF will fund projects on-budget
through DABS or other Afghan government ministries. Current contributors
to AITF also include the UK’s Department for International Development
and the Japanese Embassy. As of June 6, 2013, USAID obligated $180 mil-
lion to AITF and disbursed $45 million.484




 162                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




 DOD-Funded Programs
 Reliable and sustainable power generation and transmission is the linchpin
 to security, stability, and economic growth in Afghanistan, according to
 DOD. This quarter, DOD continued implementing several priority energy-
 sector projects using FY 2012 and FY 2013 AIF money. These included:485
 •	 the Kandahar Power Bridging Solution
 •	 Kandahar–Durai Junction transmission lines
 •	 Charikar–Bazirak and Charikar–Mahmood Raqi transmission lines and
     power substations

 Kandahar Power Bridging Solution
 This project provides fuel for the diesel power generators in Kandahar City
 until the KHPP has been completed. Funding levels have not changed from
 last quarter. FY 2012 funding remains at $79.8 million for fuel and opera-
 tions and maintenance (O&M). The estimated FY 2013 cost is $100 million,
 which includes $90 million for fuel and $10 million for O&M.486 DOD plans
 to continue purchasing fuel and providing O&M support into FY 2015.487
 It sees this electricity as critical to the counterinsurgency strategy to help
 stabilize Kandahar by supporting economic development and improving
 citizens’ quality of life. DOD said the Kandahar Bridging Solution is a central
 to the Afghanistan Electrification Plan and the State Department’s develop-
 ment plan for Afghanistan.488

 Kandahar to Durai Junction Transmission Lines
 Part of the effort to expand SEPS, this project continues earlier efforts to
 install or repair transmission lines from Kandahar City to Durai Junction
 and to construct or repair substations at Maiwand and Pashmul. The proj­
 ect cost remains $40 million in FY 2012 funds. This transmission line will
 help address the need for reliable electricity in Afghanistan’s south and
 southeast and constitutes a key element for the larger PTEC project link-
 ing SEPS and NEPS. DOD’s goal is to promote economic growth, security,
 stability, and capacity-building efforts within DABS to improve the commer-
 cialization of power that will allow it to generate sufficient revenues to fund
 capital improvements to the grid. Completion of this project is essential
 to distribute power generated by the third turbine awaiting installation at
 Kajaki Dam, according to DOD.489

 Charikar–Bazirak and Charikar–Mahmood Raqi Transmission
 Lines and Power Substations
 This project will install 83 km of transmission lines from Charikar to
 Bazirak and from Charikar to Mahmood Raqi, and will build three power
 substa­tions to expand NEPS. The $48 million allocated for the project was
 moved to FY 2013 with another $22 million added, for a total estimated
 cost of $71 million, according to a DOD notification to Congress. Annual




 REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2013                163
ECONOMIC AND SOCIAL DEVELOPMENT




estimated costs are $580,000. DOD told Congress the project will bring
reliable electricity to 1.15 million Afghans across three provinces and
help fuel pri­vate-sector growth, especially in the agriculture, processing,
manufacturing, and mining sectors. DOD assumes that DABS will take
over responsibility for national-grid O&M as well as for completed infra-
structure improvements, and will be able to sustain them with improved
revenue sources and capacity.490 However, SIGAR has raised questions
about DABS’s capac­ity, and other audits have said Afghanistan lacks the
resources necessary to pay for O&M.491

CERP Projects in the Electricity Sector
DOD also uses CERP funds to pay for small-scale electricity projects, such
as installing generators, solar panel systems, and utility poles. During the
second quarter of FY 2013, 10 new CERP-funded electricity projects were
obligated (valued at $33,240). The largest of these newly obligated proj-
ects ($5,000) was installing six solar panels for the district center in Logar,
benefitting 10,000 locals. Of $89,553 obligated in FY 2013, $75,836 has been
disbursed as of March 31, 2013.492


TRANSPORTATION
Afghanistan’s lack of transportation infrastructure hinders trade and eco-
nomic growth. The country has one of the worst road systems in the world.
It has less than 100 miles of railroad, and is 2,000 km from the nearest
seaport—one of the longest distances from a seaport among all landlocked
developing countries, according to World Bank analysis. The Bank said
restoring the transportation sector is imperative for economic recovery
and development.493
    Afghanistan’s infrastructure shortcomings are especially problematic
for the service and agriculture sectors, which currently contribute most to
GDP. They also hold back the extractives industry, whose future revenues
the Afghan government and international donor community are counting on
to supplement declining aid.494 This quarter, the United States continued its
efforts to develop transportation laws, ministry capacity, and compliance
with inter­national standards.

Rail
The United States and its international partners have been helping
Afghanistan develop its rail sector, with the goal of building a profit-
able and sustainable system. Currently, Afghanistan has no meaningful
railroad development, operational experience, or capacity. Only one com-
pleted rail line exists—a 75 km line from Hairatan, on the border with
Uzbekistan, to Mazar-e-Sharif.495 The country needs to expand the 75 km
line if it is to further the New Silk Road vision of regional and economic




 164                  SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




 connectivity. The next component of this rail—an interlinking 400 km
 line between Afghanistan, Turkmenistan, and Tajikistan—was inaugu-
 rated this quarter.496
     This quarter also saw the release of a national railway plan for
 Afghanistan. U.S. government civilian and military personnel worked
 with representatives of the railway industry and academia to develop it.497
 This macro-level, assumption-based plan supports Afghanistan’s National
 and Regional Resource Corridors Program, which, in part, calls for reha-
 bilitating and upgrading regional trade and transportation links between
                                                                                   In his May 2013 trip to Afghanistan,
 Afghanistan, Pakistan, and Iran, as well as China and Central Asia.498            Special IG Sopko examines the Afghan rail
     The rail plan describes its recommendations as economically viable, and       connection to Uzbekistan. (SIGAR photo)
 technically and financially feasible, yet sensitive to multiple risk elements
 which it says the plan mitigates to an acceptable level.499 The plan is predi-
 cated on Afghanistan leveraging its vast iron-ore and copper resources for
 sustainable economic growth and for the railway’s commercial viability.
 Mining is expected to account for about 76% of total rail freight traffic, with
 Hajigak alone accounting for about 60%. The plan’s drafters said their analy-
 sis showed that railway operations revenues from mineral transport have
 the potential to reach $54 billion from 2017 to 2040 and for government rev-
 enues from royalties and taxes to reach $45 billion in that same period.500
     However, the plan acknowledges that to realize that return, Afghanistan
 must be competitive with low-cost producers of iron ore like Brazil and
 Australia, which extract, rail-transport, and ship to Asian markets for as
 little as $39 per metric ton. If Afghan ore is not competitive, revenue will be
 insufficient to expand and sustain the railway. The plan’s authors also said
 that Afghanistan must use efficient routes to sea ports and avoid different
 rail-line gauges, which will necessitate the off-loading and transfer of cargo,
 adding time and cost. This will be a major challenge because Afghanistan
 is surrounded by three different size track gauges: Russian (Turkmenistan,
 Uzbekistan, Kyrgyzstan, and Tajikistan), Standard (Iran and China), and Indian
 Broad (Pakistan and India), as shown in Figure 3.34 on the following page.501
     Figure 3.34 also shows the preferred rail design, which consists of two
 primary lines: a southern route in proximity to major mining areas that can
 transport mineral freight to seaports in Iran and Pakistan for shipments to
 global markets using standard-width rail gauge; and a northern route using
 Russian rail gauge that can transport commercial freight. The southern line
 is expected to be more economically viable, bringing in a potential $56.1 bil-
 lion in revenue from 2017 to 2040. Under this plan Iran is the preferred
 destination for mineral exports because the route is more efficient and
 Iran’s rail infrastructure is in better condition than Pakistan’s.502
     The northern line would be less economically viable with potential rev-
 enues at $12.6 billion in that same time frame. Both lines facilitate trade
 with Iran. The northern line would expand trade between the Central Asian
 Republics and Iran—potentially 3 million metric tons a year from 2017




 REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2013                165
                                                               ECONOMIC AND SOCIAL DEVELOPMENT




FIGURE 3.34

HIGH PRIORITY RAIL DESIGN AND REGIONAL CONNECTIVITY REQUIREMENTS - AFGHANISTAN NATIONAL RAILWAY


                                                                  UZBEKISTAN
                                                                                                                  TAJIKISTAN                     CHINA
                   TURKMENISTAN                                MAZAR-E-SHARIF

                                                       AQINA                       HAIRATAN   SHERKHAN BANDAR

                                                                                              KUNDUZ
                                                      SHEBERGHAN
                                                                        NAIBABAD     KHOLM

                                                                  BALKHAB

                TORGHUNDI
                                                                        BAMIYAN
                                                                                       HAJIGAK
                                HERAT                                                            KABUL
                                                                    SYADARA
                                                                                                 AYNAK
                                                                                                           TORKHAM
    DUSAR-SHAIDA



                                                                    ZARKASHAN

                                                            KUNDULAN                                              PLANNED RAILWAY
                                             DELARAM
                                                                                                                       Completed
                                                        GERESHK
                                                                                                                       High Priority
                                                                     KANDAHAR
                                                                                                                       Mining Area of Interest

     IRAN                  ZARANJ
                                                              CHAMAN                                              RAIL GAUGE
                                                                                         PAKISTAN                      Indian: 5ft., 6in. (1,676mm)
                                                                                                                       Standard: 4ft., 8.5in. (1,435mm)
                            SOUTH HELMAND                                                                              Russian: 4ft., 11.83in. (1,520mm)




Note: “Gauge” is the inside distance between rails.
Source: GIROA, The Afghanistan National Railway Plan, 7/1/2013.



                                                               to 2040—using Afghanistan as a conduit. Potential for additional commer-
                                                               cial rail traffic between Iran, China, and Europe is also possible.503
                                                                  Future developments in U.S. policy toward Iran could, obviously, affect
                                                               the prospects for both aspects of the rail plan.


                                                               EDUCATION
                                                               According to the most recent data available to USAID from the Ministry
                                                               of Education’s Information Management System (EMIS)—SY 1390




                                                                  166                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




 (March 2011–March 2012)—Afghanistan has a total of 13,556 primary, lower
 secondary, and upper secondary schools. Of these 2,204 are girls’ schools,
 4,097 are boys’ schools, and 7,255 are co-educational. Since 2002, USAID
 has funded construction and refurbishment of 696 schools as well as sev-
 eral teacher-training colleges. Approximately 500 schools were closed in
 SY 1391 (March 2012–December 2012), mostly in conflict-ridden provinces
 like Zabul, Helmand, parts of Ghazni, Wardak, Kandahar, and Uruzgan,
 according to the Ministry of Education. These statistics are not reported in
 EMIS and thus cannot be verified.504
     There were approximately 7.6 million students in primary, government
 lower secondary, and government upper secondary schools, according to
 SY 1390 EMIS data—4.6 million male and 3 million female. Additionally,
 there were approximately 77,600 students in government universi-
 ties—62,800 male and 14,800 female.505 However, when incorporating all
 education programs, including general, religious, cross-border, techni-
 cal, vocational, and literacy students, the total number of students in
 Afghanistan was reported as more than 8.3 million—5.16 million male and
 3.16 million female.506
     USAID said there is some concern about the reliability of Ministry of
 Education/EMIS data, citing common school practice to keep student
 names on record for up to two years after they drop out. In the past, USAID
 had verified the metrics in its project areas through implementing-partner
 contractors. With more USAID assistance now going on-budget, USAID
 relies primarily on Ministry of Education data, verified by a third-party con-
 tractor not affiliated with the Afghan government.507
     There were more than 185,250 teachers—128,600 male and 56,650
 female—across all education programs in Afghanistan, according to
 SY 1390 Ministry of Education data. Most teach general education, followed
 by Islamic education. According to USAID, main challenges in building
 Afghanistan’s education system include low teacher competency, lack of
 monitoring and supervision, lack of security, insufficient class materials,
 and low ministerial capacity and coordination with the provinces.508
     USAID’s ongoing priority programs in the Education sector funded
 through the ESF this quarter include:
  •	 Basic Education, Literacy and Technical-Vocational Education and
     Training (BELT)
  •	 Higher Education Project (HEP)
  •	 American University of Afghanistan (AUAF)

    USAID selected these three programs as its highest priorities through
 extensive coordination with the Ministries of Education and Higher
 Education, and after assessing how best to leverage its strengths relative to
 other donors so that Afghanistan’s national education priorities and needs
 are met.509




 REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2013               167
ECONOMIC AND SOCIAL DEVELOPMENT




Basic Education, Literacy, and Technical-Vocational
Education and Training
Basic Education, Literacy, and Technical-Vocational Education and
Training (BELT) is a three-year (December 2011–October 2014), $173 mil-
lion, on-budget program that aims to improve access to quality basic
education in communities typically beyond the reach of the government.
The program provides technical-vocational education and training, as well
as literacy programs. As of June 30, 2013, USAID obligated $20 million and
of that, disbursed approximately $5.8 million, an increase of $1.1 million
from last quarter.510
   Technical Vocational Education and Training (TVET) is a forthcom­
ing component of BELT. Its objective will be to provide quality
education and training to Afghan children to make them more employ­
able, especially girls in rural and remote areas. USAID and the Ministry
of Education are still discussing performance milestones—number of
schools, teachers, and students that will be targeted—that, if reached,
will trigger on-budget disbursement of funds. An implementation letter
that would spell out these milestones, means of verification, and the
funding level associated with each milestone was to be signed in May
2013, but is delayed.511
   BELT TVET is another on-budget component of this effort to build the
quality and professionalism of TVET educators. It aims to provide graduate,
secondary, and post-secondary students with accredited, certified skills, and
will set up a national accreditation system for and equivalency for TVET in
the Ministry of Education.512 USAID reported no changes on project goals,
successes and challenges this quarter.513
   However, USAID extended through July 31, 2017, an existing award to
the International School of Kabul (ISK) that was scheduled to expire in
August 2013. The extension of $3.1 million brings the total estimated cost of
this phase to $7.3 million. USAID has been supporting ISK since 2005, with
an initial infusion of $9.6 million. ISK is a co-educational, U.S.-accredited,
English-language, K-12 institution.514

Higher Education Project
Since the Higher Education Project (HEP) project began in 2006, it has
supported the Ministry of Higher Education in executing its National
Higher Education Strategic Plan. HEP’s latest phase, scheduled to
end in August 2013, provides technical assistance to increase ministry
capacity through professional training, quality assurance and accredita-
tion, curriculum review, university partnerships, academic policies, and
regulation. USAID had previously said that as it operates in an environ­
ment replete with logistical and security challenges, HEP does not have
significant outcome data to quantify its impact of more than $13 mil-
lion spent on the program. USAID reported no changes on project




 168                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




 A speaker addresses the audience at AUAF’s ribbon-cutting ceremony for a new women’s
 center at the university. (U.S. Embassy Kabul photo)


 goals, successes and challenges this quarter.515 It is unclear whether
 USAID has made any progress in considering an evaluation design for
 the follow-on HEP (2013–2017) that will include greater attention to
 outcome measures and data collection.516 As of June 30, 2013, USAID
 had obligated $21.2 million toward HEP and dis­bursed $13.4 million, an
 increase of $1 million from last quarter.517

 American University of Afghanistan
 This five-year (August 2008–July 2013), $42 million program is designed
 to support development of American University of Afghanistan’s (AUAF)
 English-language undergraduate and continuing-education programs, with
 a concentration on liberal arts. Undergraduate degrees include business
 administration, information technology and computer science, political sci­
 ence and public administration, and mass communication. AUAF also offers
 a master’s degree in business administration. USAID reported no changes
 on project goals, successes and challenges this quarter.518 As of June 30,
 2013, USAID had obligated approximately $42.1 million—$2.5 million more
 than reported last quarter—and disbursed $39.7 million—$2.1 million more
 than last quarter—toward this effort. USAID is aiming to finalize a new
 $40 million, five-year cooperative agreement by July 31, 2013, to ensure no
 gap in support.519


 LABOR
 Assessing donor aid and the transition’s impact on Afghanistan’s labor mar-
 ket is difficult given the limited and inconclusive available data, according to




 REPORT TO THE UNITED STATES CONGRESS    I   JULY 30, 2013                    169
ECONOMIC AND SOCIAL DEVELOPMENT




the World Bank. For example, 2009 figures showed just 6.8% of Afghans were
unemployed, but more than 48% were underemployed (working fewer than
35 hours a week, on average). According to World Bank analysis, underem-
ployment is particularly acute in conflict provinces, likely due to temporary
jobs created by provincial reconstruction teams (PRT).520 With the closure of
several PRTs, and more planned, unemployment in these areas could rise. As
of 2011, the World Bank reported 80% of Afghan males aged 15 or older par-
ticipated in the labor force, compared to 16% of females.521


HEALTH
Afghanistan has experienced extraordinary improvements in its health
indicators since 2002. Although the country still has one of the highest
mother-and-child mortality rates in the world, life expectancy has improved
by as much as 20 years to an average 62–64 years, according to the USAID-
funded Afghanistan Mortality Study 2010.522 Some observers have questioned
the accuracy of that survey, and as of May 2013, the CIA World Factbook
gives the Afghan life expectancy from birth as 50.11 years. The World Bank,
which calculated life expectancy at 48, did not include Afghanistan Mortality
Study figures in its international comparative analysis because the study
doesn’t contain time-series data for the last 10 years.523
    From FY 2002 through FY 2011, U.S. on- and off-budget assistance to
Afghanistan’s health sector totaled $926 million. On-budget assistance to
the Ministry of Public Health (MOPH) includes salary payments to work-
ers in U.S.-funded facilities, medical and non-medical sup­plies, in-service
training, minor renovations of facilities, medical equipment, and monitor-
ing and supervision. Off-budget assistance comprises pharma­ceuticals
and contraceptives.524
    USAID’s highest-priority programs in the health sector this quarter include:
 •	 Partnership Contracts for Health (PCH) Services
 •	 Health Policy Project (HPP)
 •	 Leadership, Management, Governance Project (LMG)
All three were extended until October 31, 2014.525

Partnership Contracts for Health Services
A six-year (2008–2014), $218 million on-budget program, Partnership
Contracts for Health (PCH) supports the MOPH’s efforts to provide the
Basic Package of Health Services and the Essential Package of Hospital
Services across Afghanistan. The United States supports 545 of these health
facilities.526 USAID reports no changes this quarter to project descriptions,
goals, challenges, successes, or metrics. As of June 30, 2013, USAID had
obligated $190.3 million to this program and disbursed $136.1 million, an
increase of $14.8 million from last quarter.527




 170                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




     PCH delivers health care ranging from basic to highly specialized diag­
 nostic and treatment services. It also supports Community Midwifery
 Education contracts, which help reduce both maternal and child mortal-
 ity. USAID had previously reported several challenges to better program
 implemen­tation, including insecurity, an increasing unavailability of air
 transportation to monitor activities in kinetic areas, political interference in
 PCH priorities, and shortages of female health staff at all levels.528

 Health Policy Project
 The Health Policy Project (HPP), a 28-month (June 2012–October 2014),
 $18 million program, is building MOPH capacity to address basic health
 needs through public-private partnerships. USAID reports no changes this
 quarter to project descriptions, goals, challenges, successes, or metrics.
 As of June 30, 2013, USAID had obligated $15.5 million to the program—an
 increase of $6.7 million over last quarter. HPP works to expand private-
 sector capacity to deliver high-quality services, improve HIV care and
 prevention policies, and promote behavioral change through social-media
 marketing. Past accomplishments of the HPP include fully staffing a Public
 Private Partnership Unit within the MOPH, completing an assess­ment of
 Jumhoriat Hospital’s commercial viability and value, and providing techni-
 cal assistance to the Afghanistan Social Marketing Organization’s board of
 directors. Challenges to implementation included insecurity in provinces,
 the lack of a legal framework governing public-private part­nerships, and
 private industry’s difficulty in navigating the bureaucratic morass of the
 Afghan government.529

 Leadership, Management, Governance Project
 The 26-month (September 2012–October 2014), $25 million Leadership,
 Management, Governance (LMG) Project works with the MOPH and the
 Ministry of Education, at the provincial and central levels to build lead­
 ership, management, and governance capacity within Afghanistan’s health
 and education systems. It also aims to improve transparency and account­
 ability within the MOPH and helps both ministries manage on-budget
 assistance. As of June 30, 2013, USAID had obligated $20.7 million, an
 increase of $4.4 million for the program.530
    USAID reported last quarter that all 14 LMG participatory hospitals
 have gone from controlling no part of their budgets to managing 76–100%.
 The agency also said these facilities established management committees
 and formed four provincial maternal and child health committees. The
 MOPH developed governance guides and an assessment tool for provin­
 cial and district health coordination, and trained all 74 departments at
 the ministry on standardized reporting techniques. USAID reported no
 specific security threats to the program on a provincial level, but stressed




 REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2013                 171
ECONOMIC AND SOCIAL DEVELOPMENT




the need to monitor potential security vacuums in some communities
once U.S. forces withdraw.531


PRIVATE SECTOR DEVELOPMENT
The United States is supporting private-sector development through the
ESF, TFBSO, and CERP. USAID’s priority economic-growth projects, funded
through the ESF, include:532
 •	 Assistance in Building Afghanistan by Developing Enterprises (ABADE)
 •	 Economic Growth and Governance Initiative (EGGI)
 •	 Trade Accession and Facilitation for Afghanistan (TAFA) I and II
USAID deemed these programs as having the highest probability of creating
lasting economic gains in job creation and revenue turnover. Each program
area was also considered in relation to strategic plans.533

Assistance in Building Afghanistan by Developing Enterprises
USAID’s $105 million Assistance in Building Afghanistan by Developing
Enterprises (ABADE) program is focused on helping produc­tive, Afghan-
registered, small-to-medium enterprises add jobs, increase investment,
and improve sales of domestic products and services through public-
private partnerships. ABADE will support private-sector businesses that
offer the best leverage and opportunity for sustained economic growth.
Since ABADE’s launch in February 2013, five public-private partnerships
have been approved and awarded—two of which involve women-owned
businesses—and 15 applications are awaiting approval. Additionally,
business-outreach and government capacity-building efforts continued
this quarter, as did an action plan to support the Business Development
Services (BDS) sector began, including two surveys to identify BDS
capabilities and unmet demand for such services. No implementation
challenges have been reported. As of June 17, 2013, USAID obligated
$17.6 million in Economic Support Funds, and disbursed approximately
$7.5 million.534

Economic Growth and Governance Initiative
The $92 million Economic Growth and Governance Initiative (EGGI) pro­
gram aims to strengthen government capacity to conduct more effective
public financial management. It provides assistance for national budget­ing,
tax administration, and revenue generation. Thirty-eight government-pro-
gram budgetary units developed and submitted their 2012-2013 budgets on
time to Budget Committee with EGGI assistance, while EGGI’s provincial
training program helped 88% of the provincial directorates submit their first-
round budgets on time, improving to 98% in the second round.535
   EGGI also provides Women in Government internships to increase
women’s civil-service participation to 30%, the Millennium Development




 172                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




 Goal. As of June 5, 2013, 313 women had graduated the internship program,
 105 more than reported last quarter. Of those graduates, 67% found full-time
 employment through EGGI assistance. EGGI is scheduled to conclude in
 August 2013, and an on-budget follow-on project is planned. As of June 17,
 2013, USAID obligated approximately $88.8 million in Economic Support
 Funds, and disbursed $69.8 million.536

 Trade Accession and Facilitation for Afghanistan I and II
 Parts I and II of Trade Accession and Facilitation for Afghanistan (TAFA),
                                                                                 SIGAR AUDIT
 at a combined cost of $83.8 million, are designed to generate economic
 growth, trade, and investment by improving the conditions for international     This quarter, SIGAR initiated an audit
 trade and transit for both the government and private sector. TAFA assists      to examine USAID and DHS programs
 the Afghan government in three areas: trade-policy liberalization, customs      designed to enhance the Afghan gov-
 reform, and trade facilitation. TAFA promotes the New Silk Road initiative      ernment’s ability to generate customs
 by facilitating Afghanistan’s accession to the World Trade Organization (dis-   revenue. As part of this audit, SIGAR
 cussed on page 146), developing bilateral and regional trade agreements,        will assess whether or not TAFA I and
 and streamlining customs and export procedures.537                              II achieved the intended outcomes.
    TAFA is scheduled to end in August 2013. While a follow-on project is        For more information, see Section 2,
 planned, USAID is concerned about whether new implementing partners             page 40.
 can provide appropriate TAFA-level support. As of June 17, 2013, USAID
 had obligated all $83.7 million to TAFA I & II —compared to $19.8 million
 reported last quarter—while $67.1 million has been disbursed, compared to
 $4 million last quarter.538


 COMMUNICATIONS
 Afghanistan’s private-sector-led telecommunications sector is growing rap-
 idly and is one of the country’s economic success stories. The World Bank
 expects strong recorded growth for 2012.539 In 2010/2011, telecom contrib-
 uted 45% of total tax revenue to the government and is expected to be less
 susceptible to any future economic contraction.540 However, a survey of
 the telecom industry by the Afghanistan Investment Support Agency found
 that high tax rates were the primary impediment to internet service and
 mobile network providers, followed by security issues and a shortage of
 skilled labor.541
    With the steady reduction of internet prices, the Ministry of
 Communications and Information Technology (MCIT) expects the number of
 users to reach 2.4 million in 2013. The cost of 1 mbps (megabyte per second)
 access was $5,000/month in 2002, dropping to $97/month in 2013, as shown
 in Figure 3.35 on the following page.542




 REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2013              173
ECONOMIC AND SOCIAL DEVELOPMENT




FIGURE 3.35

PRICE FOR 1MEGABYTE/SECOND INTERNET SERVICE, US$/MONTH
                                                                                                                   USERS

2002                                                                                             $5,000               100


2004                                                                         $4,000                                 2,000


2006                                                                     $3,800                                   60,000


2008                                                                $3,500                                       200,000


2010                         $1,500                                                                              700,000


2011               $900                                                                                        1,000,000


2012           $300                                                                                            2,000,000


2013        $97                                                                                                2,400,000

       $0               $1,000             $2,000              $3,000             $4,000              $5,000             $6,000

Note: Until 2008, telecommunications services were only available via satellite. In 2008, fiber optic cable became available.
Sources: MCIT, “Internet Price of 1MB/Month,” accessed 6/17/2013; MCIT, “Internet Users,” accessed 6/17/2013.



Mobile Money
As of June 30, 2013, USAID has obligated and disbursed almost $15.2 mil-
lion on-budget to the MCIT, but currently provides no direct, on-going
assistance to the ministry.543
   However, USAID is providing off-budget assistance to the telecommuni-
cations sector through its Mobile Money program, which seeks to increase
access to safe, secure financial services through the use of cell phones
to store currency, pay for goods, and receive and transfer funds. USAID
actively supports both mobile electricity and mobile teacher-salary pay-
ments initiatives. This quarter, 200 Afghan teachers in Kabul registered for
this service, and 100,000 Etisalat telecom customers in Kabul can now pay
their electricity bills by phone. Afghanistan’s electric utility company, DABS,
expects 200,000 additional customers to be registered by the end of 2013.544
   USAID’s Mobile Solutions team is also designing a program in conjunc-
tion with non-profit FHI 360 called Mobile Solutions Technical Assistance
and Research, which will provide technical assistance and training to
increase access to and use of mobile technologies, including mobile
money. Also this quarter, USAID released a study on women’s access to
mobile technology.545




  174                             SPECIAL INSPECTOR GENERAL                  I   AFGHANISTAN RECONSTRUCTION
ECONOMIC AND SOCIAL DEVELOPMENT




     DOD’s Telecom Advisory Team (TAT), in coordination with USAID, pro-
 vides ongoing technical advice and assistance to MCIT, the Afghanistan
 Telecom Regulatory Agency (ATRA), and telecom industry groups. DOD
 is helping build capacity at MCIT and ATRA, expand Afghanistan’s fiber
 network and wireless coverage, develop requirements of Afghanistan’s sat-
 ellite slot, and its planning efforts. In April 2013, TAT delivered a draft MOU
 to the Ministry of Interior on installing cell towers in the 46 most danger-
 ous districts. The hope is that uninterrupted cellular service will promote
                             MMoney
 security and stability in these          Promotional Brochure – Outside Page
                                  areas.546

               Inside Flap                                    Back                               Front




                                                               z




 English version of brochure promoting cell phone money transactions to Afghans. (USAID image)




 REPORT TO THE UNITED STATES CONGRESS     I   JULY 30, 2013                    175
4   OTHER AGENCY
    OVERSIGHT




        177
                                                CONTENTS
                                                OTHER AGENCY OVERSIGHT CONTENTS

                                                Completed Oversight Activities	         180
                                                Ongoing Oversight Activities	           184




Photo on previous page
A helicopter flyover yields an aerial view of a construction site in Kabul, May 2013.
(DOD photo)




                                                  178
               OTHER AGENCY OVERSIGHT




OTHER AGENCY OVERSIGHT
SIGAR’s enabling legislation requires it to keep the Secretary of State
and the Secretary of Defense fully informed about problems relating to
the administration of reconstruction programs, and to submit a report to
Congress on SIGAR’s oversight work and on the status of the U.S. recon-
struction effort no later than 30 days after the end of each fiscal quarter.
Each quarter, SIGAR requests updates from other agencies on completed
and ongoing oversight activities. This section contains these updates.
   The descriptions appear as submitted, with minor changes to maintain
consistency with other sections of this report: acronyms and abbreviations in
place of full names; standardized capitalization, hyphenation, punctuation, and
preferred spellings; and third-person instead of first-person construction.
   These agencies perform oversight activities in Afghanistan and provide
results to SIGAR:
•	 Department of Defense Office of Inspector General (DOD OIG)
•	 Department of State Office of Inspector General (State OIG)
•	 Government Accountability Office (GAO)
•	 U.S. Army Audit Agency (USAAA)
•	 U.S. Agency for International Development Office of Inspector General
   (USAID OIG)




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2013                179
                                                               OTHER AGENCY OVERSIGHT




                                                               COMPLETED OVERSIGHT ACTIVITIES
                                                               Table 4.1 lists the six oversight projects related to reconstruction that par-
                                                               ticipating agencies reported as completed this quarter.
TABLE 4.1	


RECENTLY COMPLETED OVERSIGHT ACTIVITIES OF OTHER U.S. AGENCIES, AS OF JUNE 30, 2013
Agency           Report Number             Date Issued               Project Title
DOD OIG          DODIG-2013-095            6/27/2013                 Award and Administration of Radio Contracts for the Afghan National Security Forces Need Improvement
                                                                     DOD Needs to Improve Oversight of the Afghan National Police Training/Mentoring and Logistics Support
DOD OIG          DODIG-2013-093            6/25/2013
                                                                     Contract
DOD OIG          DODIG-2013-094            6/24/2013                 Assessment of U.S. and Coalition Efforts to Develop Leaders in the Afghan National Army
DOD OIG          DODIG-2013-081            5/24/2013                 Assessment of U.S. Government and Coalition Efforts to Train, Equip, and Advise the Afghan Border Police
                                                                     Security Force Assistance: More Detailed Planning and Improved Access to Information Needed to Guide
GAO              GAO-13-381                4/30/2013
                                                                     Efforts of Advisor Teams in Afghanistan
GAO              GAO-13-319R               4/1/2013                  National Defense: DOD Procurement of Mi-17 Helicopters
Sources: DOD OIG, response to SIGAR data call, 6/20/2013; State OIG, response to SIGAR data call, 6/14/2013; GAO, response to SIGAR data call, 6/22/2013; USAAA, response to SIGAR data
call 5/28/2013; USAID OIG, response to SIGAR data call, 6/18/2013.




                                                               U.S. Department of Defense Office of Inspector General
                                                               During this quarter, DOD OIG issued four reports related to Afghanistan
                                                               reconstruction.

                                                               Award and Administration of Radio Contracts for the Afghan
                                                               National Security Forces Need Improvement
                                                               (Report No. DODIG-2013-095, Issued June 27, 2013)
                                                               This report is For Official Use Only.

                                                               DOD Needs to Improve Oversight of the Afghan National
                                                               Police Training/Mentoring and Logistics Support Contract
                                                               (Report No. DODIG-2013-093, Issued June 25, 2013)
                                                               The Defense Contract Management Agency (DCMA), the NATO Training
                                                               Mission-Afghanistan/Combined Security Transition Command-Afghanistan
                                                               (NTM-A/CSTC-A), and Army officials did not implement adequate over-
                                                               sight of the Afghan National Police (ANP) contract. This occurred because
                                                               DCMA did not coordinate oversight procedures with program or contract-
                                                               ing personnel and did not implement quality assurance requirements that
                                                               DCMA management considered critical to mission success.
                                                                  Contracting officer’s representatives (CORs) for the ANP contract did
                                                               not conduct effective contractor oversight. This occurred because DCMA
                                                               personnel did not review COR audit checklists, provide CORs feedback on
                                                               completed audit checklists, or train CORs on oversight responsibilities.
                                                                  DCMA and International Security Assistance Force (ISAF) Joint
                                                               Command officials did not perform adequate oversight of fielded mentors
                                                               for the ANP contract. This occurred because quality assurance represen-
                                                               tatives did not always provide training and follow up on audit checklists




                                                                  180                           SPECIAL INSPECTOR GENERAL               I   AFGHANISTAN RECONSTRUCTION
                OTHER AGENCY OVERSIGHT




received from the CORs. NTM-A/CSTC-A and Red River Army Depot
(RRAD) personnel nominated six CORs DOD OIG interviewed who were
not effectively providing oversight of the ANP contract. This occurred
because NTM-A/CSTC-A personnel developed a memorandum of agreement
with RRAD that did not identify appropriate COR qualifications. As a result,
contractor performance at ANP training sites where the six RRAD CORs
were appointed was not adequately measured and assessed.
   In addition, the Army could not determine whether the contractor fully
delivered $439 million in services or provided effective training of the ANP.

Assessment of U.S. and Coalition Efforts to Develop Leaders
in the Afghan National Army
(Report No. DODIG-2013-094, Issued June 24, 2013)
Coalition’s programs for the Afghan National Army (ANA) leader devel-
opment were generally effective and on track for transition to the
Afghans. The establishment of a non-commissioned officer corps, and the
roles and responsibilities accompanying this enlisted leadership position,
was not completely embraced by senior ANA and General Staff person-
nel. The lack of a true merit-based personnel promotion and assignment
system negatively impacted the further development of a new generation
of ANA leaders.
   Among Coalition advisors to the ANA, at both training schools and oper-
ational units, there was a wide variation in the selection for assignment and
specific advisor training preparation. Coalition Command data assessment
practices and categories did not appear to have been updated to reflect the
change in mission emphasis from building the ANA to improving its quality.
   Of special note was the ANA literacy program. In a country with a very low
national literacy rate, this educational program serves not just as an immedi-
ate benefit to the ANA, but also eventually the larger nation of Afghanistan by,
as one senior officer said, “…allows Afghans to be more discerning.”

Assessment of U.S. Government and Coalition Efforts to Train,
Equip, and Advise the Afghan Border Police
(Report No. DODIG-2013-081, Issued May 24, 2013)
DOD OIG continues its series of reports on training and equipping of
Iraq, Afghan, and Pakistan forces. DOD OIG identified that although
work remains to be accomplished, there were several noteworthy areas
of progress including Coalition Coordination, Joint Border Coordination
Centers, and Ministry of Interior Logistics System Development. In addi-
tion, DOD OIG identified progress in Female Border Police Recruitment
and Professional Development in the North and in the Development and
Use of Afghan Trainers. Despite the progress, DOD OIG also identified areas
of concern in planning and execution including Tashkil Authorizations,
Funding for Canine Program, and Corruption at Border Crossings.




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2013                 181
OTHER AGENCY OVERSIGHT




U.S. Department of State Office of Inspector General–Middle
East Regional Office
During this quarter, State OIG issued no reports related to Afghanistan
reconstruction.

Government Accountability Office
During this quarter, GAO issued two reports related to Afghanistan
reconstruction.

Security Force Assistance: More Detailed Planning and
Improved Access to Information Needed to Guide Efforts of
Advisor Teams in Afghanistan
(Report No. GAO-13-381, Issued April 30, 2013)
DOD and ISAF have defined the mission and broad goals for Security Force
Assistance (SFA) advisor teams. However, teams varied in the extent to
which their approaches for developing their Afghan National Security Force
(ANSF) units identified activities based on specific objectives or end states
that were clearly linked with established goals. SFA guidance states that
to be successful, advisors must have an end or goal in mind, and establish
objectives that support higher-command plans. Theater commanders have
outlined goals aimed at strengthening specific capabilities such as logistics,
and it is largely left to the teams to then develop their approach for work-
ing with their counterparts. GAO found some advisor teams had developed
structured advising approaches drawing from these goals, such as identify-
ing monthly objectives and milestones for their team.
   Other teams GAO met with used less structured approaches, such as
relying on interactions with ANSF counterparts to identify priorities and
using this input to develop activities on an ad hoc basis, rather than as part
of a longer-term, more structured approach to achieve broad goals. Officials
from several teams stated that the guidance they received lacked specificity
regarding desired end states for the development of their ANSF counterpart
units. Without a more structured approach with clear linkages between
end states, objectives, and milestones that are in support of broad goals for
ANSF units, theater commanders cannot be assured that the advisor team
activities are making progress toward these goals.
   The Army and Marine Corps have been able to fill requests for SFA advi-
sor teams, using various approaches such as tasking non-deployed brigades
to form advisor teams or creating teams using personnel already deployed
in Afghanistan. According to Army and Marine Corps officials, the ability to
substitute an individual at one rank above or below the request has helped
the services meet rank and skill requirements. The Army’s reliance on bri-
gades to provide a portion of their personnel to form advisor teams has
enabled them to meet requirements but resulted in leaving large numbers
of personnel at the brigades’ home stations. To manage these large rear




  182                 SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                OTHER AGENCY OVERSIGHT




detachments, brigades undertook significant planning to ensure that enough
stay-behind leadership existed to maintain a sufficient command structure
and provide certain training.
   The Army and Marine Corps have developed training programs for SFA
advisor teams, but teams varied in the extent to which they had specific
information to help prepare them for their mission prior to deployment.
SFA guidance states that an in-depth understanding of the operational
environment and of foreign security force capabilities is critical to planning
and conducting effective SFA. Advisor teams may access such information
from a variety of sources such as conducting video teleconferences with
the teams they will replace, using secure networks to gather information, or
sending personnel on predeployment site surveys, although teams varied in
the extent to which they were actually able to gain access to these sources.
For example, GAO found that while teams had access to a certain secure
network at training sites, only some had access at home station, enabling
them to shape their training and mission analysis earlier in predeployment
training or after training but prior to deploying. Having limited access to
this information prior to arriving in Afghanistan may result in advisor teams
needing more time after deploying to maximize their impact as advisors.

National Defense: DOD Procurement of Mi-17 Helicopters
(Report No. GAO-13-319R, Issued April 1, 2013)
In summary, DOD’s Office of the Secretary of Defense directed the Navy to
cancel its competitive solicitation for 21 civilian Mi-17s because Russian
authorities told DOD in late 2010 that, in accordance with Russian law, they
would sell the helicopters only through Rosoboronexport since they were
intended for military end use. Specifically, in response to letters written by
the U.S. Ambassador to Russia, the Russian Ministry of Foreign Affairs con-
firmed to DOD that it considered the Mi-17s to be military because they were
for use by the Afghan Air Force, and therefore could be sold only through
Rosoboronexport, the sole entity responsible for Russian military exports.
   DOD did not assess alternative means for procuring Mi-17s after verify-
ing that Russia would sell the helicopters to the United States only through
Rosoboronexport. The Navy’s original procurement strategy in 2010 was to
purchase civilian Mi-17s and subsequently add weapons to them for use in
Afghanistan. However, given the Russian government’s determination, DOD
officials stated that no alternative approaches to procure the helicopters
were available to them as any attempt to procure a new civilian aircraft
could be blocked by Rosoboronexport if DOD did not go through them, and
purchasing used helicopters posed safety concerns. Although some poten-
tial vendors told us that, if awarded a contract, they could provide these
aircraft to DOD at a lower cost, an Army analysis determined that the price
paid to Rosoboronexport for the Mi-17s was reasonable and fell within the
historical range of the unit price paid for similar aircraft.




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2013               183
OTHER AGENCY OVERSIGHT




   DOD determined that the Rosoboronexport contract offered the Army
greater access to technical information from the original equipment manu-
facturer and increased assurance of safety compared to previous Mi-17
contracts. However, the risk of counterfeiting may be similar. The 2011
contract with Rosoboronexport provided Army officials with extensive
access to the original equipment manufacturer’s facilities and allowed for
technical discussions on the aircraft’s design, testing, and manufacturing
processes. This level of insight enabled the Army to determine that the
Russians’ process was sufficient by U.S. standards to certify airworthiness.
However, both Rosoboronexport and other vendors have purchased new
Mi-17s that came from the original equipment manufacturer—a practice
used to decrease the risk of counterfeiting. Therefore, GAO found no
evidence that shows how Rosoboronexport would decrease the risk of
counterfeit parts over other vendors if aircraft were purchased new from
the original equipment manufacturer.

U.S. Army Audit Agency
The USAAA did not complete any audits related to Afghanistan reconstruc-
tion this quarter.

U.S. Agency for International Development Office of
Inspector General
During this quarter, USAID OIG did not complete any reports related to
Afghanistan reconstruction.


ONGOING OVERSIGHT ACTIVITIES
As of June 30, 2013, the participating agencies reported 25 ongoing over-
sight activities related to reconstruction in Afghanistan. The activities
reported are listed in Table 4.2 and described in the following sections
by agency.

Department of Defense Office of Inspector General
The Department of Defense continues to face many challenges in executing
its Overseas Contingency Operations (OCO). The Department of Defense
Office of Inspector General (DOD OIG) has identified priorities based on
those challenges and high-risks. In FY 2013, DOD OIG is focusing oversight
on overseas contingency operations with a majority of resources supporting
operations in Afghanistan. DOD OIG focus in Afghanistan continues in the
areas of the management and execution of the Afghanistan Security Forces
Fund, military construction, safety of personnel, and the administration and
oversight of contracts supporting coalition forces. In addition, DOD OIG
oversight in Afghanistan will also address matters pertaining to the draw-
down of forces in Afghanistan and shifting of operations.




 184                SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                       OTHER AGENCY OVERSIGHT




TABLE 4.2


ONGOING OVERSIGHT ACTIVITIES OF OTHER U.S. AGENCIES, AS OF JUNE 30, 2013
 Agency               Project Number                    Date Initiated        Project Title
                                                                              Assessment of U.S. Government Efforts to Transition Security Cooperation and Assistance
 DOD OIG              D2013-D00SPO-0181.000             6/13/2013             Activities Supporting the Government of the Islamic Republic of Afghanistan from Department of
                                                                              Defense Authority to Department of State Authority
                                                                              Assessment of the U.S. Military and Coalition Efforts to Develop Effective and Sustainable
 DOD OIG              D2013-D00SPO-0154.000             4/26/2013
                                                                              Healthcare Capability for the Afghan National Police
 DOD OIG              D2013-D000AS-0097.000             2/8/2013              Mi-17 Cockpit Modifications Under Task Order W58RGZ-09-D-0130-0102
                                                                              Price Reasonableness Determinations for Datron World Communications, Inc. Contracts Awarded
 DOD OIG              D2013-D000AT-0083.000             1/3/2012
                                                                              by the U.S. Army Contracting Command for the Afghan National Security Forces
                                                                              Assessment of Planning for the Effective Development and Transition of Critical Afghanistan
 DOD OIG              D2013-D00SPO-0087.000             12/18/2012
                                                                              National Security Forces Enablers to Post-2014 Capabilities
                                                                              Examination of Department of Defense Execution of North Atlantic Treaty Organization Contributing
 DOD OIG              D2013-D000FL-0056.000             12/3/2012             Countries Donations to Afghanistan National Army Trust Fund for Approval Sustainment Projects
                                                                              as of September 30, 2012
 DOD OIG              D2013-D000AS-0052.000             11/1/2012             Shindand Training Contracts
                                                                              Surveillance Structure on Contracts Supporting the Afghanistan Rotary Wing Program for the U.S.
 DOD OIG              D2013-D000AS-0001.000             10/5/2012
                                                                              Transportation Command
                                                                              Contract Management and Oversight of Military Construction Projects for the Special Operation
 DOD OIG              D2012-D000JA-0221.000             9/28/2012
                                                                              Forces Complexes at Bagram Airfield, Afghanistan
                                                                              Technical Assessment of Military Construction Compliance with Fire Protection Standards of U.S.
 DOD OIG              D2012-DT0TAD-0002.000             2/14/2012
                                                                              Controlled and Occupied Facilities in Afghanistan
                                                                              Technical Assessment of Military Construction Compliance with Electrical Standards of U.S.
 DOD OIG              D2012-DT0TAD-0001.000             2/14/2012
                                                                              Controlled and Occupied Facilities in Afghanistan
 DOD OIG              D2012-D000AS-0075.000             12/7/2011             Task Orders for Mi-17 Overhauls and Cockpit Modifications
                                                                              Audit of Bureau of International Narcotics and Law Enforcement Affairs Counternarcotics
 State OIG-MERO       13AUD082                          6/13/2013
                                                                              Assistance to Afghanistan
                                                                              Audit of Bureau of Diplomatic Security Worldwide Protective Services Contract Task Orders 2, 9,
 State OIG-MERO       13AUD52                           2/2013
                                                                              and 11 for Movement and Static Security Services in Jerusalem and Afghanistan
                                                                              Audit of the Department of State Transition Planning for a Reduced Military Presence in
 State OIG-MERO       12AUD79                           12/2012
                                                                              Afghanistan
                                                                              Audit of the Bureau of International Narcotics and Law Enforcement Affairs’ Correction System
 State OIG- MERO      12AUD30                           12/2011
                                                                              Support Program in Afghanistan
 GAO                  121119                            3/6/2013              Department of State and U.S. Agency for International Development Contingency Contracting
 GAO                  351798                            1/18/2013             Afghanistan Equipment Reduction and Base Closures
 GAO                  320962                            1/14/2013             Afghan Insider Attacks
 USAID OIG            FF100113                          4/1/2013              Audit of USAID/Afghanistan’s Electoral Reform and Civic Advocacy Program
 USAID OIG            FF100712                          11/28/2012            Audit of USAID/Afghanistan’s Transition Plans
 USAID OIG            FF101412                          10/14/2012            Review of USAID/Afghanistan’s Use of Third Country National Employees
 USAID OIG            FF100612                          10/9/2012             Audit of USAID/Afghanistan’s Management Controls over Premium Pay
 USAID OIG            FF101112                          5/1/2012              Audit of USAID/Afghanistan’s Kandahar Power Initiative
                                                                              Review of USAID/Afghanistan’s Use of the Commander’s Emergency Response Program Funds for
 USAID OIG            FF101712                          10/25/2012
                                                                              Selected Projects
Sources: DOD OIG, response to SIGAR data call, 6/20/2013; State OIG, response to SIGAR data call, 6/14/2013; GAO, response to SIGAR data call, 6/22/2013; USAAA, response to SIGAR data
call 5/28/2013; USAID OIG, response to SIGAR data call, 6/18/2013.




REPORT TO THE UNITED STATES CONGRESS                     I   JULY 30, 2013                                   185
OTHER AGENCY OVERSIGHT




   As billions of dollars continue to be spent in Afghanistan, a top priority
will continue to be the monitoring and oversight of acquisition and contract-
ing processes focused on training, equipping, and sustaining Afghanistan
Security Forces (ASF). DOD OIG planned oversight efforts address the
administration and oversight of contracts for equipping ASF, such as rotary-
wing aircraft, airplanes, ammunition, radios, and night-vision devices. DOD
OIG will also continue to review and assess the Department’s efforts in
managing and executing contracts to train the Afghan National Police.
   As military construction continues in Afghanistan to build or renovate
new living areas, dining and recreation facilities, medical clinics, base
expansions, and police stations, DOD OIG will continue to provide aggres-
sive oversight of contract administration and military construction projects.
DOD OIG will also continue to focus on the accountability of property, such
as contractor-managed government-owned property and Army high-demand
items; the Department’s efforts to strengthen institutional capacity at the
Afghan Ministry of Defense; and financial management controls.
   DOD OIG led Southwest Asia Joint Planning Group coordinates and
deconflicts federal and DOD OCO-related oversight activities. DOD OIG,
working with the SIGAR as well as fellow Inspectors General and Defense
oversight community members, has begun to develop the Fiscal Year 2014
strategic audit plan for the oversight community working in Afghanistan. A
key theme in the FY 2014 plan development is the anticipated force restruc-
turing/drawdown of operations in Afghanistan.

Office of the Deputy Inspector General for Auditing
Ongoing Operation Enduring Freedom-related oversight addresses the
safety of personnel with regard to construction efforts; force protection
programs for U.S. personnel; accountability of property; improper pay-
ments; contract administration and management including construction
projects; oversight of the contract for training the Afghan police; logistical
distribution within Afghanistan; retrograde operations, health care; and
acquisition planning and controls over funding for ASF.

Assessment of U.S. Government Efforts to Transition
Security Cooperation and Assistance Activities Supporting
the Government of the Islamic Republic of Afghanistan
from Department of Defense Authority to Department of
State Authority
(Project No. 2013-D00SPO-0181.000, Initiated June 13, 2013)
DOD OIG is assessing plans and activities that have been accomplished or
implemented thus far to transfer the security cooperation and assistance
activities in Afghanistan from DOD to State authority, and to make recom-
mendations to facilitate or improve the transition of these functions to State
in accordance with existing security cooperation guidance and security




  186                 SPECIAL INSPECTOR GENERAL    I   AFGHANISTAN RECONSTRUCTION
                OTHER AGENCY OVERSIGHT




assistance regulations that may pertain. Specific objectives are to determine
whether:
a.	 U.S. government goals; objectives, plans, and guidance are sufficient,
    issued and operative for the transition of the CSTC-A security
    assistance activities in Afghanistan from DOD authority to a security
    cooperation organization under Department of State authority.
b.	 Ongoing efforts by U.S. forces to provide security assistance to
    the Government of Afghanistan are adversely impacted by the
    implementation of drawdown plans for U.S. Forces-Afghanistan and
    the transition of ISAF and ISAF Joint Command (IJC) to a command
    organization under NATO authority.

Assessment of the U.S. Military and Coalition Efforts to
Develop Effective and Sustainable Healthcare Capability for
the Afghan National Police
(Project No. D2013-D00SPO-0154.000, Initiated April 26, 2013)
DOD OIG is assessing the progress of U.S. and Coalition efforts to develop
effective and sustainable healthcare capability in support of the ANP.
Specifically, the assessment will determine whether:
•	 plans to develop effective and sustainable healthcare services to the
   ANP are sufficiently comprehensive, coordinated with the Government
   of Afghanistan, and being implemented so as to meet the timeline for
   transition goals,
•	 advisory resources are sufficient and appropriate in order to develop the
   healthcare services necessary to support the medical needs of the ANP, and
•	 developmental efforts are on schedule and effective in ensuring there is
   adequate medical capability to provide proper medical support to ANP
   personnel from the point of injury to the next required level of care.

Mi-17 Cockpit Modifications under Task Order
W58RGZ-09D-0130-0102
(Project No. D2013-D000AS-0097.000, Initiated February 8, 2013)
DOD OIG is conducting a follow-on audit to the Audit of Task Orders
for Mi-17 Overhauls and Cockpit Modifications (Project No. D2012-
D000AS-0075.000). In this follow-on audit, DOD OIG is determining whether
DOD officials properly awarded and administered indefinite-delivery,
indefinite-quantity contract W58RGZ-09-D-0130, Task Order 0102, for the
modification of DOD-owned Mi-17 variant aircraft in accordance with fed-
eral and DOD regulations and policies. Under the prior project, DOD OIG
reviewed the procurement of overhaul services and parts for Pakistan-
owned Mi-17 variant aircraft, awarded by modification to Task Order 0102.




REPORT TO THE UNITED STATES CONGRESS    I   JULY 30, 2013             187
OTHER AGENCY OVERSIGHT




Price Reasonableness Determinations for Datron World
Communications, Inc. Contracts Awarded by the U.S. Army
Contracting Command for the Afghan National Security Forces
(Project No. 2013-D000AT-0083.000, Initiated January 3, 2013)
DOD OIG is determining whether the U.S. Army Contracting Command
obtained fair and reasonable prices for communications equipment and
components procured from Datron World Communications Inc. for the
Afghan National Security Forces (ANSF). This project is the second in a
series of audits focusing on Datron World Communications Inc. contracts.
The first audit in this series is D2012-D000AT-0129.000.

Assessment of Planning for the Effective Development and
Transition of Critical Afghanistan National Security Forces
Enablers to Post-2014 Capabilities
(Project No. D2013-D00SPO-0087.000, Initiated December 18, 2012)
DOD OIG is determining whether U.S. and Coalition goals, objectives, plans,
guidance, and resources are sufficient to effectively develop, manage, and
transition critical ANSF operational enablers to ANA and ANP capabilities.
In addition DOD OIG is determining what critical enabling task capabilities
will require further development beyond the end of 2014. Also, DOD OIG is
determining whether mitigating actions are planned and what they consist
of for any critical ANSF enabling capabilities that are expected to be or may
still be under development after 2014. In essence, DOD OIG will review what
plans and activities are in place to mature enabling force functions deemed
critical for the ANSF to conduct and sustain independent operations.

Examination of Department of Defense Execution of North
Atlantic Treaty Organization Contributing Countries Donations
to Afghanistan National Army Trust Fund for Approval
Sustainment Projects as of September 30, 2012
(Project No. D2013-D000FL-0056.000, Initiated December 3, 2012)
The Under Secretary of Defense (Comptroller)/Chief Financial Officer, DOD
[USD(C)/CFO] requested this examination. The USD(C)/CFO plans to assert
that the following schedules are fairly presented in all material respects:
•	 Schedule of Contributing Country Donations to Afghanistan National Army
   Trust Fund Approved Sustainment Projects as of September 30, 2012
•	 Schedule of Financial Status of Contributing Country Donations to
   Afghanistan National Army Trust Fund Transferred to the United States
   of America for Approved Sustainment Projects as of September 30, 2012

   DOD OIG is determining whether the USD(C)/CFO fairly presented
receipts and expenditures of funds contributed to the Afghanistan
National Army Trust Fund and transferred to DOD for execution under
the terms of the Memorandum of Understanding Among the United




  188                 SPECIAL INSPECTOR GENERAL    I   AFGHANISTAN RECONSTRUCTION
                OTHER AGENCY OVERSIGHT




States of America and North Atlantic Treaty Organization and Supreme
Headquarters Allied Powers-Europe Regarding Management and
Administration of Trust Fund Donations for Support and Sustainment
of the Afghanistan National Army. In addition, DOD OIG will review
internal controls over financial reporting and compliance with laws and
regulations as it relates to its engagement objective. The USD(C)/CFO is
responsible for the aforementioned schedules. DOD OIG’s responsibility is
to express an opinion based on its examination.

Shindand Training Contracts
(Project No. D2013-D000AS-0052.000, Initiated November 1, 2012)
DOD OIG is determining whether pilot-training contracts for fixed-wing and
rotary-wing aircraft at Shindand Air Base are properly managed and admin-
istered in accordance with federal and DOD requirements. Specifically,
DOD OIG will determine whether contract requirements are being met and
evaluate the effectiveness of contract oversight.

Surveillance Structure on Contracts Supporting the Afghanistan
Rotary Wing Program for the U.S. Transportation Command
(Project No. D2013-D000AS-0001.000, Initiated October 5, 2012)
DOD OIG is conducting its second in a series of audits on the Afghanistan
rotary-wing transport contracts. The overall objective is to determine
whether U.S. Transportation Command and U.S. Central Command officials
have adequate oversight of processes and procedures for the contracts. The
first audit was “Afghanistan Rotary Wing Transport Contracts for the U.S.
Transportation Command” (D2012-D000AS-0031.000).

Contract Management and Oversight of Military Construction
Projects for the Special Operation Forces Complexes at
Bagram Airfield, Afghanistan
(Project No. D2012-D000JA-0221.000, Initiated September 28, 2012)
DOD OIG is determining whether DOD is providing effective oversight of
military construction projects in Afghanistan. Specifically, DOD OIG will
determine whether the U.S. Army Corps of Engineers is properly monitor-
ing contractor performance and adequately performing quality-assurance
oversight responsibilities for construction projects for Special Operations
Forces at Bagram Airfield.

Technical Assessment of Military Construction Compliance
with Fire Protection Standards of U.S. Controlled and
Occupied Facilities in Afghanistan
(Project No. D2012-DT0TAD-0002.000, Initiated February 14, 2012)
DOD OIG is determining whether fire suppression systems in selected U.S.
controlled and occupied facilities in Afghanistan are in compliance with




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2013              189
OTHER AGENCY OVERSIGHT




the Unified Facilities Criteria and National Fire Protection Association
standards. DOD OIG will assess U.S. controlled and occupied facilities at
Kandahar Air Field, Bagram Air Field, Camp Eggers, and other locations as
necessary. DOD OIG will also assess the status of DOD OIG recommended
corrective actions from previous fire protection systems assessments. This
project will be enjoined with the assessment of electrical standards (Project
No. D2012-DT0TAD-0001.000). A report is expected in July to address elec-
trical and fire protection systems at Kandahar and Bagram Airfields.

Technical Assessment of Military Construction Compliance
with Electrical Standards of U.S. Controlled and Occupied
Facilities in Afghanistan
(Project No. D2012-DT0TAD-0001.000, Initiated February 14, 2012)
DOD OIG is determining whether electrical systems in selected U.S. con-
trolled and occupied facilities in Afghanistan are in compliance with Unified
Facilities Criteria and National Electrical Code standards. DOD OIG will
assess U.S. controlled and occupied facilities at Kandahar Air Field, Bagram
Air Field, Camp Eggers, and other locations as necessary. DOD OIG will
also assess the status of DOD OIG recommended corrective actions from
previous electrical system assessments. This project will be enjoined with
the assessment of fire protection systems standards (Project No. D2012-
DT0TAD-0002.000). A report is expected in July to address electrical and
fire protection systems at Kandahar and Bagram Airfields. The second
report will address Kabul Base Cluster.

Task Orders for Mi-17 Overhauls and Cockpit Modifications
(Project No. D2012-D000AS-0075.000, Initiated December 7, 2011)
DOD OIG is determining whether DOD officials properly awarded and
administered task orders for the overhaul and modification of Mi-17
aircraft in accordance with federal and DOD regulations and policies.
Contracting officers issued the task orders under IDIQ contract number
W58RGZ-09-D-0130.

Department of State Office of Inspector General–Middle
East Regional Office
State OIG initiated one new project this quarter related to Afghanistan
reconstruction.

Audit of Bureau of International Narcotics and Law Enforcement
Affairs Counternarcotics Assistance to Afghanistan
(Project No. 13AUD082, Initiated June 2013)
The audit objective is to evaluate the management and oversight of the
Bureau of International Narcotics and Law Enforcement Affairs (INL)
counternarcotics program for Afghanistan, including whether INL has




 190                  SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                OTHER AGENCY OVERSIGHT




achieved intended and sustainable outcomes and whether INL has applied
adequate internal controls over the administration of direct assistance for
the Afghanistan counternarcotics program.

Audit of Bureau of Diplomatic Security Worldwide Protective
Services Contract Task Orders 2, 9, and 11 for Movement and
Static Security Services in Jerusalem and Afghanistan
(Project No. 13AUD52, Initiated February 2013)
The overall audit objective is to determine the effectiveness of the
Department’s management and oversight of the WPS Contract Task Orders
2, 9, and 11. Specifically, the audit team will determine whether the contrac-
tor is performing in accordance with contract terms and conditions, the
contractor’s work is adequately monitored, and invoice review and approval
procedures are in place to ensure accuracy and completeness of costs.

Audit of the Department of State Transition Planning for a
Reduced Military Presence in Afghanistan
(Project No. 12AUD79, Initiated December 2012)
The overall audit objective is to evaluate the Department’s planning for
the transition from a predominately military to a civilian-led mission in
Afghanistan. Specifically, OIG will determine whether the Department has
adequately defined its mission and support requirements, evaluated its per-
sonnel and funding needs, and integrated its planning with the Department
of Defense and other relevant U.S. agencies, the Government of Afghanistan,
and other non-U.S. government agencies. OIG will also determine whether
planning has incorporated lessons learned from the transition in Iraq.

Audit of the Bureau of International Narcotics and Law
Enforcement Affairs’ Correction System Support Program
in Afghanistan
(Project No. 12AUD30, Initiated December 2011)
The audit objective is to evaluate the effectiveness of the INL Correction
System Support Program (CSSP) in building a safe, secure, and humane prison
system that meets international standards and Afghan cultural requirements.
Specifically, OIG will evaluate whether INL is achieving intended and sustain-
able results through the following CSSP components: training and mentoring;
capacity building; Counter-Narcotics Justice Center and Judicial Security Unit
compound operations and maintenance; Pol-i-Charkhi management and stabi-
lization team; Central Prison Directorate engagement and reintegration team;
and Kandahar expansion and support team.




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2013               191
OTHER AGENCY OVERSIGHT




Government Accountability Office
Department of State and U.S. Agency for International
Development Contingency Contracting
(Project No. 121119, Initiated March 6, 2013)
The Department of State (State) and USAID have relied extensively on
contractors in Iraq and Afghanistan. While the use of contractors in such
contingency operations is not new, GAO and others have found that State
and USAID experienced challenges managing contracts in these operations.
The project will ask, to what extent have State and USAID: (1) assessed
their organizational structures related to contracting for contingency opera-
tions and determined whether related changes are needed; (2) assessed
their contract award and management policies for contingency operations
and determined whether changes to those policies are needed; and (3)
assessed their workforces, including reliance on contractors, for contin-
gency operations and determined whether changes are needed.

Afghanistan Equipment Reduction and Base Closures
(Project No. 351798, Initiated January 18, 2013)
DOD has stated that it will cost at least $5.7 billion to draw down an estimated
90,000 containers of material and 50,000 vehicles from Afghanistan. Given
the large number of bases and difficult conditions in Afghanistan, an efficient
and cost-effective drawdown will likely depend on DOD knowing how much
equipment it has in Afghanistan and making cost-effective decisions about
its disposition. Key Questions: To what extent (1) has DOD implemented
base-closure procedures, including the accountability of equipment, to meet
command-established objectives and timelines? (2) Are command-established
objectives and timelines for the Afghanistan equipment drawdown supported
by DOD facilities and processes? (3) Is DOD using cost and other information
to help ensure it is making cost-effective disposition decisions?

Afghan Insider Attacks
(Project No. 320962, Initiated January 14, 2013)
ANSF personnel and impersonators have attacked DOD personnel repeat-
edly since 2007. GAO reported in April 2012 on steps DOD, NATO, and ANSF
were taking to track attacks, identify and address their causes, and develop
safeguards to protect DOD personnel. The pace of attacks has since accel-
erated, with the number in 2012 exceeding the total from prior years. Key
Questions: (1) To what extent have DOD, NATO, and ANSF identified the
causes of attacks by ANSF and impersonators on DOD personnel? (2) What
additional safeguards against attacks, if any, have they established since the
2012 review and how have they been implemented? (3) What progress, if any,
has DOD made in obtaining access to the Afghan government’s biometric
and background information on ANSF candidates and personnel?




  192                  SPECIAL INSPECTOR GENERAL   I   AFGHANISTAN RECONSTRUCTION
                 OTHER AGENCY OVERSIGHT




U.S. Army Audit Agency
This quarter, the USAAA has no ongoing audits related to reconstruction
initiatives.

U.S. Agency for International Development Office of
Inspector General
Audit of USAID/Afghanistan’s Electoral Reform and Civic
Advocacy Program
(Project No. FF100113, Initiated April 1, 2013)
Audit Objectives:
•	 To determine whether USAID’s assistance strengthened the ability of
   the Government of the Islamic Republic of Afghanistan institutions,
   Afghan civil society, and other organizations to enable credible,
   inclusive, and transparent presidential and provincial council elections
   in 2014.
•	 To determine if USAID’s assistance contributed to Afghan solutions to
   the longer-term issues identified in the OIG’s previous audit of elections
   assistance (Report No. F-306-11-003-P, June 19, 2011).

Audit of USAID/Afghanistan’s Transition Plans
(Project No. FF100712, Initiated November 28, 2012)
Objective: Does USAID/Afghanistan have plans to address contingencies
related to the U.S. Government’s transition in Afghanistan?

Review of USAID/Afghanistan’s Use of Third Country National
Employees
(Project No. FF101412, Initiated October 14, 2012)
Objective: Determine if USAID/Afghanistan is employing third-country
nationals in accordance with U.S. government strategy for Afghanistan, and
with applicable laws and regulations.

Audit of USAID/Afghanistan’s Management Controls
Over Premium Pay
(Project No. FF100612, Initiated October 9, 2012)
Objective: To determine if USAID/Afghanistan is using sufficient man-
agement controls over the submission, authorization, approval, and
certification of premium-pay benefits for its staff in accordance with federal
time-and-attendance policies and procedures.




REPORT TO THE UNITED STATES CONGRESS     I   JULY 30, 2013             193
OTHER AGENCY OVERSIGHT




Audit of USAID/Afghanistan’s Kandahar Power Initiative
(Project No. FF101112, Initiated May 1, 2012)
Objective: Did USAID/Afghanistan adequately manage performance, plan
for sustainability, and comply with environmental requirements in its man-
agement of the Kandahar Helmand Power Project.

Review of USAID/Afghanistan’s Use of the Commander’s
Emergency Response Program Funds for Selected Projects
(Project No. FF101712, Initiated October 25, 2012)
Objective: To determine whether the Commander’s Emergency Response
Program (CERP) funds distributed by U.S. Forces-Afghanistan to USAID for
specific projects were used for their intended purposes, and were in compli-
ance with applicable laws and regulations.




  194                 SPECIAL INSPECTOR GENERAL      I   AFGHANISTAN RECONSTRUCTION
               OTHER AGENCY OVERSIGHT




REPORT TO THE UNITED STATES CONGRESS   I   JULY 30, 2013   195
                                    APPENDICES AND ENDNOTES CONTENTS

                                    Appendix A 	                                                   198
                                    Appendix B 	                                                   202
                                    Appendix C	                                                    204
                                    Appendix D	                                                    208
                                    Appendix E	                                                    212
                                    Endnotes	216




                                                                               The Official Seal of SIGAR
                                       The Official Seal of SIGAR represents the coordination of efforts
 between the United States and Afghanistan to provide accountability and oversight of reconstruction
activities. The phrase along the top side of the seal’s center is in Dari and reads “SIGAR.” The phrase
                    along the bottom side of the seal’s center is in Pashtu and has the same meaning.




                                        196                 SPECIAL INSPECTOR GENERAL      I   AFGHANISTAN RECONSTRUCTION
APPENDICES
AND ENDNOTES




       197
                                   APPENDICES




                                   APPENDIX A
                                   CROSS-REFERENCE OF REPORT TO
                                   STATUTORY REQUIREMENTS
                                   This appendix cross-references the pages of this report to the quarterly
                                   reporting and related requirements under SIGAR’s enabling legislation, the
                                   National Defense Authorization Act for Fiscal Year 2008, P.L. 110-181,
                                   § 1229 (Table A.1).

                                   TABLE A.1

CROSS-REFERENCE TO SIGAR QUARTERLY REPORTING REQUIREMENTS UNDER P.L. 110-181, § 1229
Public Law Section      SIGAR Enabling Language                                                SIGAR Action                       Report Section
Purpose
Section 1229(a)(3)      To provide for an independent and objective means of keeping           Ongoing; quarterly report          Full report
                        the Secretary of State and the Secretary of Defense fully and
                        currently informed about problems and deficiencies relating to the
                        administration of such programs and operations and the necessity
                        for and progress on corrective action.
Supervision
Section 1229(e)(1)      The Inspector General shall report directly                            Report to the Secretary of State   Full report
                        to, and be under the general supervision                               and the Secretary of Defense
                        of, the Secretary of State and the Secretary of Defense
Duties
Section 1229(f)(1)      OVERSIGHT OF AFGHANISTAN RECONSTRUCTION —                              Review appropriated/               Full report
                        It shall be the duty of the Inspector General to conduct, supervise,   available funds
                        and coordinate audits and investigations of the treatment,
                        handling, and expenditure of amounts appropriated or otherwise         Review programs, operations,
                        made available for the reconstruction of Afghanistan, and of the       contracts using appropriated/
                        programs, operations, and contracts carried out utilizing such         available funds
                        funds, including subsections (A) through (G) below.
Section 1229(f)(1)(A)   The oversight and accounting of the obligation and expenditure of      Review obligations and             SIGAR Oversight
                        such funds                                                             expenditures of appropriated/      Funding
                                                                                               available funds
Section 1229(f)(1)(B)   The monitoring and review of reconstruction activities funded by       Review reconstruction activities   SIGAR Oversight
                        such funds                                                             funded by appropriations and
                                                                                               donations
Section 1229(f)(1)(C)   The monitoring and review of contracts funded by such funds            Review contracts using             Note 1
                                                                                               appropriated and available
                                                                                               funds
Section 1229(f)(1)(D)   The monitoring and review of the transfer of such funds and            Review internal and external       Appendix B
                        associated information between and among departments,                  transfers of appropriated/
                        agencies, and entities of the United States, and private and           available funds
                        nongovernmental entities
Section 1229(f)(1)(E)   The maintenance of records on the use of such funds to facilitate      Maintain audit records             SIGAR Oversight
                        future audits and investigations of the use of such fund[s]                                               Appendix C
                                                                                                                                  Appendix D
Section 1229(f)(1)(F)   The monitoring and review of the effectiveness of United States        Monitoring and review              Audits
                        coordination with the Governments of Afghanistan and other donor       as described
                        countries in the implementation of the Afghanistan Compact and
                        the Afghanistan National Development Strategy



                                      198                          SPECIAL INSPECTOR GENERAL            I   AFGHANISTAN RECONSTRUCTION
                                                                    APPENDICES




TABLE A.1 (CONTINUED)


CROSS-REFERENCE TO SIGAR QUARTERLY REPORTING REQUIREMENTS UNDER P.L. 110-181, § 1229
Public Law Section              SIGAR Enabling Language                                                 SIGAR Action                       Report Section
Section 1229(f)(1)(G)           The investigation of overpayments such as duplicate payments            Conduct and reporting of           Investigations
                                or duplicate billing and any potential unethical or illegal actions     investigations as described
                                of Federal employees, contractors, or affiliated entities, and the
                                referral of such reports, as necessary, to the Department of Justice
                                to ensure further investigations, prosecutions, recovery of further
                                funds, or other remedies.
Section 1229(f)(2)              OTHER DUTIES RELATED TO OVERSIGHT —                                     Establish, maintain, and           Full report
                                The Inspector General shall establish, maintain, and oversee            oversee systems, procedures,
                                such systems, procedures, and controls as the Inspector General         and controls
                                considers appropriate to discharge the duties under paragraph (1)
Section 1229(f)(3)              DUTIES AND RESPONSIBILITIES UNDER INSPECTOR GENERAL ACT                 Duties as specified in Inspector   Full report
                                OF 1978 —                                                               General Act
                                In addition,. . .the Inspector General shall also have the duties and
                                responsibilities of inspectors general under the Inspector General
                                Act of 1978
Section 1229(f)(4)              COORDINATION OF EFFORTS —                                               Coordination with the              Other Agency
                                The Inspector General shall coordinate with, and receive the            inspectors general of              Oversight
                                cooperation of, each of the following: (A) the Inspector General        DoD, DoS, and USAID
                                of the Department of Defense, (B) the Inspector General of the
                                Department of State, and (C) the Inspector General of the United
                                States Agency for International Development
Federal Support and Other Resources
Section 1229(h)(5)(A)           ASSISTANCE FROM FEDERAL AGENCIES —                                      Expect support as                  Full report
                                Upon request of the Inspector General for information or                requested
                                assistance from any department, agency, or other entity of the
                                Federal Government, the head of such entity shall, insofar as is
                                practicable and not in contravention of any existing law, furnish
                                such information or assistance to the Inspector General, or an
                                authorized designee
Section 1229(h)(5)(B)           REPORTING OF REFUSED ASSISTANCE —                                       None reported                      N/A
                                Whenever information or assistance requested by the Inspector
                                General is, in the judgment of the Inspector General, unreasonably
                                refused or not provided, the Inspector General shall report the
                                circumstances to the Secretary of State or the Secretary of
                                Defense, as appropriate, and to the appropriate congressional
                                committees without delay.
Reports
Section 1229(i)(1)              QUARTERLY REPORTS —                                                     Report – 30 days after the         Full report
                                Not later than 30 days after the end of each fiscal-year quarter,       end of each calendar quarter       Appendix B
                                the Inspector General shall submit to the appropriate commit-
                                tees of Congress a report summarizing, for the period of that           Summarize activities of the
                                quarter and, to the extent possible, the period from the end of         Inspector General
                                such quarter to the time of the submission of the report, the
                                activities during such period of the Inspector General and the          Detailed statement of all
                                activities under programs and operations funded with amounts            obligations, expenditures, and
                                appropriated or otherwise made available for the reconstruction of      revenues
                                Afghanistan. Each report shall include, for the period covered by
                                such report, a detailed statement of all obligations, expenditures,
                                and revenues associated with reconstruction and rehabilitation
                                activities in Afghanistan, including the following –




REPORT TO THE UNITED STATES CONGRESS              I   JULY 30, 2013                                    199
                                    APPENDICES




TABLE A.1 (CONTINUED)


CROSS-REFERENCE TO SIGAR QUARTERLY REPORTING REQUIREMENTS UNDER P.L. 110-181, § 1229
Public Law Section      SIGAR Enabling Language                                                  SIGAR Action                    Report Section
Section 1229(i)(1)(A)   Obligations and expenditures of appropriated/donated funds               Obligations and expenditures    Appendix B
                                                                                                 of appropriated/donated
                                                                                                 funds
Section 1229(i)(1)(B)   A project-by-project and program-by-program accounting of the            Project-by-project and          Funding
                        costs incurred to date for the reconstruction of Afghanistan,            program-by-program account-     Note 1
                        together with the estimate of the Department of Defense,                 ing of costs. List unexpended
                        the Department of State, and the United States Agency for                funds for each project or
                        International Development, as applicable, of the costs to com-           program
                        plete each project and each program
Section 1229(i)(1)(C)   Revenues attributable to or consisting of funds provided by              Revenues, obligations, and      Funding
                        foreign nations or international organizations to programs and           expenditures of donor funds
                        projects funded by any department or agency of the United States
                        Government, and any obligations or expenditures of
                        such revenues
Section 1229(i)(1)(D)   Revenues attributable to or consisting of foreign assets seized or       Revenues, obligations, and      Funding
                        frozen that contribute to programs and projects funded by any            expenditures of funds from
                        U.S. government department or agency, and any obligations or             seized or frozen assets
                        expenditures of such revenues
Section 1229(i)(1)(E)   Operating expenses of agencies or entities receiving amounts             Operating expenses of           Funding
                        appropriated or otherwise made available for the reconstruction          agencies or any organization    Appendix B
                        of Afghanistan                                                           receiving appropriated funds
Section 1229(i)(1)(F)   In the case of any contract, grant, agreement, or other funding          Describe contract details       Note 1
                        mechanism described in paragraph (2)* —
                        (i) The amount of the contract or other funding mechanism;
                        (ii) A brief discussion of the scope of the contract or other funding
                        mechanism;
                        (iii) A discussion of how the department or agency of the United
                        States Government involved in the contract, grant, agreement,
                        or other funding mechanism identified and solicited offers from
                        potential contractors to perform the contract, grant, agreement, or
                        other funding mechanism, together with a list of the potential indi-
                        viduals or entities that were issued solicitations for the offers; and
                        (iv) The justification and approval documents on which was based
                        the determination to use procedures other than procedures that
                        provide for full and open competition
Section 1229(i)(3)      PUBLIC AVAILABILITY —                                                    Publish report as directed at   Full report
                        The Inspector General shall publish on a publicly available              www.sigar.mil
                        Internet website each report under paragraph (1) of this subsec-
                                                                                                 Dari and Pashtu translation
                        tion in English and other languages that the Inspector General
                                                                                                 in process
                        determines are widely used and understood in Afghanistan
Section 1229(i)(4)      FORM —                                                                   Publish report as directed      Full report
                        Each report required under this subsection shall be submitted
                        in unclassified form, but may include a classified annex if the
                        Inspector General considers it necessary




                                       200                          SPECIAL INSPECTOR GENERAL             I   AFGHANISTAN RECONSTRUCTION
                                                                                  APPENDICES




TABLE A.1 (CONTINUED)


CROSS-REFERENCE TO SIGAR QUARTERLY REPORTING REQUIREMENTS UNDER P.L. 110-181, § 1229
Public Law Section                       SIGAR Enabling Language                                                    SIGAR Action                          Report Section
Section 1229(j)(1)                       Inspector General shall also submit each report required under             Submit quarterly report               Full report
                                         subsection (i) to the Secretary of State and the Secretary of
                                         Defense.
Note 1: Although this data is normally made available on SIGAR’s website (www.sigar.mil), the data SIGAR has received is in relatively raw form and is currently being
reviewed, analyzed, and organized for all future SIGAR purposes.

* Covered “contracts, grants, agreements, and funding mechanisms” are defined in paragraph (2) of Section 1229(i) of P.L. No. 110-181 as being—

“any major contract, grant, agreement, or other funding mechanism that is entered into by any department or agency of the United States Government that involves the use
of amounts appropriated or otherwise made available for the reconstruction of Afghanistan with any public or private sector entity for any of the following purposes: To build
or rebuild physical infrastructure of Afghanistan.

To establish or reestablish a political or societal institution of Afghanistan.

To provide products or services to the people of Afghanistan.”




REPORT TO THE UNITED STATES CONGRESS                         I   JULY 30, 2013                                  201
                                                               APPENDICES



                                                               APPENDIX B
                                                               U.S. FUNDS FOR AFGHANISTAN RECONSTRUCTION ($ MILLIONS)
                                                               Table B.1 lists funds appropriated for Afghanistan reconstruction by program,
                                                               per year, as of June 30, 2013.
                                                               TABLE B.1

                                                                U.S. FUNDING SOURCES                                            AGENCY          TOTAL     FY 2002
                                                                SECURITY
                                                                  Afghanistan Security Forces Fund (ASFF)                       DOD           52,776.72        0.00
                                                                  Train & Equip (DOD)                                           DOD              440.00        0.00
                                                                  Foreign Military Financing (FMF)                              State          1,059.14       57.26
                                                                  International Military Education and Training (IMET)          State             13.32        0.18
                                                                  NDAA Section 1207 Transfer                                    Other              9.90        0.00
                                                                Total - Security                                                             54,299.08       57.44
                                                                GOVERNANCE & DEVELOPMENT
                                                                  Commander's Emergency Response Program (CERP)                 DOD            3,639.00        0.00
                                                                  Afghanistan Infrastructure Fund (AIF)                         DOD            1,024.00        0.00
                                                                  Task Force for Business and Stability Operations (TFBSO)      DOD              684.59        0.00
                                                                  Economic Support Fund (ESF)                                   USAID         16,653.68      117.51
                                                                  Development Assistance (DA)                                   USAID            885.24       18.30
                                                                  Afghanistan Freedom Support Act (AFSA)                        DOD              550.00        0.00
                                                                  Child Survival & Health (CSH + GHAI)                          USAID            563.00        7.52
                                                                  Commodity Credit Corp (CCC)                                   USAID             31.65        7.48
                                                                  USAID (other)                                                 USAID             48.48        0.00
                                                                  Non-Proliferation, Antiterrorism, Demining & Related (NADR)   State            606.29       44.00
                                                                  Provincial Reconstruction Team Advisors                       USDA               5.70        0.00
                                                                  Treasury Technical Assistance                                 Treasury           4.45        0.90
                                                                Total - Governance & Development                                             24,696.09      195.71
                                                                COUNTER-NARCOTICS
                                                                  International Narcotics Control & Law Enforcement (INCLE)     State          4,147.05       60.00
                                                                  Drug Interdiction & Counter-Drug Activities (DOD CN)          DOD            2,640.62        0.00
                                                                  Drug Enforcement Administration (DEA)                         DOJ              127.37        0.58
                                                                Total - Counter-Narcotics                                                     6,915.04       60.58
                                                                HUMANITARIAN
                                                                  P.L. 480 Title I                                              USDA               5.00        0.00
                                                                  P.L. 480 Title II                                             USAID            903.69      159.50
Notes: Numbers have been rounded. FY 2013 figures for State
and USAID accounts reflect draft allocation amounts and are       Disaster Assistance (IDA)                                     USAID            515.67      197.09
subject to final Congressional approval. DOD reprogrammed         Transition Initiatives (TI)                                   USAID             36.26        8.07
$1 billion from FY 2011 ASFF. DOD reprogrammed $1 bil-
lion from FY 2012 ASFF. P.L. 113-6 rescinded $1 billion from      Migration & Refugee Assistance (MRA)                          State            834.84      135.47
FY 2012 ASFF. DOD transferred $101 million from FY 2011
AIF to FY 2011 ESF to fund an infrastructure project to be        Voluntary Peacekeeping (PKO)                                  State             69.33       23.93
implemented by USAID.
a	Final appropriation figures for FY 2013 have not been
                                                                  Emergency Refugee & Migration Assistance (ERMA)               State             25.20       25.00
  determined for many accounts, including State and USAID         Food for Progress                                             USDA             109.49        0.00
  accounts.                                                       416(b) Food Aid                                               USDA              95.18       46.46
Sources: DOD, responses to SIGAR data call, 7/22/2013,            Food for Education                                            USDA              50.49        0.00
7/3/2013, 7/1/2013, 10/22/2012, 10/14/2009,                       Emerson Trust                                                 USDA              22.40        0.00
and 10/1/2009; State, responses to SIGAR data call,
7/16/2013, 7/2/2013, 6/27/2013, 10/5/2012 and                   Total - Humanitarian                                                          2,667.54      595.52
6/27/2012; Treasury, response to SIGAR data call,
7/1/2013; OMB, response to SIGAR data call, 7/19/2013
                                                                INTERNATIONAL AFFAIRS OPERATIONS
and 1/4/2013; USAID, responses to SIGAR data call,              Oversight                                                                        231.30        0.00
7/17/2013, 10/15/2010, 1/15/2010, and 10/9/2009;
DOJ, response to SIGAR data call, 7/7/2009; USDA, response      Other                                                                          7,757.00      155.60
to SIGAR data call, 4/2009; P.L. 113-6, 3/26/2013; P.L. 112-    Total - International Affairs Operations                                      7,988.30      155.60
74, 12/23/2011; P.L. 112-10, 4/15/2011; P.L. 111-212,
10/29/2010; P.L. 111-118, 12/19/2009; FY 2010 Defense           TOTAL FUNDING                                                                96,566.04    1,064.85
Explanatory Statement.




                                                                 202                        SPECIAL INSPECTOR GENERAL             I     AFGHANISTAN RECONSTRUCTION
                                                        APPENDICES




   FY 2003     FY 2004     FY 2005     FY 2006      FY 2007 FY 2008         FY 2009      FY 2010      FY 2011      FY 2012      FY 2013 a

       0.00        0.00       995.00    1,908.13     7,406.40    2,750.00     5,606.94     9,166.77    10,619.28    9,200.00     5,124.20
       0.00      150.00       290.00        0.00         0.00        0.00         0.00         0.00         0.00        0.00         0.00
     191.00      414.08       396.80        0.00         0.00        0.00         0.00         0.00         0.00        0.00         0.00
       0.39        0.67         0.95        0.98         1.19        1.66         1.40         1.76         1.56        1.18         1.42
       0.00        0.00         0.00        0.00         0.00        9.90         0.00         0.00         0.00        0.00         0.00
    191.39      564.75     1,682.75    1,909.11     7,407.59    2,761.56     5,608.34     9,168.53    10,620.84    9,201.18     5,125.62

       0.00        40.00      136.00     215.00        209.00      488.33       550.67     1,000.00       400.00       400.00      200.00
       0.00         0.00        0.00       0.00          0.00        0.00         0.00         0.00       299.00       400.00      325.00
       0.00         0.00        0.00       0.00          0.00        0.00        14.44        59.26       239.24       241.82      129.84
     223.79       893.83    1,287.06     473.39      1,210.71    1,399.51     2,073.46     3,346.00     2,168.51     1,836.76    1,623.15
      42.54       153.14      169.34     184.99        166.81      149.43         0.40         0.30         0.00         0.00        0.00
     300.00       150.00      100.00       0.00          0.00        0.00         0.00         0.00         0.00         0.00        0.00
      49.68        33.40       46.43      41.45        100.77       63.07        58.23        92.30        69.91         0.00        0.25
       1.33         0.00        0.00       0.00          0.00       10.77         4.22         4.22         3.09         0.55        0.00
       0.50         5.00        0.00       0.00          0.00       20.00         2.81         4.90         6.25         7.18        1.84
      34.70        66.90       40.65      35.72         36.72       29.72        59.92        70.74        69.30        65.32       52.60
       0.00         0.00        0.00       0.00          0.00        0.00         5.70         0.00         0.00         0.00        0.00
       1.00         0.06        0.95       0.19          0.13        0.75         0.47         0.00         0.00         0.00        0.00
    653.54     1,342.33    1,780.42     950.74      1,724.14    2,161.57     2,770.33     4,577.72     3,255.29     2,951.63    2,332.67

        0.00     220.00      709.28      232.65        251.74     307.57       484.00       589.00        400.00      324.00       568.81
        0.00      71.80      224.54      108.05        290.97     192.81       230.06       392.27        376.53      420.47       333.11
        2.87       3.72       16.77       23.66         20.38      40.59        18.80         0.00          0.00        0.00         0.00
       2.87     295.52      950.59      364.36        563.09     540.97       732.86       981.27        776.53      744.47       901.92

       5.00        0.00        0.00        0.00          0.00       0.00         0.00         0.00          0.00        0.00         0.00
      46.10       49.20       56.60       60.00         60.00     177.00        65.41        58.13        112.55       59.20         0.00
      85.52       11.16        4.22        0.04          0.03      16.90        27.13        29.73         66.68       61.40        15.77
      11.69       11.22        1.60        0.00          0.00       0.00         0.75         0.87          1.09        0.63         0.34
      61.50       63.30       47.10       41.80         53.80      44.25        76.79        81.48         65.00       99.35        65.00
       9.90       20.00       15.50        0.00          0.00       0.00         0.00         0.00          0.00        0.00         0.00
       0.00        0.00        0.00        0.00          0.00       0.00         0.20         0.00          0.00        0.00         0.00
       4.96        9.08       30.10       23.24          9.47      20.55        12.09         0.00          0.00        0.00         0.00
      14.14       34.58        0.00        0.00          0.00       0.00         0.00         0.00          0.00        0.00         0.00
       9.27        6.12       10.02       25.08          0.00       0.00         0.00         0.00          0.00        0.00         0.00
       0.00        0.00        0.00        0.00          0.00      22.40         0.00         0.00          0.00        0.00         0.00
    248.08      204.66      165.14      150.16        123.30     281.10       182.37       170.21        245.32      220.57        81.10

        0.00       0.00        0.00        0.00          2.50      14.30         25.20        34.40        37.20       59.00        58.70
       35.30     211.16      136.29      131.90        207.80     435.13      1,060.70     1,761.70       905.10    1,427.41     1,288.90
      35.30     211.16      136.29      131.90        210.30     449.43      1,085.90     1,796.10       942.30    1,486.41     1,347.60
   1,131.18    2,618.43    4,715.19    3,506.27    10,028.43    6,194.63    10,379.79    16,693.83    15,840.27    14,604.26    9,788.92




REPORT TO THE UNITED STATES CONGRESS    I   JULY 30, 2013                        203
APPENDICES




APPENDIX C
SIGAR WRITTEN PRODUCTS
SIGAR AUDITS
Completed Audits
SIGAR completed six audits during this reporting period:

COMPLETED SIGAR AUDITS AS OF JULY 30, 2013
Report Identifier    Report Title                                                          Date Issued
SIGAR Audit 13-16    Stability in Key Areas (SIKA): After 16 Months and $47 Million        7/2013
                     Spent, USAID Had Not Met Essential Program Objectives
SIGAR Audit 13-15    Afghanistan Public Protection Force: Concerns Remain about            7/2013
                     Force’s Capabilities and Cost
SIGAR Audit 13-14    Contracting with the Enemy: State and USAID Need Stronger             7/2013
                     Authority to Terminate Contracts When Enemy Affiliations Are
                     Identified
SIGAR Audit 13-13    Afghan Special Mission Wing: DOD Moving Forward with $771.8           6/2013
                     Million Purchase of Aircraft that the Afghans Cannot Operate and
                     Maintain
SIGAR Audit 13-12    Department of State’s Assistance Awards for Afghanistan               7/2013
                     Reconstruction Activities Are Largely Unaudited
SIGAR Audit 13-8     Taxes: Afghan Government Has Levied Nearly a Billion Dollars in
                     Business Taxes on Contractors Supporting U.S. Government Efforts      5/2013
                     in Afghanistan



New Audits
SIGAR initiated five audits during this reporting period:

NEW SIGAR AUDITS AS OF JULY 30, 2013
Audit Identifier    Project Title                                                          Date Initiated
SIGAR 085A          Mobile Strike Force Vehicles for the Afghan National Army              7/2013
                    Wire Transfer Fees Associated with Department of Defense Payments
SIGAR 084A                                                                                 7/2013
                    to Afghan Contractors
                    U.S. Agency for International Development (USAID) and Department
                    of Homeland Security Customs and Border Protection (CBP) Efforts to
SIGAR 083A                                                                                 7/2013
                    Develop and Strengthen Afghanistan’s Capacity to Assess and Collect
                    Customs Revenue
                    U.S. Efforts to Develop and Strengthen the Capacity of Afghanistan’s
SIGAR 082A                                                                                 6/2013
                    Central Bank
                    Accountability of Weapons and Equipment Provided to the Afghan
SIGAR 078A                                                                                 5/2013
                    National Security Forces (ANSF)




 204                        SPECIAL INSPECTOR GENERAL             I   AFGHANISTAN RECONSTRUCTION
                                                                    APPENDICES




Ongoing Audits
SIGAR had nine audits in progress during this reporting period:

ONGOING SIGAR AUDITS AS OF JULY 30, 2013
Audit Identifier    Project Title                                                                                Date Initiated
SIGAR 081A          Assessments of Afghan Ministerial Capacity                                                   4/2013
SIGAR 080A          U.S. Government Reconstruction Transition Plan                                               3/2013
SIGAR 079A          Reliability of Afghan National Security Forces Personnel Data                                2/2013
SIGAR 077A          USAID Assistance to Afghanistan’s Water Sector                                               2/2013
SIGAR 073A          Training of Afghan Justice Sector Personnel                                                  12/2012
SIGAR 072A          Afghan National Security Literacy Training                                                   11/2012
SIGAR 071A          $230 Million in Missing Repair Parts                                                         10/2012
SIGAR 070A          Afghan National Police Petroleum, Oils, and Lubricants                                       9/2012
SIGAR 069A          Ongoing Construction Projects for the ANSF                                                   9/2012


Completed Financial Audits
SIGAR completed 11 financial audits during this reporting period:

COMPLETED SIGAR FINANCIAL AUDITS AS OF JULY 30, 2013
Report Identifier   Project Title                                                                                Date Issued
SIGAR Financial     State Department’s Afghanistan Media Project: Audit of Costs Incurred by HUDA
                                                                                                                 7/2013
Audit 13-11         Development Organization Afghanistan
SIGAR Financial     USAID’s Alternative Livelihoods Program–Eastern Region: Audit of Costs Incurred by
                                                                                                                 7/2013
Audit 13-10         Development Alternatives Inc.
SIGAR Financial     USAID’s Alternative Development Project South/West: Audit of Costs Incurred by Tetra Tech
                                                                                                              7/2013
Audit 13-9          ARD
SIGAR Financial     USAID’s Human Resources and Logistical Support Program: Audit of Costs Incurred by
                                                                                                                 7/2013
Audit 13-8          International Relief and Development Inc.
                    Department of Defense Program to Support the Afghan National Army’s Technical
SIGAR Financial
                    Equipment Maintenance Program: Audit of Costs Incurred by Afghan Integrated Support          7/2013
Audit 13-7
                    Services
SIGAR Financial     USDA’s Program to Help Advance the Revitalization of Afghanistan’s Agricultural Sector:
                                                                                                                 7/2013
Audit 13-6          Audit of Costs Incurred by Volunteers for Economic Growth Alliance
SIGAR Financial     USAID’s Program to Support the Loya Jirga and Election Process in Afghanistan: Audit of
                                                                                                                 6/2013
Audit 13-5          Costs Incurred by The Asia Foundation
SIGAR Financial     USAID’s Technical Support to the Central and Provincial Ministry of Public Health Project:
                                                                                                                 6/2013
Audit 13-4          Audit of Costs Incurred by Management Sciences for Health
SIGAR Financial     Audit of Costs Incurred by Futures Group International LLC in Support of USAID’s Project
                                                                                                                 6/2013
Audit 13-3          for Expanding Access to Private Sector Health Products and Services in Afghanistan
                    Audit of Costs Incurred by Cardno Emerging Markets Group LTD. in Support of USAID’s
SIGAR Financial
                    Afghanistan State-Owned Enterprises Privatization, Excess Land Privatization, and Land       6/2013
Audit 13-2
                    Titling Project
SIGAR Financial     Audit of Costs Incurred by Chemonics International Inc. in Support of USAID’s Alternative
                                                                                                                 6/2013
Audit 13-1          Livelihoods Program-Southern Region




REPORT TO THE UNITED STATES CONGRESS             I   JULY 30, 2013                                  205
                    APPENDICES




New Financial Audits
SIGAR initiated two financial audits during this reporting period:

NEW SIGAR FINANCIAL AUDITS AS OF JULY 30, 2013
Audit Identifier    Project Title                                                                            Date Initiated
                    USAID Contract with Chemonics for Afghanistan Stabilization Initiative to Support
F-024               Counterinsurgency Operations by Improving Economic and Social Conditions in              7/2013
                    Afghanistan (Southern Region) & Accelerated Sustainable Agriculture Program (ASAP)
                    USAID Contract with Development Alternatives Inc for Afghan Small and Medium
F-023                                                                                                        7/2013
                    Enterprise Development (ASMED) Project & Afghanistan Stabilization Initiative


Ongoing Financial Audits
SIGAR had 11 financial audits in progress during this reporting period:

ONGOING SIGAR FINANCIAL AUDITS AS OF JULY 30, 2013
Audit Identifier    Project Title                                                                            Date Initiated
                    State Grants with Afghan Technical Consultants for the removal of land mines and unex-
F-022                                                                                                        4/2013
                    ploded ordinance in Afghanistan
                    USAID Cooperative Agreement with World Vision for support to the Initiative to Promote
F-021                                                                                                        4/2013
                    Afghan Civil Society (I-PACS)
                    USAID Cooperative Agreement with Counterpart International Inc. for support to the
F-020                                                                                                        4/2013
                    Initiative to Promote Afghan Civil Society (I-PACS)
                    USAID Cooperative Agreement with World Council of Credit Unions for support to the Rural
F-019                                                                                                        4/2013
                    Finance and Cooperative Development Program in Southern and Eastern Afghanistan
                    USAID Cooperative Agreement with CARE International for the Food Insecurity Response
F-018                                                                                                        4/2013
                    for Urban Populations Program (FIRUP) in Kabul
                    USAID Cooperative Agreement with Mercy Corps for the Food Insecurity Response for
F-017                                                                                                        4/2013
                    Urban Populations Program (FIRUP) in Northern Afghanistan
                    USAID Cooperative Agreement with JHPIEGO Corporation for support to the Health Service
F-016                                                                                                      4/2013
                    Support Project (HSSP)
                    USAID Task Order and Cooperative Agreement with Creative Associates International for
F-015                                                                                                        4/2013
                    support to the Basic Education Program in Afghanistan
                    USAID Task Orders with Checchi and Company Consulting Inc. to improve USAID’s
F-014               Afghanistan program information system and to provide technical support to the Rule of   4/2013
                    Law Stabilization Program
                    USAID Cooperative Agreement with Central Asia Development Group Inc. (CADG) for
F-013               the Food Insecurity Response for Urban Populations Program (FIRUP) in Southern and       4/2013
                    Eastern Afghanistan
                    USAID Cooperative Agreement with International Relief and Development Inc for the
F-012                                                                                                        12/2012
                    Strategic Provincial Roads Project in Southern and Eastern Afghanistan



Audit Alert Letters
SIGAR issued five Audit Alert Letters during this reporting period:

NEW SIGAR AUDIT ALERT LETTERS ISSUED AS OF JULY 30, 2013
Letter Identifier   Letter Title                                                                             Date Issued
                    Serious Deficiencies Noted in State Agreement with the International Development Law
Alert 13-6                                                                                                   7/2013
                    Organization




                    206                        SPECIAL INSPECTOR GENERAL             I   AFGHANISTAN RECONSTRUCTION
                                                                     APPENDICES




NEW SIGAR AUDIT ALERT LETTERS ISSUED AS OF JULY 30, 2013 (CONTINUED)
Letter Identifier      Letter Title                                                                                 Date Issued
                       Concerns with Chemonics International Inc. Meeting Its Responsibilities Under a Federal
Alert 13-5                                                                                                          7/2013
                       Contract
Alert 13-4             Camp Leatherneck Incinerators, Burn Pit Being Used                                           7/2013
                       Afghan Government Levying Additional Fines, Fees, and Penalties that May Cost U.S.
Alert 13-3                                                                                                          6/2013
                       Government Millions of Dollars
                       Southern Regional Agricultural Development Program Had Poor Coordination, Waste, and
Alert 13-2                                                                                                          6/2013
                       Mismanagement



SIGAR INSPECTIONS
Completed Inspections
SIGAR completed two inspections during this reporting period:

COMPLETED SIGAR INSPECTIONS AS OF JULY 30, 2013
Report Identifier      Report Title                                                                                 Date Issued
SIGAR Inspection       Bathkhak School: Unauthorized Contract Design Changes and Poor Construction Could            7/2013
13-10                  Compromise Structural Integrity
SIGAR Inspection       Sheberghan Teaching Training Facility: U.S. Army Corps of Engineers Paid Contractors and     7/2013
13-9                   Released them from Contractual Obligations before Construction Was Completed and
                       Without Resolving Serious Health and Safety Hazards



SIGAR SPECIAL PROJECTS
Completed Special Projects
SIGAR issued one alert letter during this reporting period:

COMPLETED SIGAR SPECIAL PROJECTS AS OF JULY 30, 2013
Project Identifier     Project Title                                                                                Date Issued
SP 13-8                Improvised Explosive Devices: Unclear Whether Culvert Denial Systems to Protect Troops Are   7/2013
                       Functioning Or Were Ever Installed



Special Project Alert Letters
SIGAR issued four Special Project Alert Letters this reporting period.

NEW SIGAR SPECIAL PROJECT ALERT LETTERS ISSUED AS OF JULY 30, 2013
Letter Identifier      Letter Title                                                                                 Date Issued
Management Alert       Command and Control Facility at Camp Leatherneck                                             7/2013
SP 13-7
Safety Alert SP 13-6   Sheberghan Teacher Training Facility                                                         6/2013
Safety Alert SP 13-5   Bathkhak School                                                                              6/2013
Management Alert       Subcontractor Nonpayment Issues                                                              6/2013
SP 13-4




REPORT TO THE UNITED STATES CONGRESS               I   JULY 30, 2013                                207
                                                       APPENDICES




                                                       APPENDIX D
                                                       SIGAR INVESTIGATIONS AND HOTLINE
                                                       SIGAR Investigations
FIGURE D.1                                             This quarter, SIGAR opened 33 new investigations and closed 42, bringing
                                                       the total number of open investigations to 289. Of the new investigations,
NEW SIGAR INVESTIGATIONS,
                                                       most involved procurement/contract fraud and corruption/bribery, as
APRIL 1–JUNE 30, 2013
                                                       shown in Figure D.1. Of the closed investigations, most were closed due to
                                                       unfounded allegations, as shown in Figure D.2.
                        Total: 33
                                                       FIGURE D.2


                                                       SIGAR INVESTIGATIONS: CLOSED INVESTIGATIONS, APRIL 1–JUNE 30, 2013
             Procurement/
                               Corruption
             Contract
                               15
             Fraud                                                   Unfounded Allegations                                                         21
             15
                                                            Subject Convicted, Debarred, or                           7
                                                                                Disciplined

                                                                  Lack of Investigative Merit                     5

                                    Theft
                                                                            Lack of Evidence                      5
                                    3

                                                         Arrest Infeasible due to Corruption        1
Source: SIGAR Investigations Directorate, 7/10/2013.

                                                              Non-payment Issue Resolved            1

                                                                            Did Not Involve         1
                                                                       Reconstruction Funds
                                                        Merged with Ongoing Investigations          1

                                                                                                0             5           10           15     20        25

                                                                                                                           Total: 42

                                                       Source: SIGAR Investigations Directorate, 7/10/2013.




                                                         208                           SPECIAL INSPECTOR GENERAL           I   AFGHANISTAN RECONSTRUCTION
                                                                            APPENDICES




SIGAR Hotline
Of the 75 Hotline complaints received this quarter, all were received elec-
tronically. Of these complaints, most were closed, as shown in Figure D.3.
FIGURE D.3

STATUS OF SIGAR HOTLINE COMPLAINTS: APRIL 1–JUNE 30, 2013
    Closed due to Lack of                                                                              54
       Investigative Merit
             Under Review                       11
       Assigned for further
             Investigation             6

               Referred Out       2

                Assistance        1
            Closed through        1
              Investigation
                              0            10         20               30            40      50             60
                                                                  Total: 75

Source: SIGAR Investigations Directorate, 7/8/2013.




Suspensions and Debarments From SIGAR Referrals
As of July 1, 2013, SIGAR’s referrals for suspension and debarment have
resulted in 59 suspensions and 68 debarments, as shown in chronological
order in Table D.1.

TABLE D.1


 SUSPENSIONS AND DEBARMENTS AS OF JULY 1, 2013
 Suspensions                                               Debarments
 Al-Watan Construction Company                             Farooqi, Hashmatullah
 Basirat Construction Firm                                 Hamid Lais Construction Company
 Brophy, Kenneth                                           Hamid Lais Group
 Naqibullah, Nadeem                                        Lodin, Rohullah Farooqi
 Rahman, Obaidur                                           Bennett & Fouch Associates LLC
 Campbell, Neil Patrick                                    Brandon, Gary
 Borcata, Raul A.                                          K5 Global
 Close, Jarred Lee                                         Ahmad, Noor
 Logistical Operations Worldwide                           Noor Ahmad Yousufzai Construction Company
 Robinson, Franz Martin                                    Ayeni, Sheryl Adenike
 Taylor, Zachery Dustin                                    Cannon, Justin
 Aaria Group Construction Company                          Constantino, April Anne
 Aaria Group                                               Constantino, Dee
 Aaria Herai General Trading                               Constantino, Ramil Palmes
 Aaria M.E. General Trading LLC                            Crilly, Braam
 Aaria Middle East                                         Drotleff, Christopher




REPORT TO THE UNITED STATES CONGRESS                  I    JULY 30, 2013                               209
APPENDICES




TABLE D.1 (CONTINUED)


SUSPENSIONS AND DEBARMENTS AS OF JULY 1, 2013
 Suspensions                                        Debarments
 Aaria Middle East Company LLC                      Fil-Tech Engineering and Construction Company
 Aaria Middle East Company Ltd. – Herat             Handa, Sidharth
 Aaria Supplies Company Ltd.                        Jabak, Imad
 Aaria Supply Services and Consultancy              Jamally, Rohullah
 Aftech International                               Khalid, Mohammad
 Aftech International Pvt. Ltd.                     Khan, Daro
 Alam, Ahmed Farzad                                 Mariano, April Anne Perez
 Albahar Logistics                                  McCabe, Elton Maurice
 American Aaria Company LLC                         Mihalczo, John
 American Aaria LLC                                 Qasimi, Mohammed Indress
 Barakzai, Nangialai                                Radhi, Mohammad Khalid
 Formid Supply and Services                         Safi, Fazal Ahmed
 Greenlight General Trading                         Shin Gul Shaheen, a.k.a. “Sheen Gul Shaheen”
 Kabul Hackle Logistics Company                     Espinoza-Loor, Pedro Alfredo
 Sharpway Logistics                                 Campbell, Neil Patrick*
 United States California Logistics Company         Navarro, Wesley
 Yousef, Najeebullah                                Hazrati, Arash
 Rahimi, Mohammad Edris                             Midfield International
 Wooten, Philip Steven                              Moore, Robert G.
 Domineck, Lavette Kaye                             Noori, Noor Alam, a.k.a. “Noor Alam"
 Markwith, James                                    Northern Reconstruction Organization
 All Points International Distributors Inc.         Shamal Pamir Building and Road Construction
                                                    Company
 Cipolla, James                                     Wade, Desi D.
 Hercules Global Logistics                          Blue Planet Logistics Services
 Schroeder, Robert                                  Mahmodi, Padres
 AISC LLC                                           Mahmodi, Shikab
 American International Security Corporation        Saber, Mohammed
 Brothers, Richard S.                               Watson, Brian Erik
 David A Young Construction & Renovation Inc.       All Points International Distributors, Inc
 Force Direct Solutions LLC                         Hercules Global Logistics
 Harris, Christopher                                Schroeder, Robert
 Hernando County Holdings LLC                       Helmand Twincle Construction Company
 Hide-A-Wreck LLC                                   Waziri, Heward Omar
 Panthers LLC                                       Zadran, Mohammad
 Paper Mill Village Inc                             Afghan Mercury Construction Company, d.b.a.
                                                    “Afghan Mercury Construction & Logistics Company”
 Shrould Line LLC                                   Mirzali Naseeb Construcion Company
 Spada, Carol                                       Montes, Diyana




  210                             SPECIAL INSPECTOR GENERAL      I   AFGHANISTAN RECONSTRUCTION
                                                                             APPENDICES




TABLE D.1 (CONTINUED)


SUSPENSIONS AND DEBARMENTS AS OF JULY 1, 2013
 Suspensions                                                 Debarments
 Taylor, Michael                                             Naseeb, Mirzali
 Welventure LLC                                              Robinson, Franz Martin*
 World Wide Trainers LLC                                     Smith, Nancy
 Young, David                                                Sultani, Abdul Anas a.k.a. “Abdul Anas”
 Espinoza, Mauricio                                          Faqiri, Shir
 Young, Tonya                                                Hosmat, Haji
                                                             Jim Black Construction Company
                                                             Arya Ariana Aryayee Logistics, d.b.a. “AAA Logistics,”
                                                             d.b.a. “Somo Logistics”
                                                             Garst, Donald
                                                             Mukhtar, Abdul a.k.a. “Abdul Kubar”
                                                             Noori Mahgir Construction Company
                                                             Noori, Sherin Agha
                                                             Long, Tonya*
                                                             Isranuddin, Burhanuddin
                                                             Rahimi, Mohammad Edris

Note: * indicates previously in suspended status following criminal indictment. Final debarment imposed following
criminal conviction in U.S. District Court.




REPORT TO THE UNITED STATES CONGRESS                     I   JULY 30, 2013                                   211
APPENDICES




APPENDIX E
ABBREVIATIONS AND ACRONYMS
ACRONYM OR
ABBREVIATION   DEFINITION
4A             Assistance to Afghanistan's Anti-Corruption Authority
ABADE          Assistance in Building Afghanistan by Developing Enterprises
ABP            Afghan Border Police
ACE            Agricultural Credit Enhancement
ACERA          Afghanistan Electoral Reform and Civic Advocacy
ACU            Anti-Corruption Unit
ADB            Asian Development Bank
ADF            Agricultural Development Fund
AECOM          AECOM International Development Inc.
Afs            Afghanis (currency)
AGO            Attorney General’s Office
AGS            Afghan Geological Survey
AIF            Afghanistan Infrastructure Fund
AIHRC          Afghanistan Independent Human Rights Commission
AISS           Afghan Integrated Support Services
AITF           Afghanistan Infrastructure Trust Fund
AIU            Contractor Air Interdiction Unit
AL             Alternative Livelihoods
ALP            Afghan Local Police
AMDEP          Afghanistan Media Development and Empowerment Project
ANA            Afghan National Army
ANCOP          Afghan National Civil Order of Police
ANP            Afghan National Police
ANRP           Afghanistan National Rail Plan
ANSF           Afghan National Security Forces
APD            Afghanistan Petroleum Directorate
APL            American President Lines LTD
APPF           Afghan Public Protection Force
APRP           Afghan Peace and Reintegration Plan
ARTF           Afghanistan Reconstruction Trust Fund
ASF            Afghanistan Security Forces
ASFF           Afghanistan Security Forces Fund
ATRA           Afghanistan Telecom Regulatory Agency
AUAF           American University of Afghanistan
AUP            Afghan Uniform Police
AWDP           Afghanistan Workforce Development Plan
BDS            Business Development Services
BELT           Basic Education, Literacy, and Technical-Vocational Education and Training
BSA            Bilateral Security Agreement
CBP            Customs and Border Protection (U.S.)
CENTCOM        U.S. Central Command
CERP           Commander’s Emergency Response Program
CHAMP          Commercial Horticulture and Agricultural Marketing Program
Chemonics      Chemonics International, Inc.
CIA            U.S. Central Intelligence Agency
CID-MPFU       Army Criminal Investigation Command-Major Procurement Fraud Unit




 212              SPECIAL INSPECTOR GENERAL              I   AFGHANISTAN RECONSTRUCTION
                                                              APPENDICES




ACRONYM OR
ABBREVIATION      DEFINITION
CIGIE             Council of the Inspectors General on Integrity and Efficiency
CJIATF            Combined Joint Interagency Task Force
C-JTSCC           US Central Command's Joint Theater Support Contracting Command
CM                Capability Milestone
CNG               Compressed Natural Gas
CNPA              Counter-Narcotics Police of Afghanistan
CNPCI-W           China National Petroleum Corporation Watan energy Afghanistan, Ltd.
CNPI              Counternarcotics Public Information Program
COR               Contracting Officer's Representative
CSSP              Correctional System Support Program
CSTC-A            Combined Security Transition Command-Afghanistan
CUAT              Commander’s Unit Assessment Tool
DAB               Da Afghanistan Bank
DABS              Da Afghanistan Breshna Sherkat
DAI               Development Alternatives Inc.
DCIS              Defense Criminal Investigative Service (U.S.)
DCMA              Defense Contract Management Agency (U.S.)
DEA               Drug Enforcement Administration (U.S.)
DLA               Defense Logistics Agency (U.S.)
DOD               Department of Defense (U.S.)
DOD CN            Department of Defense Drug Interdiction and Counter-Drug Activities fund (U.S.)
DOD OIG           Department of Defense Office of Inspector General
DOD OIG           DOD Office of the Inspector General
DOE               Department of Energy
DOJ               Department of Justice (U.S.)
ECC               Electoral Complaints Commission
ECF               Extended Credit Facility
EGGI              Economic Growth and Governance Initiative
EMG               Cardno Emerging Markets Group Ltd.
EMIS              Ministry of Education's Information Management System (Afghan)
ESF               Economic Support Fund
EVAW              Elimination of Violence Against Women law
FAR               Federal Acquisition Regulation
FBI               Federal Bureau of Investigation (U.S.)
FDRC              Financial Disputes Resolution Commission
FMS               Foreign Military Sales
FOB               Forward Operating Base
Futures Group     Futures Group International Llc.
FY                Fiscal Year
GAGAS             Generally Accepted Government Auditing Standards
GAO               Government Accountability Office (U.S.)
GDA               Global Development Alliance
GDP               Gross Domestic Product
GDPDC             General Directorate of Prisons and Detention Centers
GLE               Governor-Led Eradication
GMT               Guzar Merbachakot Transportation
GPI               Good Performer's Initiative
GSCC              General Support Contracting Command
HCA               Head of a Contracting Activity
HEP               Higher Education Program
HIPC              Highly Indebted Poor Country
HOO               High Office of Oversight for Anti-Corruption (Afghan)




REPORT TO THE UNITED STATES CONGRESS         I   JULY 30, 2013                               213
APPENDICES




ACRONYM OR
ABBREVIATION   DEFINITION
HPP            Health Policy Project
HTCC           Helman Twincle Construction Company
HUDA           HUDA Development Organization Afghanistan
IDEA-NEW       Incentives Driving Economic Alternatives-North, East, and West
IDLG           Independent Directorate of Local Governance (Afghan)
IDLO           International Development Law Organization
IEC            Independent Election Commission (Afghan)
IED            Improvised Explosive Device
IJC            International Security Assistance Force Joint Command
IMF            International Monetary Fund
INCLE          International Narcotics Control and Law Enforcement (U.S.)
INL            Bureau of International Narcotics and Law Enforcement Affairs (U.S.)
IPACS          Initiative to Promote Afghan Civil Society
IRD            International Relief and Development Inc.
ISAF           International Security Assistance Force
JS             APRP Joint Secretariat
JSSP           Justice Sector Support Program
JTTP           Justice Training Transition Program
KCI            Kabul City Initiative
KHPP           Kandahar-Helmand Power Project
LMG            Leadership, Management, Governance Project
LOTFA          Law and Order Trust Fund for Afghanistan
MACU           Military Anti-Corruption Unit
MAIL           Ministry of Agriculture, Irrigation, and Livestock (Afghan)
MCC            China Metallurgical Group Corporation
MCIT           Ministry of Communications and Information Technology (Afghan)
MCN            Ministry of Counternarcotics (Afghan)
MEC            Monitoring and Evaluation Committee (Afghan)
MHM            Mayer Hoffman McCann P.C.
MIDAS          Mining Investment and Development for Afghan Sustainability
MLS            Military Logistics Support
MOD            Ministry of Defense (Afghan)
MOF            Ministry of Finance (Afghan)
MOI            Ministry of Interior (Afghan)
MOIC           Ministry of Information and Culture (Afghan)
MOJ            Ministry of Justice (Afghan)
MOMP           Ministry of Mines and Petroleum (Afghan)
MOPH           Ministry of Public Health (Afghan)
MOU            Memorandum of Understanding
MSFV           Mobile Strike Force Vehicle
MSH            Management Services for Health
NAO            National Audit Office
NATO           North Atlantic Treaty Organization
NCO            Noncommissioned Officer
NDAA           National Defense Authorization Act
NEPS           Northeast Power System
NGO            Nongovernmental Organization
NIU            National Interdiction Unit
NPP            National Priority Program
NTM-A          NATO Training Mission-Afghanistan
O&M            Operations and Maintenance
OAA            Office of Acquisition Assistance




 214              SPECIAL INSPECTOR GENERAL             I   AFGHANISTAN RECONSTRUCTION
                                                               APPENDICES




ACRONYM OR
ABBREVIATION      DEFINITION
OCO               Overseas Contingency Operations
OMB               Office of Management and Budget
OSD               Office of the Secretary of Defense
OTA               Office of Technical Assistance
PBGC-OIG          Pension Benefit Guarentee Corporation- Office of the Inspector General
PBGF              Performance Based Governance Fund
PCH               Partnership Contracts for Health Services
PGO               Provincial governor's office
PM/WRA            Bureau of Political-Military Affairs - Office of Weapons Removal and Abatement (U.S.)
PROMOTE           Promoting Gender Equality in the National Priority Program
PRT               Provincial Reconstruction Team
PSC               Private Security Contractor
PTEC              Power Transmission Expansion and Connectivity
QA                Quality Assurance
RAMP-UP           Regional Afghan Municipalities Program for Urban Populations
RC                Recurrent Cost
RMC               Risk Management Companies
RRAD              Red River Army Depot
SCC               Special Cases Committee (Afghan)
SEPS              Southeast Power System
SFA               Security Force Assistance
SGDP              Sheberghan Gas Development Program
SIGAR             Special Inspector General for Afghanistan Reconstruction
SIKA              Security in Key Areas
SIU               Sensitive Investigation Unit
SMW               Special Missions Wing (Afghan)
S-RAD             USAID's Southern Regional Agricultural Development Program
SRO               Stability and Reconstruction Operations
State OIG         State Office of the Inspector General
SY                Solar Year
TAFA              Trade Accession and Facilitation in Afghanistan
TAT               DOD's Telecom Advisory Team
TFBSO             Task Force for Business and Stability Operations in Afghanistan
TIU               Technical Investigation Unit
TMR               Transportation Movement Request
TVET              Technical Vocational Education and Training
UN                United Nations
UNAMA             United Nations Assistance Mission in Afghanistan
UNDP              United Nations Development Programme
UNODC             UN Office on Drugs and Crime
USAAA             U.S. Army Audit Agency
USACE             U.S. Army Corps of Engineers
USACE-TAN         USACE Afghanistan Engineer District North
USAID             U.S. Agency for International Development
USAID OIG         USAID Office of the Inspector General
USDA              U.S. Department of Agriculture
USFOR-A           U.S. Forces-Afghanistan
USGS              United States Geological Survey
VEGA              Volunteers for Economic Growth Alliance
VSO               Village Stability Operations
WTO               World Trade Organization




REPORT TO THE UNITED STATES CONGRESS         I   JULY 30, 2013                                215
                                                         ENDNOTES




1.	  A preliminary review of data submitted by agencies to SIGAR’s        14.	 SIGAR Special Project Report SP-13-8, Improvised Explosive
     Special Projects unit thus far indicates that from 2002 through           Devices: Unclear Whether Culvert Denial Systems to Protect
     February 2013, U.S. agencies have obligated nearly $37 billion in         Troops Are Functioning or Were Ever Installed, July 2013.
     contracts, grants, and cooperative agreement for Afghan recon-       15.	 SIGAR Audit 13-13, Afghan Special Mission Wing: DOD
     struction. The U.S. Department of Defense (DOD) obligated                 Moving Forward with $771.8 Million Purchase of Aircraft
     about $25.7 billion for more than 12,000 contracts, while the             that the Afghans Cannot Operate and Maintain, June 2013.
     U.S. Agency for International Development (USAID) obligated          16.	 SIGAR Audit 13-3, Afghan Police Vehicle Maintenance
     about $11.2 billion for more than 280 contracts, cooperative              Contract: Actions Needed to Prevent Millions of Dollars from
     agreements, and grants. Continuing data analysis is expected to           Being Wasted, January 2013.
     increase these totals: among other tasks, analysts are conferring    17.	 SIGAR Financial Audit 13-6: USDA’s Program to Help Advance
     with Army personnel to distinguish between contracts executed             the Revitalization of Afghanistan’s Agricultural Sector:
     in Afghanistan for U.S. forces as opposed to those supporting             Audit of Costs Incurred by Volunteers for Economic Growth
     Afghan National Security Forces. The U.S. State Department                Alliance, July 3, 2013.
     has also obligated funds for Afghan-reconstruction contracting,      18.	 SIGAR Financial Audit 13-7: Department of Defense Program
     but its data submissions are still under review. Total U.S. recon-        to Support the Afghan National Army’s Technical Equipment
     struction obligations exceed contract obligations because some            Maintenance Program: Audit of Costs Incurred by Afghan
     commitments, e.g., salaries for Afghan soldiers and police, are           Integrated Support Services, July 2013.
     not implemented through contracts. A more definitive report          19.	 SIGAR Alert 13-2 to Ambassador Cunningham et al., regarding
     will follow.                                                              USAID’s Southern Regional Agricultural Development Program,
2.	  World Food Programme, “Jawzjan,” www.foodsecurityatlas.org/               June 27, 2013.
     afg/country/provincial-Profile/Jawzjan, accessed July 5, 2013.       20.	 DOD IG, Report No. DODIG-2012-089, Better Contract
3.	  USAID, “Northern Economic Corridor Study,” contracted study               Oversight Could Have Prevented. Deficiencies in the Detention
     for agency review, March 2012, pp. 10, 24.                                Facility in Parwan, Afghanistan, May 17, 2012.
4.	  World Food Programme, “Jawzjan,” www.foodsecurityatlas.org/          21.	 DOD IG, Report No. DODIG-2013-052, Inadequate Contract
     afg/country/provincial-Profile/Jawzjan, accessed July 5, 2013.            Oversight of Military Construction Projects in Afghanistan
5.	  SIGAR Inspection 13-9, Sheberghan Teacher Training Facility:              Resulted in Increased Hazards to Life and Safety of Coalition
     U.S. Army Corps of Engineers Paid Contractors and Released                Forces, March 8, 2013.
     Them from Contractual Obligations before Construction Was            22.	 DOD IG Audit Report, DODIG-2013-093, Acquisition Processes
     Completed and Without Resolving Serious Health and Safety                 and Contract Management: DOD Needs to Improve Oversight
     Hazards, July 2013, p. 1.                                                 of the Afghan National Police Training/Mentoring and
6.	  SIGAR Inspection 13-9, Sheberghan Teacher Training Facility:              Logistics Support Contract, June 25, 2013.
     U.S. Army Corps of Engineers Paid Contractors and Released           23.	 DOD IG, Audit Report DODIG-2013-024, U.S. Army Corps of
     Them from Contractual Obligations before Construction Was                 Engineers Needs to Improve Contract Oversight of Military
     Completed and Without Resolving Serious Health and Safety                 Construction Projects at Bagram Airfield, Afghanistan,
     Hazards, July 2013, pp. 1–2.                                              November 26, 2012.
7.	  SIGAR Inspection 13-9, Sheberghan Teacher Training Facility:         24.	 USAID OIG, Report No. F-306-12-002-S, Review of USAID/
     U.S. Army Corps of Engineers Paid Contractors and Released                Afghanistan’s Monitoring and Evaluation System, September
     Them from Contractual Obligations before Construction Was                 26, 2012.
     Completed and Without Resolving Serious Health and Safety            25.	 USAID OIG, Report No. F-306-12-004-P, Audit of USAID/
     Hazards, July 2013, pp. 3–4.                                              Afghanistan’s Incentives Driving Economic Alternatives for
8.	  SIGAR Inspection 13-9, Sheberghan Teacher Training Facility:              the North, East, and West Program, June 29, 2012.
     U.S. Army Corps of Engineers Paid Contractors and Released           26.	 GAO, Report to Congressional Addressees, GAO-13-218SP,
     Them from Contractual Obligations before Construction Was                 Afghanistan: Key Oversight Issues, February 2013.
     Completed and Without Resolving Serious Health and Safety            27.	SIGIR, Learning From Iraq: A Final Report from the Special
     Hazards, July 2013, pp. 4–5.                                              Inspector General for Iraq Reconstruction, March 2013, xii.
9.	  SIGAR Inspection 13-10, Bathkhak School: Unauthorized                28.	 Commission on Wartime Contracting in Iraq and Afghanistan,
     Contract Design Changes and Poor Construction Could                       final report to Congress, Transforming Wartime Contracting:
     Compromise Structural Integrity, July 2013.                               Controlling Costs, Reducing Risks, August 2011, p. 116.
10.	 GAO, Testimony GAO-12-802T, Afghanistan: USAID Oversight of          29.	 U.S. Army Center of Military History, Supplying Washington’s
     Assistance Funds and Programs, June 6, 2012.                              Army, 1981, Ch. 8, “From Commissaries to Contractors”; DOD
11.	DOD, Office of the Deputy Assistant Secretary of Defense for               IG, Report No. DODIG-2012-134, Contingency Contracting: A
     Program Support, Operational Contract Support Action Plan                 Framework for Reform: 2012 Update, September 18, 2012, p. 1:
     FY 2013–2016, April 2013, p. 3.                                           “For contingency operations, DOD routinely relies on contractors
12.	 Congressional Research Service, Report R43074, Department of              to provide front-line support and assist with the cradle-to-grave
     Defense’s Use of Contractors to Support Military Operations,              contracting process. These contractors perform vital tasks in
     May 17, 2013, p. 24.                                                      support of U.S. defense and development objectives, including
13.	 GAO, Report to Congressional Committees, GAO-13-283, High-                logistics support, equipment maintenance, fuel delivery, base
     Risk Series: An Update, February 2013, p. 213.                            operations support, and security.” [Emphasis added.]




                                                   216                    SPECIAL INSPECTOR GENERAL        I   AFGHANISTAN RECONSTRUCTION
                                                          ENDNOTES




30.	   See, for example, the discussion in CRS Report 7-5700,            53.	 USFOR-A, “Commander’s Emergency Response Program
       Operational Contract Support: Learning from the Past and               (CERP) SOP,” USFOR-A Pub 1-06, 2/2011, p. 35; P.L. 112-74,
       Preparing for the Future, statement of Moshe Schwartz                  12/23/2011.
       before the Committee on Armed Services, U.S. House of             54.	 See Appendix B of this report.
       Representatives, September 12, 2012.                              55.	 DOD, response to SIGAR data call, 7/22/2013.
31.	   Congressional Research Service, Report R43074, Department of      56.	 U.S. Senate Committee on Armed Services, press release,
       Defense’s Use of Contractors to Support Military Operations,           “Senate Passes Ike Skelton National Defense Authorization Act
       May 17, 2013, p. 24.                                                   for Fiscal Year 2011,” 12/22/2010.
32.	   Harold W. Geisel, “U.S. Foreign Assistance: What Oversight        57.	 See Appendix B of this report.
       Mechanisms Are in Place to Ensure Accountability?,” testimony     58.	 DOD, response to SIGAR data call, 7/22/2013.
       before the U.S. House Committee on Oversight and Government       59.	 TFBSO, “About TFBSO,” accessed 10/20/2011; DoD, response to
       Reform, April 10, 2013.                                                SIGAR data call, 7/22/2011.
33.	   GAO, Report GAO-13-283, High-Risk Series: An Update,              60.	 See Appendix B of this report.
       February 2013.                                                    61.	 DOD, response to SIGAR data call, 7/3/2013.
34.	   For one summary of such recommendations, see SIGAR                62.	 DOD, “Drug Interdiction and Counter-Drug Activities,
       Audit-11-1SP, Analysis of Recommendations Concerning                   Defense FY 2009 Supplemental Request Drug Interdiction and
       Contracting in Afghanistan, as Mandated by Section 1219 of             Counterdrug Activities,” accessed 4/13/2010.
       the Fiscal Year 2011 NDAA, June 22, 2011.                         63.	 DOD OIG, “Independent Auditor’s Report on the DoD FY 2011
35.	   CSTC-A, response to SIGAR data call, July 2, 2013.                     Detailed Accounting Report of the Funds Obligated for National
36.	   USAID, Office of Acquisition and Assistance, response to SIGAR         Drug Control Program Activities,” Report No. DODIG-2012-04,
       data call, July 2, 2013.                                               1/30/2012.
37.	   Daniel I. Gordon, Administrator, Office of Federal Procurement    64.	 DOD, response to SIGAR data call, 7/1/2013.
       Policy (Office of Management and Budget), letter to Senator       65.	 USAID, “U.S. Foreign Assistance Reference Guide,” 1/2005, p. 6.
       Joseph I. Lieberman, Chairman, U.S. Senate Committee on           66.	 USAID, response to SIGAR data call 7/17/2013; State, response
       Homeland Security and Governmental Affairs, July 8, 2011.              to SIGAR data call, 6/27/2013.
38.	   DOD IG, Audit Report DODIG-2013-059, Acquisition Processes        67.	 USAID, responses to SIGAR data call, 7/17/2013 and 4/18/2013.
       and Contract Management: Air Force Needs Better Processes         68.	 State, response to SIGAR data call, 10/13/2009.
       to Appropriately Justify and Manage Cost-Reimbursable             69.	 State, response to SIGAR data call, 7/15/2013 and 6/27/2013.
       Contracts, March 21, 2013.                                        70.	 State, responses to SIGAR data call, 7/15/2013 and 4/15/2013.
39.	   DOD IG, Audit Report DODIG-2013-059, Acquisition Processes        71.	SIGAR, Quarterly Report to the U.S. Congress, 7/30/2010, p. 51.
       and Contract Management: Air Force Needs Better Processes         72.	 World Bank, “ARTF: Administrator’s Report on Financial Status
       to Appropriately Justify and Manage Cost-Reimbursable                  as of June 21, 2013,” p. 5.
       Contracts, March 21, 2013.                                        73.	 World Bank, “ARTF: Administrator’s Report on Financial Status
40.	   Thomas Jefferson, letter to George Washington from Annapolis,          as of June 21, 2013,” p. 1.
       MD, March 15, 1784, http://avalon.law.yale.edu/18th_century/      74.	 World Bank, “ARTF: Administrator’s Report on Financial Status
       let23.asp, accessed July 6, 2013. Jefferson was then U.S.              as of June 21, 2013,” p. 5.
       Minister to France; Washington had returned to his plantation     75.	 World Bank, “Quarterly Country Update: Afghanistan,” 4/2011,
       at Mount Vernon after relinquishing command of the Army in             p. 16.
       December 1783.                                                    76.	 World Bank, “ARTF: Administrator’s Report on Financial Status
41.	   See Appendix B of this report.                                         as of June 21, 2013,” p. 7.
42.	   DOD, “Justification for FY 2014 Overseas Contingency              77.	 World Bank, “Quarterly Country Update: Afghanistan,” 4/2011,
       Operations, Afghanistan Security Forces Fund (ASFF),” 5/2013,          p. 16.
       p. 4.                                                             78.	 World Bank, “ARTF: Administrator’s Report on Financial Status
43.	   DOD, response to SIGAR data call, 7/22/2013 and 4/16/2013;             as of June 21, 2013,” p. 7.
       USAID, response to SIGAR data call, 4/17/2013; State, response    79.	 EC, “Afghanistan: State of Play, January 2011,” 3/31/2011, p. 7.
       to SIGAR data call, 7/15/2013; P.L. 112-74, 12/23/2011.           80.	 UNDP, “LOTFA Phase VI Quarterly Progress Report Q1/2013,”
44.	   P.L. 111-32, “Supplemental Appropriations Act 2009,” 6/24/2009.        Annex 1, 6/26/2013; SIGAR analysis of UNDP’s quarterly and
45.	   DOD, response to SIGAR vetting, 7/20/2009.                             annual LOTFA reports, 7/23/2013.
46.	   See Appendix B of this report.                                    81.	 UNDP, “LOTFA Phase VI Quarterly Progress Report Q1/2013,”
47.	   DOD, response to SIGAR data call, 7/22/2013.                           p. 1 and Annex 2, 6/26/2013; SIGAR analysis of UNDP’s quarterly
48.	   DOD, responses to SIGAR data call, 7/22/2013 and 4/16/2013.            and annual LOTFA reports, 7/23/2013.
49.	   DOD OIG, “Distribution of Funds and the Validity of Obligations   82.	 UNDP, “LOTFA Phase VI Quarterly Progress Report Q1/2013,”
       for the Management of the Afghanistan Security Forces Fund -           Annex 1, 6/26/2013.
       Phase I,” 11/5/2007, p. 2.                                        83.	 UNDP, “LOTFA Phase VI Quarterly Progress Report Q1/2013,”
50.	   DOD, response to SIGAR data call, 7/22/2013.                           Annex 1, 6/26/2013; SIGAR analysis of UNDP’s quarterly and
51.	   DOD, response to SIGAR data call, 7/22/2013.                           annual LOTFA reports, 7/23/2013.
52.	   DOD, Financial Management Regulation, “Commander’s                84.	 See Appendix B in this report; DOD, response to SIGAR data
       Emergency Response Program: Vol. 12, Ch. 27,” 1/2009, p. 27-3.         call, 7/22/2013.




REPORT TO THE UNITED STATES CONGRESS          I   JULY 30, 2013                       217
                                                             ENDNOTES




85.	    DOD, “Justification for FY 2014 Overseas Contingency                  108.	 CSTC-A, response to SIGAR data call, 7/2/2013.
        Operations, Afghanistan Security Forces Fund (ASFF),” 5/2013,         109.	 CENTCOM, response to SIGAR data call, 7/2/2013; SOJTF,
        pp. 2, 8, 11, 16. DOD stated the Core request includes items                response to SIGAR vetting, 7/12/2013.
        needed to complete the growth of the Afghanistan National             110.	 CSTC-A, response to SIGAR data call, 7/2/2013.
        Security Forces (ANSF), continue the ANSF capacity improve-           111.	 ISAF, response to SIGAR data call, 7/2/2013.
        ment and sustain the equipment, facilities and organization           112.	 IJC, response to SIGAR data call, 7/2/2013; DOD, response to
        provided or in place. The Enabler section of the request would              SIGAR vetting, 4/17/2013.
        fund an accelerated acquisition of enablers to help improve           113.	 IJC, response to SIGAR data call, 7/9/2013.
        Afghan capabilities and render the ANSF better able to take the       114.	 IJC, response to SIGAR data call, 12/20/2012.
        lead in defending its own country.                                    115.	 IJC, response to SIGAR data call, 7/9/2013.
86.	    DOD, response to SIGAR vetting, 7/12/2013.                            116.	 NTM-A, “MOD/GS Assessment ACG-AD Jan–Mar 2012,” p. 3.
87.	    DOD, “Justification for FY 2014 Overseas Contingency                  117.	 CSTC-A, responses to SIGAR data call, 7/2/2013 and 4/1/2013;
        Operations, Afghanistan Security Forces Fund (ASFF),” 5/2013,               CSTC-A, response to SIGAR vetting, 7/15/2013.
        pp. 2, 8, 11, 16.                                                     118.	 CSTC-A, response to SIGAR vetting, 7/15/2013.
88.	    CSTC-A, response to SIGAR vetting, 7/12/2013.                         119.	 CSTC-A, responses to SIGAR data call, 7/2/2013 and 4/1/2013;
89.	    DOD, “Justification for FY 2014 Overseas Contingency                        CSTC-A, response to SIGAR vetting, 7/15/2013.
        Operations, Afghanistan Security Forces Fund (ASFF),” 5/2013,         120.	 CSTC-A, responses to SIGAR data call, 7/2/2013 and 4/1/2013.
        pp. 5, 20.                                                            121.	 DOD, response to SIGAR data call, 7/22/2013.
90.	    Library of Congress, “Bill Summary and Status, 113th Congress,        122.	 CSTC-A, response to SIGAR data call, 7/2/2013.
        H.R. 1960,” 7/10/2013.                                                123.	 CSTC-A, response to SIGAR data call, 7/2/2013.
91.	    H.R. 1960, Engrossed in House, H.R. 1960, 6/14/2013,                  124.	 CSTC-A, response to SIGAR data call, 7/2/2013.
        pp. 660–662.                                                          125.	 DOD, response to SIGAR data call, 7/22/2013.
92.	    H.R. 1960, Engrossed in House, H.R. 1960, 6/14/2013,                  126.	 CSTC-A, response to SIGAR data call, 7/2/2013.
        pp. 773–774.                                                          127.	 CSTC-A, responses to SIGAR data call, 7/2/2013 and 7/7/2013.
93.	    H.R. 1960, Engrossed in House, H.R. 1960, 6/14/2013,                  128.	 DOD, “Justification for FY 2014 Overseas Contingency
        pp. 749–751.                                                                Operations, Afghanistan Security Forces Fund (ASFF), 5/2013,
94.	    GAO, GAO-13-319R, DOD Procurement of Mi-17 Helicopters,                     p. 7; CSTC-A, response to SIGAR data call, 1/2/2013.
        4/1/2013, pp. 1–10.                                                   129.	 DOD, response to SIGAR data call, 7/22/2013.
95.	    H.R. 1960, Engrossed in House, H.R. 1960, 6/14/2013,                  130.	 CSTC-A, response to SIGAR data call, 7/2/2013.
        pp. 769–770.                                                          131.	 CSTC-A, response to SIGAR data call, 7/2/2013.
96.	    CSTC-A, response to SIGAR vetting, 7/11/2013; CSTC-A,                 132.	 CSTC-A, responses to SIGAR data call, 7/2/2013 and 7/7/2013.
        response to SIGAR data call, 7/2/2013.                                133.	 CSTC-A, response to SIGAR data call, 7/2/2013.
97.	    State, U.S. Embassy, Kabul, “Afghanistan and the United               134.	 CSTC-A, response to SIGAR vetting, 7/11/2013.
        States Launch Negotiations on Bilateral Security Agreement,”          135.	 CSTC-A, responses to SIGAR data call, 7/2/2013 and 7/6/2013;
        11/15/2012.                                                                 CSTC-A, response to SIGAR vetting, 7/11/2013.
98.	    DOD, “ISAF Commander Stresses Importance of Bilateral                 136.	 CSTC-A, responses to SIGAR data call, 7/2/2013 and 7/6/2013;
        Security Agreement,” 4/17/2013.                                             CSTC-A/NATC-A, response to SIGAR vetting, 7/11/2013.
99.	    GIROA, Office of the National Security Council, “Afghanistan          137.	 DOD, “Contracts for February 27, 2013,” 2/27/2013.
        Suspends Current Afghan-U.S. Talks on Bilateral Security              138.	 CSTC-A, responses to SIGAR data call, 7/2/2013 and 7/6/2013.
        Agreement,” 6/19/2013.                                                139.	 SIGAR Audit 13-13, Afghan Special Missions Wing: DOD
100.	   Civil-Military Fusion Centre, “Afghanistan Review,” 3/12/2013;              Moving Forward with $771.8 Million Purchases of Aircraft
        Senate Armed Services Committee, Hearing Transcript,                        that the Afghans Cannot Operate and Maintain, 6/28/2013,
        3/5/2013; Stars and Stripes, “Mattis recommends post-2014                   p. 2.
        force of 20,000 in Afghanistan, 3/5/2013, accessed 4/10/2013.         140.	 CSTC-A, responses to SIGAR data call, 7/2/2013 and 7/6/2013.
101.	   DOD, “Department of Defense News Briefing with George Little          141.	 DOD, response to SIGAR data call, 7/22/2013.
        from the Pentagon,” 7/9/2013.                                         142.	 CSTC-A, response to SIGAR data call, 7/2/2012.
102.	   Senate Committee on Foreign Relations, SIGAR notes taken              143.	 CSTC-A, response to SIGAR vetting, 7/11/2013.
        during member questioning of Dr. Peter Lavoy, Acting Assistant        144.	 CSTC-A, response to SIGAR data call, 7/2/2012.
        Secretary of Defense for Asian and Pacific Security Affairs,          145.	 DOD, “Justification for FY 2013 Overseas Contingency
        7/11/2013.                                                                  Operations, Afghanistan Security Forces Fund (ASFF),” 2/2012,
103.	   UN Secretary-General, The Situation in Afghanistan and its                  pp. 4­–6; Congressional Record, House, 3/6/2013, p. H1013;
        Implications for International Peace and Security, 6/13/2013, p. 5.         Congressional Record, Senate, 3/11/2013, p. S1531; GPO, H.R.
104.	   DOD, OSD, response to SIGAR data call, 7/1/2013.                            933, 3/26/2013, p. H.R. 933–136.
105.	   DOD, OSD, response to SIGAR data call, 7/1/2013.                      146.	 DOD, response to SIGAR data call, 7/22/2013.
106.	   CENTCOM, response to SIGAR data call, 7/1/2013.                       147.	 CSTC-A, response to SIGAR data call, 7/2/2013.
107.	   DOD, “Operation Enduring Freedom U.S. Casualty Status,”               148.	 CSTC-A, response to SIGAR data call, 7/2/2013.
        7/15/2013; USAF, “Fact Sheet: Operation Enduring Freedom,”            149.	 CSTC-A, response to SIGAR data call, 10/12/2012.
        8/23/2011.                                                            150.	 CSTC-A, response to SIGAR data call, 10/12/2012.




                                                       218                    SPECIAL INSPECTOR GENERAL       I   AFGHANISTAN RECONSTRUCTION
                                                             ENDNOTES




151.	   CSTC-A, response to SIGAR data call, 7/2/2013.                       197.	DOD, Report on Progress Toward Security and Stability in
152.	   CSTC-A, response to SIGAR data call, 7/2/2013.                             Afghanistan, 4/2010, p. 9.
153.	   CSTC-A, response to SIGAR vetting, 7/11/2014.                        198.	 State, INL, response to SIGAR data call, 7/16/2013; DOD, OSD,
154.	   CSTC-A, response to SIGAR data call, 7/2/2013.                             response to SIGAR data call, 7/1/2013.
155.	   CSTC-A, response to SIGAR data call, 7/2/2013.                       199.	 State, INL, response to SIGAR data call, 6/27/2013.
156.	   DOD, “Afghan Security Forces Grow in Numbers, Quality,”              200.	 Congressional Research Service, Afghanistan: Narcotics and
        5/23/2011.                                                                 U.S. Policy, 8/2009, Summary.
157.	   Congressional Quarterly Transcripts, Senate Foreign Relations        201.	 Congressional Research Service, Afghanistan: Post-Taliban
        Committee Holds Hearing on Transition in Afghanistan,                      Governance, Security, and U.S. Policy, 4/2013, p. 17.
        Panel 1, 7/11/2013.                                                  202.	 U.S. Institute of Peace, “Top Afghan Officials Appeal for
158.	   CSTC-A, responses to SIGAR data call, 7/2/2013 and 7/6/2013;               Sustained Help Against Opium,” 6/2013, p. 1.
        CSTC-A, response to SIGAR vetting, 7/11/2013.                        203.	 U.S. Institute of Peace, “How Opium Profits the Taliban,” 8/2009,
159.	   CSTC-A, response to SIGAR data call, 7/6/2010.                             pp. 18, 19, 20, 1; Seth Jones, In the Graveyard of Empires:
160.	   CSTC-A, responses to SIGAR data call, 7/2/2013 and 7/6/2013.               America’s War in Afghanistan, p. 195.
161.	   CSTC-A, responses to SIGAR data call, 7/2/2013 and 7/6/2013.         204.	 PBS Interview with Vanda Felbab-Brown, “Why Eradication
162.	   CSTC-A, responses to SIGAR data call, 7/2/2013 and 7/6/2013;               Won’t Solve Afghanistan’s Poppy Problem,” 1/2012, p. 3.
        CSTC-A, response to SIGAR vetting, 7/11/2013.                        205.	 U.S. Institute of Peace, “Top Afghan Officials Appeal for
163.	   DOD, response to SIGAR data call, 7/22/2013.                               Sustained Help Against Opium,” 6/2013, p. 2.
164.	   CSTC-A, response to SIGAR data call, 7/2/2013.                       206.	 Civil-Military Fusion Centre, “Corruption & Anticorruption Issues
165.	   DOD, response to SIGAR data call, 7/22/2013.                               in Afghanistan,” 2/2012, p. 5; Congressional Research Service,
166.	   CSTC-A, response to SIGAR data call, 7/2/2013.                             Afghanistan: Politics, Elections, and Government Performance,
167.	   CSTC-A, responses to SIGAR data call, 7/2/2013, 7/7/2013, and              5/23/2013, pp. Summary, 17; PBS Interview with Vanda Felbab-
        7/9/2013.                                                                  Brown, “Why Eradication Won’t Solve Afghanistan’s Poppy
168.	   CSTC-A, responses to SIGAR data call, 7/2/2013, 7/7/2013, and              Problem,” 1/2012, p. 2; Civil-Military Fusion Centre, “Corruption &
        7/9/2013.                                                                  Anticorruption Issues in Afghanistan,” 2/2012, p. 5.
169.	   DOD, response to SIGAR data call, 7/22/2013.                         207.	 Civil-Military Fusion Centre, “Corruption & Anticorruption
170.	   CSTC-A, response to SIGAR data call, 7/2/2013.                             Issues in Afghanistan,” 2/2012, p. 5.
171.	   DOD, response to SIGAR data call, 7/22/2013.                         208.	 U.S. Institute of Peace, “How Opium Profits the Taliban,” 8/2009,
172.	   CSTC-A, response to SIGAR data call, 7/2/2013.                             p. 1.
173.	   CSTC-A, response to SIGAR data call, 7/2/2013.                       209.	UNODC, Afghanistan Opium Economy, 2003, p. 88.
174.	   CSTC-A, response to SIGAR vetting, 7/11/2013.                        210.	UNODC, Afghanistan Opium Economy, 2003, pp. 88–90; U.S.
175.	   DOD, response to SIGAR data call, 7/22/2013.                               Institute of Peace, “How Opium Profits the Taliban,” 8/2009,
176.	   CSTC-A, response to SIGAR data call, 7/2/2013.                             p. 7.
177.	   CSTC-A, response to SIGAR data call, 7/2/2013.                       211.	UNODC, Afghanistan Opium Economy, 2003, p. 92; U.S. Institute
178.	   CSTC-A, response to SIGAR data call, 7/2/2013.                             of Peace, “How Opium Profits the Taliban,” 8/2009, p. 12.
179.	   CSTC-A, response to SIGAR data call, 10/12/2012.                     212.	UNODC, Afghanistan Opium Economy, 2003, p. 92.
180.	   CSTC-A, response to SIGAR data call, 7/2/2013.                       213.	 U.S. Institute of Peace, “How Opium Profits the Taliban,” 8/2009,
181.	   CSTC-A, response to SIGAR data call, 7/2/2013.                             p. 14; UNODC, Afghanistan Opium Economy, 2003, p. 93.
182.	   CSTC-A, response to SIGAR vetting, 7/11/2014.                        214.	UNODC, Afghanistan Opium Survey 2004, 11/2004, p. 19.
183.	   CSTC-A, response to SIGAR data call, 7/2/2013.                       215.	UNODC, Afghanistan Opium Survey 2004, 11/2004, p. 1;
184.	   CSTC-A, response to SIGAR data call, 7/2/2013.                             UNODC, Afghanistan Opium Survey 2006, 9/2006, p. 1;
185.	   CSTC-A, response to SIGAR data call, 7/2/2013.                             UNODC, World Drug Report 2008, p. 7; UNODC, Afghanistan
186.	   CSTC-A, response to SIGAR data call, 7/6/2010.                             Opium Survey 2009, 12/2009, Fact Sheet; UNODC,
187.	   CSTC-A, response to SIGAR data call, 7/2/2013.                             Afghanistan Opium Survey 2011, 12/2011, p. 3; UNODC, World
188.	   CSTC-A, response to SIGAR data call, 7/2/2013.                             Drug Report 2013, 6/2013, p. x.
189.	   CSCT-A, response to SIGAR data call, 7/2/2013.                       216.	 Brookings Institution, Still Knee-Deep in Poppy: The Evolution
190.	   NATO, “Military healthcare starts transitioning to Afghan con-             of Counternarcotics Policies in Afghanistan, 3/2013, p. 1;
        trol,” 6/2013, p. 1.                                                       UNODC, World Drug Report 2013, 6/2013, p. 31.
191.	   CSCT-A, response to SIGAR data call, 7/2/2013.                       217.	UNODC, Afghanistan Opium Survey 2008, 8/2008, p. 1;
192.	   State, PM/WRA, response to SIGAR data call, 6/27/2013.                     UNODC, Afghanistan Opium Survey 2009, 12/2009, Fact
193.	   State, PM/WRA, response to SIGAR data call, 6/27/2013.                     Sheet; UNODC, Afghanistan Opium Survey 2010, 9/2010, Fact
194.	   State, PM/WRA, response to SIGAR data call, 6/27/2013.                     Sheet; UNODC, Afghanistan Opium Survey 2011, 12/2011,
195.	   Reuters, “Afghan Opium Cultivation to Rise in 2013 - U.N.,”                p. 3; UNODC, Afghanistan Opium Survey 2012 Summary
        4/2013; New York Times, “Opium Production in Afghanistan Up                Findings, 11/2012, p. 3; Asia Development Bank, “Afghanistan
        for Third Year,” 4/2013; U.S. Institute of Peace, “Afghanistan and         Fact Sheet,” 12/2012, p. 1.
        the International Drug Control Regime: Can the ‘Tail’ Wag the        218.	UNODC, World Drug Report 2013, 6/2013, pp. x, 57.
        ‘Dog’?” 4/2013, p. 1.                                                219.	UNODC, World Drug Report 2013, 6/2013, p. 36.
196.	   Asia Development Bank, “Afghanistan Fact Sheet,” 12/2012.            220.	UNODC, World Drug Report 2013, 6/2013, pp. 2, 10, 35, 14, ix, 30.




REPORT TO THE UNITED STATES CONGRESS             I   JULY 30, 2013                         219
                                                        ENDNOTES




221.	UNODC, Afghanistan Opium Risk Assessment 2013, 4/2013,              251.	 State, INL, responses to SIGAR data call, 6/27/2013 and 7/16/2013.
      pp. 1–2.                                                           252.	 DOD, OSD, response to SIGAR data call, 7/1/2013.
222.	UNODC, Afghanistan Opium Risk Assessment 2013, 4/2013, p. 1.        253.	 State, INL, response to SIGAR data call, 6/27/2013.
223.	 State, INL, response to SIGAR data call, 6/27/2013.                254.	SIGAR, Afghan Special Mission Wing: DOD Moving Forward
224.	UNODC, Afghanistan Opium Risk Assessment 2013, 4/2013, p. 8.              with $771.8 Million Purchase of Aircraft that the Afghans
225.	UNODC, Afghanistan Opium Risk Assessment 2013, 4/2013,                    Cannot Operate and Maintain, 6/2013, Summary.
      pp. 1, 7.                                                          255.	 CSTC-A, response to SIGAR data call, 7/1/2013.
226.	 PBS, Interview with Vanda Felbab-Brown, “Why Eradication           256.	GAO, Afghanistan Drug Control: Strategy Evolving and
      Won’t Solve Afghanistan’s Poppy Problem,” 1/2012, p. 3.                  Progress Reported, but Interim Performance Targets and
227.	 U.S. Senate Caucus on International Narcotics Control, “U.S.             Evaluation of Justice Reform Efforts Needed, 3/2010, p. 5.
      Counternarcotics Strategy In Afghanistan,” p. 2.                   257.	DOD, Report on Progress Toward Security and Stability in
228.	 State, INL, response to SIGAR data call, 7/16/2013; State, “U.S.         Afghanistan, 4/2010, p. 9.
      Counternarcotics Strategy for Afghanistan,” 3/2010, p. 3; Civil-   258.	 DOD, OSD, response to SIGAR data call, 7/2/2013.
      Military Fusion Center, “Counter-Narcotics in Afghanistan,”        259.	 DOD, OSD, response to SIGAR data call, 7/2/2013.
      8/2012, p. 46.                                                     260.	 Brookings Institution, Afghanistan Trip Report VI:
229.	 State, INL, response to SIGAR data call, 6/27/2013; State, INL,          Counternarcotics Policy in Afghanistan: A Good Strategy
      response to SIGAR vetting, 7/12/2013.                                    Poorly Implemented, 5/2012, pp. 1, 4.
230.	UNODC, Afghanistan Opium Survey 2012: Summary                       261.	 U.S. Senate Caucus on International Narcotics Control, “U.S.
      Findings, 11/2012, p. 3.                                                 Counternarcotics Strategy in Afghanistan,” 7/2010, p. 8.
231.	UNODC, Afghanistan Opium Risk Assessment 2013, 4/2013, p. 1.        262.	 U.S. Institute of Peace, “Top Afghan Officials Appeal for
232.	 PBS Interview with Vanda Felbab-Brown, “Why Eradication                  Sustained Help Against Opium,” 6/2013, p. 2.
      Won’t Solve Afghanistan’s Poppy Problem,” 1/2012, p. 4;            263.	 State, INL, response to SIGAR data call, 6/27/2013.
      Brookings Institution, Afghanistan Trip Report VI:                 264.	 DOD, OSD, response to SIGAR data call, 7/2/2013.
      Counternarcotics Policy in Afghanistan: A Good Strategy            265.	 DOD, OSD, response to SIGAR data call, 7/2/2013.
      Poorly Implemented, 5/2012, p. 10.                                 266.	 U.S. Institute of Peace, “Afghanistan and the International Drug
233.	 DOD, “Report on Progress Toward Security and Stability in                Control Regime: Can the ‘Tail’ Wag the ‘Dog’?” 4/2013, p. 2.
      Afghanistan,” 12/2012, p. 123.                                     267.	 U.S. Institute of Peace, “Afghanistan and the International Drug
234.	 State, INL, response to SIGAR data call, 7/16/2013.                      Control Regime: Can the ‘Tail’ Wag the ‘Dog’?” 4/2013, p. 2;
235.	 State, INL, response to SIGAR data call, 6/27/2013.                      Congressional Research Service, “Afghanistan: Narcotics and
236.	 State, INL, response to SIGAR data call, 6/27/2013.                      U.S. Policy,” 8/2009, Summary.
237.	 Civil-Military Fusion Center, “Counter-Narcotics in                268.	 U.S. Institute of Peace, “Afghanistan and the International Drug
      Afghanistan,” 8/2012, p. 27.                                             Control Regime: Can the ‘Tail’ Wag the ‘Dog’?” 4/2013, p. 2.
238.	 International Relief and Development, “Establishing Stability in   269.	 PBS, Interview with Vanda Felbab-Brown, “Why Eradication
      Southern Afghanistan through Cash-for-Work Activities,” p. 2.            Won’t Solve Afghanistan’s Poppy Problem,” 1/2012, p. 4;
239.	 The World Bank, Responding to Afghanistan’s Opium                        Brookings Institution, Afghanistan Trip Report VI:
      Economy Challenge-Lessons and Policy Implications from a                 Counternarcotics Policy in Afghanistan: A Good Strategy
      Development Perspective, 3/2008, p. 19; Brookings Institution,           Poorly Implemented, 5/2012, p. 9.
      Afghanistan Trip Report VI: Counternarcotics Policy in             270.	 Afghanistan Research and Evaluation Unit, David Mansfield,
      Afghanistan: A Good Strategy Poorly Implemented, 5/2012, p. 6.           “Between a Rock and a Hard Place,” 10/2011, p. 32.
240.	 Brookings Institution, Afghanistan Trip Report VI:                 271.	 PBS Interview with Vanda Felbab-Brown, “Why Eradication
      Counternarcotics Policy in Afghanistan: A Good Strategy                  Won’t Solve Afghanistan’s Poppy Problem,” 1/2012, p. 5.
      Poorly Implemented, 5/2012, p. 7.                                  272.	 U.S. Institute of Peace, “Afghanistan and the International Drug
241.	 Brookings Institution, Afghanistan Trip Report VI:                       Control Regime: Can the ‘Tail’ Wag the ‘Dog’?” 4/2013, p. 2.
      Counternarcotics Policy in Afghanistan: A Good Strategy            273.	 U.S. Institute of Peace, “Afghanistan and the International Drug
      Poorly Implemented, 5/2012, p. 6.                                        Control Regime: Can the ‘Tail’ Wag the ‘Dog’?” 4/2013, p. 2.
242.	 USAID, response to SIGAR data call, 7/2013.                        274.	 See Appendix B
243.	 USAID OIG, “Audit of USAID/Afghanistan’s Incentives Driving        275.	 Co-Chair’s Statement, Tokyo Mutual Accountability Framework,
      Economic Alternatives for the North, East, and West Program,”            Senior Officials Meeting, Kabul, Afghanistan, 7/3/2013, accessed
      6/2012, p. 2.                                                            7/4/2013.
244.	 USAID, response to SIGAR data call, 7/2013.                        276.	 Co-Chair’s Statement, Tokyo Mutual Accountability Framework,
245.	 State, INL, response to SIGAR data call, 6/27/2013.                      Senior Officials Meeting, Kabul, Afghanistan, 7/3/2013, accessed
246.	UNODC, Afghanistan Opium Risk Assessment 2013, 4/2013, p. 8.              7/4/2013.
247.	 State, INL, response to SIGAR data call, 6/27/2013.                277.	 The Wall Street Journal, “Afghan President Signs Key Election
248.	 State, INL, response to SIGAR data call, 6/27/2013.                      Measure,” 7/17/2013.
249.	 CSTC-A, response to SIGAR data call, 7/2/2013.                     278.	 State, response to SIGAR data call, 6/24/2013.
250.	DOD, Report on Progress Toward Security and Stability in            279.	 U.S. Senate, S. Res. 151, “Urging the Government of Afghanistan
      Afghanistan, 12/2012, p. 124; Civil-Military Fusion Center,              to Hold Transparent and Credible Presidential and Provincial
      “Counter-Narcotics in Afghanistan,” 8/2012, pp. 50–52.                   Elections,” July 9, 2013.




                                                  220                    SPECIAL INSPECTOR GENERAL         I   AFGHANISTAN RECONSTRUCTION
                                                             ENDNOTES




280.	 James F. Dobbins, Press Conference, 6/27/2013, accessed                319.	 World Bank, Afghanistan Economic Update, 4/2013, p. 15.
      7/4/2013.                                                              320.	 Senior Officials Meeting Joint Report, Tokyo Mutual
281.	 Washington Post, “Afghan Peace Negotiations Uncertain,                       Accountability Framework, 7/3/2013, p. 5.
      7/4/2013.                                                              321.	 DOD, response to SIGAR data call, 6/5/2013.
282.	 Reuters, “Karzai Announces Peace Talks As Afghans Take Over            322.	 State, response to SIGAR data call, 6/24/2013.
      Security,” 6/18/2013.                                                  323.	 USAID, response to SIGAR data call, 7/1/2013.
283.	 Washington Post, “Afghan Peace Negotiations Uncertain,                 324.	SIGAR, Quarterly Report to Congress, 1/2013, p. 107.
      7/4/2013.                                                              325.	 SIGAR Audit 13-16, Stability in Key Areas (SIKA) Programs:
284.	 State, response to SIGAR data call, 7/2/2013.                                16 Months After USAID Awarded the First Contract, Its
285.	 State, response to SIGAR data call, 6/20/2013 and DOD,                       Contractors Have Not Executed Any Community-Based Grant
      response to SIGAR data call, 6/27/2013.                                      Projects, July , 2013.
286.	 DOD, response to SIGAR data call, 6/27/2013.                           326.	 DOD, response to SIGAR data call, 7/8/2013.
287.	 DOD, response to SIGAR data call, 6/27/2013.                           327.	 USAID, response to SIGAR data call, 7/1/2013.
288.	 DOD, response to SIGAR data call, 6/27/2013.                           328.	 USAID, response to SIGAR data call, 7/1/2013.
289.	 DOD, response to SIGAR data call, 6/27/2013.                           329.	 USAID, response to SIGAR data call, 7/1/2013.
290.	 Force Reintegration Cell, HQ ISAF, “A Guide to the Afghanistan         330.	 USAID, response to SIGAR data call, 7/1/2013.
      Peace and Reconciliation Program,” March 2012.                         331.	 USAID, response to SIGAR data call, 7/1/2013.
291.	 DOD, response to SIGAR data call, 6/27/2013.                           332.	 USAID, response to SIGAR data call, 7/1/2013.
292.	 State, response to SIGAR data call, 6/21/2013.                         333.	SIGAR, Quarterly Report to Congress, 4/2013, p. 122.
293.	 State, response to SIGAR data call, 6/21/2013.                         334.	 USAID, response to SIGAR data call, 7/1/2013.
294.	SIGAR, Quarterly Report to Congress, 1/2013, p. 44–45; State,           335.	 USAID, response to SIGAR data call, 7/1/2013.
      response to SIGAR data call, 6/21/2013.                                336.	 USAID, response to SIGAR data call, 7/1/2013.
295.	 State, response to SIGAR data call, 6/21/2013.                         337.	 USAID, Fact Sheet: Afghanistan Media Development and
296.	 Center for a New American Security, Toward a Successful                      Empowerment Project (AMDEP), December 2012.
      Outcome in Afghanistan, May 2013, p. 9.                                338.	 USAID, response to SIGAR data call, 7/1/2013; Internews,
297.	 State, “Testimony of David Pearce, Deputy Special                            “Afghan National Radio Network Launches as Independent
      Representative for Afghanistan and Pakistan,” Senate Foreign                 NGO,” 4/10/2012.
      Relations Committee, 5/21/2013.                                        339.	 USAID, response to SIGAR data call, 7/1/2013.
298.	 The Wall Street Journal, “Afghan President Signs Key Election          340.	 USAID, response to SIGAR data call, 7/1/2013.
      Measure,” 7/17/2013.                                                   341.	 USAID, response to SIGAR data call, 7/1/2013.
299.	 USAID, reponse to SIGAR data call, 7/1/2013.                           342.	 State, response to SIGAR data call, 7/1/2013; Asia Foundation,
300.	 USAID, response to SIGAR data call, 7/1/2013.                                Afghanistan in 2012: A Survey of the Afghan People, 2012, p. 148.
301.	 Congressional Research Service, Afghanistan: Politics,                 343.	 USAID, response to SIGAR data call, 7/1/2013.
      Elections, and Government Performance, May 23, 2013, p. 31;            344.	 Transparency International, Global Corruption Barometer
      State, response to SIGAR data call, 6/27/2013.                               2013, 7/9/2013, http://www.transparency.org/gcb2013/
302.	 UN Secretary-General, The Situation in Afghanistan and its                   country/?country=afghanistan, accessed 7/9/2013 .
      Implications for International Peace and Security, 6/13/2013, p. 3.    345.	 UN Secretary-General, The Situation in Afghanistan and its
303.	 USAID, response to SIGAR data call, 7/1/2013.                                Implications for International Peace and Security, 6/13/2013, p. 9.
304.	 State, response to SIGAR data call, 7/1/2013.                          346.	 Congressional Research Service, “Afghanistan: Politics,
305.	 The Wall Street Journal, “Afghan President Signs Key Election                Elections, and Government Performance,” May 23, 2013, p. 9.
      Measure,” 7/17/2013.                                                   347.	 State, “Testimony of David Pearce, Deputy Special
306.	 State, response to SIGAR vetting, 7/12/2013.                                 Representative for Afghanistan and Pakistan,” Senate Foreign
307.	 State, response to SIGAR data call, 7/1/2013, UN Secretary-                  Relations Committee, 5/21/2013.
      General, The Situation in Afghanistan and its Implications             348.	 Reuters, “Suspected Taliban Bomber Targets Afghan Court,”
      for International Peace and Security, 6/13/2013, p. 3.                       June 11, 2013.
308.	 State, response to SIGAR data call, 7/1/2013.                          349.	 State, response to SIGAR data call, 6/24/2013.
309.	 UN Secretary-General, “The Situation in Afghanistan and its            350.	 Integrity Watch Afghanistan, “Shadow Justice: How the Taliban
      Implications for International Peace and Security,” 6/13/2013, p. 2.         Run their Judiciary?”, 2012.
310.	 State, response to SIGAR data call, 7/1/2013.                          351.	 State, response to SIGAR data call, 7/1/2013.
311.	 USAID, response to SIGAR data call, 7/1/2013.                          352.	 USAID/State, letter to SIGAR in response to SIGAR letter of
312.	 USAID, response to SIGAR data call, 7/1/2013.                                3/25/2013, 5/9/2013, p. 4.
313.	 State, response to SIGAR data call, 7/1/2013.                          353.	 Co-Chair’s Statement, Tokyo Mutual Accountability Framework,
314.	 State, response to SIGAR data call, 7/1/2013.                                Senior Officials Meeting, Kabul, Afghanistan, 7/3/2013, accessed
315.	 The Wall Street Journal, “Afghan President Signs Key Election                7/4/2013.
      Measure,” 7/17/2013.                                                   354.	 UN Secretary-General, The Situation in Afghanistan and its
316.	 USAID, response to SIGAR data call, 7/1/2013.                                Implications for International Peace and Security, 6/13/2013, p. 9.
317.	 USAID, response to SIGAR data call, 7/1/2013.                          355.	 New York Times, “Karzai Says He Was Assured CIA Would
318.	 SIGAR, Quarterly Report to Congress, 1/2013, p. 104.                         Continue Delivering Bags of Cash,” 5/4/2013.




REPORT TO THE UNITED STATES CONGRESS             I   JULY 30, 2013                         221
                                                           ENDNOTES




356.	 State, response to SIGAR data call, 6/24/2013.                        390.	DOD, Report on Progress Toward Security and Stability in
357.	 State, response to SIGAR data call, 6/24/2013.                              Afghanistan, 12/2012, accessed 12/24/2012.
358.	 State, response to SIGAR data call, 6/24/2013.                        391.	 MOF, “1392 National Budget,” accessed 7/1/2013.
359.	 State, response to SIGAR data call, 6/24/2013.                        392.	 Senior Officials Meeting Joint Report, Tokyo Mutual
360.	 USAID, response to SIGAR data call, 7/1/2013.                               Accountability Framework, 7/3/2013, p. 5; MOF, “Monthly Fiscal
361.	 USAID, response to SIGAR data call, 7/1/2013.                               Bulletin, Month 2,” 5/18/13, accessed 6/24/2013.
362.	 USAID, response to SIGAR data call, 7/1/2013.                         393.	 ACCI, “Business Monitor,” 4/2013, accessed 7/9/2013.
363.	 USAID, response to SIGAR data call, 7/1/2013.                         394.	 State, “FY 2014 Executive Budget Summary, Function 150 &
364.	 DOD, response to SIGAR data call, 7/2/2013.                                 Other International Programs,” 4/10/2013, p. 93.
365.	 DOD, response to SIGAR data call, 7/2/2013.                           395.	 WTO, “WTO Accession Newsletter,” May 2013, accessed
366.	 State, response to SIGAR data call, 6/28/2013.                              6/17/2013; WTO, “WTO Programme of Meetings for 2013,”
367.	 World Bank, Afghanistan Economic Update, 4/2013, p. 15.                     6/14/2013.
368.	 State, response to SIGAR data call, 6/28/2013.                        396.	 State, response to SIGAR data call, 6/26/2013.
369.	 State, response to SIGAR data call, 6/28/2013.                        397.	 MOCI, “Afghanistan’s Progress in Joining the WTO,” accessed
370.	 State, response to SIGAR data call, 4/4/2013.                               6/17/2013.
371.	 UN Secretary-General, The Situation in Afghanistan and its            398.	 State, response to SIGAR data call, 6/26/2013.
      Implications for International Peace and Security, 6/13/2013, p. 9.   399.	 Tokyo Conference on Afghanistan, Tokyo Mutual
372.	 Human Rights Watch, “Dark Future for Women’s Rights in                      Accountability Framework, 7/8/2012, accessed 7/4/2013.
      Afghanistan,” 5/22/2013, accessed 6/25/2013; The New York             400.	 Treasury, response to SIGAR vetting, 7/12/2013.
      Times, “Effort To Strengthen an Afghan Law on Women May               401.	 Treasury, response to SIGAR vetting, 7/12/2013.
      Backfire,” 5/18/2013.                                                 402.	 Treasury, response to SIGAR vetting, 7/12/2013.
373.	 Co-Chair’s Statement, Tokyo Mutual Accountability Framework,          403.	 Treasury, response to SIGAR vetting, 7/12/2013.
      Senior Officials Meeting, Kabul, Afghanistan, 7/3/2013, accessed      404.	 Treasury, response to SIGAR data call, 6/26/2013; Treasury,
      7/4/2013.                                                                   response to SIGAR data call, 4/1/2013; Treasury, response to
374.	 Human Rights Watch, Submission on the Combined Initial                      SIGAR vetting, 7/12/2013; IMF, “IMF Executive Board Completes
      and Second Periodic Report of Afghanistan to the United                     First Review Under the Extended Credit Facility Arrangement for
      Nations Committee on the Elimination of Discrimination                      the Islamic Republic of Afghanistan, Approves US$18.2 Million
      Against Women, 7/4/2013, accessed 7/8/2013.                                 Disbursement,” 6/29/2012, accessed 7/3/2013; IMF, “Islamic
375.	 USAID, response to SIGAR data call, 7/1/2013.                               Republic of Afghanistan-First Review Under the Extended Credit
376.	 USAID/State, letter to SIGAR in response to SIGAR letter of                 Facility Arrangement, Request for Waiver of Nonobservance of a
      3/25/2013, 5/9/2013, p. 3.                                                  performance Criterion, Modification of Performance Criteria, and
377.	 State, response to SIGAR data call, 7/1/2013.                               Rephasing of Disbursements,” 6/19/2012, accessed 7/3/2013.
378.	 State, response to SIGAR data call, 7/1/2013.                         405.	DOD, Report on Progress Toward Security and Stability in
379.	 Human Rights Watch, “Afghanistan: Weak Appointments                         Afghanistan, 12/2012, accessed 7/4/2013.
      Undermine Body,” 6/18/2013, accessed 7/5/2013.                        406.	 USAID, response to SIGAR data call, 4/1/2013; USAID, response
380.	 United Nations Human Rights Commission, “Pillay Urges                       to SIGAR data call, 7/16/2013.
      Reconsideration of New Appointments for the Afghan Human              407.	 USAID, response to SIGAR data call, 7/1/2013.
      Rights Commission,” 6/28/2013, accessed 7/1/2013.                     408.	USAID-OIG, Review of USAID/Afghanistan’s Monitoring and
381.	 Human Rights Watch, “Afghanistan: Weak Appointments                         Evaluation System (Report No. F-306-12-002-S), 9/26/2012,
      Undermine Body,” 6/18/2013, accessed 7/5/2013.                              accessed 7/8/2013.
382.	 UNAMA, “Co-Chair’s Statement Tokyo Mutual Accountability              409.	 USAID, response to SIGAR data call, 7/1/2013.
      Framework Senior Officials Meeting,” 7/3/2013, accessed               410.	 USAID, response to SIGAR data call, 7/1/2013.
      7/4/2013.                                                             411.	 USAID, response to SIGAR data call, 7/1/2013.
383.	 The Basel Institute on Governance, The Basel AML Index                412.	 State, response to SIGAR data call, 6/25/2013; State, response to
      2013, 6/10/2013, accessed 7/4/2013; The Basel Institute on                  SIGAR vetting, 7/16/2013.
      Governance, The Basel AML Index 2013 vs. 2012 Public                  413.	 USAID, response to SIGAR data call, 7/1/2013; USAID, response
      Edition Final Scores, 7/17/2013, accessed 7/17/2013.                        to SIGAR vetting, 7/15/2013.
384.	 World Bank, Afghanistan’s Jobs Challenge, 5/2/2013. p. 1;             414.	 Treasury, response to SIGAR data call, 4/1/2013; Treasury,
      UNAMA, “UN-Backed Conference Highlights Agriculture for                     response to SIGAR data call, 6/26/2013; Treasury, response to
      Economic Growth, Job Creation,” 5/8/2013, accessed 7/14/2013.               SIGAR vetting, 7/12/2013.
385.	 Treasury, response to SIGAR data call, 6/26/2013.                     415.	 Paris Club, “HIPC Initiative,” accessed 7/9/2013; Treasury,
386.	GIROA, Afghanistan National Railway Plan, 7/1/2013,                          response to SIGAR data call, 6/26/2013; Treasury, response to
      accessed 7/7/2013.                                                          SIGAR data call, 4/1/2013.
387.	 World Bank, Afghanistan Economic Update, 4/2013, pp. 4, 17.           416.	 Treasury, response to SIGAR data call, 6/26/2013.
      388.	World Bank, Afghanistan Economic Update, 4/2013, pp. 4,          417.	 The Basel Institute on Governance, The Basel AML Index
      17; World Bank, Afghanistan In Transition: Looking Beyond                   2013, 6/10/2013, accessed 7/4/2013; The Basel Institute on
      2014, 2/28/2013, accessed 7/4/2013.                                         Governance, The Basel AML Index 2013 vs. 2012 Public
389.	 World Bank, Afghanistan Economic Update, 4/2013, p. 17.                     Edition Final Scores, 7/17/2013, accessed 7/17/2013.




                                                    222                     SPECIAL INSPECTOR GENERAL        I   AFGHANISTAN RECONSTRUCTION
                                                            ENDNOTES




418.	State, International Narcotics Control Strategy Report, Vol. II,       448.	 State, response to SIGAR data call, 6/24/2013.
      3/2013, accessed 7/11/2013.                                           449.	 State, response to SIGAR data call, 6/24/2013.
419.	 DOD, “Report on Progress Toward Security and Stability in             450.	 TFBSO, response to SIGAR data call, 7/3/2013.
      Afghanistan,” 12/2012, accessed 7/4/2013.                             451.	 TFBSO, response to SIGAR vetting, 7/17/2013.
420.	 World Bank, Afghanistan Economic Update, 4/2013, p. 12.               452.	 TFBSO, response to SIGAR data call, 7/3/2013. TFBSO,
421.	 World Bank, Afghanistan Economic Update, 4/2013, p. 11.                     response to SIGAR vetting, 7/17/2013.
422.	 World Bank, Afghanistan Economic Update, 4/2013, p. 12.               453.	 State, response to SIGAR data call, 6/24/2013; State, response to
423.	 World Bank, Afghanistan Economic Update, 4/2013, pp. 10–11.                 SIGAR vetting, 7/12/2013; TFBSO, response to SIGAR data call,
424.	 World Bank, Afghanistan Economic Update, 4/2013, pp. 8–9.                   7/3/2013; TFBSO, response to SIGAR vetting, 7/16/2013.
425.	 State, response to SIGAR data call, 3/25/2013.                        454.	 TFBSO, response to SIGAR data call, 7/3/2013.
426.	 DOJ, response to SIGAR data call, 6/29/2013; Joint Anti-              455.	 USAID, response to SIGAR data call, 7/1/2013
      Corruption Monitoring and Evaluation Committee, “Kabul Bank           456.	 USDA, “Agriculture in Afghanistan Overview,” accessed 6/14/2013.
      Special Tribunal Judgment Falls Short and Will Not Facilitate         457.	 NSC, “Report in Response to Section 1535(c) of the Ike Skelton
      the Recovery of Stolen Money,” 3/5/2013, accessed 7/4/2013.                 National Defense Authorization Act for Fiscal Year 2011 (P.L.
427.	 Independent Joint Anti-Corruption Monitoring and Evaluation                 111-383),” accessed 9/18/2012.
      Committee, “Report of the Public Inquiry Into the Kabul Bank          458.	 UNAMA, “UN-Backed Conference Highlights Agriculture for
      Crisis,” 11/15/2012, p. 2.                                                  Economic Growth and Job Creation,” 5/8/2013, accessed 6/12/2013.
428.	 MOF, “Senior Officials Meeting Joint Report,” 7/3/2013, accessed      459.	 USAID, response to SIGAR data call, 7/1/2013.
      7/16/2013.                                                            460.	 USAID, response to SIGAR data call, 7/1/2013; USAID, response
429.	 DOJ, response to SIGAR data call, 6/29/2013.                                to SIGAR data call, 4/1/2013.
430.	 DOJ, response to SIGAR data call, 6/29/2013.                          461.	 USAID, response to SIGAR data call, 7/1/2013.
431.	 U.S. Embassy Kabul, “Afternoon Afghan Media Summary,”                 462.	 USAID, response to SIGAR data call, 7/1/2013; USAID, response
      6/30/2013, accessed 7/1/2013; Pakistan Observer, “Kabul Bank                to SIGAR data call, 4/1/2013.
      Crisis: Foreign Firms Face Action,” 7/1/2013, accessed 7/1/2013.      463.	 USAID, response to SIGAR data call, 7/1/2013.
432.	 Independent Joint Anti-Corruption Monitoring and Evaluation           464.	 USAID, response to SIGAR data call, 7/1/2013.
      Committee, Report of the Public Inquiry Into the Kabul                465.	 USAID, response to SIGAR data call, 7/1/2013; USAID,
      Bank Crisis, 11/15/2012, pp. 11, 42; Independent Joint Anti-                “Commercial Horticulture and Agriculture Marketing Program,
      Corruption Monitoring and Evaluation Committee, response to                 Factsheet,” 1/2013, accessed 7/16/2013.
      SIGAR inquiry, 7/1/2013.                                              466.	 USAID, response to SIGAR data call, 7/1/2013.
433.	 World Bank, Afghanistan Economic Update, 4/2013, p. 4; World          467.	SIGAR, Quarterly Report to Congress, 1/2013, p. 136; USAID,
      Bank, Inclusive Growth for Sustainable Jobs, 5/7/2013. p. 20.               response to SIGAR vetting, 4/15/2013.
434.	 World Bank, Inclusive Growth for Sustainable Jobs, 5/7/2013, p. 22.   468.	 USAID, response to SIGAR vetting, 4/15/2013; DOD, response to
435.	 TFBSO, response to SIGAR data call, 7/3/2013; TFBSO,                        SIGAR vetting, 7/15/2013.
      response to SIGAR data call, 4/2/2013.                                469.	 GIROA, “National Energy Supply Program (NESP),” 1/2013,
436.	 USAID, response to SIGAR data call, 7/1/2013; USAID, response               accessed 7/9/2013.
      to SIGAR vetting, 4/15/2013.                                          470.	 USAID, response to SIGAR data call, 7/1/2013; USAID, response
437.	 TFBSO, response to SIGAR data call, 7/3/2013.                               to SIGAR vetting, 4/15/2013.
438.	 World Bank, Inclusive Growth for Sustainable Jobs, 5/7/2013.          471.	 USAID, response to SIGAR data call, 7/1/2013.
      p. 27.                                                                472.	 USAID, response to SIGAR data call, 7/1/2013; USAID, response
439.	 State, response to SIGAR data call, 6/24/2013. State, response to           to SIGAR data call, 7/1/2013; USAID, response to SIGAR data
      SIGAR vetting, 7/12/2013.                                                   call, 12/27/2012.
440.	 TFBSO, response to SIGAR data call, 4/2/2013.                         473.	SIGAR, Quarterly Report to Congress, 4/2013, p. 153; USAID,
441.	 ToloNews, “Contracts for Four New Mines Await Approval of                   response to SIGAR data call, 7/1/2013; USAID, response to
      Law on Mines,” 7/1/2013, accessed 7/4/2013.                                 SIGAR vetting, 4/15/2013.
442.	 IMF, “Islamic Republic of Afghanistan-First Review Under the          474.	 USAID, response to SIGAR data call, 7/1/2013; USAID, response
      Extended Credit Facility Arrangement, Request for Waiver of                 to SIGAR vetting, 4/15/2013.
      Nonobservance of a performance Criterion, Modification of             475.	 USAID, response to SIGAR data call, 7/1/2013.
      Performance Criteria, and Rephasing of Disbursements,” 6/19/2012,     476.	 MOMP, “U.S. to Reconstruct Existing Sheberghan-Mazar Gas
      accessed 7/3/2013; Tokyo Conference on Afghanistan, Tokyo                   Pipeline, Build New 94 km Pipeline and Install Gas Refinery
      Mutual Accountability Framework, 7/8/2012, accessed 7/4/2013.               Plant,” 5/8/2013, accessed 7/4/2013; State, response to SIGAR
443.	 MOMP, “Ministry of Mines Begins Consultative process in                     vetting, 7/12/2013.
      Support of Improved Minerals Law,” 5/5/2012, accessed                 477.	 USAID, response to SIGAR data call, 7/1/2013.
      7/4/2013.                                                             478.	 USAID, response to SIGAR data call, 7/1/2013; USAID, response
444.	 TFBSO, response to SIGAR data call, 4/2/2013.                               to SIGAR vetting, 4/15/2013.
445.	 TFBSO, response to SIGAR data call, 7/3/2013; TFBSO,                  479.	 USAID, response to SIGAR data call, 7/1/2013.
      response to SIGAR data call, 4/2/2013.                                480.	 USAID, response to SIGAR data call, 7/1/2013; USAID, response
446.	 TFBSO, response to SIGAR data call, 7/3/2013.                               to SIGAR vetting, 7/17/2013; DABS, “Amendment No. 2,
447.	 State, response to SIGAR data call, 6/24/2013.                              Consultancy Services: Construction Management –At Risk,”




REPORT TO THE UNITED STATES CONGRESS            I   JULY 30, 2013                        223
                                                       ENDNOTES




      6/12/2013, accessed 7/17/2013; ADB, TA 7637 (AFG) Power           511.	SIGAR, Quarterly Report to Congress, 4/2013, p. 161; USAID,
      Sector Master Plan, 11/30/2012, accessed 7/17/2013.                     response to SIGAR vetting, 7/17/2013.
481.	 USAID, response to SIGAR data call, 7/1/2013.                     512.	SIGAR, Quarterly Report to Congress, 4/2013, p. 161.
482.	 USAID, response to SIGAR vetting, 4/15/2013.                      513.	 USAID, response to SIGAR data call, 7/1/2013.
483.	 USAID, response to SIGAR data call, 7/1/2013; USAID, response     514.	 USAID, response to SIGAR data call, 7/1/2013; USAID,
      to SIGAR vetting, 7/15/2013.                                            “International School of Kabul,” accessed 7/5/2013.
484.	 USAID, response to SIGAR data call, 7/1/2013; USAID, response     515.	 USAID, response to SIGAR data call, 7/1/2013.
      to SIGAR vetting, 7/15/2013; USAID, response to SIGAR vetting,    516.	SIGAR, Quarterly Report to Congress, 4/2013, p. 161.
      7/17/2013.                                                        517.	 USAID, response to SIGAR data call, 7/1/2013; SIGAR,
485.	 DOD, response to SIGAR data call, 7/11/2013; DOD, response to           Quarterly Report to Congress, 4/2013, p. 162.
      SIGAR vetting, 7/15/2013.                                         518.	 USAID, response to SIGAR data call, 7/1/2013.
486.	 DOD, response to SIGAR data call, 6/27/2013; SIGAR, Quarterly     519.	 USAID, response to SIGAR data call, 7/1/2013; USAID, response
      Report to Congress, 4/2013, p. 157.                                     to SIGAR vetting, 7/17/2013; SIGAR, Quarterly Report to
487.	SIGAR, Quarterly Report to Congress, 4/2013, p. 157; DOD,                Congress, 4/2013, p. 162.
      response to SIGAR vetting, 7/15/2013.                             520.	 World Bank, Afghanistan in Transition: Looking Beyond
488.	 DOD, response to SIGAR data call, 6/27/2013.                            2014, 2/28/2013, accessed 7/6/2013.
489.	 DOD, response to SIGAR data call, 6/27/2013; DOD, response to     521.	 World Bank, “Labor Participation Rate, Male,” “Labor
      SIGAR data call, 4/2/2013.                                              Participation Rate, Female,” accessed 7/11/2013.
490.	 DOD, response to SIGAR data call, 6/27/2013; DOD, response to     522.	 USAID, “Health Programs, health Snapshot,” accessed
      SIGAR data call, 7/11/2013.                                             7/6/2013;USAID, Afghanistan Mortality Survey 2010, Key
491.	 SIGAR Audit 12-12, Fiscal Year 2011 Afghanistan                         Findings, 12/2011, accessed 7/6/2013.
      Infrastructure Fund Projects Are Behind Schedule and Lack         523.	 CIA, “World Factbook: Afghanistan,” 5/15/2013, accessed
      Adequate Sustainment Plans, 7/2012.                                     7/6/2013; World Bank, Afghanistan In Transition: Looking
492.	 DOD, response to SIGAR data call, 6/27/2013.                            Beyond 2014, 2/28/2013, accessed 7/4/2013.
493.	 World Bank, Afghanistan Transport Sector, accessed 7/8/2013.      524.	 USAID, response to SIGAR data call, 4/11/2013; USAID,
494.	SIGAR, Quarterly Report to Congress, 4/2013, p. 160; Civil-              response to SIGAR data call, 4/1/2013.
      Military Fusion Centre, “The Rise of the Afghan Rails: Regional   525.	 USAID, response to SIGAR data call, 7/1/2013.
      Railway Linkages and Economic Growth in Afghanistan,”             526.	SIGAR, Quarterly Report to Congress, 4/2013, p. 163.
      3/2013, accessed 7/8/2013.                                        527.	 USAID, response to SIGAR data call, 7/1/2013.
495.	SIGAR, Quarterly Report to Congress, 4/2013, p. 160.               528.	SIGAR, Quarterly Report to Congress, 4/2013, p. 167.
496.	GIROA, Afghanistan National Railway Plan, 7/1/2013, accessed       529.	 USAID, response to SIGAR data call, 7/1/2013; SIGAR,
      7/7/2013; GIROA, “President Karzai Leaves for Turkmenistan to           Quarterly Report to Congress, 4/2013, p. 167.
      Inaugurate Railway Project between Afghanistan, Turkmenistan      530.	 USAID, response to SIGAR data call, 7/1/2013; SIGAR,
      and Tajikistan,” 6/5/2013, accessed 7/11/2013; AP, “Afghanistan         Quarterly Report to Congress, 4/2013, pp. 167–168.
      To Build New railway Linking It With Turkmenistan and             531.	SIGAR, Quarterly Report to Congress, 4/2013, pp. 167–168.
      Tajikistan,” 3/20/2013, accessed 7/17/2013.                       532.	 USAID, response to SIGAR data call, 7/1/2013.
497.	 GIROA, “Afghanistan National Railway Plan,” 7/1/2013, accessed    533.	 USAID, response to SIGAR data call, 7/1/2013.
      7/7/2013.                                                         534.	 USAID, response to SIGAR data call, 7/1/2013; USAID, “Five
498.	 GIROA, “Afghanistan National Railway Plan,” 7/1/2013, accessed          Afghan Companies Form Public-Private Alliances with USAID,”
      7/7/2013.                                                               6/19/2013, accessed 7/3/2013.
499.	 GIROA, “Afghanistan National Railway Plan,” 7/1/2013, accessed    535.	 USAID, response to SIGAR data call, 7/1/2013.
      7/7/2013.                                                         536.	 USAID, response to SIGAR data call, 7/1/2013.
500.	 GIROA, “Afghanistan National Railway Plan,” 7/1/2013, accessed    537.	 USAID, response to SIGAR data call, 7/1/2013.
      7/7/2013.                                                         538.	 USAID, response to SIGAR data call, 7/1/2013.
501.	 GIROA, “Afghanistan National Railway Plan,” 7/1/2013, accessed    539.	 World Bank, Afghanistan Economic Update, 4/2013, p. 5.
      7/7/2013.                                                         540.	 World Bank, Afghanistan In Transition: Looking Beyond
502.	 GIROA, “Afghanistan National Railway Plan,” 7/1/2013, accessed          2014, 2/28/2013, accessed 7/4/2013.
      7/7/2013.                                                         541.	AISA, Study of Afghan Telecom Industry, 5/2013, accessed
503.	 GIROA, “Afghanistan National Railway Plan,” 7/1/2013, accessed          7/5/2013.
      7/7/2013.                                                         542.	 MCIT, “Internet Price of 1MB/Month,” accessed 6/17/2013; MCIT,
504.	 USAID, response to SIGAR data call, 7/1/2013.                           “Internet Users,” accessed 6/17/2013.
505.	 USAID, response to SIGAR data call, 7/1/2013.                     543.	 USAID, response to SIGAR data call, 7/1/2013.
506.	 USAID, response to SIGAR data call, 7/1/2013.                     544.	 State, response to SIGAR data call, 6/24/2013; USAID, “Leading
507.	 USAID, response to SIGAR data call, 7/1/2013.                           the World in Mobile Bill Payment,” 7/3/2013, accessed 7/5/2013;
508.	 USAID, response to SIGAR data call, 7/1/2013.                           USAID, response to SIGAR data call, 7/1/2013.
509.	 USAID, response to SIGAR data call, 7/1/2013.                     545.	 State, response to SIGAR data call, 6/24/2013; USAID, response
510.	 USAID, response to SIGAR data call, 7/1/2013; SIGAR,                    to SIGAR data call, 7/1/2013.
      Quarterly Report to Congress, 4/2013, p. 161.                     546.	 State, response to SIGAR data call, 6/24/2013.




                                                 224                    SPECIAL INSPECTOR GENERAL       I   AFGHANISTAN RECONSTRUCTION
                             The National Defense Authorization Act for FY 2008 (P.L. 110-181)
                             established the Special Inspector General for Afghanistan
                             Reconstruction (SIGAR).
                             SIGAR’s oversight mission, as defined by the legislation, is to provide for the
                             independent and objective
                             •	 conduct and supervision of audits and investigations relating to the programs
                                and operations funded with amounts appropriated or otherwise made available
                                for the reconstruction of Afghanistan.
                             •	 leadership and coordination of, and recommendations on, policies designed
                                to promote economy, efficiency, and effectiveness in the administration of the
                                programs and operations, and to prevent and detect waste, fraud, and abuse
                                in such programs and operations.
                             •	 means of keeping the Secretary of State and the Secretary of Defense fully
                                and currently informed about problems and deficiencies relating to the
                                administration of such programs and operation and the necessity for and
                                progress on corrective action.
                             Afghanistan reconstruction includes any major contract, grant, agreement,
                             or other funding mechanism entered into by any department or agency of the
                             U.S. government that involves the use of amounts appropriated or otherwise made
                             available for the reconstruction of Afghanistan.

                             Source: P.L. 110-181, “National Defense Authorization Act for FY 2008,” 1/28/2008.


                             (For a list of the congressionally mandated contents of this report, see Section 3.)




                             Cover photo:                                                                                            Most of the fuel used in the Afghan economy, such as for this business truck in Herat, must be
                             Tilted columns and sagging reinforcing rods at the Justice Center Court House construction project in   imported because the country’s oil and natural-gas reserves have not been fully developed. See
                             Parwan Province, Afghanistan. SIGAR is launching an examination of the project. (SIGAR photo)           the economics section of this report for more information. (SIGAR photo)




FINAL_Jul2013_Cover.indd 2                                                                                                                                                                                                            7/24/2013 8:39:28 AM
                                                                                                                                                   sigar
        SIGAR
        Special Inspector General                                                                                                                                   Special Inspector General for    JULY 30




                                                                          SIGAR | Quarterly Report to the United States Congress | July 30, 2013
        for Afghanistan Reconstruction
                                                                                                                                                                    Afghanistan Reconstruction        2013
        2530 Crystal Drive
        Arlington, VA 22202

        www.sigar.mil




        FRAUD, WASTE, OR ABUSE MAY BE REPORTED TO SIGAR’S HOTLINE
                                                                                                                                                    Quarterly Report to the United States Congress
        By Phone: Afghanistan
        Cell: 0700107300
        DSN: 318-237-3912 ext. 7303
        All voicemail is in Dari, Pashto, and English.

        By Phone: United States
        Toll Free: 866-329-8893
        DSN: 312-664-0378
        All voicemail is in English and answered during business hours.

        By Fax: 703-601-4065
        By E-mail: sigar.hotline@mail.mil
        By Web Submission: www.sigar.mil/investigations/hotline/




                                                                          3


FINAL_Jul2013_Cover.indd 1                                                                                                                                                                               7/24/2013 8:39:27 AM
